<html>
<title> - AIR QUALITY IN NEW YORK CITY AFTER THE SEPTEMBER 11, 2001 ATTACKS</title>
<body><pre>[Senate Hearing 107-524]
[From the U.S. Government Printing Office]


                                                S. Hrg. 107-524, Part I
 
   AIR QUALITY IN NEW YORK CITY AFTER THE SEPTEMBER 11, 2001 ATTACKS
=======================================================================

                             FIELD HEARING

                               BEFORE THE

        SUBCOMMITTEE ON CLEAN AIR, WETLANDS, AND CLIMATE CHANGE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

   AIR QUALITY IN NEW YORK CITY AFTER THE SEPTEMBER 11, 2001 ATTACKS

                               __________

                    FEBRUARY 11, 2002--NEW YORK CITY

                               __________


  Printed for the use of the Committee on Environment and Public Works




                           U.S. GOVERNMENT PRINTING OFFICE
80-397                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS
                             second session

                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director
                                 ------                                

        Subcommittee on Clean Air, Wetlands, and Climate Change

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
HARRY REID, Nevada                   GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
HILLARY RODHAM CLINTON, New York     MICHAEL D. CRAPO, Idaho
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado

                                  (ii)












                            C O N T E N T S

                              ----------                              
                                                                   Page

                    FEBRUARY 11, 2002--NEW YORK CITY
                           OPENING STATEMENTS

Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     3
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................     1
Voinovich, Hon. George, U.S. Senator from the State of Ohio, 
  prepared statement.............................................     6

                               WITNESSES

Berger-Arroyo, Judith, public health nurse, District Council 37..    67
    Prepared statement...........................................   140
Berger, Elizabeth H., resident, New York, NY.....................    14
    Prepared statement...........................................    88
Christodoulou, Marilena, president, Stuyvesant High School 
  Parents' Association...........................................    58
    Prepared statement...........................................   132
Frieden, Thomas R., commissioner, New York City Department of 
  Health; accompanied by: Joel A. Miele, Sr., commissioner, New 
  York City Department of Environmental Protection...............    40
    Prepared statement...........................................   122
    Responses to additional questions from Senators Lieberman and 
      Voinovich..................................................   125
Goldstein, Eric A., New York urban program director, Natural 
  Resources Defense Council......................................    23
    Prepared statement...........................................   108
Hiraga, Julie, teacher, PS 89, Manhattan; accompanied by: Randi 
  Weingarten, president, United Federation of Teachers...........    61
    Prepared statement...........................................   134
Jackson, Marianne C., Deputy Federal Coordinating Officer for the 
  World Trade Center Event, Federal Emergency Management Agency..    33
    Prepared statement...........................................   110
    Responses to additional questions from:
        Senator Clinton..........................................   114
        Senator Lieberman........................................   113
Johnson, Carl, deputy commissioner, New York State Department of 
  Environmental Conservation.....................................    38
    Prepared statement...........................................   117
    Response to additional question from Senator Clinton.........   120
Kelly, Kerry J., M.D., chief medical officer, New York City Fire 
  Department.....................................................    17
    Prepared statement...........................................   103
Kenny, Jane M., Regional Administrator, U.S. Environmental 
  Protection Agency, Region 2....................................    36
    Prepared statement...........................................   194
    Responses to additional questions from:
        Senator Clinton..........................................   200
        Senator Smith............................................   197
Landrigan, Philip J., M.D., chair, Department of Community and 
  Preventive Medicine; professor of Pediatrics; director, Center 
  for Children's Health and the Environment, Mount Sinai School 
  of Medicine....................................................    65
    Prepared statement...........................................   137
Levin, Stephen M., M.D., medical director, Irving J. Selikoff 
  Occupational Health Clinical Center, Mount Sinai Medical Center    54
    Prepared statement...........................................   130
Malloy, Edward J., president, Building and Construction Trades 
  Council of Greater New York....................................    53
    Prepared statement...........................................   127
Nadler, Hon. Jerrold, U.S. Representative from the State of New 
  York...........................................................     8
    Prepared statement...........................................    72
Orlan, Bernard, director of Environmental Health and Safety, New 
  York City Board of Education...................................    62
    Prepared statement...........................................   136
Scotto, Thomas J., president, Detectives Endowment Association, 
  New York City Police Department................................    51
    Prepared statement...........................................   126
Thurston, George D., Sc.D., associate professor of Environmental 
  Medicine, New York University Medical School, Nelson Institute 
  of Environmental Medicine......................................    20
    Prepared statement...........................................   104
    Responses to additional questions from Senator Clinton.......   107

                          ADDITIONAL MATERIAL

Agreement, WTC Emergency Project Partnership.....................   128
Articles:
    CorpWatch, February 6, 2002, Trading in Disaster.............   150
    New York Environmental Law & Justice Project, February 2002, 
      Downwind From Disaster.....................................   187
    St. Louis, (MO) Post-Dispatch, February 9, 2002, Caustic Dust 
      Blankets World Trade Center Area...........................    75
Attachments from EPA:
    Attachment 1, WTC-EPA Time-Weighted Routine Air Quality 
      Sampling at Fixed Stations.................................   205
    Attachment 2, EPA Air Sampling and Monitoring Sites 
      Implemented in Response to the Attack on The World Trade 
      Center.....................................................   211
    Attachment 3, Non-Fixed Location Air Sampling and Monitoring 
      Record of Results:
        September 12, 2001.......................................   212
        September 13, 2001.......................................   217
        September 14, 2001.......................................   220
        September 15, 2001.......................................   223
        September 16, 2001.......................................   229
        September 17, 2001.......................................   231
        September 18, 2001.......................................   243
        September 19, 2001.......................................   265
        September 20, 2001.......................................   301
        September 21, 2001.......................................   334
        September 22, 2001.......................................   356
        September 23, 2001.......................................   384
        September 24, 2001.......................................   400
        September 25, 2001.......................................   426
        September 26, 2001.......................................   438
        September 27, 2001.......................................   456
        September 28, 2001.......................................   464
        September 29, 2001.......................................   483
        September 30, 2001.......................................   495
        October 1, 2001..........................................   511
        October 2, 2001..........................................   530
        October 3, 2001..........................................   540
        October 4, 2001..........................................   572
        October 5, 2001..........................................   604
        October 6, 2001..........................................   614
        October 7, 2001..........................................   647
        October 8, 2001..........................................   659
        October 9, 2001..........................................   670
        October 10, 2001.........................................   688
        October 11, 2001.........................................   720
        October 12, 2001.........................................   735
        October 13, 2001.........................................   758
        October 14, 2001.........................................   777
        October 15, 2001.........................................   799
        October 16, 2001.........................................   823
        October 17-18, 2001......................................   847
        October 19, 2001.........................................   867
        October 20, 2001.........................................   901
        October 21, 2001.........................................   903
        October 22, 2001.........................................   910
        October 23, 2001.........................................   930
        October 24, 2001.........................................   948
        October 25, 2001.........................................   970
        October 26-27, 2001......................................   994
        October 28-29, 2001......................................  1010
        October 30-31, 2001......................................  1041
        November 1-2, 2001.......................................  1084
        November 3, 2001.........................................  1102
        November 6, 2001.........................................  1162
        November 7, 2001.........................................  1176
        November 8, 2001.........................................  1201
        November 9, 2001.........................................  1235
        November 10, 2001........................................  1249
        November 11-12, 2001.....................................  1263
        November 13, 2001........................................  1270
        November 14, 2001........................................  1294
        November 15, 2001........................................  1317
        November 16, 2001........................................  1347
        November 17, 2001........................................  1359
        November 19, 2001........................................  1365
        November 20, 2001........................................  1377
        November 21, 2001........................................  1410
        November 22, 2001........................................  1434
        November 23, 2001........................................  1453
        November 26, 2001........................................  1455
        November 27, 2001........................................  1492
        November 28, 2001........................................  1512
        November 29-30, 2001.....................................  1582
        December 1, 2001.........................................  1606
        December 2-3, 2001.......................................  1619
        December 4, 2001.........................................  1643
        December 5, 2001.........................................  1662
        December 6, 2001.........................................  1683
        December 7, 2001.........................................  1707
        December 8, 2001.........................................  1723
        December 9-10, 2001......................................  1731
        December 11, 2001........................................  1748
        December 12, 2001........................................  1762
        December 13, 2001........................................  1783
        December 14, 2001........................................  1802
        December 15, 2001........................................  1808
        December 17, 2001........................................  1837
        December 18, 2001........................................  1861
        December 19, 2001........................................  1874
        December 20, 2001........................................  1883
Guidelines, Initiation of Administrative and Civil Action Under 
  Section 303 of the Clean Air Act During Air Pollution 
  Emergencies, EPA...............................................    79
Letters:
    Ameruso, Mark James, New York, NY............................   163
    Carpenter, David O., M.D., professor, State University of New 
      York.......................................................   178
    Community Board No. 1........................................   164
    Ewald, Kathleen, Brooklyn, NY................................   177
    Fluss, Edward, New York, NY..................................   177
    Godsey, Antonia, Cold Springs, NY............................   179
    Karasyk, Philip B., Queller, Fisher, Dienst, Serrins, Washor 
      & Kool, LLP...............................................184-185
Memorandum:
    Abestos in Manhattan, Cate Jenkins, Ph.D....................90, 189
Proposal, Medical Surveillance Program, Mt. Sinai Center for 
  Occupational and Environmental Medicine........................   129
Resolutions, Community Board No. 1, Manhattan, NY................   164
Statements:
    Abbot, Susan, S., M.P.H., New York, NY.......................   186
    Ameruso, Mark J., New York City Council Environmental 
      Committee; New York State Assembly Committee on 
      Environmental Conservation, Health, and Labor, and member, 
      Community Board #1.......................................165, 167
    Benstock, Marcy, executive director of Clean Air Campaign 
      Inc........................................................   171
    Clarke, Marjorie J., Ph.D., scientist-in-residence, Lehman 
      College....................................................   141
    Dillon, Patricia R., New York, NY............................   175
    Koon, David, chair, New York State Legislative Commission on 
      Hazardous Wastes and Toxic Substances......................   174
    Levin, Sondra, former chairman, NYC Group of the Sierra Club.   176
    Martin, Robert J., National Ombudsman, Environmental 
      Protection Agency..........................................    78
    Miller, David J., Burlington, VT.............................   152
    Orkin, Jenna, Brooklyn, NY...................................   161
    Saunders, Lee, on behalf of Judith Berger-Arroga of District 
      37, AFSCAME................................................   140
    Silverman, Maureen, tenant of Independence Plaza, co-founder 
      of the WTC Environmental Coalition, member of WTC Spot 
      Light on the Poor, and co-chair of the Outreach and 
      Education Committee of New York City Coalition to End Lead 
      Poisoning..................................................   157
    WTC Environmental Coalition..................................   159













   AIR QUALITY IN NEW YORK CITY AFTER THE SEPTEMBER 11, 2001 ATTACKS

                              ----------                              


                       MONDAY, FEBRUARY 11, 2002

                                     U.S. Senate,  
             Committee on Environment and Public Works,    
                     Subcommittee on Clean Air, Wetlands,  
                                        and Climate Change,
                                                      New York, NY.
    The subcommittee met, pursuant to notice, at 9:30 a.m. at 
the Alexander Hamilton U.S. Customs House, One Bowling Green, 
New York, NY, Hon. Joseph Lieberman (chairman of the 
subcommittee) presiding.
    Present: Senators Lieberman and Clinton.
    Also present: Congressman Nadler.

  OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Good morning. As people are coming in, 
let me--I know there's a security screening which is delaying 
some folks, so why don't we begin because we have a full 
morning and a number of witnesses. I would ask the folks who 
are here to try to take their seats.
    Senator Clinton and I will make our opening statements, 
then we'll go to Congressman Nadler as the first witness.
    I want to call this hearing of the Senate Subcommittee on 
Clean Air to order. I want to begin by thanking Senator Clinton 
for her leadership on this problem. The fact is that this 
subcommittee hearing would not be occurring here this morning, 
were it not for Senator Clinton's concerns and for her 
advocacy.
    Five months ago today, just blocks from this site, tragedy 
struck this Nation and this city like never before. This great 
city particularly, the center of so much life and energy and 
the place where so many American dreams have been born and 
realized, was struck at its heart. The terrible images of that 
day will forever be seared into our souls and into our psyches.
    Now as we work together to ensure that such an attack never 
happens again, we know that we will never forget the 3,000 
loved ones and fellow citizens we lost, nor will we ever cease 
to be inspired by their lives or by the lives of the rescue 
workers whose heroism has rewritten the word for this new 
century. The consequences of that day to our society, our 
culture and our Government are great, and they seem to be 
growing every day.
    But today we've gathered to discuss a particular problem: 
the public health consequences of the attacks on the World 
Trade Center for the men and women who live and work here and 
for the children who go to school here. Especially for the 
workers whose tireless efforts in the cleanup and recovery of 
the site have reminded so many of us of what's best in America.
    We return to the scene of the crime, a horrific war crime, 
to examine its consequences, continuing consequences, on the 
people of New York City. Because the fact is that we cannot 
allow the lingering consequences of September 11th to do any 
more damage to the health and well-being of the people of New 
York. When those two towers tumbled down, they brought tons and 
tons of building materials with them, releasing large 
quantities of dangerous chemicals into the air.
    I know that there are serious concerns about the level of 
asbestos and benzene and heavy metals at and around the site. 
Workers at Ground Zero, from firefighters to police officers, 
to the construction workers and the sanitation workers and so 
many others, have reported respiratory ailments, mostly 
complaining of the newly-named ``World Trade Center cough.'' 
According to the Firefighters Union, nearly 750 firefighters 
have taken medical leave since the cleanup began.
    The air conditions in the surrounding neighborhood also 
have raised the community's anxiety. With private studies 
sometimes contradicting the Government, people don't know what 
to believe. I know there was a survey in October of local 
residents and nearly 35 percent said they did not feel that 
their homes were safe to live in, and about 80 percent wanted 
more information about their neighborhood's air quality. 
Parents of school children are understandably the most 
concerned, with the parents of some children apparently 
refusing to send their kids to school in the vicinity of Ground 
Zero.
    If this great part of this great city is to begin to get 
back to normal, this situation has got to be clarified and 
resolved. That is why Senator Clinton asked me to convene this 
hearing today and why we are here to hear your testimony. We 
want to get to the truth as best we can to find out the answers 
to some of the questions that are on the minds of so many New 
Yorkers and so many others who have spent time at or around 
Ground Zero. Questions like what level of what contaminants 
were detected and where, to what were workers on the pile 
exposed, to what were people in the streets exposed? Are there 
still hazards in places of work or places of residence or 
places of education?
    We also want to find out how our Government responded on 
that fateful day and thereafter. There's no debate that the 
overall response of Government was and has continued to be 
excellent. It's certainly not our intent to re-enact or second-
guess every decision made in what were some of the most 
difficult circumstances imaginable.
    But as we go forward as a Nation in the struggle against 
terrorism, it is our obligation to learn as much as we possibly 
can about the lingering consequences of the attack on New York 
on September 11th. It is in that spirit that we're here today.
    I know there's been confusion in the press and the public 
about which Agency, which level of government has been 
responsible for what part of the air quality monitoring. That's 
a question we're going to ask, too, because our citizens need 
to know who's responsible. Accountability starts with cleaner 
lines of authority, and we need to clarify how our Government 
has organized its response to this part, this lingering part of 
the attack.
    Representatives of the agencies before us were on the site 
5 months ago today, anticipating many of the air quality 
problems and working to evaluate them. This morning, we're 
going to assess what has been learned and consider what can be 
done to address the gaps and overlaps and occasional 
contradictions in the reporting of that data.
    Finally, we've got to ensure that we do everything we can 
to get the necessary help to those who may have been exposed to 
hazards in the course of this experience. We've got to locate, 
register and monitor the people who might have been exposed, 
especially the heroic first responders, who plunged into the 
danger onto the pile with no regard for what toxins might lurk 
in the rubble, not to mention the air. This includes of course 
all those from New York, but all those from outside who rushed 
here to be of help.
    As we continue to move forward from September 11th as a 
Nation with remarkable unity and resolve to root out those who 
did this to us, we cannot let its aftermath damage you or us 
any more through the air you have inhaled or continue to 
inhale.
    This morning, we've got a very knowledgeable and diverse 
group of witnesses who can help to educate us and all New 
Yorkers about these pressing questions. I hope when we leave 
here today everyone in the room, including the U.S. Senate, as 
represented by Senator Clinton and me, will have a clearer 
understanding based on the facts of what is and is not unsafe 
in the air, and what we together can do to protect the health 
and safety of the people of New York.
    I want to again thank Senator Clinton and say to you, I've 
known Senator Clinton for more than a few years, from her time 
at law school in my home city of New Haven. I'm not going to 
mention the years, she remains remarkably youthful and vital. 
She has been an extraordinary addition to the U.S. Senate, 
obviously very bright, extremely able, but has worked 
tirelessly and very effectively on behalf of the people of New 
York, really from the beginning of her service in January 2001, 
but powerfully and passionately since September 11th.
    I'm honored to be here at her request and proud to 
introduce her to you now.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you so much, Chairman Lieberman.
    Thank you for convening this hearing, which as you so well 
explained, will help us answer questions, will help us 
determine what we don't know, so that we can ask the right 
questions, do the research that's needed, and most importantly, 
ensure that we're doing everything possible to care for the 
health of our residents, our workers, our children, our first 
responders and everyone who has been directly and indirectly 
affected by the disastrous events just 5 months ago today.
    We're very fortunate to have our neighbor and our friend, 
Senator Lieberman with us today. He's not only the chairman of 
this Subcommittee on Clean Air that has jurisdiction over these 
issues, but he is a statesman and someone whom I admire and 
have for all those decades that we've known each other. It's a 
great honor for me to welcome him to the Alexander Hamilton 
U.S. Customs House for another piece of American history with 
this Senate hearing.
    There are many important individuals and groups who will be 
testifying today, but I'm very well aware that there are many 
others who could not be fit into the context of a Senate 
hearing. I want to encourage all of you to submit written 
testimony, either by giving it to us today or by sending it to 
the committee. There is information posted about how to do 
that. Because we know, just looking at this audience, that 
there are many of you who have very specific concerns and 
questions. Some I'm sure will be addressed by all of the 
witnesses this morning, but others may not.
    We want to hear from you. We'll be continuing to pursue 
this issue. Because as Chairman Lieberman says, ``what we want 
to do is know what the Federal Government's response was and 
should be.'' I for one am not ready to point fingers at anyone. 
I think that the work and the response of September 11th and in 
the weeks following was heroic, was absolutely inspiring, and 
everyone was working as hard as they could to deal first with 
the rescue mission and then with recovery.
    But clearly, since this had not occurred ever in our 
history, and there had never been the collapse of such enormous 
buildings with all that that means in terms of the materials 
that were within them and their dispersal into the air and into 
the ground, this was a new experience, a terrible, horrific one 
that all of us have to learn from.
    The purpose of today's hearing is really three-fold. What 
we want to do is first find out what we know about the quality 
of air at and around Ground Zero and any related health 
impacts. Second, find out and be honest about what we don't 
know. There are questions we can't answer. It's frustrating and 
concerning to all of us, particularly those who live or work in 
the vicinity. But let's just put them on the table, and then, 
let's have a plan of action about what we're going to do. Not 
only to answer those unanswered questions insofar as possible, 
but to do everything we can to improve air quality, right now, 
going forward, and to protect the health of the people that 
live, work, attend school and generally call Lower Manhattan 
home.
    I certainly don't think any of us have all the answers. The 
information that has been made available to us and that I have 
been monitoring since September 11th based on the experts, both 
in the private and public sectors, appears reasonably to 
indicate that the outdoor air quality around the World Trade 
Center site, not at the specific site, the so-called pile or 
Ground Zero, but around the site is generally meeting standards 
and has improved since the first few weeks following the 
attack.
    Now, while the outdoor air quality in the general area 
seems to have improved and to be acceptable, there definitely 
was and still is cause for concern at the site, at Ground Zero. 
It is imperative that the people who have worked there and are 
working there still have been supplied with and trained to use 
the proper protective gear and that they actually use it, and 
that they seek care when they are experiencing any symptoms, 
such as the so-called ``World Trade Center cough.''
    I think it's also clear that people have been confused by 
the information provided by officials. Sometimes it didn't 
match up with the personal experience that people were having. 
It just didn't make sense. There has been conflicting 
information almost continually from different sources, which 
has certainly added to the confusion and concern. One of my 
hopes is that we will create a system that will try to at least 
eliminate the confusion insofar as possible.
    But as little as we know and can agree upon, there is much 
that still remains in question. The long-term health impacts of 
exposure to air pollutants at and around Ground Zero is simply 
not yet known or certain. The information made available thus 
far seems to indicate that the risk of long-term health impacts 
to the general public, people who live and work in Lower 
Manhattan, is very low. But we don't know for sure. There is 
definite and very much warranted concern for the short- and 
long-term health of those who worked directly at Ground Zero.
    There are also risks related to the dust and residue found 
inside buildings, which can be or has been airborne. This has 
to be appropriately addressed and we will be discussing that. 
It appears uncertain whether all of the buildings around Ground 
Zero have been adequately cleaned. Certainly some have been, 
and have met the available standards. Others raise questions 
about what was done and how well the cleanup complies.
    Now, even though this is something that is unprecedented to 
all of us, that cannot be an excuse for not acting at the 
highest standards to do everything possible to meet the 
concerns that people have. I would like to propose, and will 
ask the witnesses to respond as we go through the day, five 
general actions that I think could help.
    First, I would like to urge Congress to pass and the 
President to sign S. 1621, which is a bill I introduced and 
which this committee passed early in November, that would 
authorize a health monitoring program for all community 
members, volunteers and workers in a disaster area when there 
has been exposure to harmful substances.
    Second, we need to immediately establish and fund a 
comprehensive long-term environmental health registry, 
referral, surveillance and education system for the World Trade 
Center disaster. This should be included in the Federal budget 
that is currently being debated in the Congress. There are a 
number of efforts that have been started in this regard, but we 
need an overarching program to pull this together and to 
continue it for 20 to 30 years. Because I think we owe it to 
our firefighters, our police officers, construction workers and 
others who are most at risk that we follow them for however 
many years it takes, and treat them for anything that might be 
discovered.
    Third, I believe we should address the continuing unknowns 
regarding indoor air by establishing a World Trade Center 
indoor air program. This should be a joint Federal-city effort 
that will expand on existing indoor air quality testing and 
monitoring and make the information available to the public in 
real time. I'm concerned that some testing was done that wasn't 
always immediately made public, and I don't think that that 
builds the kind of confidence that we should have in the 
information we're receiving. I look forward to working with the 
city on this initiative.
    Fourth, while we continue to clean up from September 11th, 
we should make sure we don't add to our air quality concerns. 
There should be a clean air initiative at the site to do 
everything possible to keep under control the emissions from 
the construction equipment being used. I've heard from a number 
of residents that they are concerned by all the diesel trucks 
that are lined up that have their motors running all day. I 
think we could take some steps that would help to eliminate 
some of the emissions and allay some of the concerns. I 
encourage the State to work with us on that.
    Finally, I think we need to capture the lessons we've 
learned from this experience, incorporate them into a new 
emergency protocol for environmental health that identifies 
pollutants to be measured in the aftermath of a disaster, and 
that establishes health-based standards to be used and sets 
uniform sampling and testing methods. Then, tell us what we 
need to do if the standards, based on the uniform testing, 
reveals that the standards are not being met. I think this 
should be a part of the Administration's homeland security 
initiative and I know that this committee stands ready to work 
with Governor Ridge's office on that important issue.
    Finally, Mr. Chairman, I want to just include in the record 
a short statement of Senator Voinovich. I want to just read a 
paragraph from it, because I think it illustrates that although 
this is principally a New York issue, and those who live and 
work in the region, there were many, as you said in your 
remarks, who came from all over the country. Senator Voinovich 
from Ohio is very concerned, because after Ohio Task Force One 
returned home, those were the first responders sent in by FEMA 
to work with our firefighters, police and emergency responders, 
many of them experienced illnesses apparently caused by work at 
Ground Zero.
    Thirty-seven of the seventy-four emergency responders 
became ill. Three people were hospitalized with viral 
pneumonia, eight people experienced extreme weight loss, two 
people have been diagnosed with adult onset asthma, one with 
acute bronchitis, and the rest with various respiratory 
disorders and rashes. Senator Voinovich expresses his concern 
that no Federal Agency is monitoring these workers for health 
problems. Clearly, the Federal Government owes them the duty to 
inform of their health risks and to ensure that they receive 
the best medical care while safeguarding their individual 
privacy. That's clearly something that we agree with and hope 
that we're going to be able to come up with some solutions to 
some of these issues.
    Again, Mr. Chairman, thank you so much for coming to this 
historic site to hold this historic hearing.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Senator George Voinovich, U.S. Senator from the 
                             State of Ohio
    Mr. Chairman, thank you for holding today's hearing on the air 
quality and health impacts of the September 11th attack on the World 
Trade Center. I would also like to especially thank Senator Clinton for 
bringing this important issue to my attention and the attention of this 
subcommittee and the U.S. Senate.
    As I said on September 11th, our first responsibility is to secure 
the support the victims and their families will need in the days and 
the months ahead and pray that God will bless and comfort them. Today 
part of that support is to ensure that those who work, live and attend 
school in the area are safe and are not exposed to situations which put 
their health at risk.
    In addition, we have a very important responsibility to the 
emergency responders and the thousands of workers and volunteers who 
have dealt with the ongoing tragedy at Ground Zero everyday since 
September 11th. Our Nation owes these brave men and women our gratitude 
and our thanks. Many of the workers left their families for days and 
weeks at a time, working long difficult hours, at emotionally difficult 
tasks most Americans can not image. When I toured Ground Zero shortly 
after the attack, I was struck with the dedication and hard work of all 
of the volunteers and the fact that the television coverage did not do 
justice to the devastation that I saw.
    The bravery, professionalism, and sacrifice of the men and women of 
the New York Fire and Police Departments and other emergency workers is 
an inspiration to us all. These men and women are true heros in every 
sense of the word. While all of New York and America should be proud of 
the quick response of the New York rescue workers, we all should be 
equally proud of the volunteers from across the country who responded 
to the call for help. I am particularly proud of the 74 members of Ohio 
Task Force One who were mobilized on September 11th and were among the 
first out-of-state FEMA teams to respond to the site, where they worked 
until September 20.
    I am also proud of the Federal response to the tragedy by FEMA and 
the other Federal agencies. I think it is important as we evaluate the 
Federal response, in order to make improvements in the system, that we 
do not lose sight of the fact that the terrorism attack on September 
11th was unprecedented in size, scale, and devastation. Nevertheless, 
some mistakes were inevitable and we must learn from them.
    I am particularly concerned about the health problems of the 
emergency responders and what they were exposed to during their work at 
Ground Zero. Equally disturbing is the breakdown by the Federal 
Government in monitoring the health problems and treatments of the out-
of-state FEMA volunteers following their work at Ground Zero.
    After Ohio Task Force One returned home, many of them experienced 
illnesses apparently caused work at Ground Zero. Thirty-seven of the 
seventy-four emergency responders became ill, three people were 
hospitalized with viral pneumonia, eight people experienced extreme 
weight loss, two people have been diagnosed with adult onset asthma, 
one with acute bronchitis and the rest with various respiratory 
disorders and rashes. This data was supplied to me by Robert Hessinger, 
the logistics chief for Ohio Task Force One.
    I was concerned, and I remain concerned, that no Federal Agency is 
monitoring these workers for health problems. The workers themselves 
are concerned because they do not know what they may have been exposed 
to during their work in New York. The only information they have 
received since returning to Ohio is from what they have read in the 
newspapers about potential exposure to asbestos. This is not 
acceptable. If these people are going to leave their families and jobs 
and risk their lives and health, then the Federal Government owes them 
the duty to inform them of their health risks and to ensure that they 
receive the best medical care, while at the same time safeguarding 
their individual privacy.
    The entire FEMA response effort depends upon the willingness of 
volunteers pitching in from around the country. If we do not treat 
these volunteers with the respect they are due, then we will have a 
difficult time convincing people to volunteer for disasters in the 
future. Mr. Chairman, I look forward to working with you and Senator 
Clinton and others members of the subcommittee to ensure that all of 
the emergency responders and the residents of New York City get the 
most reliable health information and answers to their questions and 
concerns.
    Thank you.

    Senator Lieberman. Thank you, Senator Clinton, for a very 
thoughtful statement and a very substantive five-point program 
of response which I look forward to working with you on. That 
first measure that you sponsored last fall, S. 1621, to provide 
for health monitoring, we did report out of the committee. I 
believe it's still on the Floor, and I hope we can get our 
colleagues in the Senate to move it quickly.
    Your statement and your program make the point that I think 
is why we're here, which is that the response of the emergency 
workers and the construction workers and everyone else set a 
standard for the rest of the country. We hope and pray that 
America will never have an other incident like this, but in a 
real world, we cannot assume that that will not be so.
    Just as a standard was set by the first responders and 
those who continue to work to clean up at the site and to find 
and search for survivors, we've got to be persistent enough, 
and your leadership is going to make this so, to stay in there 
with the people who live here, who have worked at the site, who 
continue to work in the neighborhood, children who go to school 
here, to make sure that we also set a standard which judges and 
protects against the lingering consequences of these awful 
attacks.
    So with that in mind, I thank you and I now call our first 
witness, who is our colleague and friend, Congressman Jerry 
Nadler.

STATEMENT OF HON. JERROLD NADLER, U.S. REPRESENTATIVE FROM THE 
                       STATE OF NEW YORK

    Mr. Nadler. Good morning. Thank you, Chairman Lieberman, 
and thank you, Senator Clinton. I'd like to thank you for 
holding this field hearing today and for inviting me to testify 
regarding the continuing impact of the September 11th attacks 
on the air quality in Lower Manhattan.
    As the Congressman representing Ground Zero and the 
surrounding area, I am deeply concerned about the environmental 
and health effects posed by the collapse of the World Trade 
Center for my constituents and for those who go to school or 
work in the area. It has now been exactly 5 months since the 
terrorist attacks. Unfortunately, the people in Lower Manhattan 
still do not know whether or not it is safe to live and work in 
the area.
    Although the first responders and the emergency personnel 
did excellent work, the (EPA) Environmental Protection Agency, 
has failed in its mission to ``protect human health and to 
safeguard the national environment'' by not exercising its full 
authority to test and clean indoor spaces where people live and 
work. As such, EPA has created what can only become a full-
scale crisis of public confidence.
    Yet all is not lost. The EPA can and must act now to remedy 
the situation and to make Lower Manhattan safe and to restore 
public trust. Despite statements to the contrary, the Agency 
does currently have the authority and resources to do so, and 
it must do so quickly. If the EPA continues to fail New 
Yorkers, we will have to introduce legislation to mandate 
action.
    I'm going to begin by being very blunt. We now know enough 
to be alarmed and outraged at the Federal Government's response 
to the environmental impact of September 11th. First, we know 
that EPA Administrator Christine Todd Whitman misled the public 
on September 18, 2001, when she said she was ``glad to reassure 
the people of New York that their air is safe to breathe and 
their water is safe to drink.'' She made that statement without 
the indoor data necessary, without any indoor testing having 
been done, to make such a pronouncement.
    Second, we know that the EPA has made a series of 
conflicting comments about the presence and quality of 
hazardous materials and has even knowingly withheld critical 
data regarding the causticity of the dust.
    Third, we know that the EPA delegated authority to New York 
City to handle indoor environments, but did nothing to assure 
that the city's response was adequate or appropriate. This left 
New Yorkers to their own uninformed devices, often without the 
means to take care of themselves and their families. This is 
true even as the EPA had its own building at 290 Broadway 
professionally tested and cleaned.
    Finally, we know that the EPA has treated New York 
differently than it has treated other locales contaminated by 
hazardous materials. New York was at the center of one of the 
most calamitous events in American history, and the EPA has 
essentially walked away. Ms. Whitman's statement reassuring the 
public about the safety of air and water was based only on the 
EPA's outdoor tests, the results of which are still in dispute. 
At that time, there had been no systematic testing of indoor 
air or dust in residential or commercial buildings by any 
Government Agency, let alone by the EPA.
    Ironically, the very first public testing conducted inside 
residences, which was commissioned by the Ground Zero Elected 
Official Task Force, which I formed, commenced on the very day 
Ms. Whitman made her misleading statement. The results were 
made available to the EPA on October 12. The test results 
showed elevated levels of a number of hazardous materials in 
many of these residences. The EPA did nothing and Ms. Whitman 
did not clarify her statement.
    In recent weeks, the EPA has stated repeatedly that the 
city of New York, not the EPA, is responsible for indoor 
testing. The city, however, didn't get around to testing inside 
homes until November or December. The full results of these 
tests are still not available, and according to the Health 
Department, won't be available until the spring.
    I do not understand why the results of tests undertaken by 
a public agency are being delayed for public release. Our test 
results, the ones that the Task Force commissioned, were 
available for public release in less than a month.
    Nevertheless, just 3 days ago, I assume in anticipation of 
these hearings, the city Department of Health issued a press 
release regarding this limited indoor testing. Despite a 
pacifying headline, the limited data in the press release has 
caused a scientist with whom we've consulted to believe that 
full results will directly contradict Ms. Whitman's statement 
about the safety of the air, at least as regards the indoor 
air.
    The release does make it clear, as did our commissioned 
study, that there were disconcerting levels of hazardous 
materials in people's apartments. Ms. Whitman's reassurances 
are deeply confusing in light of other statements made by 
agency officials and of other information we now have that EPA 
has not itself released. For example, in a January 25 speech by 
Walter Mugdan, EPA Region 2 counsel, he states, ``A significant 
number of the WTC bulk dust samples that we analyzed did have 
more than 1 percent asbestos.''
    An October 3, 2001 EPA memo, ``Confirm[ing] No Significant 
Public Health Risk'' states, ``The majority of EPA and OSHA 
samples of air and dust analyzed for asbestos have been at 
levels that post no significant risk to residents and workers 
returning to their homes or area businesses.'' Now, that of 
course is misleading. Because that may be the majority, but 
that means the minority in plenty of places did find 
significant risk.
    This statement has been made repeatedly by EPA Region II 
officials. How are New Yorkers to interpret these conflicting 
remarks? I can't even tell you what they mean, except that they 
cannot both be true.
    Confusing remarks are one thing, withholding critical data 
pertaining to the public health is another. We know that it 
took a Freedom of Information Act request by the New York 
Environmental Law and Justice Project to get test results 
showing dangerous levels of hazardous materials in outdoor 
ambient air. The EPA claimed that this was an oversight.
    But now we have new, frightening information. According to 
yesterday's St. Louis Post Dispatch, the U.S. Geological 
Survey, using the country's best detection equipment and 
methods, found pH levels in World Trade Center dust that are 
``as corrosive as drain cleaner,'' and passed this information 
along to health experts at the EPA on a Government-only 
website.
    It took less than 2 weeks in September for these test 
results to be ready. But they weren't revealed until the St. 
Louis Post Dispatch yesterday. I submit this article for the 
record.
    Senator Lieberman. Without objection, the article will be 
received.
    Mr. Nadler. Andrew Schneider, the paper's Pulitzer prize 
winning environmental journalist, charges ``the USGS data was 
not released by the EPA nor apparently were the environmental 
agency's own test results on the dust.'' The EPA claims to have 
released this data to the public, but when Schneider reviewed 
all of the EPA's statements made since September 11th, he found 
nothing that warned of these high pH levels.
    According to the New York Committee for Occupational Safety 
and Health, such dust, ``once it's in contact with moist 
tissue, the throat, the mouth, the nasal passages, the eyes and 
even sweaty skin, it becomes corrosive and can cause severe 
burns.'' This is utterly scandalous. We must determine why the 
EPA hid this information from the public, and we must see all 
the data now. I hope that the two Senators will join me in 
calling on the Federal Government to explain why New Yorkers 
were misled, and to demand the immediate release of the full 
complement of data.
    The EPA has not only provided false reassurances and 
misleading information, the EPA has also abrogated its 
responsibility to act. In a statement issued on January 17 in 
response to charges at a press conference that I held, the EPA 
states that it ``has led the effort to monitor the outdoor 
environment, while the city of New York has taken the lead 
regarding the reoccupancy of buildings.'' At least the EPA 
admits that it has in effect delegated authority to the city.
    Unfortunately, the EPA has yet to provide any justification 
for doing so, nor has it provided any evidence that it has 
taken any of the oversight measures the law compels it to take 
to assure that the city is acting in accordance with strict 
Federal standards. On January 23, I sent a formal inquiry to 
Administrator Whitman asking for answers to these and other 
questions about the city's response, which I submit for the 
record today. It has been over 3 weeks since the letter was 
sent, and I have yet to get a response.
    Senator Lieberman. Without objection, so ordered.
    Mr. Nadler. The EPA might say today, as it has in the past, 
that it does not have the proper legal authority to take the 
steps we are requesting to test and clean the areas affected by 
the collapse of the World Trade Center. It will probably say 
that the Clean Air Act, for example, does not govern indoor 
air, and that it is therefore the responsibility of the local 
and State governments, or even that of the landlords and 
residents themselves. This is again all utterly misleading.
    Under Section 303 of the Clean Air Act, the EPA has the 
authority in an emergency situation to protect human health 
when there is ``an imminent and substantial endangerment'' 
presented by a source of pollution. The intent of Congress is 
clear in this regard. A Senate report from 1970 on Section 303 
states, ``The levels of concentration of air pollution agents 
or combinations of agents which substantially endanger health 
are levels which should never be reached in any community. When 
the prediction can reasonably be made that such elevated levels 
could be reached even for a short period of time, that is that 
they are imminent, an emergency action plan should be 
implemented.''
    In short, the EPA should not wait for people to actually 
get sick before it acts, and it clearly has the authority to 
act under Section 303. Indeed, an EPA memo entitled, ``Guidance 
on the Use of Section 303 of the Clean Air Act'' was issued to 
the regional offices on September 15, 1983, outlining these 
very points. I submit a copy of this memo for the record.
    Senator Lieberman. Without objection, so ordered.
    Mr. Nadler. The Clean Air Act is not the only governing 
statute. The EPA has the authority to act on indoor air under 
the National Contingency Plan of the Comprehensive 
Environmental Response, Compensation and Liability Act. In 
fact, I understand the EPA has indeed been utilizing some of 
the NCP, National Contingency Plan, protocols at Ground Zero. 
However, they have not relied on this authority or any other to 
test or remediate indoor environments.
    As we speak, the EPA is in fact doing indoor testing and 
remediation in Herculaneum, MO, and other locales, which are 
not, by the way, Superfund sites. We must learn why the EPA is 
treating New York differently. I ask the Senators present here 
today to help me find out. This double standard is 
unconscionable.
    The EPA was unwilling to act on its own, and yet did 
nothing to ensure that those ostensibly charged with acting did 
the right thing. The EPA on its website and in public press 
releases referred residents to the New York City Department of 
Health, which recommended that people clean their potentially 
asbestos laden dust with a ``wet rag or wet mop.'' Clearly, 
such cleanup measures are inadequate.
    We know that the law requires proper remediation of 
asbestos sites, not with a wet rag or a wet mop. The EPA's own 
actions show this to be the case as the actions they took in 
cleaning their own building at 290 Broadway. I today, again 
ask, why the EPA applied stricter measures to Federal buildings 
than the city advice for local residences and businesses 
equidistant from the World Trade Center?
    Given the lack of action, credible information or 
oversight, I believe the EPA has failed in its responsibility 
to protect the public health of the citizens of Lower 
Manhattan. This is quite shameful, for public health is the 
first thing we as a Government must protect.
    In order to assure a full and fair public assessment on the 
EPA's actions following September 11th, I have also asked the 
EPA National Ombudsman, Robert Martin, to investigate these 
matters. Mr. Martin has been doing so, and I am disappointed he 
did not have the opportunity to share the status of that 
investigation with the committee. However, I understand the 
sharp time constraint today, so I have attached a statement 
from Mr. Martin to be included in the record.
    Senator Lieberman. Without objection, so ordered.
    Mr. Nadler. As you may also know, Administrator Whitman is 
attempting to place the Office of the Ombudsman under the 
control of the Inspector General of the EPA, effectively 
stripping the Ombudsman of his independence and ability to 
investigate these and other claims. I sincerely hope that 
Administrator Whitman will stop her request to eviscerate the 
Office of the Ombudsman, and in doing so, further undermining 
the integrity of her agency. I also hope that Congress will do 
so if she doesn't.
    I realize that I have leveled serious charges here today. I 
believe I have the moral responsibility to do so. The salient 
point is that we still do not know the extent of the presence 
of hazardous materials in some areas of the city, especially in 
indoor areas. It may or may not be dangerous in many indoor 
areas of Lower Manhattan, we just do not know.
    I am dismayed that there seems to be an unwillingness on 
the part of our public agencies to get this information. But 
given that we do not have all of the facts, we cannot conclude 
anything. I do know that we must get the facts and act swiftly 
and appropriately to get the job done right. We must not fall 
into the catch-22 of saying there is no evidence of a public 
health emergency without taking any steps to get such evidence.
    The burden should not be on the landlords and residents 
themselves when the testing procedures and cleanup measures are 
expensive and must be conducted by properly trained personnel. 
The EPA has the statutory and regulatory authority to test and 
to remediate indoor environments in Lower Manhattan and has 
exercised such authority elsewhere.
    I am calling on EPA today to immediately commence a program 
of full-scale testing and remediation using the best available 
technology, and to make a report of all such test results and 
actions available to the public. The EPA must also issue the 
test results in a manner which is tied directly to health 
standards, so that we can truly assess the public health risks 
posed to the people of Lower Manhattan.
    Finally, testing procedures should in no way impede the 
expeditious remediation of hazardous materials found by other 
Government agencies or private researchers. Similarly, should 
the EPA find dangerous levels of hazardous materials before the 
full spectrum of testing is completed, cleanup measures should 
commence immediately.
    If the EPA fails to act again, despite its current 
authority, I will introduce legislation to compel it to do so. 
People might say that the measures I am requesting here today 
are expensive. That may be, but we must protect the public 
health. Although the cost may be high today, imagine what the 
cost will be in the future if it turns out there really are 
dangerous levels of hazardous materials in Lower Manhattan, 
especially indoors.
    By the way, when I say Lower Manhattan, this applies 
equally to Brooklyn, Jersey City and anywhere else that cloud 
went. All of these areas must be properly tested. Imagine the 
city's and EPA's contingent liability to lawsuits 20 years down 
the road and envision to potential health care costs. It is in 
the best interests of the residents, workers, students and 
businesses, for the Government to act swiftly and appropriately 
to address the public's environment and health concerns. We 
cannot afford to wait while all the agencies point fingers at 
each other. There is still time to right the situation.
    Time is of the essence. My office has received numerous 
complaints from people experiencing adverse health effects, 
such as headaches, nosebleeds and respiratory ailments. The 
symptoms are so widespread they have been dubbed the World 
Trade Center flu. Public confidence is at stake. People know 
when they are sick, they know when something is not right, and 
they know when they are being lied to. I sincerely hope that we 
do not have another Love Canal on our hands. But the best way 
to avoid that is to do the necessary testing and cleanup now.
    I again thank you for inviting me to testify before you 
today. I look forward to working with my colleagues in both 
chambers of Congress and with all interested parties to ensure 
that New York City is safe and prosperous for many years to 
come. I thank you.
    Senator Lieberman. Thanks, Congressman Nadler. That was a 
characteristically direct, intelligent and passionate 
statement. I appreciate it very much. You framed the issues and 
issued a challenge as well as offering some solutions, which I 
think will guide us as we go on in this hearing for the rest of 
the morning.
    Without objection, I'm going to include all the material 
you've referred to in the printed record of this hearing.
    I thank you very much for your time, your advocacy and for 
a superb opening statement.
    Mr. Nadler. Thank you.
    Senator Clinton. I join in thanking the Congressman, and 
especially for his leadership on the Ground Zero Elected 
Officials Task Force. We're including on the record, I hope 
that you'll just hand it to us, Jerry, because we want to be 
able to refer to your material as we go through this hearing. 
We will closely work together and make sure that the questions 
you raised are at the forefront of certainly the Senate's 
agenda as well.
    Mr. Nadler. Thank you very much.
    Senator Lieberman. Thanks, Congressman. See you in 
Washington.
    Now we'll go to the second panel. I'll call them to the 
table. Liz Berger, who's a resident of the area; Dr. Kerry 
Kelly, chief medical officer of the New York City Fire 
Department; Dr. George Thurston, associate professor of 
Environmental Medicine at the New York University Medical 
School, Nelson Institute of Environmental Medicine; and Eric 
Goldstein, who's the New York Urban program director of the 
Natural Resources Defense Council.
    I thank all of you for being here. You are either living 
through or examining and being advocates about the problems 
that we've talked about. So your initial testimony here is very 
important.
    We're timing this to 3-minute opening statements, then 
we'll have questions. If you can't do it all in 3 minutes, we 
will not give you the proverbial hook, but try to keep it as 
concise as you can.
    Ms. Berger, welcome, and we look forward to your testimony 
now.

          STATEMENT OF ELIZABETH H. BERGER, RESIDENT, 
                          NEW YORK, NY

    Ms. Berger. Thank you, Senator. I'm going to talk really 
fast. Chairman Lieberman, Senator Clinton, staff members, 
fellow panelists, neighbors, thank you for inviting me to tell 
you about the doubts, concerns and questions which have 
confronted downtown residents every day since September 11th. 
I've submitted more comprehensive testimony for the record, but 
I want you to know that we live in a time of deep uncertainty, 
but are required to make countless decisions that may affect 
our health and that of our children for decades to come.
    I live 150 yards from Ground Zero. I have lived south of 
Fulton Street for more than 19 years. My husband and I remember 
life downtown before there was a single all night deli, and 
restaurants closed early Friday and didn't reopen until Monday 
lunch, and when the closest supermarkets were in New Jersey.
    We loved being downtown. We loved the huge buildings on the 
narrow, winding streets. We loved being closed to the water, 
and we knew that in some powerful, visceral way, Manhattan was 
an island and that we were at the center and the beginning of 
everything.
    For us, the World Trade Center was everything. It was our 
indoor play space, our back yard, our mall, our theater. It was 
where our kids flew their kites, where they went roller 
skating, where they learned to ride their bikes. It was the 
only place below Chamber Street where you could buy a decent 
loaf of bread. My children, who are 5 and 2, spent part of 
every day of their lives at the World Trade Center.
    This is why it is so absurd to heed the call to return to 
normal. There is no more normal for us. I saw the first plane 
before it hit. Our building was evacuated. It was 8 days before 
we knew that it was structurally sound, and another few weeks 
before we were assured that One Liberty wasn't going to fall on 
us. That entire time, I thought not of the apartment we were 
going to lose, but of the destruction of our community, of 20 
years' work gone in 18 minutes.
    The theme of my remarks is uncertainty. I never doubted 
that we would return. After the city recertified our building, 
I realized the question was not whether, but how. Because as 
you know, it is the city's job to certify for structural 
integrity, not for environmental safety.
    We then began a great education process which has made 
downtown residents experts in products and services we never 
knew existed--FEMA, HEPA, OSHA. We all learned fairly quickly 
which were the best cleaning companies and testing companies, 
but what no one to this day can agree on is what clean means 
and how to measure it. It took eight guys in white suits and 
respirators 5 days to clean my apartment. But is it clean? 
Nobody tells you what to keep and what to toss.
    In October, I attended a panel discussion at Cooper Union 
featuring leaders in the field of pediatric environmental 
health. I didn't even know this was a field. It included some 
of the doctors who are testifying here today. There were six 
doctors, they have seven opinions and they ranged from throw it 
in the washing machine to get out of town and don't look back.
    So the question for us is, what's in the stuff? Every day, 
the air smelled different and the winds blew a different 
course. We made our own rules divined from press reports, from 
high school science as we remembered it, from the advice of 
friends of neighbors. One scientist friend who lives two blocks 
from Ground Zero measured the asbestos and lead levels in his 
apartment and declared it safe for his family. They went back 
after 3 weeks. The managing agent of his building, however, 
reported high levels of those substances in the building's 
public areas. So the question is, how to interpret the facts.
    In the end, 248 stuffed animals, 8 handmade baby quilts, 5 
mattresses, a trousseau's worth of sheets and towels, all the 
food in my kitchen and 13 leaf and lawn bags of toys went into 
our trash. We didn't throw away our books, our drapes, our 
upholstered furniture or our clothes, although it did cost 
$16,000 to dry clean them. We washed the walls, but we didn't 
repaint them. Some people we know repainted, but they kept 
their mattresses. Some people kept their stuffed animals, but 
they threw away their furniture. Some people kept what they 
just couldn't bear to lose and got rid of everything else.
    Now, we haven't decided what to do about our floors. We 
can't decide, if we strip, sand and reseal them, will the 
asbestos, fiberglass, concrete, human remains, because we know 
there are body parts pulverized throughout our apartment, heavy 
metals, and these vague particulates, will they be contained or 
will they just be released into the indoor air? I should say, 
I'm going to submit for the record a January 11th memo I've 
just received from Cate Jenkins of the EPA. When you read this, 
I want to go home and I want to take all my furniture and just 
put it out on the street. So I'll let you decide.
    Senator Lieberman. We'll include it in the record.
    Without objection, so ordered.
    Ms. Berger. Thank you, Senator.
    Indoor air is a tough issue. In our building, we have a 
very primitive central air system. It circulates the air from 
apartment to apartment. Some people hired professional 
cleaners. Others did it themselves, and a few locked the door 
and just didn't come back. So after the guys in suits left our 
apartment, we sealed our windows, we filtered our vents, we 
bought six triple-HEPA filtered air purifiers, which we run 24 
hours a day. My extremely clean air is working its way through 
the building, as is the air of my neighbors who didn't do that. 
Now, this is also true for outdoor air.
    Our building, all the systems in public spaces have been 
professionally cleaned following the city DEP guidelines. We 
are surrounded by buildings that have either not been cleaned 
or have been cleaned very summarily. Now, we live on the 11th 
floor. So we see the poor porters in the commercial buildings 
around us sent up on the roof by management with push brooms. 
I'm going to show you what it looks like. These pictures were 
taken from my neighbor's window last week. That's not snow. 
That's stuff. That's coming through our windows. I will submit 
these to you as well.
    Senator Lieberman. Without objection, so ordered.
    Ms. Berger. Now, in our case, much of this debate has been 
academic. We decided that with two young children, it would be 
very foolish to return to our homes until the fire went out. 
Now, we were urged to return to normal. Every time that we 
thought we were being a little crazy and should go back, there 
would be a new report of asbestos, of heavy metal and other 
readings in the warm zone. We were told, well, you live in the 
financial zone. Except our building's front door is 16 feet 
from the fence of the warm zone.
    Now, that was not easy. We've been home for 3 weeks. We're 
all happier, but we don't know if we are safe. Now, this is 
what my 5-year-old asked me to tell you. She said, tell them 
please that we lived in three places in 4 months and that it 
was very, very hard. So we're back home. We've opened our 
windows, but we're not going to the park. Some of our neighbors 
have HEPA window screens, some have their windows duct taped, 
others have put their apartments on the market. We don't know 
what the right thing to do is. Ours is a culture that's based 
on authority, but there has been none.
    We would do whatever we needed to do if only we knew what 
that was. I have to say in this regard, the failure of the 
Federal regulators to recognize that this is a residential 
community and to think that OSHA standards apply is just an 
outrage. I mean, we could smell it, computers, fluorescent 
bulbs, copiers, electrolytic fluids, bodies. Let me tell you, 
everyone downtown knows that we are the baseline of the 30-year 
study on what happens when worlds collide. As a parent, that is 
the most frightening experience and responsibility I have ever 
faced.
    What I find ironic in all this is that the only authority I 
have found with respect to cleaning up the mess is William 
James, who was the father of pragmatism. Pragmatism is arguably 
the only American contribution to world philosophy, so I guess 
it makes sense that when we're feeling very American, we're 
turning to him. Now, as you know, Senator Lieberman, he was a 
Harvard man, so I'm sorry to quote him. But as he said in a 
lecture he gave right here in New York City in 1907, ``We have 
to live today by what truth we can get today, and be ready 
tomorrow to call it falsehood.'' I first read that when I was 
19 years old in college, and I thought it was pretty cynical. 
But now, as a 41-year-old mother of two, while I'm horrified by 
the implications for my children's future, I know it is the 
only way we can live.
    James also said, ``Truth is an affair of leading.'' Now, 
this is your charge. On behalf of the almost 30,000 people who 
live here, I commend you for following it and I urge you not to 
let go.
    Senator Lieberman. Thanks very much for a very important 
and eloquent statement. Thanks very much, and I think I can 
speak for Senator Clinton when I say we accept the charge. That 
was a very important and poignant statement.
    Dr. Kelly, welcome and thanks for your testimony.

 STATEMENT OF KERRY J. KELLY, M.D., CHIEF MEDICAL OFFICER, NEW 
                   YORK CITY FIRE DEPARTMENT

    Dr. Kelly. Good morning, and thank you for inviting me to 
appear before the subcommittee.
    I am the chief medical officer of the New York City Fire 
Department. I responded to the World Trade Center on September 
11th and participated in the rescue and recovery efforts that 
thousands of our members undertook on that day and on the days 
to come. The recovery effort still continues now, engaging our 
members in recovery of both civilians and uniformed members, 7 
days a week, 24 hours a day.
    The FDNY response to the World Trade Center event placed 
our members in the epicenter within moments of the first plane 
hitting the north tower. Members from emergency squads, rescue 
companies, engines, ladders and medical teams from across the 
city responded to the call. Firefighters about to end their 
daily tour of duty stayed on. Off duty firefighters 
commandeered vehicles. Retirees and members on sick leave found 
their way to the scene.
    Within a matter of moments, these rescuers became victims, 
soldiers in the worst terrorist attack on our Nation's soil. 
Three hundred forty-three members lost their lives that day. 
Over 200 members were seen in emergency rooms for physical 
trauma. Many members required hospitalization and surgical 
intervention for significant orthopedic injuries. The rescue 
and recovery effort involved thousands of members following a 
job-wide recall during the first few days of operation.
    In the initial moments and hours after the collapses, 
firefighters and emergency workers continued to work without 
pause in the desperate search for survivors. The air was full 
of thick debris and dense dust clouds, with visibility so bad 
that one could not see people more than 3 feet ahead. With the 
collapse of the towers, and avalanche of acrid debris, metallic 
meteors and a shower of gray dust descended on the survivors, 
blanketing the new wave of rescuers as they rushed in to 
assist. It seemed as though day had turned into night, but 
still our members continued searching for survivors in the 
surreal, black blizzard of debris. Fine dust coated every 
crevice, making features indiscernible.
    Dust, debris and particulate matter choked breath and 
irritated the eyes. Due to the vast numbers of FDNY personnel 
at the scene, respirators were not available for all members 
working at the site. Many also found it more difficult to 
operate while wearing respirators, and many chose to carry on 
their search for survivors unprotected. Members ignored or 
fought against symptoms. Many did not sleep for days, pushing 
themselves to continue the search for survivors.
    In the immediate aftermath of the collapse, as the rescue 
work continued, many members complained of eye irrigation, as 
well as, cough and congestion. As the air quality improved, eye 
irritation symptoms improved. Cough complaints continued. 
Pulmicort inhalers and inhaled steroid was offered to offset 
the allergic cough symptoms.
    Concerns for the physical and mental health of members were 
raised by FDNY medical staff in those first few hours and days. 
Due to the cough symptoms that members exhibited, questions 
were also raised about exposure levels that were present at the 
scene. It was, and is still unclear what exposures members 
might have been experiencing following the fall of two 110-
story towers combined with the combustion of two planes and jet 
fuel.
    Within a week of the tragedy, the Fire Department's Bureau 
of Health Services began preparing for an unparalleled medical 
monitoring procedure for all members exposed at the site. BHS 
partnered with National Institute for Occupational Safety and 
Health and the U.S. Centers for Disease Control and Prevention 
on this project. We are very grateful for the funding we 
received from the CDC to conduct this initial analysis of our 
members. From October 6 through 12, an initial sampling of 400 
exposed members were given comprehensive medical evaluations.
    BHS, NIOSH and CDC were satisfied with the logistics and 
implementation of the medical evaluation, and BHS immediately 
began the vast project of testing the remaining members. We 
worked 7 days a week, with three shifts a day, and were able to 
see approximately 180 members per day. From October 31 until 
January 31, the medical monitoring of all personnel who 
responded to the World Trade Center was undertaken. Almost 
10,000 firefighters and 800 EMS personnel have now been 
evaluated. I am proud to say that our initial medical 
evaluation of all the members who responded to the World Trade 
Center is now complete.
    Medical monitoring consisted of ECGs, pulmonary function 
tests, chest x-rays, hearing evaluations, and blood testing 
consisting of CBCs, chemistries, liver functions, lipid 
profiles, lead, beryllium, PCBs and urine mercury and 
urinalysis testing. In addition, testing of dioxins and 
hydrocarbons was done at the CDC lab on the initial group of 
400. Blood from all remaining members was banked, to be tested 
at a later time if the need arose. Although some of these tests 
are part of a routine medical exam, other more specialized 
tests were conducted due to environmental concerns.
    At the time of the medical monitoring, members also 
completed a computerized survey regarding their physical 
complaints to assist the Department in tracking the symptoms 
that members are experiencing. BHS has compiled a very complete 
record of each of our members from prior annual exams to use as 
a baseline for comparison.
    Since the testing was completed less than 2 weeks ago, the 
complete results from this computer survey are still being 
tallied. Preliminary blood tests have not indicated any 
significantly elevated levels of toxic metals or abnormal 
chemistries or blood counts. At the time of completing the 
computer survey, 25 percent of our members reported cough and 
shortness of breath on exertion. The pulmonary function tests 
taken during the medical evaluation have shown a decline that 
matches this complaint. In most cases, this change has not 
affected overall functional capacity. Some members remain ``off 
the line'' with active symptoms, while others have returned to 
work.
    Our current medical leave rate is a reflection of both the 
rise in respiratory symptoms and post-traumatic stress. There 
has been a twofold increase in both respiratory problems and 
stress-related problems in the last 5 months. It remains to be 
seen how members will recover from this event.
    However, in order to measure recovery, we must continue to 
monitor all of the members who responded to the World Trade 
Center event. We are grateful to have received funding from CDC 
for one additional medical examination per member in the 
future. We remain concerned about the potential health problems 
in our members. We are also concerned about longitudinal 
followup with our members. Those who become ill, or experience 
a trauma of this level in their working life, may choose to 
retire from this job when they can no longer withstand the 
rigors of this work. We want to ensure that our members 
continue to receive monitoring in the future, whether or not 
they retire from the Department.
    For this reason, the Fire Department's Bureau of Health 
Services is now actively seeking funding for this project. We 
must affirm our commitment to the members of our Department who 
gave so much to this city and to this country, and who have 
inspired people around the world with their courage and 
determination. We owe it to them continue to monitor the 
effects that their exposure on September 11th may have on their 
future.
    Bureau of Health Services has the pre- and post-World Trade 
Center records, the expertise and the logistical set-up to 
conduct an unprecedented and thorough investigation of the 
effects of the exposure our members experienced on that 
terrible day. Let us not forget that more of our members 
experienced a far greater level of exposure than any other 
group in this city. As far as I know, there are no hard and 
fast answers to the potential effects of exposures. Many 
unknowns remain. That is why it is critical that we continue 
our monitoring.
    The events of September 11th were catastrophic. In a matter 
of moments, our members became participants in a battlefield. 
The FDNY response was outstanding when we review the numbers of 
civilians saved and we measure the heroic efforts of so many 
individuals. Our losses are deeply felt with the deaths of 
members from every rank and every branch of our service. Our 
memories are filled with the experiences of that day and the 
many days that followed. Both physically and emotionally, we 
have been challenged by this event.
    As we rebuild our Department, we must also restate our 
commitment to our members who worked so hard to save others. I 
am sure we can all agree it is no less than they deserve.
    Thank you for your time.
    Senator Lieberman. Thanks, Dr. Kelly. Thanks for those very 
important results, and also for your eloquence.
    Dr. Thurston.

 STATEMENT OF GEORGE D. THURSTON, ScD., ASSOCIATE PROFESSOR OF 
  ENVIRONMENTAL MEDICINE, NEW YORK UNIVERSITY MEDICAL SCHOOL, 
           NELSON INSTITUTE OF ENVIRONMENTAL MEDICINE

    Dr. Thurston. Good morning. Thank you for this opportunity 
to share our scientific results in your process of 
investigating the World Trade Center disaster.
    On September 12, my research center at the NYU School of 
Medicine received an urgent request from the Office of the 
Director of the NIEHS, the National Institutes of Health 
Sciences, one of the National Institutes of Health, to respond 
to the environmental impacts of the attack of September 11th by 
doing whatever we could to monitor the air pollution that was 
resulting from the disaster's dust and fires. That evening, we 
sent a research team into the World Trade Center disaster zone 
to collect numerous samples of the dust from locations 
surrounding Ground Zero. The red dots on this figure display 
the points at which they were able to gather samples of the 
World Trade Center dust for us to analyze.
    Our NYU Medical School research team also set up an ambient 
outdoor air monitoring station at the NYU Downtown Hospital at 
Beekman Street, just five blocks to the east-northeast of 
Ground Zero. It's also noted on the figure. We sampled for 
various types of particle air pollution from Friday, September 
14th until the end of 2001. Although our work is far from 
complete, we have weighed these samples to determine the 
outdoor particulate mass concentrations, as well as analyzed 
the ambient air pollution samples and the World Trade Center 
dust for their constituents.
    Therefore, our sampling data, and my testimony today, 
applies to the general public living and working in the 
vicinity of the disaster, rather than to the rescue workers 
exposed at Ground Zero.
    As shown in the next figure, our analyses of the World 
Trade Center dust samples revealed that some 99 percent of the 
dust was as particles too large to be penetrate deeply into the 
lung, being largely caught in the nose, mouth and throat when 
inhaled. This large dust, however, contained approximately one-
third fiberglass, with much of the remainder as alkaline cement 
dust. This large dust therefore was quite caustic and had the 
high pH that Congressman Nadler was discussing. Therefore, it's 
caustic and irritating to the eyes, nose and throat, consistent 
with the now infamous ``World Trade Center cough'' that nearby 
residents reported.
    Only trace amounts of asbestos were found in our samples. 
The less than 1 percent that was as PM<INF>2.5</INF>, or the 
particles that would reach deepest in the lung, was found to 
have a neutral pH, with no detectable asbestos or fiberglass. I 
think that's an important distinction from the results that 
were, I gather, discussed. I didn't read the article. If you 
just looked at these dust particles as an aggregate, it's 
dominated by the large particles, and those are very caustic.
    What we did was, we re-aerosolized the dust and we analyzed 
it by size fraction, which is a very important distinction. 
Because it's the fine particles that would get deep in your 
lung. Those were not caustic, those were not alkaline like the 
large dust that would be in your eyes, your nose, your throat, 
and therefore would give you symptoms but not get deeply into 
your lungs, which is a relief.
    Thus, while our analyses are consistent with the 
Government's conclusion that the World Trade Center dust is not 
likely to have short- or long-term serious health impacts from 
the fine particles on otherwise healthy local residents, we 
found that it is very irritating and capable of causing the 
symptoms reported by many residents. I would also note that we 
also sampled in November one indoor residence near the World 
Trade Center. We found very similar results of those particles 
inside the home as what we found outside, where the majority of 
the particles were in these very large size fraction that would 
be caught in the eyes, nose and throat.
    Our sampling of the outdoor air pollution at NYU Downtown 
Hospital, and let me go to the next figure there, showed that 
air pollution levels were very high in the first weeks 
following the attack, especially at night, but then diminished 
as the fires were brought under control. By October, soot 
levels in the downtown area were generally similar to those 
that we measured at the NYU Medical School in midtown, First 
Avenue and 26th Street. We were also monitoring at another 
location up toward midtown. Although levels occasionally 
climbed in downtown on clear, calm nights throughout the fall. 
This is pointed out in this figure, you can see that the black 
line is the 24-hour average that the EPA might report and 
measure. Then we had day time and night time samples. Each 
evening, the levels are higher and lower in the day time. So 
when the winds diminished at night, the pollution levels would 
buildup.
    Overall, our independent air pollution sampling results 
were largely consistent with the data reported by the EPA. In 
particular, although short-term peaks in PM<INF>2.5</INF> 
particulate matter air pollution for a few hours did occur at 
night, the 24-hour averages were of PM<INF>2.5</INF> were 
within the legal standards set by the U.S. air quality laws.
    Despite the fact that individual pollutants in the 
community were apparently at safe levels for otherwise healthy 
persons in the general population, it is impossible to know 
what potential interactive effects might have occurred among 
the various pollutants, even at these low levels. Ultimately, 
only epidemiological followup studies of possible effects among 
especially susceptible individuals will provide a fuller 
determination of the issue of possible health effects from the 
various pollutants in the World Trade Center plume.
    Finally, I feel strongly that we must make sure to learn 
all the lessons that we can from this horrible catastrophe 
regarding the communication of risk to the public in such 
emergency situations. Something like what happened to New York 
City on September 11th could, unfortunately happen again, and 
we must be prepared. It is an understatement to say that the 
public is skeptical of Government pronouncements of safety in 
such situations.
    In this case, I feel that the EPA was too quick to declare 
the air ``safe'' and did not well enough define what was meant 
by that term. Although the fine particle pollution was not of a 
level that would make otherwise healthy people very sick, the 
dust was caustic and irritating, causing many to have severe 
and upsetting symptoms, including eye, nose, and throat 
irritation. This caused people to further doubt governmental 
pronouncements of safety, even after more complete data were 
available confirming the EPA position.
    As a result, the press turned to the academic research 
community of New York City to fill the void. It has been my 
duty and honor to play a role in the academic effort to answer 
the environmental questions that New Yorkers had, and still 
have. But we must improve the current situation. While we 
cannot create governmental trust where there is none, I believe 
that we should draw upon what happened in New York City to help 
the Nation better cope with such situations in the future.
    The Government should designate a suite of environmental 
parameters to be measured in such situations, and designate the 
appropriate health standards for best comparisons in such 
short-term exposure situations. There was a lot of confusion, 
especially in the press, citing which standards to compare. 
They would get hold of data, and they would compare it to a 
standard, and it would be an inappropriate standard, then it 
would lead to false or, inaccurate, let's say, conclusions from 
the data. So you really have to know what you're comparing 
things to. I think there was a lot of misunderstanding about 
how to interpret the data that was collected and reported in 
the press.
    Moreover, I recommend that we create a mechanism by which 
blue ribbon panels of the leading independent experts in the 
United States are formed in advance, perhaps by the National 
Academy of Sciences, to be on standby in case, God forbid, such 
an emergency happens again. If this is done, there would then 
be an independent expert panel ready to be assembled, briefed, 
and to then give their quick-turnaround assessment of the 
public's environmental risks, and of the appropriate actions 
that are needed to protect public health. Without such new 
mechanisms, I fear that any future such disasters may be 
accompanied by the same unfortunate confusion, doubts, and 
distrust. Let us act now to help preclude this risk 
communication problem from happening in the future.
    Thank you for the opportunity to testify on this important 
issue.
    Senator Lieberman. Thank you, Dr. Thurston, for some very 
constructive recommendations. It kind of reminds me what we 
went through in the Capitol when the anthrax was discovered in 
Senator Daschle's office. There were some very quick 
reassurances which turned out not as time went on to be 
justified. It's a lesson for all of us which is, sometimes when 
you're not certain, the best thing to say is nothing. Then when 
you have some more information, to say what the information 
leads you to say.
    So I look forward to coming back in the question and answer 
and asking you more about that.
    Our final witness on this panel is Eric Goldstein of the 
National Resources Defense Council. Thanks for being here.

    STATEMENT OF ERIC A. GOLDSTEIN, NEW YORK URBAN PROGRAM 
          DIRECTOR, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Goldstein. Thank you, Chairman Lieberman, Senator 
Clinton. It's an honor to appear before both of you, and we 
appreciate your holding these hearings and all your good work 
on the environment and for New York in general.
    My name is Eric Goldstein and I am the New York program 
director at the Natural Resources Defense Council. First, let 
me express the condolences of NRDC on behalf of all of my 
colleagues to all of those who lost loved ones in all of the 
terrorist attacks on September 11th.
    In the aftermath of the September 11th tragedy, my 
colleagues Megan Nordgren, Mark Izeman and I began pulling 
together a 1-year report and analysis of the environmental 
impacts of the World Trade Center disaster and the Government 
response to those events. We are releasing a preliminary 
version of that report on Wednesday, and hope that you will be 
able to incorporate the entire document into the record of this 
hearing. I'll try to quickly make three points and several 
recommendations.
    First, the September 11th attacks, in addition to the 
horrific loss of human lives and the huge economic 
dislocations, constituted an unprecedented assault, as we all 
know, on Lower Manhattan's environment. The collapse of the 
110-story towers, two of them, the conflagration of vast 
amounts of toxic materials, the forced distribution of debris 
and dust throughout portions of Lower Manhattan, the long-
burning fires at Ground Zero all combined to create 
unquestionably the single largest air pollution episode in the 
history of New York City and probably urban America.
    NRDC's report estimates that at least 10,000 New Yorkers 
suffered short-term respiratory or other pollution-related 
impacts from the Trade Center's collapse and subsequent fires. 
Thousands of apartments and offices in the immediate vicinity 
of Ground Zero received significant loadings of polluted dust. 
As Congressman Nadler forcefully noted, there is of course much 
that we still do not know about the air quality impacts of the 
September 11th attacks. That's why the health studies that are 
now being undertaken by Dr. Landrigan at Mount Sinai, Dr. 
Carerra at Columbia, Dr. Thurston at NYU, Dr. Kelly at the Fire 
Department and others are so important. That's why continuing 
monitoring and assessment is so urgent.
    Based upon the incomplete data that is now available, 
here's what we can say. In general, outdoor air quality in 
Lower Manhattan today is approaching or similar to levels in 
the area prior to September 11th, with some exceptions. Some 
portions of the Ground Zero work pile, of course, and localized 
hot spots, such as areas with heavy concentrations of diesel 
buses and diesel equipment, and at times, areas where Trade 
Center debris is being removed or transferred to barges.
    The most worrisome air pollution problem facing Lower 
Manhattan today, in addition, of course, to the worker safety 
concerns, now involves indoor pollution threats in some 
residences and offices that were engulfed with thick layers of 
contaminated dust and whose buildings were not properly 
cleaned. These are pollution challenges that remain. They are 
pollution challenges, including getting the best available 
filtration devices for Stuyvesant and some of the schools there 
that are manageable and solvable. But they exist, and they 
shouldn't be swept under the rug.
    In many ways, the response of Government agencies and their 
employees to the Trade Center attacks was heroic and a 
testament to the merits of public service, which is too often 
undervalued. We recognize the environmental and health agency 
staff who performed many tasks with distinction. EPA personnel, 
for example, undertook numerous assignments including the 
removal of hazardous waste from the Ground Zero site, the 
deployment of HEPA vacuuming trucks and the establishment of 
sophisticated air quality monitoring and testing facilities. 
But there were some Olympic-sized problems as well, and I want 
to briefly highlight them.
    No. 1, overlapping jurisdiction among at least nine city, 
State, and Federal agencies. This was a problem. This meant no 
single agency was in overall charge of the environmental 
response to the September 11th attacks. It meant that no agency 
took the lead in ensuring environmental safety for those 
working at Ground Zero. It meant that no agency took 
affirmative charge of the environmental cleanup and inspection 
of environmental conditions prior to re-occupancy of residences 
and offices in the vicinity of Ground Zero. Many of these 
problems, NRDC believes, resulted from shortcomings of the 
Giuliani administration, which handled so many other aspects of 
the September 11th response magnificently and which was in 
tight, overall command of the entire rescue, recovery and 
cleanup effort. The low profile of the city's Department of 
Environmental Protection, which has 6,000 employees and wide-
ranging authority under the New York City charter to respond to 
environmental emergencies, lends support to the growing belief 
the department does not rise to the challenges posed by the 
September 11th attacks.
    No. 2, a major problem involved communicating environmental 
health data to the public. As Ms. Berger has stated so 
compellingly, there appeared to be no coordinated strategy for 
conveying such information to concerned citizens. There were no 
regular briefings of Government leaders of environmental or 
health agencies. There was no one place for citizens to turn to 
get environmental guidance and advice. Test data was not often 
promptly released.
    Government statements on air quality, at least as the 
public understood them, stressed the good news and de-
emphasized issues that might raise further concerns. By 
focusing almost exclusively on long-term risks in their public 
statements, Government officials omitted warnings regarding 
short-term health effects, particularly to Ground Zero workers 
and other sensitive sub-groups. For at least a small portion of 
those who suffered from short-term impacts, there could well be 
long-term consequences.
    Admittedly, the Government agencies had a very difficult 
assignment here, and were responding not to an industrial 
accident but an act of war. Nevertheless, as a result of 
shortcomings on the communications front, a troubling 
credibility gap on environmental health issues emerged.
    No. 3, difficulty has been environmental safety 
shortcomings at the Ground Zero site itself. While rescue, 
recovery and site cleanup operations have made remarkable 
progress with some heroic actions, the environmental health 
issues that were handled at Ground Zero represent a glaring 
exception to that overall record of accomplishment. A prime 
example has been the failure to require Ground Zero workers to 
wear appropriate respirators. The OSHA representatives who 
seemed to argue that they were only at Ground Zero in an 
advisory capacity, and did not or could not insist upon the 
wearing of respirators certainly have some explaining to do.
    Among other onsite safety problems of significance were 
undue delays in establishing worker safety training procedures. 
It's one thing in the first day or couple of days after, but 
it's another thing when those procedures haven't gotten 
underway weeks and months after the tragic events of September 
11th.
    A final shortcoming in the Government's environmental 
response involves problems assisting Lower Manhattan residents 
in environmental safety and cleanup issues. As previously 
stated, in addition to the communications gaps, agencies failed 
to prepare and provide complete and proper cleanup protocols 
for many Manhattan residents, they failed to inspect even the 
most heavily contaminated buildings for environmental safety, 
prior to reentry. No agency took overall responsibility for 
supervising the environmental cleanup and safe re-occupancy of 
these apartments. It was left, for the most part, to residents 
and building managers to sort these complex challenges out for 
themselves.
    No. 4, as to recommendations. We support Senator Clinton's 
five-point program, of course, including S. 1621, and the 
Health Registry funding. We urge that you encourage EPA and the 
New York City Department of Environmental Protection and 
whatever other agencies they together feel are appropriate to 
create an Air Pollution Assistance Center located in the Ground 
Zero vicinity, fully staffed to answer and respond to 
residents' questions and provide one-stop shopping to address 
the air quality and health aspects of this tragedy. Also, those 
two agencies, U.S. EPA and the New York City Department of 
Environmental Protection and others create a joint task force 
that will promptly begin door-to-door visits and inspections of 
individual buildings, to verify environmental conditions, at 
least in the immediate ring of buildings within a 10-block 
radius of Ground Zero.
    Second, we urge that you prod the Occupational Safety and 
Health Administration and relevant New York city officials to 
commence without further delay enforcement of environmental 
safety rules at the Ground Zero work site. Third, as we 
mentioned and you mentioned before, we urge you to assist 
medical institutions, such as those mentioned before, in 
securing the funds they need for these critical public health 
studies, and to help obtain funds for a full health registry of 
all Lower Manhattan residents and workers.
    Finally, we urge you to convene a second hearing and 
otherwise find ways of address the question of whether the 
Federal Clean Air Act pollution standards and pollution 
monitoring requirements need revision in the wake of the 
lessons that we've learned from the September 11th tragedy. 
Ultimately, if there were no violations of Federal air quality 
standards from this event, the Federal and State air quality 
standards certainly need to be re-examined.
    Thank you very much for inviting us to testify, and we 
definitely appreciate your interest in this issue.
    Senator Lieberman. Thanks, Mr. Goldstein. We have become 
accustomed, obviously, to saying what happened on September 
11th was unprecedented in our history, that we never have been 
attacked that way. You said something in your testimony that 
may surprise some people, but it's important to the specific 
focus of this committee, that what resulted, and I quote you, 
was unquestionably the single largest air pollution episode in 
the history of New York City. That cries out for our attention 
at all levels of Government now.
    Let me begin with a few questions and then I'll yield to 
Senator Clinton.
    Dr. Thurston, you stated that only followup epidemiological 
studies will truly reveal the cumulative effects any of the 
pollutants had or will have had on people in the area who are 
exposed, particularly sensitive sub-populations, such as 
children. That struck me as remarkably consistent with what Ms. 
Berger said when she said that she knows that she's now part of 
a 30-year baseline study by the fact that she lives in this 
area.
    I wanted to ask you how you would advise residents to 
evaluate the risks from the pollutants, given the uncertainty. 
In some sense your testimony has been reassuring, based on your 
studies. In other senses, it obviously, I would guess, and I'll 
give her a chance to say, leaves Ms. Berger and other residents 
with questions about the future.
    Mr. Thurston. Right. Well, first let me say that I think 
there's only so far we can go by looking at the pollution 
levels and trying to interpret them. I think that's the first 
cut that we've done. We've looked at it, and we're not through 
with it yet, but looking at the pollution levels, the various 
pollutants, analyzing them, and trying to figure out what the 
potential for health effects are.
    But the serious complications of this of course is that 
we've got a mixture of pollutants that are different from what 
we normally experience. We do normally experience quite a bit 
of pollution in big cities like New York, Los Angeles and 
London, so that the epidemiologic studies I think are necessary 
if we're going to get to the ultimate bottom line, is did it 
affect people's health. I think initially as you look across 
the pollutants, and we're not done yet, but it does appear that 
looking at them individually, that in the general public that 
the health risk is not significantly high.
    Now, of course, the Ground Zero workers, rescue workers and 
people like that, there's a different exposure and evaluation 
that has to go on. But then when you start considering the fact 
that there was this mixture that's not like other pollutants, 
we really can't go back to previous studies to evaluate what 
the health impacts are. We were saying that the air quality 
standards aren't adequate for assessing these. Well, the way 
that air quality standards work is, you look at past history 
and you have to use studies that are published, and then you 
say, well, OK, in those situations we saw effects, so we'll set 
the standard.
    We have nothing to look back to try and set those limits. 
So I think that's going to make it much more challenging.
    Now, in terms of advice to people, I think that it really 
is going to be on an individual level. In other words, 
otherwise healthy people are probably going to have very little 
concern. But then if you have a pre-existing condition, a pre-
existing disease, young children, for example, spend a lot more 
time crawling around on the floor, such that if an apartment 
wasn't fully cleaned and there's still lead, there are elevated 
levels of lead in the dust. Although levels we've found would 
be acceptable to be in a playground under EPA limits, but not 
acceptable to being on the floor in a home. There's a higher 
level, because children are crawling, you have very young 
infants that are crawling around and then they'll put their 
fingers in their mouth and they'll get a higher exposure.
    So it's very difficult, of course, you can't give across 
the board advice here. I think that it's going to be very 
individual and it's going to depend on what the pre-condition 
is of the person and whether it's a pregnant woman or not. That 
makes a big difference.
    So those are the kinds of things that have to be considered 
in deciding what action to take. So it's going to be pretty 
individual, there's no broad, across the board advice, I think, 
that's going to serve everyone.
    Senator Lieberman. So what do you say to Ms. Berger? Should 
she be, for instance, taking her children regularly to a doctor 
to examine them for possible effects from air quality?
    Mr. Thurston. Well, I don't know the situation of the 
exposures and things, so it's very difficult to evaluate that. 
I know that when I came down in November to speak to the 
parents at Stuyvesant High School, at that point I told them 
that I would be more than glad to have my daughter go to that 
school because of the excellent education she would get. I felt 
comfortable that the pollution levels for a healthy child like 
mine would be appropriate, it would be fine, she wouldn't have 
a problem.
    Now, if she had severe asthma, then maybe I would have had 
a somewhat different decision. So it's very difficult for me to 
give advice without knowing the situation.
    Senator Lieberman. Let me ask Ms. Berger whether you are at 
all reassured by what Dr. Thurston or Mr. Goldstein has said 
this morning.
    Ms. Berger. I'm not particularly reassured by what Dr. 
Thurston says. I mean, I read before some of his findings.
    I don't think the issue is a global one. I don't think 
anybody believes there can be a certain answer. I think that's 
actually the history of asbestos, that this long-term exposure 
and it's after the fact, as he said, looking at the studies.
    But what we don't know is how to clean appropriately. 
You've just said, if you clean appropriately, you should be 
fine. Well, I've done almost everything that's been suggested. 
Every time I turn around, there's something else, there's 
something that I've not done. That's really the issue. I mean, 
the basis of the Kay Jenkins report is that in certain homes 
they tested in Tribeca, the asbestos levels are 22 times what 
they are in Libby, MT, which is a Superfund cleanup site.
    Now, you're right, I have no idea how to evaluate that. But 
I'm not a scientist. So what does that mean for me? She says 
that the reason why the numbers are so off is that the testing 
procedures are incorrect. There's a huge debate, again, I'm 
sure you know it, about the size particle.
    So I guess what I found so wonderful about your five point 
plan and the way I would expand upon it is what are the testing 
procedures, why aren't the Federal regulators coming in, 
setting the standards, why aren't they doing the testing. Then, 
of course, there are the financial issues, which is, what's the 
cost of abatement on an individual level and who bears it.
    Senator Lieberman. Very strong points. Dr. Kelly, let me 
ask you a few questions. I gather from your testimony that in 
the studies you've done and the work you've done with the 
firefighters involved here that there's no evidence of 
increased metallic or other toxins in their blood, but that 
there is, basically 25 percent, or a quarter of those 
firefighters surveyed not only have respiratory concerns but in 
fact your studies and tests of them show that they have 
respiratory problems. Have I heard that correctly?
    Dr. Kelly. Yes, that's true. Our computer survey with the 
symptoms, the results from the initial 400. We are still 
tallying the computer survey for the remaining 10,000. But 
that's approximately 25 percent.
    We've certainly seen a number of people who have been ill, 
unable to work due to respiratory symptoms. With treatment, 
some have been able to go back. Others have not. I know you 
mentioned that some of the people who are most at risk are 
people who have underlying respiratory problems. But in the 
case of our firefighters, these are people who are in good 
health. These are people who have excellent pulmonary function 
tests. We have baseline studies to show that.
    This group is even more disheartened, because this is a 
group that is normally very athletic, physically active. To 
suddenly not be able to breathe or have symptoms and perhaps 
face the loss of a career that they've loved is very upsetting 
to them.
    Senator Lieberman. Is there any indication in your studies 
about unique characteristics to the 25 percent who are showing 
respiratory problems? In other words, did it have anything to 
do with where they were on the site or what they were doing or 
when they were on it?
    Dr. Kelly. We're still analyzing that as part of our 
survey. We are asking what days they were working, what kinds 
of activity they were engaged in. That will take continuing 
studies. That's what we plan on doing over the next month or 
several months.
    Senator Lieberman. I was pleased, incidentally, that CDC, 
which is obviously a Federal Agency, is supporting some of the 
work you're doing. I hope they or some other Federal agencies 
will continue to support it. Because this is very important 
work to be done.
    Do you know if there are any studies going on of the health 
of firefighters or other emergency workers who came in from 
outside of New York?
    Dr. Kelly. I don't know the answer to that.
    Senator Lieberman. A final question. Your testimony and 
other material that I've read indicates that not only were 
there not enough respirators available at the site, but also 
that the equipment the fire department had was too bulky and 
that firefighters couldn't use it for extended periods of time. 
Am I correct in that understanding, and if so, is the fire 
department looking for lighter weight breathing equipment for 
the firefighters now?
    Dr. Kelly. They will be continuing efforts to see what 
equipment we can adapt or use for these situations. The P100 
mask or respirator is excellent for both vapor and for 
particulate matter. That was not as widely available at the 
scene, though, in the initial few days. Again, this was a war 
zone. The initial several days, the control of that site and 
that environment was not easily done. The overall response of 
our members was phenomenal, and people responded without really 
any equipment just to be there and see what they could do to 
help. Their efforts were really looking for people, finding 
people, not even thinking of protecting themselves.
    Senator Lieberman. So some, I presume, just didn't put the 
respirators on because they were so focused on exactly what you 
said, the search for survivors?
    Dr. Kelly. The availability of those respirators was not 
there, at least certainly the first few days.
    Senator Lieberman. Is that because they were not available 
in the department generally, or there were too few, or just 
that they didn't get to the site on time?
    Dr. Kelly. Again, we lost, had crushed over 70 some rigs. 
Those are the rigs that normally would hold the backup 
equipment. The mass service units, which are the units that 
come to bring additional equipment, were lost. We had 
tremendous losses of equipment and manpower that day.
    Senator Lieberman. Thanks. Senator Clinton.
    Senator Clinton. Thank you, and I want to thank the panel. 
I particularly appreciate all of the recommendations that 
you've given us for future actions. I just want to ask a brief 
question of each of you.
    Liz, you just made a point about the cost of abatement. You 
have done everything you know to do, and you've done it to the 
highest possible level, trying to make your living situation as 
safe as you can. Did insurance cover any of that for you?
    Ms. Berger. I have to say, the insurance companies, in my 
experience and the experience of my neighbors in general, have 
been pretty good. The problem is that most people are under-
insured, myself included. Most of what we're talking about 
comes under personal property damage. There was not a lot of 
structural damage.
    We're maxed out. The Federal agencies have been useless. I 
went through the FEMA process, I went through the SBA process. 
I kind of enjoyed being told by the SBA that I couldn't have a 
loan because I didn't have enough debt. Well, maybe now I will.
    Senator Lieberman. Yes, your Federal Government qualifies 
for a loan on that basis.
    [Laughter.]
    Ms. Berger. It was just unbelievable. So in this case, I 
mean, I can say for me it's not a question of money. I will do 
whatever I need to do. For many people, it is, though. A lot of 
people who didn't have renter's insurance, there were people 
whose windows were open and so who had even greater property 
damage. But to look at some of the reports that essentially 
say, anything porous goes out the door, it's tough.
    Senator Clinton. Well, I am concerned because right now we 
are facing decreasing insurance available for any purpose with 
respect to terrorist attacks, and in particular here in New 
York. So what was available on September 10th may no longer be 
available. That's a double whammy.
    The other thing I just don't understand is, I've been 
talking to the agencies and being quite agitated about this for 
months, is that with all the money that came in, why helping 
owners and renters clean up their living space was not on the 
list, is something I don't understand. If the law needs to be 
changed, if SBA or FEMA or any other agency needs to be 
empowered to try to help, I think we have to look at that as 
well. Because it's just not been appropriate the way that 
there's been no help on these issues.
    Ms. Berger. Senator, if I could just add one more thing. 
We've now increased our personal property insurance but our 
building, which is a co-op, has the misfortune of having its 
insurance come due in the first few months after this. We had a 
very difficult time finding a carrier that would write the 
policy. That is really the issue, co-ops are kind of a unique 
form of ownership here in New York. But to have a building 
without insurance, it's pretty difficult.
    Senator Clinton. Well, I appreciate that very much.
    Now, Dr. Kelly, I thank you again for being willing to come 
and testify and I want to thank Dr. Prezant, who's with you, 
who I know has been your partner in doing this work. I'm 
pleased that I was able to get some CDC money, Senator 
Lieberman, about $12 million, for these followup studies. But 
that is woefully inadequate for what needs to be done. If we're 
looking at longitudinal studies for 20 to 30 years, taking into 
account not only the firefighters and the first responders and 
the construction workers who I feel strongly have to be 
involved in the followup, but also residents and workers in the 
area generally.
    I'm hoping that the methods that you've used, which I am 
very pleased you had a chance to describe today, will be looked 
at as a real model.
    If you, though, were to have the funding for the broader, 
longer longitudinal study that you have referred to, could you 
use the existing protocols and methods that you've already used 
for the shorter term October to January study, or would you 
need some additional assistance to design and implement such a 
study?
    Dr. Kelly. We certainly have the infrastructure in place. 
Our concern is again, the longitudinal followup. We don't know 
all the substances that people have been exposed to. One reason 
we've banked blood is so that if substances become apparent 
that we are unaware of, we will at least have the opportunity 
to go back and check that blood. We're also concerned that 
currently, once members retire, we no longer follow them, and 
therefore it becomes difficult for good followup over the years 
to see how people are doing.
    So that's an area that we have a level of concern and we 
would want to continue that information gathering. Because 
again, this is the most affected group. If we look ahead to say 
how are people going to do, we need to have an ability to 
follow these people as time goes on.
    Senator Clinton. Well, I agree 100 percent. I also believe 
that we haven't up until now done a very good job in our 
country following chronic diseases and conditions in any event. 
It takes a disaster like this to point out the fact that we 
have a system to track infectious disease, but we don't have a 
system to track chronic disease. Maybe this will be the wakeup 
call we need to put such a system in effect, and then to 
correlate that with environmental information. Because the 
interactions which Dr. Thurston referred to is something that 
we just don't know the meaning of yet.
    So I hope that as Senator Lieberman and I go forward with 
additional legislation and hearings on this that we will look 
to the fire department as a real example of what can be done.
    Dr. Thurston, you have mentioned that we do have fiberglass 
found traces of in some of the materials that have been tested. 
As you know, the city announced on Friday the continuing 
presence of fiberglass in indoor dust samples. When somebody 
hears fiberglass, when I hear fiberglass, I find that 
disturbing. In your testimony, you were critical of EPA's use 
of the term safe.
    How, though, can we communicate more effectively? Both you 
and Mr. Goldstein made the point that we didn't communicate 
information effectively. When we hear in the public that 
there's fiberglass, then we hear an agency say that it's safe, 
how do we sort that out? Do you have any guidance on that?
    Mr. Thurston. The issue of fiberglass, there is actually 
more than just a trace of fiberglass in the large particles. 
But fortunately, those are very efficiently caught in the upper 
airways, the nose, throat, the mouth, thankfully they don't get 
deeper in the lungs. Also, fiberglass is very irritating as was 
mentioned. It's also more readily cleared than asbestos from 
the lung, so that it doesn't insinuate itself into the linings 
of the lungs as readily, so that it's not as long a term risk, 
not thought to be as long a term risk as say, asbestos. So it's 
a short-term irritating kind of effect.
    Now, in terms of having something to compare it to, that's 
what I mentioned, we need to look at the standards we have. 
Something like fiberglass, something like asbestos are based on 
a 20-, 30-year exposure to it in an occupational setting. We 
just don't have that here, thankfully. But it's difficult to 
then take that and ramp it back to let's say a 1-year exposure 
and figure out what that means. Because the mechanisms are 
different in acute versus chronic exposure effects.
    So it's a challenging thing. I think it will require, 
again, perhaps a National Academy of Sciences panel or EPA to 
go back and look at their standards and say, how can we set 
these, so that we can set up some criteria by which to compare. 
I think mentioned a few moments ago was the asbestos counts and 
very high counts, when you use techniques that look at the very 
finest asbestos. I think it's a good example of comparing 
apples and oranges. It's led to a lot of confusion and scared 
people, I think in all likelihood excessively. Because the 
standard that was set was counting particles by a method that 
counted the larger particles, larger asbestos, the longer 
fibers, which are the ones that are thought to be the most 
dangerous to health.
    Now, the standard didn't include the little particles, so 
that if you're going to start counting them, then you can't 
compare it to a standard which didn't count them. If you were 
to have, in setting the standard, added in the small particles, 
you would have gotten a much higher level as your legal limit. 
But what people are doing now is they're counting all the 
particles and then they're comparing it to a standard set just 
for the large fibers.
    So that's inappropriate, even if the small fibers, let's 
say, are as damaging as the large ones, which science would 
indicate they probably are not, because they are much more 
easily cleared from the lungs. But even if they were of equal 
toxicity, the standard to compare it to wouldn't be one that 
just counted the ones larger, it would also include the small 
one.
    So that's what we've got to do, we've got to have standards 
that are comparable to what people are out there measuring.
    Senator Clinton. I couldn't agree more, and I think that 
Mr. Goldstein's recommendation that we need to consider changes 
in standards, maybe even need to consider changes in the Clean 
Air Act, is something that we have to take very seriously.
    Mr. Thurston. Well, it's going to be challenging, because 
as you probably know from your experience on the Senate 
committee that looks into this issue, what's required is for us 
to look at published studies of situations and to document very 
carefully. If we don't have the documentation, then we can't 
set the standard.
    Senator Clinton. I understand that, but I guess it's a 
chicken and egg issue. I think that's what's so totally 
frustrating to people, is that we haven't invested enough, in 
my opinion, we haven't invested enough in doing these studies 
and in tracking this information longitudinally so that 
therefore we come up short when it comes time to make 
standards.
    I know we're running out of time, and Mr. Goldstein, would 
you just comment on the whole standards issue?
    Mr. Goldstein. It's clear that this was an unprecedented 
event, and that therefore, the standards that have been 
established under the Clean Air Act might not have been fully 
protective of public health. Among the things that ought to be 
examined are whether there should be some even shorter term 
standard for exposure to high intensity bursts of particulate 
matter on a short standard than the current 24-hour measuring 
standard, whether there ought to be some standards under the 
EPA's Clean Air Act regarding fiberglass, and whether other 
pollutants such as dioxins, which have some 30-year guidance 
values, but are not part of the formal standard setting 
process, ought to be incorporated.
    So it's a complex issue, but it is one we believe this 
subcommittee ought to be thinking about, and that EPA ought to 
be carefully exploring.
    Senator Clinton. Thank you.
    Senator Lieberman. Thanks, Senator Clinton.
    Before we go on to the next panel, Mr. Goldstein, you were 
quite critical of the New York City Department of Environmental 
Protection. They're going to be represented on the next panel. 
I wondered if you wanted to just say a few more words about 
your criticism.
    Mr. Goldstein. Well, ultimately if you examine, I guess in 
terms of for the public, they care less which agency is in 
charge than that some agency is in charge. One of the 
weaknesses here was that many agencies had a variety of 
responsibilities, and many agencies did some good work. But 
there was no single agency in command of the environmental 
health issues where the public could go that would have regular 
briefings and that would be in charge of the whole operation.
    In our view, after reviewing the New York City charter, 
which is our city's constitution, the city Department of 
Environmental Protection had wide-ranging responsibilities to 
respond to environmental emergencies involving hazardous 
substances. In our view, those duties were not fulfilled, and 
therefore, other agencies who would have filled in, 
particularly with the way in which New York City, again, 
magnificently in most aspects of the problem, really ran the 
show at Ground Zero, it made it all that much more difficult 
for State or Federal agencies to step in in a very active way 
when Mayor Giuliani and his team was running this operation in 
the way that the mayor sometimes did.
    So with that in mind, it was a responsibility, we believe, 
of the city's Department of Environmental Protection, working 
with the New York City Health Department, to coordinate all the 
agencies. Someone had to take the lead. In our view, the most 
logical agency to do so would have been the city DEP, to 
coordinate the work of all these other agencies.
    Senator Lieberman. I thank you. I thank all of you on the 
panel very much. You've contributed very significantly to the 
work of this committee. The committee will continue to be 
interested in this matter and try to be constructive in our 
response to it. If there was every any doubt about the 
committee's interest, Senator Clinton will make sure that we 
continue to be interested and respond. I promise you, we will.
    I thank you very much for your time.
    We'll now call the third panel. Ms. Marianne Jackson, 
Deputy Federal Coordinating Officer for the World Trade Center 
Event, Federal Emergency Management Agency; Ms. Jane M. Kenny, 
Administrator, Environmental Protection Agency, Region 2; Mr. 
Carl Johnson, deputy commissioner for Air and Waste Management, 
Department of Environmental Conservation, State of New York; 
and Commissioner Joel Miele, Department of Environmental 
Protection, City of New York, who will be accompanied by 
Commissioner Thomas Frieden of the Department of Health, City 
of New York.
    Thank you all for being here. I ask you if you can, as 
quickly as possible, to find your seats at the table. I'd ask 
folks in the room to try to keep the noise down and we will 
proceed with the testimony.
    The hearing room will come to order. Ms. Jackson, 
representing FEMA, you are first. We welcome your testimony, 
and obviously we'd like to hear a response to some of what you 
heard in the first panel, particularly Ms. Berger's complaint 
about her inability to get assistance from FEMA.

 STATEMENT OF MARIANNE C. JACKSON, DEPUTY FEDERAL COORDINATING 
  OFFICER FOR THE WORLD TRADE CENTER EVENT, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Ms. Jackson. Good morning, Mr. Chairman and Senator 
Clinton. I am Marianne Jackson, Deputy Federal Coordinating 
Officer for the Federal Emergency Management Agency (FEMA), for 
the World Trade Center disaster. I thank you for this 
opportunity to update you on FEMA's disaster response 
operations in New York City.
    Some 3,500 Federal workers were deployed to New York City 
to support the disaster response. About 1,300 from FEMA and 
almost 2,000 from other Federal departments and agencies. There 
are still about 500 Federal workers supporting the city and the 
State on this recovery.
    As you know, FEMA's mission is to reduce the loss of life 
and property protect our Nation's critical infrastructure. Our 
success depends on our ability to organize and lead a community 
of local, State, and Federal agencies and voluntary 
organizations. We provide the management framework, the 
financial resources and the Federal assets to help State and 
local governments.
    Immediately following the attacks on September 11th, the 
importance of air quality and emergency responder health and 
related issues emerged as critically important. Initially, we 
attended daily meetings with the State and the city to discuss 
a wide variety of issues including air quality. We worked 
closely with EPA, the New York City DEP and the New York State 
DEC.
    Under the Federal Response Plan (FRP), we mission assigned, 
that means tasked, and provided funding to EPA to conduct air 
samplings as well as a number of other missions. The health and 
safety of emergency responders was of paramount importance. 
Immediately, various Government agencies, such as OSHA, NIOSH, 
HHS, EPA and State and city agencies, were dispatched to the 
site.
    Federal personnel and teams deployed into the disaster 
area, such as the Urban Search and Rescue Teams, the U.S. Army 
Corps of Engineers experts and medical personnel from the 
Department of HHS arrived with the necessary protective gear. 
We were able to address immediately heath concerns involving 
emergency responders through our coordination with HHS and its 
Public Health Service. Five Disaster Medical Assistance Teams, 
which are MASH type hospital units, were brought in, four 
Disaster Mortuary Teams were brought in, and one Mental Health 
Assistance Team was brought in, in addition to other assets to 
address health concerns.
    Long-term health monitoring was initially funded by FEMA, 
and that's what Dr. Kelly from the fire department described. 
We also included initial tests on 4,000 State emergency workers 
working at Ground Zero, and CDC will continue that effort.
    In another critical area, we provided funding to address 
the long-term mental health of responders and others who may 
have been affected by this tragedy. We coordinated with the 
National Association of Fallen Firefighters to work directly 
with the Fire Department of New York (FDNY) on crisis 
counseling, and we also funded Project Liberty, at $23 million 
at this point, which is a long-term mental health disaster 
recovery program administered by the State of New York Office 
of Mental Health.
    Because of the amount of dust and debris that resulted from 
the building collapses, cleanup of residences and the 
surrounding areas has been a major priority. We provided almost 
6,000 disaster housing assistance grants to both renters and 
owners who lived in the vicinity of the World Trade Center. The 
rent money, we gave renters 2 months rent and owners 3 months 
rent, so they could go some place else and live until they were 
able to get back into their apartments, which in some cases 
were inaccessible for quite a while. We also provided cleanup 
money and we also reimbursed people who stayed in hotels in the 
first couple of weeks.
    New York State administers a program called the Individual 
and Family Grant Program. That program provided grants to 
people to buy HEPA vacuum cleaners, air filters and air 
purification systems for residences. In addition, the voluntary 
agencies provided similar cleanup gear for people. The 
voluntary agencies were also very active and helped with 
cleanup for the special needs population.
    We worked with the city Department of Health through our 
joint outreach teams in distributing to residents flyers 
containing recommendations on actions needed in order to be 
able to safely reoccupy buildings and homes. This flyer 
addressed cleanup and safety and health concerns and was 
developed to facilitate individuals moving back into their 
homes.
    The Small Business Administration offers two kinds of 
loans, economic injury loans, and that's for businesses who 
lost business, to help them stabilize and get their business 
back. But they also provide what are called physical loss 
loans. They provided over 800 loans to both businesses and 
individuals for physical loss. So that meant to repair and in 
most cases, it meant there was money for cleanup.
    Eligible Government clean-up costs and monitoring 
activities are being funded 100 percent through FEMA's Public 
Assistance program, which is aid to Government entities. For 
example, the New York City Board of Education's cleanup of the 
schools near Ground Zero is an eligible expense, and they will 
be reimbursed, as is the cleanup of city vehicles such as fire 
trucks and police cars.
    All of FEMA's work has been created out of the authority 
the Environment and Public Works Committee has provided through 
the Stafford Act. This legislation has served us well and has 
provided the necessary authority and flexibility to empower us 
to do our best. The disaster response and recovery in New York 
City will be a long-term process, but the President has said 
that we will provide whatever assistance is needed to get the 
job done. I can assure you that FEMA will be here as long as 
needed.
    Senator Lieberman. Thanks, Ms. Jackson, for all FEMA has 
done. Do you want to take a moment to respond to what Ms. 
Berger expressed as a concern?
    Ms. Jackson. Yes, I gave Ms. Berger my card, and actually 
she and I had met at one of the many meetings that we've had 
down here since September 11th. I'm going to need, naturally 
I'm very concerned about her interaction with FEMA. She and I 
will talk later. We have to address these situations on a case 
by case basis.
    As I mentioned in my testimony, we have been giving people 
money to clean up, so they can get back in. Additionally, if 
someone has been given rent money and they come to us and say, 
my doctor is saying I shouldn't move back to my residence 
because of a health condition, because psychologically, it's 
very, very difficult for me, then we're going to give them 
additional money so they're not forced to move back into the 
area.
    Senator Lieberman. I'm glad you're going to work with her 
and talk with her. Again, I appreciate what you've done. You're 
absolutely right, FEMA is created by statute that comes out of 
our committee and the documentation of the assistance you've 
rendered here is impressive. I thank you.
    Ms. Kenny, you're here representing EPA. Thank you for 
that, and obviously we want you in your testimony as best you 
can to respond to some of the criticism of EPA, both from 
Congressman Nadler and from Dr. Thurston during their previous 
testimony.

      STATEMENT OF JANE M. KENNY, REGIONAL ADMINISTRATOR, 
           ENVIRONMENTAL PROTECTION AGENCY, REGION 2

    Ms. Kenny. Thank you, Mr. Chairman and Senator Clinton. I 
appreciate the opportunity.
    I'm Jane Kenny, Region 2 Administrator. I do welcome this 
opportunity to discuss our response to the tragic events of 
September 11th.
    Today is February 11, 2002, a mere 5 months after this 
unprecedented event in our Nation's history and 5 months of 
incredibly intense work. So now we now reflect on the impacts 
of the attacks and the extraordinary efforts so many have made. 
EPA and our Federal, State and city partners have all played 
important roles in the protection of public health and the 
cleanup. Today, we look toward the future and the ultimate 
recovery of Lower Manhattan. So I appreciate this opportunity 
to do that.
    EPA and other agencies have taken over 10,000 samples of 
dust, air, drinking water, and storm water runoff at and around 
the World Trade Center site, at the Fresh Kills landfill and in 
New Jersey. We also conducted additional air sampling within 
five boroughs.
    EPA has tested for asbestos, fine particulate matter, lead 
and other metals, volatile organic compounds, dioxin, PCBs and 
other substances that could pose a threat to the public and to 
the workers at the site. Fortunately, the vast majority of our 
tests continue to find levels of these contaminants below 
standards or guidelines set to protect public health. It's 
important to emphasize, as we have from day one, that the risks 
are different for response workers at the World Trade Center 
site. We have repeated said that these response workers should 
wear respirators and other protective gear.
    We have found asbestos fibers in the outdoor air and dust 
samples. Out of more than 5,500 air samples taken at and around 
the site, only 15 have exceeded the Asbestos Hazard Emergency 
Response Act standard we use to determine if children can re-
enter a school building after asbestos cleanup. Of those 15, 
all but 4 were recorded before September 30.
    Where we found elevated levels of asbestos in the dust EPA 
used large HEPA vacuum trucks to clean sidewalks, local parks 
and children's sand boxes. EPA has led the effort to monitor 
the outdoor environment with support from New York State while 
the city has taken the lead for the reoccupancy of buildings.
    EPA has been testing for numerous volatile organic 
compounds or VOCs such as benzene at several sites within and 
near the perimeter of the World Trade Center site. To protect 
workers, EPA takes daily ``grab'' samples of VOCs at ground 
level where smoke plumes have been sighted. These samples 
provide a snapshot of worst-case exposure. The samples are 
immediately analyzed at EPA's mobile laboratory at the site, 
allowing us to relay the results directly to the fire 
department.
    EPA standards and guidelines are set with an ample margin 
of safety to protect public health. Our grab samples from 
Ground Zero have found the presence of benzene at levels that 
have exceeded Federal guidelines. That's why we continue to 
urge workers to wear their respirators.
    However, EPA air samples of pollutants such as benzene 
taken at the perimeter of the site find levels that are very 
low or non-detectable. Dioxin levels were generally below 
health-based guidelines. Once the fires were diminished, 
concentrations of several chemicals declined in most cases to 
non-detectable levels, even at the work site.
    Fine particulates, those smaller than 2.5 microns with a 
few exceptions early on, have also been below the level of 
concern. We do know that materials in construction dust and 
smoke can be irritants. They can cause more serious reactions 
in people with respiratory problems or asthma. Again, this is 
one of the reasons we have recommended that workers wear 
respirators and impacted homes and businesses be properly 
cleaned. Sensitive groups have been advised by the city health 
department and the CDC to take special precautions and consult 
their physicians if they are experiencing symptoms.
    We and the city have tested drinking water and water 
quality in the Hudson and East Rivers. All samples of drinking 
water met Federal standards. Runoff following heavy rain on 
September 14 did show some elevated dioxins, asbestos and other 
pollutants. Followup sampling found levels back to those 
normally found in area waters.
    Almost immediately after these attacks, President Bush 
declared a Federal disaster, and that activated the Federal 
Response Plan. Acting on FEMA's mission assignments, EPA is the 
lead agency for hazardous waste disposal, for monitoring the 
ambient environment, for coordinating sampling data, for 
managing worker and vehicle wash-down operations and initially 
supplying thousands of respirators and other personal 
protective equipment. On September 11th, EPA provided a flyer 
to FEMA for distribution at Ground Zero that emphasized the 
potential from asbestos and urged workers to wear protective 
gear. By September 20, EPA had set up worker wash-down 
operations at the site, at which flyers were distributed and 
signs posted recommending the use of respirators and other 
protective gear.
    In October, EPA began two scientific investigations, a 
health risk evaluation and a comparative toxicological study. 
They will help us better understand the possible health risks 
to people who may have been exposed to various pollutants 
following the disaster.
    In addition, we have supported the Agency for Toxic 
Substances and Disease Registry and the city health department 
in their study of residences impacted by the World Trade Center 
collapse. We are committed to helping residents and businesses 
and employees in Lower Manhattan address their concerns about 
the indoor air.
    From the start, EPA has been committed to sharing the 
results and explaining what they mean. I must say, under 
incredible circumstances, having witnessed the attacks and 
having been evacuated from our Lower Manhattan offices, EPA 
staff began sampling, analyzing, interpreting and conveying 
environmental data to the first-line response agencies, the 
press and the public. Those results are available in summary 
form every day on our website and in detail at our offices in 
Lower Manhattan.
    As we look to the future, we will work with our Federal, 
State and city partners and Congress, on science-based 
approaches that ensure that public health is protected. I have 
to say, I'm proud of the many dedicated people at EPA who have 
worked tirelessly to protect the health of all New Yorkers in 
the wake of this unprecedented event.
    Mr. Chairman, thank you for helping me give you the 
information that you need.
    Senator Lieberman. Thanks, Ms. Kenny. We'll wait until the 
question and answer period, I'll come back to some of the 
questions that have been raised.
    Mr. Johnson, on behalf of the State. Thanks for being here.

STATEMENT OF CARL JOHNSON, DEPUTY COMMISSIONER, NEW YORK STATE 
            DEPARTMENT OF ENVIRONMENTAL CONSERVATION

    Mr. Johnson. Thank you, Mr. Chairman, thank you, Senator 
Clinton, for providing the New York State Department of 
Environmental Conservation with the opportunity to testify 
about our efforts to assist the residents and businesses of 
Lower Manhattan to recover from the devastation that was caused 
by the destruction of the World Trade Center.
    We share with Governor Pataki and our sister agencies the 
highest level of commitment to managing the cleanup, and we 
appreciate the excellent coordination among all levels of 
Government involved in this effort. I'm going to be brief, 
because our role primarily has been one of support and 
collaboration with EPA and the city agencies. I do want to say 
that we often engage in friendly collegial competition, and in 
some cases, we oversee city agencies, in some cases EPA 
oversees our programs. There are opportunities for friction 
there.
    Throughout this process, I have never seen Government 
agencies work together, collaborate, confer, communicate at the 
levels that we have been involved in since September 11th. It 
started immediately and has been ongoing through that time. I 
think to the extent that we have success stories to tell, it's 
as a result of the dedication of the professionals in all of 
our agencies.
    As soon as possible after the attacks the New York State 
DEC began to work with the other agencies to monitor and assess 
the environmental impacts from the devastation. We all have 
slightly differing roles. We established a multi-jurisdictional 
air monitoring group to coordinate that effort, which initially 
focused on worker safety and then began to work out from the 
site to try to learn what we could about the conditions for the 
residents and the workers returning to the area. We did 
identify specific monitoring needs and we put them in place in 
the process of collecting that information. Ms. Kenny has 
spoken to that, I'm sure we'll talk in more detail about that.
    Certainly, we had an existing PM<INF>2.5</INF> and 
PM<INF>10</INF> monitoring network. We expanded on that to try 
to give us more information about the conditions in Lower 
Manhattan and throughout the city. We adapted a number of those 
monitors for asbestos because we had information very early on 
that asbestos was present in one of the towers. It was 
something that obviously would be of concern to the citizens of 
New York.
    We worked together with EPA in consultation to determine 
what standard we could use. Dr. Thurston I think spoke ably to 
the question of apples and oranges. There is no outdoor quality 
standard for asbestos, because it's never happened before. We 
worked very, very carefully to try to determine what we could 
do that was already scientifically tested and acceptable and 
apply it to an outdoor situation. It was a bit of a struggle to 
do that, but we have continued to apply that, and I think we 
can say with certainty on the outdoor air quality that we have 
not seen issues with regard to asbestos, a few exceedances or 
excursions in the early days, and since then, we do not believe 
that breathing the outdoor air causes any issues.
    The particulate matter, we have sampled for both 
PM<INF>2.5</INF> and PM<INF>10</INF> is ongoing, as I said. We 
expanded that. We added five new monitoring sites in Lower 
Manhattan, both continuous air quality monitoring devices, 
which gives the results people are looking for, I think on more 
of a real time basis, and filter based, which are more 
sensitive, more analyzable, can be archived and re-examined 
later on. But obviously they don't give you the air quality 
results that you want in that day.
    To date, as Ms. Kenny said, in the particulate levels in 
Lower Manhattan, as well as throughout the rest of the city, we 
have not seen significant increases. Certainly in the early 
weeks after the attack, there were elevated levels of 
particulates. As we hoped and expected has happened, those have 
come down.
    We are also involved in the field work for dioxin 
monitoring. We know any time you have a source of uncontrolled 
combustion, you can certainly expect to see some levels of 
dioxins. Folks were worried about that. We established the 
monitoring for that as well, in conjunction with EPA. We have 
seen similar results, that in the early days and when the fire 
was still burning, we saw some levels of dioxins that have 
since fallen off. That gives us some confidence.
    The concerns about irritations and odors in the area are 
certainly the trickiest when it comes to air quality. We spent 
some effort with EPA and some of its specialized staff in 
trying to determine additional monitoring that could be done to 
look for some of the irritants and to study what sorts of 
previous models we might learn from. I think one of the things 
we learned is we haven't really had a long-term building fire 
before to study and to determine what comes from these. Most of 
our models have been in other areas.
    So we have established additional contaminants that we 
began monitoring for. Again, we primarily service monitors and 
provide the information to EPA. We're going to maintain those 
activities until the effort is completed and until we can 
assure people that we have some sense of what came from the 
pile and what effect it may have had on their health.
    I would be remiss in speaking before the Senate if I didn't 
mention that the State will soon be before both Houses looking 
for assistance in solving an issue that we have as a result of 
the World Trade Center with regard to transportation conformity 
and the Clean Air Act. We're working to assure the 
environmental community and the citizens that while we do 
believe we need some relief in the planning requirements under 
that, that we by no means intend for it to have any negative 
environmental or air quality impacts whatsoever. We're working 
aggressively and frequently with the environmental community to 
bring forward a proposal that we believe both Houses would be 
able to support.
    I did want to speak just briefly to the issue of the diesel 
truck emissions that's been raised a couple of times. The State 
has been using its authority under a State idling regulation to 
prevent idling. We've been as aggressive as we can be in making 
the drivers turn off the engines when they're in an idling 
situation. It's not allowed for more than 3 minutes in the 
city.
    We have also been working in a multi-jurisdictional effort 
to try to bring relief to the site in the form of both lower 
sulfur fuel for the site and to try to bring some particulate 
traps and other control technologies to some of the equipment 
of the site. We didn't begin this until January or so, we are 
working very diligently with virtually ever city agency that 
has any responsibility at the site and with the Northeast 
States for Coordinated Air Use Management and EPA. We're trying 
to bring a proposal forward. We have found that this is very 
complex, but we are still moving forward on trying to bring 
some relief from the ongoing operations at the site.
    I just want to thank again the subcommittee. We appreciate 
being here.
    Senator Lieberman. Thank you, Mr. Johnson.
    Commissioner Miele, thank you for being here, and I would 
urge you to respond to the critique from Mr. Goldstein, and to 
some extent from Congressman Nadler, who said in his statement 
that EPA had delegated authority to the city for indoor 
environmental consequences and had not followed up to make sure 
that the city's response was appropriate.
    Dr. Miele. Senator, if I may, the city has two responses. 
Dr. Frieden would like to lead off, if that's all right with 
you.
    Senator Lieberman. OK. I'd urge you to try to be as concise 
as you can, because time is running on and we've got a final 
panel to go.

 STATEMENT OF THOMAS R. FRIEDEN, M.D., COMMISSIONER, NEW YORK 
CITY DEPARTMENT OF HEALTH; ACCOMPANIED BY: JOEL A. MIELE, SR., 
    COMMISSIONER, NEW YORK CITY DEPARTMENT OF ENVIRONMENTAL 
                           PROTECTION

    Dr. Frieden. Good morning. We do appreciate the opportunity 
to be here today.
    Since being sworn in as health commissioner by the new 
administration, less than 2 weeks ago, I have reviewed the 
activities of the New York City Health Department and other 
agencies since the first day of the disaster. I would second 
what my State colleague has said. One of the most vivid 
pictures to emerge is one of unprecedented cooperation between 
local, State and Federal health, environmental and occupational 
agencies. The teamwork is quite extraordinary.
    Following the attack, the City Health Department had a 
multifaceted role. The health department immediately 
established systems to monitor first, emergency departments in 
the immediate vicinity to assess acute injuries; second, 
hospital staffing and equipment needs; third, illness and 
injuries among rescue workers; and fourth, unusual syndromes 
that might represent a bioterrorist event.
    Other responsibilities included ensuring water and food 
safety in the immediate area, conducting rodent and vector 
control, initiating a worker safety program and providing 
regular advisories to the public and medical community. The 
Department also facilitated development and coordination of 
environmental sampling plans.
    Many individuals were exposed to large amounts of smoke, 
dust, and airborne substances. The potential release of 
contaminants during and after the disaster was a primary public 
health concern from the beginning. Air monitoring was 
established immediately, and continues. The Health Department 
reviews the numerous air quality, debris sample results and 
personal air monitoring tests being conducted by various 
agencies. The data from air quality tests thus far have been, 
in general, reassuring. None of the test results done to date 
would indicate long-term health impacts.
    The numerous substances of potential concern have led to 
some confusion about health effects over the short and long 
term. Some substances, such as the particulate matter from the 
dust or smoke in the air, are irritating but are not expected 
to have long-term health effects. Other substances, most 
notably asbestos, are not expected to have short-term effects, 
but if elevated over long periods of time can cause serious 
health effects.
    Asbestos was a known building component in the World Trade 
Center. Asbestos levels in the air at and around the site in 
the first few days were elevated. Fortunately, since that time, 
except for a few transient spikes found in outdoor air 
sampling, asbestos levels have been low and within standards.
    With funding from FEMA, the Department of Health and the 
Federal ATSDR conducted a study of both air and dust samples 
taken in November and December of 2001 at 30 residential 
buildings in Lower Manhattan. As soon as we received the final 
results from ATSDR, we released them to building residents and 
owners and to the public. We will continue to release results 
as soon as they become available from ATSDR.
    This study showed no elevated levels of asbestos in indoor 
air. Dust sample tests showed low levels of asbestos in some 
samples and fiberglass in some other dust samples. Asbestos and 
fiberglass can be a problem if they become airborne. Airborne 
fiberglass can cause cough and skin, throat and eye irritation. 
While these findings are not unexpected, they underscore the 
importance of proper cleaning to minimize exposure, as the DOH 
has repeatedly emphasized.
    I would add that the use of wet wiping is an important and 
effective means of making our homes safe, and statements to the 
contrary are unhelpful.
    The standards used are conservative. For example, for 
asbestos in outdoor air, we are using the indoor air quality 
standard for reentry into a school after asbestos removal. 
Stringent standards are also being used for other substances in 
outdoor air, such as dioxins, identified at the perimeter of 
the site. Both duration of exposure and concentration of the 
substance are important to determine health effects.
    Many standards which we are applying were based on 
exposures for prolonged periods of time. The long-term health 
risks associated with short-term exposures are not well 
documented, but are generally believed to be quite low.
    As fires at the WTC site burned far longer than 
anticipated, many residents living and working in the 
community, in particular rescue workers, have reported health 
effects, such as acute breathing problems, worsening of asthma, 
eye, nose, and throat irritation, nausea, and headaches. Many 
residents also continue to experience significant psychological 
and stress-related illness and anxiety.
    Students of Stuyvesant High School, who returned to their 
school on October 9, 2001, reported similar complaints. A DOH 
analysis shows that the average daily rate of headaches, 
respiratory, skin, eye, and throat complaints at Stuyvesant was 
higher than in the previous year and higher than in four other 
New York City public high schools. The data also show that 
complaints decreased from October to November 2001. We will 
continue to monitor this situation.
    The department has been working with the Centers for 
Disease Control and Prevention to develop a protocol for a WTC 
Registry. Since September 11th, we have all had to live in a 
world of greater uncertainty. While we know that the air meets 
safety standards today, we cannot state unequivocally that 
there will be no long-term health effects of exposures on or 
around September 11th. We simply do not know. For that reason, 
rapid funding and implementation of the registry is 
particularly important. The registry will enable scientists to 
evaluate the long-term health effects as objectively and 
comprehensively as possible.
    But with every day that passes, implementation of a 
registry becomes more difficult. We therefore urge our 
colleagues to avoid any further delay in this very important 
project which you have spearheaded.
    Finally, the City Health Department recognizes residents' 
concerns and will continue to work closely with local, State 
and Federal agencies to monitor air quality and to inform the 
public of findings as soon as they are available. Together with 
the City Department of Mental Health, which is also under my 
jurisdiction, we are addressing residents' mental health 
concerns by promoting the ongoing Project Liberty program, a 
statewide disaster-recovery initiative that offers free crisis 
counseling, education and referral services. DOH will continue 
its community outreach and education efforts.
    Now I would like to turn to Commissioner Miele.
    Dr. Miele. Thank you, Dr. Frieden, Senator Lieberman and 
Senator Clinton. It's a pleasure to be here. My name is Joel 
Miele, and I'm the commissioner of the New York City Department 
of Environmental Protection.
    In addition to the DEP's operation of the city's sewer and 
water systems, which by the way withstood the attack well, our 
expertise in regulating asbestos in New York City was a 
significant portion of our responsibilities following September 
11th. Since 1985, DEP has been the New York City agency with 
responsibility for regulating asbestos abatement. Starting 
September 12, DEP operated a network of outdoor air monitors 
that have been used for monitoring outdoor asbestos levels. 
Aside from repairing water and sewer infrastructure, assessing 
and mitigating risks caused by the presence of asbestos-
containing material has dominated DEP's work in responding to 
the Trade Center attack.
    Since September 11th, DEP or its contractors analyzed 3,060 
samples from 37 outdoor monitoring sites in Lower Manhattan; 
500 samples collected adjacent to the four schools in the 
vicinity of the Trade Center; and 328 samples taken in the four 
boroughs of the city outside of Manhattan. The map and all 
sampling results to date from the sites shown on this map are 
available to anyone on DEP's website: www.nyc.gov/dep.
    Of these samples, only 9 of the total of 3,864, or \2/10\ 
of 1 percent, exceeded the Federal re-occupancy standard for 
indoor air. These nine samples were all taken in the vicinity 
of Ground Zero. As Commissioner Frieden noted, there is no 
established standard for asbestos in outdoor air. Unlike carbon 
monoxide, nitrogen oxides and other gases whose presence in 
outside air is regulated under the Clean Air Act, asbestos is a 
once-prevalent building material, and previous work at 
standard-setting has focused on establishing safe levels for 
asbestos within buildings.
    On September 12, when my colleagues and I at all three 
levels of Government were creating our monitoring networks, we 
knew that there were no reliable, scientifically based, 
acceptable standards that would tell us what level of asbestos 
in outdoor air might be considered ``safe'' or ``unsafe.'' 
Therefore, we opted to use EPA's indoor post abatement re-
occupancy of schools standard as our threshold level of concern 
since we felt it was more protective.
    Let me briefly explain our sampling methodology. The 
samples are collected on filters and examined under Phase 
Contrast Microscopy utilizing a specific method developed by 
the National Institutes for Occupational Safety and Health. The 
PCM analysis counts all fibrous particles, including asbestos. 
PCM sample results are compared to the clearance/re-occupancy 
standard for indoor air following an asbestos abatement 
project. This standard is 0.01 fibers per cubic centimeter. 
Samples found to be above this standard are re-examined using 
Transmission Electron Microscopy. The TEM analysis identifies 
the type of particles collected. TEM results are compared to 
the clearance/re-occupancy standard for indoor air in schools 
after an asbestos abatement project. This standard is 70 
structures of asbestos per square millimeter. The standard was 
established pursuant to the Federal Asbestos Hazard and 
Emergency Response Act, also known as AHERA.
    Based on all Federal, State and local test results, public 
health experts have consistently expressed confidence that, 
based on sampling, airborne asbestos levels do not pose a 
threat to human health. Health professionals have stated that 
short-term exposure to airborne asbestos, at levels equal to or 
lower than 0.01, carries an extremely low risk of causing 
asbestos-related illness.
    Before allowing occupants in any residential or commercial 
building near the Trade Center site, the city's various 
agencies, acting through its Office of Emergency Management, 
required building owners to take the following steps. Assess 
the building's structural strength and stability using 
qualified professionals. Restore gas and electrical service. 
Restore building water service, including flushing, re-filling 
and cleaning roof tanks where necessary. Assess the presence of 
hazardous materials such as asbestos, and remediate as required 
under applicable city regulations using qualified 
professionals. Finally, inspect, clean and repair mechanical 
and HVAC systems.
    While property owners were accomplishing these tasks, DEP 
and its sister agencies, again acting through the Office of 
Emergency Management, assumed responsibility for cleaning 
streets, sidewalks and common areas so that there was a safe 
outdoor environment to reach the buildings for contractors and 
workers who were retained by owners and managers to effect all 
necessary exterior and interior cleanup of private buildings. 
To assist property owners, DEP engaged in the following tasks, 
among others.
    Developed and distributed advisories to building owners and 
occupants; established HELP lines for concerned owners or 
tenants to respond to complaints or concerns about proper 
abatement procedures for contractors; provided telephone 
consultation to building owners, contractors, consultants and 
tenants related to asbestos cleanup; performed site inspections 
and conducted building surveys; reviewed sampling data 
submitted by building owners, their contractors and 
consultants; reviewed the scopes of work for cleanup of 
asbestos-containing material; and developed emergency 
certification procedures and offered daily certification exams 
to ensure a properly trained and qualified work force was 
available.
    Although city, State and Federal agencies have provided 
oversight and guidance on interior cleanup, that task remains 
the responsibility of building owners and occupants. For 
example, some building owners identified the presence of 
asbestos-containing material during their assessment for 
hazardous materials in areas of the buildings under their 
control. Once material is identified as ACM, New York City 
rules require that a licensed contractor with certified 
asbestos workers perform the cleanup activities.
    As noted above, DEP technical staff has been continuously 
available to assist in the development of plans for handling 
asbestos cleanup activities. At the completion of the cleanup 
activities, the city's regulations require clearance air 
sampling by licensed professionals prior to allowing re-
occupancy of areas where asbestos work had been performed.
    The city, through the Office of Emergency Management, looks 
forward to working with Senator Clinton in developing an 
improved indoor air quality program. With respect to the 
question that was raised earlier by Congressman Nadler and Mr. 
Goldstein, the issue of the DEP, the agency's name tends 
unfortunately to be a little bit of a misnomer. The agency is 
primarily involved in running and operating the water and sewer 
systems of the city of New York. The staff available for 
asbestos and hazmat, while adequate except in the case of a 
catastrophic such as occurred here, has always been adequate 
for the services that we've needed, whether it was for asbestos 
abatement or the occasional hazardous materials situation that 
arises.
    I appreciate the opportunity.
    Senator Lieberman. Thanks, Commissioner. So did EPA 
federally make a mistake in reaching a judgment that the city 
environmental protection department was in charge of indoor air 
quality?
    Dr. Miele. No, I think what they really meant by that was 
that the outdoor air quality had been checked. It was very 
clear to us in our daily meetings, and we met, all three levels 
of government, each day for as much time as it took to 
understand what was occurring in the past 24 hours and to 
decide what we were going to do in the next 24 hours.
    But essentially what happened, as you've heard here 
already, the outside air immediately started clearing up 
dramatically. There was a steep drop in the curve. By the time 
we permitted people to go back into the interior buildings, we 
were very comfortable that the level of materials outside were 
well below the regulatory standards.
    Consequently, when the buildings were entered, they were 
entered not by the occupants, but by qualified experts to 
determine whether there was an air problem within the buildings 
or not, and whether cleanup was required. That work was done in 
each case. What we did after that is, when the public was 
allowed back in, after we were comfortable with the material 
that had been done and we knew the buildings had been cleaned, 
the owners then permitted reoccupancy.
    If any tenant had any question, they could call us, did 
call us on occasion. We would come out, we would question the 
results, take a look at the results of the cleanup that had 
been done, and the air testing that had been done, and if we 
had any questions, we did our own air testing. There were only 
minimal situations where that occurred, and in each case where 
it did occur, we were comfortable that the air was acceptable.
    Senator Lieberman. So you're testifying that----
    [Interruption from audience.]
    Hold on, we'll come back to you.
    You're saying that every building was tested, every 
building had its indoor air tested before people were allowed 
to go back in.
    Dr. Miele. That's the city regulation. That's correct, sir.
    [Interruption from audience.]
    Senator Lieberman. We're going to come back to you. Hold on 
a second.
    Ms. Kenny, Congressman Nadler made some very direct and 
serious challenges to the EPA, and I want your response. The 
first is, that EPA Administrator Whitman misled the public on 
September 18 last year, when she said she was glad to reassure 
the people of New York that their air is safe to breathe and 
their water is safe to drink. She made the statement without 
the indoor data necessary to make such a pronouncement.
    Dr. Thurston seemed at least in part to corroborate 
Congressman Nadler's statement when he said that EPA gave 
assurances prematurely, before there was adequate evidence to 
justify them. Do you agree?
    Ms. Kenny. The procedure under this kind of an emergency, 
and obviously, we've never experienced this kind of emergency 
before, but the Federal response plan, once the President 
declares a national emergency, the Federal response plan is 
what the Federal agencies follow. We basically decided as our 
agencies got together, there was a mutual agreement with the 
city of New York, and with the Federal agencies, what each role 
would be, trying to use our resources in the best possible way, 
as efficiently as possible in terms of getting people out to do 
the work that needed to be done.
    It was agreed that EPA would monitor and immediately began 
to set up monitors. I have to say that we used the most 
extensive data ever. We never had more extensive testing than 
was done in this particular case. That was the statement that 
was made, was basically about walking around in Lower 
Manhattan. We always said that if you were a sensitive 
population or if you were right on the pile, that you should 
protect yourself or you should see a physician. But in terms of 
what the others have testified to, the outdoor air that we were 
testing was showing low- or non-detectable levels, except for a 
couple of spikes which I mentioned in my testimony.
    So I think that there was a lot of confusion. I think 
people understandably were confused about what exactly was safe 
and not. I think there is a lot of uncertainty. We never have 
dealt with this kind of issue before. Don't forget, there were 
seven stories of debris that people were working through at 
that particular time, right after this event.
    I think we just have to remember going forward who the 
enemy is. The people in public service were basically trying to 
do the best that they could to make the kinds of determination 
to protect the public health. Obviously, we need to continue to 
work together. We need to continue to work as Federal agencies, 
we need to work with Congress, we need to work with the city to 
determine what the next steps are and how to protect people 
that are feeling unprotected and uncertain right now.
    Senator Lieberman. So you would reject the criticism that 
Administrator Whitman gave premature reassurance about air 
quality before it was justified?
    Ms. Kenny. Again, I think what I want to make sure is that 
what Administrator Whitman was talking about was the outdoor 
air that was based on extensive sampling, air quality 
monitoring in Lower Manhattan and the boroughs, at the Fresh 
Kills, all those samples that were coming in. We can show you 
what we have seen, and obviously in terms of what we didn't 
know when those buildings came down with those tremendous fires 
and etc., we didn't know what that air would be like. After a 
certain amount of testing, we saw that the levels of the 
particulates that we were testing for, the asbestos, etc., they 
happened, they were based on data collected using sound 
science.
    We always said, and I know I said it, that people right on 
the pile should protect themselves, and people that are 
vulnerable, that have asthma or are prone to that should see 
their physicians. But in terms of that outdoor air that we were 
talking about, yes.
    Senator Lieberman. I'm hearing you say that while the 
Administrator's comments may have been confusing, they were not 
intentionally misleading.
    Ms. Kenny. Absolutely. I think there was, again, I don't 
know whether the comments were confusing to everyone or not. I 
know that people are confused about what is healthy for them. 
I'm a parent, I understand that. It's certainly something that 
is not hard to imagine. It was a scary time; people were 
hearing different things.
    In the EPA, we did countless public meetings. We spoke to 
the press every day. We were constantly saying what I've said 
to you. But sometimes you can't hear this, because it really is 
so terrifying. You want to know, you want to have certainty.
    I have a scientist with us today from EPA who can talk 
about the science. We can talk about--there are just so many 
emotional issues attached to it. When we actually remember what 
we're talking about, there was not a lot of immediate concern 
about being at risk. We know there was a risk posed by the 
events of that day.
    Senator Lieberman. Let me ask one more question, and then 
yield to Senator Clinton. Congressman Nadler said some very 
troubling data, just in yesterday's St. Louis Post Dispatch, 
about the U.S. Geological Survey, using best detection 
equipment and methods, found pH levels in World Trade Center 
dust that are ``as corrosive as drain cleaner'' and passed this 
information along to health experts at the EPA. The argument, 
the charge here is that the USGS data was not released by EPA 
nor apparently were the environmental agencies' own test 
results on the dust. That's a serious charge. That last quote 
is not from Congressman Nadler, but from the reporter, Pulitzer 
prize-winning environmental journalist, Andrew Schneider.
    What is your response to that?
    Ms. Kenny. Yes, again, there were, certainly it was 
consistent with our findings that there was a high level of pH, 
that was alkaline, that is an irritant.
    Senator Lieberman. Do you agree that it's as corrosive as 
drain cleaner?
    Ms. Kenny. I'm sorry, I can't address that. I don't know.
    But it actually does present one explanation why residents 
felt the kind of irritation that they felt. It was consistent 
with all the information. Our understanding was that USGS did 
publish this information and it was available on their website, 
etc. We didn't do that kind of sampling, because that had been 
done.
    Senator Lieberman. So you're saying, from your knowledge, 
and I ask you to go back and speak to the folks in Washington 
about this, you were not intentionally concealing this 
information, it was just assumed it was already published by 
the U.S. Geological Survey?
    Ms. Kenny. Absolutely.
    Senator Lieberman. Is that what your answer is?
    Ms. Kenny. Yes, that's my answer.
    Senator Lieberman. OK, Senator Clinton.
    Senator Clinton. Ms. Kenny, Congressman Nadler has sent a 
letter as of January 23 to Administrator Whitman with a lot of 
the questions that flow from his work and the concerns of our 
constituents. Would you reassure or I guess assure this 
committee that you will do your best efforts to get that letter 
responded to?
    Ms. Kenny. Absolutely, Senator.
    Senator Clinton. I think that Congressman Nadler deserves a 
rapid response, and it's been some weeks since then.
    With respect to the issues that Senator Lieberman was 
discussing with you, I think part of the problem that we 
confront is the competing information and the feeling that 
somehow this information is not being made available, or that 
the EPA is not providing a contrary point of view, so that 
people can have an opportunity to make a judgment. That's not 
only true with respect to the U.S. Geological Survey, but also 
as Congressman Nadler pointed out, the Ombudsman of the EPA, 
Robert Martin, who has made, as I'm sure you know, a number of 
charges and challenges about the EPA's work.
    I would appreciate being given a very clear explanation of 
the Ombudsman's points of view and concerns with a response 
from the agency, so that we can evaluate it. I know that 
Congressman Nadler joins me in that request.
    I think one of the issues that is just still very confusing 
and frustrating, and it goes to the authority and sharing of 
authority between the EPA and the DEP, and that is, the burden 
that is placed on the first instance on the city to supervise 
indoor air, and then in the second instance, it really devolves 
onto the landlords and residents to have to do a lot of that 
remediation themselves.
    Commissioner, in your response, and I know we had some 
vocal audience members who responded to what you said, you said 
that's the city regulation. But can you sit there today and 
tell us that every landlord and every building complied with 
the city regulations?
    Dr. Miele. No, I can't tell you that. But the reason for 
that, in large measure, has been the fact that we've let people 
back into the buildings, that is to clean up the buildings, and 
then when we're comfortable that they've got the tests, let 
people back in. One of the things we did to try and facilitate 
it was to let people get back in when we were comfortable that 
they had cleaned up the buildings but before they had submitted 
the formal permit application to us and gotten the permits from 
us. Same reason why we tried to expedite the licensing of 
personnel who could be qualified to do the cleanup.
    We were overwhelmed, obviously, by the amount of area and 
square footage that we obviously had to deal with. We had to 
come up with some methodology to do that. We have the addresses 
for each of those buildings, and anyone who has a question or 
an inquiry as to whether their building was in fact cleaned up 
could certainly get in touch with our agency and we'd be very 
pleased to provide them with the information. Obviously, if 
anyone fell through the crack, we certainly want to get at that 
and find out how that happened and see that it is corrected.
    Senator Clinton. I appreciate that, Commissioner. One of 
the recommendations that I've made is that we work together on 
an indoor air quality task force. Because I do think that 
residents and people who work downtown deserve accurate 
information. Given the overwhelming nature of the demands that 
were placed on your department, the fact that I think you very 
forthrightly have said, you're a sewer and water department 
primarily, so we may need to look not only at what was done but 
what could be done. I think that residents and others need to 
be sure to get that information.
    What number would people call to have their building 
checked?
    Dr. Miele. They can call 718-DEP-HELP.
    Senator Clinton. Seven one eight, DEP-HELP?
    Dr. Miele. DEP-HELP, that's our help line. If they have any 
difficulty with that whatsoever, they can call my office. My 
office is 718-595-6565. We'll direct them down to air resources 
and they'll take care of the problem.
    Senator Clinton. I think you're going to have some calls, 
Commissioner.
    Dr. Miele. That's fine. That's what we've been encouraging. 
We also have a website, and you can get to us at the website, 
also.
    Senator Clinton. What's that website?
    Dr. Miele. That website is NYC.gov/dep.
    Senator Clinton. OK.
    The last question that I have, because I know we're going 
to need to followup with both EPA, the city and the State. But 
I just wanted to direct the last question to Ms. Jackson with 
FEMA. You know, when I look at the numbers of requests that 
came in for assistance and those that were deemed ineligible, 
it seems like quite a high proportion were denied. I know that 
in the Senate, the Small Business Administration Committee 
chaired by Senator John Kerry has been concerned and 
complaining that it didn't appear that SBA had acted with the 
same kind of dispatch or results as we saw in other disasters.
    What I would like as part of the hearing record, Ms. 
Jackson, if we could get some comparative figures. Because just 
the figures we've gotten so far and the complaints that my 
office receives suggests that perhaps we're not getting the 
same kind of eligibility numbers in the wake of this disaster 
as we have in others. I would very much like to get that 
information.
    Do you have an immediate response to that?
    Ms. Jackson. We would be delighted to provide it for you, 
Senator. We've been urging people to call the FEMA 800 tele-
registration number. Many of them are calling, over 59,000 have 
called to date. Some of them who are calling get referred to 
other programs, based on what they tell us, they're referred to 
disaster unemployment assistance or the regular State 
unemployment assistance. It depends on what all their 
requirements are at that time.
    The Small Business Administration is a sister agency. We 
work with them on disasters all the time. They are very, very 
fast. They got here quickly, they set up sites in Chinatown.
    But I will be happy to provide you with that followup 
information.
    Senator Clinton. I thank the panel, and I know that we've 
got many other questions. I hope we're going to be able to have 
a followup hearing based on what we've learned today and when 
we evaluate the additional information we've received. I 
appreciate very much Senator Lieberman's attention to these 
issues.
    I think we do need some changes in the Stafford Act. I 
think we do need some changes in the way we address these 
disasters. I don't think it's appropriate to put the burden so 
completely on residents and owners as we have, since it raises 
public health issues that affect people more generally. So I'd 
like to work with you, Senator Lieberman, on these issues.
    Senator Lieberman. Senator Clinton, I think you're right on 
target. I must say that this was obviously an unprecedented 
event. The city and the various emergency response efforts seem 
to me to have been extraordinarily well coordinated. There were 
some practice, if you will, done under Federal programs earlier 
on. I'm not convinced that the environmental response was as 
well coordinated to this unprecedented experience as the rest.
    I think we've got an obligation to work with you, Federal, 
State and local agencies, to make sure if, God forbid, this 
ever happens again anywhere, that we have the same level of 
coordination and that it is long term, it is immediate but it 
is also long term because of the health consequences. We're not 
organized here to have a lot of questions from the audience. I 
think Senator Clinton got at one of the questions broadly that 
concerned folks. I've got another that I'm going to ask you, 
Commissioner Miele.
    But I would invite people who are concerned and feel we 
haven't answered the questions, submit them to Senator Clinton 
and me. We'll put them to the witnesses and ask for their 
responses in writing, which will become part of the record.
    Here's the final question, which did come from somebody who 
is here, a resident, I presume. Why did the DEP accept 
landlords' claims that there was no asbestos present when 
aggressive air monitoring was not performed and some of the 
independent tests done by tenants in fact did show asbestos?
    Dr. Miele. Well, that's an individual decision. But the 
bottom line is that if there was any break-in or entry, 
fracture of glass, open doors or what have you, then there's 
undoubtedly dust throughout the building. If there was dust 
throughout the building, the owner had to hire someone to 
evaluate that who was competent and professional, and he had to 
hire a certified cleanup team.
    The bottom line is that if there was a building that was 
closed that did not get anything in it, it's conceivable that 
if an air monitoring professional came down and tested the air, 
and found nothing in the air, the owner may not have had to do 
any abatement. I can't conceive of that happening. But it's 
conceivable.
    Senator Lieberman. OK. We will welcome other questions in 
writing. We will submit them to you. We're going to keep the 
record of the hearing open for 3 weeks and ask for your 
cooperation in responding.
    For now, I thank you for your testimony, which helps us to 
do better the next time around.
    The committee will stand in recess for 10 minutes, and then 
we'll come back to the fourth panel.
    [Recess.]
    Senator Clinton [assuming the chair]. We're going to 
reconvene the hearing. We have a very important panel with a 
lot of viewpoints and concerns that we haven't heard from yet. 
I want to thank all of the witnesses for coming. I want to 
reiterate my request that if you have specific questions, 
concerns, statements, that you would like to submit from the 
audience, from a group you represent, on behalf of yourself, 
please, we'll leave the record of this hearing open for 3 
weeks. I believe we've given information about how people can 
get that to us.
    If you submit questions, you may e-mail them to the 
committee clerk at Duane<INF>--</INF><a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90dee9e3e4e2fffdd0f5e0e7bee3f5fef1e4f5bef7ffe6be">[email&#160;protected]</a> 
The record of this hearing will be published and available to 
the public at http://www.senate.gov, at the link to the 
Committee on the Environment and Public Works. We will keep it 
open, the hearing record, until February 25, 2002.
    I am delighted to see a lot of my friends and colleagues 
here on this panel who have a very specific perspective that I 
want to be sure to be in the record and to be publicly 
recognized. Because it's such a large panel, we're going to try 
to keep everybody to the time limit of 3 minutes, give or take 
a little bit of time, so that everybody will have a chance to 
be heard.
    Our first witness will be Mr. Tom Scotto, president of the 
Detectives Endowment Association.
    Mr. Scotto.

STATEMENT OF THOMAS J. SCOTTO, PRESIDENT, DETECTIVES ENDOWMENT 
       ASSOCIATION, INC., NEW YORK CITY POLICE DEPARTMENT

    Mr. Scotto. Thank you, Senator.
    Based upon some of the remarks I've seen here this morning, 
and in the press conference, I think it would be wise for this 
committee to just focus on doing what is beneficial for 
everyone, and not look at the finger pointing and accusations. 
As a result of what happened on September 11th, I witnessed 
people from all over this country coming together and putting 
their best foot forward to make things work. Whether there were 
some shortcomings or not that eventually developed from their 
efforts, I'm sure they were all well intended.
    Having said that, on behalf of myself and the members of 
the New York City Police Department, I wish to express our 
appreciation to this committee for affording us the opportunity 
to express our concerns regarding the aftermath of the tragic 
events of September 11th. Since that date, members of the New 
York City Police Department have worked around the clock at the 
World Trade Center and the Staten Island Landfill.
    As such, they have been exposed to a number of identifiable 
toxic substances and perhaps hundreds of other combinations of 
these toxins that may never be identified, and the long-term 
health effects of which are still unknown.
    The major concerns of police officers can be grouped into 
four categories. No. 1, the development of a uniform procedure 
to provide physical exams over an extended period of time to 
monitor the overall effects of their exposure to the elements 
at Ground Zero and Staten Island Landfill. No. 2, assuring 
essential and required medical treatment within the basic 
health coverage provided by the city.
    No. 3, in recognition of the fact that many of the 
illnesses which result from contact with toxic substances can 
take in excess of 10 years to appear, we should revise the 
current pension provisions to protect the families of those who 
retire and then may suffer a disability and/or terminal illness 
as a result of their exposure to Ground Zero and the Staten 
Island Landfill environment. No. 4, revise the current legal 
requirements which impose an unrealistic time limit on one's 
ability to commence an action against the city.
    Those are highlighted as pinpoints, and if I may just take 
the liberty just to explain them a little briefly, not from my 
written statement, but right from the heart. I was so pleased 
to hear Dr. Kelly testify before that the fire department has 
implemented a procedure from day one to monitor the results of 
physical exams over an extended period of time. Unfortunately, 
I'm also saddened to inform this committee that no such 
procedure exists in the New York City Police Department.
    First, so disturbed were we, meaning, when I say we, the 
five police presidents, that we called a meeting last week and 
out of our own money, the union dues, we put up $85,000 as seed 
money to implement the program to start a similar procedure 
within the New York City Police Department, which does not 
exist today. So I would hope perhaps as a result of the 
testimony today, maybe the mayor or someone within the city 
agencies will look at this and say, we were unaware of the fact 
that no such procedure existed in the police department, and 
commence one immediately. It should not be at the cost factor 
of the members of the union.
    Second, when I said assuring essential required medical 
treatment within the basic health coverage provided by the 
city, many of these ailments that occur as a result of being 
exposed to toxics require special and specific type of 
treatment and exams. Most of this type of treatment and exams 
are not covered by the basic health packages provided by the 
city of New York. Therefore, I think it's essential that we 
take a very close look at that, and say if there is any 
illnesses that are directly related to their exposures that 
this type of coverage should be provided by either the State or 
the Federal Government.
    Third, in recognition of the fact that many of these 
illnesses result from, you know, 10 years from now, many of the 
members of the police department are retiring this year for a 
number of reasons, a large amount are. Therefore, the way the 
current pension rules are designed, if you do not have that 
ailment on the day of your retirement, and subsequently, you 
develop an illness, well, you cannot come back to the pension 
system and get a modification to the payment.
    I think there's going to be a desperate need for police, 
fire and other city employees to have some sort of legislation 
designed that would protect their families in the event that 
they develop a disability and/or a fatal death, perhaps, even, 
as an exposure, so that their families can be protected.
    Fourth, under the current laws, you have up to 90 days in 
which to file a suit against the city, or 90 days from the time 
the ailment surfaces. If you fail to do so, then your timeframe 
to take such an action against the city of New York is now over 
with. So I think that again, although we're talking about air 
quality here, these are some of the hybrids that come off of 
this issue that we're talking about that I think are major 
concerns to the members of the police department, and I'm sure 
to the fire department and other city employees.
    So to try and stay within the timeframe allotted me, I'll 
just say thank you to the committee and hope that we have the 
opportunity to address these issues.
    Senator Clinton. Thank you so much, Mr. Scotto. I think 
that your ideas are very good ones, and we'll certainly be sure 
that both the city and the State representatives get those 
specific recommendations.
    Our next witness is Mr. Edward Malloy, the president of the 
Building and Construction Trades Council of Greater New York. 
Thank you for joining us, Mr. Malloy.

    STATEMENT OF EDWARD J. MALLOY, PRESIDENT, BUILDING AND 
        CONSTRUCTION TRADES COUNCIL OF GREATER NEW YORK

    Mr. Malloy. Thank you, Senator Clinton.
    On the morning of September 11, 2001, nearly every 
unionized construction project in New York City shut down as 
workers rushed to Ground Zero. In the early days of this 
tragedy, it is estimated that more than 10,000 of our members 
volunteered their skills on the site. In the ensuing weeks and 
months since, when the city of New York's Department of Design 
and Construction assigned recovery and cleanup responsibilities 
to a team of the area's most respected contractors, 
approximately 2,000 of our members per day were employed in two 
around-the-clock shifts of 12 hours. Today, as this recovery 
and cleanup effort moves toward conclusion, several hundred of 
our members remain on the job.
    In testifying before the subcommittee this morning, we 
would like to draw your attention to two areas of interest and 
concern. The first is the area of measurable safety and health 
data and the partnership between labor, management, and 
government which has produced rather impressive results in this 
regard. The second is the less certain issue of how we address 
safety and health exposures which are not as easily detectable 
as common bumps and bruises.
    On November 20, 2001, the Building and Construction Trades 
Council, the Employers Association, OSHA, and other public and 
private entities working at Ground Zero implemented a safety 
and health partnership agreement on the site. A copy of this 
agreement is attached to our testimony for your consideration. 
Let me share with you what we consider an exceptional report. 
The results of this partnership and other cooperative efforts 
are encouraging. With more than 2 million hours of labor 
completed, there have been 96 claims for workers's compensation 
reported. Of these claims, 13 have resulted in lost time due to 
injury or illness. No deaths or life-threatening injuries have 
occurred. All experts with whom we have consulted advise that 
the number of injuries and illnesses, as well as their relative 
severity, are well below what might have been expected.
    It is our intention as an industry, with both a 
continuation and expansion of the commitment to safety and 
health, that this record be maintained and improved.
    The second matter of concern pertains to the need for 
clinical medical services to be made available to every 
individual, whether they resided, volunteered, or were employed 
at Ground Zero or in the nearby vicinity, particularly in the 
earliest days of this tragedy when it would seem that the 
potential for exposures to contaminants was at its highest. We 
appreciate Senator Clinton's efforts to secure $12 million for 
this purpose and submit to the subcommittee that additional 
funding must be provided to assure that every individual whose 
health has potentially been adversely affected by activities at 
or near Ground Zero be available to receive clinical medical 
services.
    Madam Chairperson, members of the subcommittee, the losses 
and devastation caused by the events of September 11th are 
well-known. It is imperative that every effort be made to 
assure that no further unnecessary and preventable tragedies 
result, whether 10 days or 10 years from now. The provision of 
funding to make clinical medical services available to all 
individuals who need them is among the most important work that 
we believe the Federal Government can undertake going forward. 
We do not hesitate to argue that it is a particular moral 
obligation to assure that those men and women who responded so 
selflessly and even heroically to the events of September 11th 
receive every possible consideration for their well-being that 
can be offered.
    We will be pleased to cooperate with you in every way to 
achieve this goal. Thank you.
    Senator Clinton. Thank you very much, Mr. Malloy. I think 
that the members you represent from all the building and 
construction trades really deserve our thanks and gratitude, 
not only for what they did in the immediate aftermath, but the 
extraordinary way that the cleanup has proceeded, ahead of 
time, below budget, and I hope you'll convey that on behalf of 
all of us.
    Our next witness is Dr. Stephen Levin, medical director, 
Mount Sinai, the Irving J. Selikoff Occupational Health 
Clinical Center. We look forward to your testimony, Doctor.

 STATEMENT OF STEPHEN M. LEVIN, M.D., MEDICAL DIRECTOR, IRVING 
 J. SELIKOFF OCCUPATIONAL HEALTH CLINICAL CENTER, MOUNT SINAI 
                         MEDICAL CENTER

    Dr. Levin. Thank you. Senator Clinton, I'm happy to be here 
today to talk about the health impacts of the attack on the 
World Trade Center, our understanding of the short-term and 
longer-range risks to health and a perspective on what needs to 
be put into place to meet the needs of the thousands of workers 
and volunteers who played a role in the response to that 
disaster.
    Our center is funded by the New York State Department of 
Health, and it's part of a statewide network of occupational 
medicine clinics that was established by the State legislature 
to examine and treat workers who have developed illness or 
injury caused by their exposures at work. We have an explicit 
mission, and that is to find ways to prevent occupational 
illness by reducing exposures or by detecting and treating such 
diseases as quickly as possible once exposure has occurred. 
That, I think, applies to the circumstances we're dealing with 
today.
    Since September 11th, we have examined more than 250 men 
and women who worked or volunteered at or near Ground Zero. 
Most of these individuals came to us because they had 
respiratory symptoms that developed after their exposures 
there. This very weekend, Saturday and Sunday, we saw over 100 
iron workers who had responded during the first few days after 
the attack, and we learned a great deal this weekend that 
confirmed our clinical impressions from seeing individual 
patients over the past several months.
    We have long experience in our Center with the health 
consequences of exposures in the construction environment. As 
Ed Malloy knows, we've been working with the building trades 
and employers for a long time. As a result of that experience, 
we were able, therefore, to predict, unfortunately all too 
accurately, what health risks were posed by the exposures at 
and near Ground Zero. That's in exposures to the wide range of 
airborne irritants present in the smoke and dust caused by the 
fires and the collapse of the towers, which has been reviewed 
earlier today by Dr. Thurston and others.
    As with most cases of illness caused by environmental 
agents, the likelihood of developing illness and the severity 
of that illness depend largely on dose, how much exposure has 
occurred. What I want to talk about today what we have observed 
among adults who were exposed at the World Trade Center site. 
My colleague and department chair, Dr. Phil Landrigan, will 
talk shortly about the risks to children.
    Among the people who fled the buildings, the firefighters, 
police, and emergency medical techs and the ordinary citizens 
who tried to help after the planes hit the towers, many were 
caught in the huge, dense cloud of dust and combustion gases 
released by the collapse of the buildings. Those people had 
some of the worst exposures that occurred. They inhaled high 
concentrations of smoke and dust. Following that grouping, 
which had the worst of exposures, are those who came to the 
Ground Zero in the days immediately area after the collapse, 
the first days and weeks after September 11th, who performed 
rescue and recovery work or to were involved in restoration of 
essential services there. They also had heavy exposures. They 
were selfless and heroic, often, in what did what they could in 
the effort to save lives.
    The thousands of construction and support workers who have 
been involved in the removal of debris from the site, as 
recovery efforts have been ongoing, often working 12 hour days, 
sometimes 6 and 7 days a week, also have had all too frequent 
exposures to the dusts and gases which until recent weeks were 
a constant feature of the site. We were concerned early on, and 
I mean within 24 hours, that these exposures would cause 
respiratory tract difficulties, and that is, in fact, what we 
have seen clinically. Problems range from persistent sinusitis, 
laryngitis, bronchitis, and among some, the first attacks of 
asthma they have ever experienced in their lives.
    These problems have been especially severe, as has been 
pointed out earlier today, among those who had respiratory 
problems before September 11th. Many have noticed a marked 
worsening of their pre-existing sinus problems or breathing 
difficulties.
    But what is perhaps most striking is the occurrence of 
respiratory problems, chest tightness, cough, shortness of 
breath, wheezing, among individuals who were in excellent 
physical condition before the attack on the World Trade Center. 
Firefighters are an example, ironworkers and other 
constructions are similar examples. The experience of our 
patients parallels that of the firefighters who have been 
evaluated by Dr. Kelly and Dr. Prezant, that we've heard about 
already today. High rates of respiratory illness have been 
found among those firefighters, and it's our impression, 
especially after this weekend's experience, that we're going to 
see comparable rates of respiratory difficulties among 
construction workers and others who were at or close to Ground 
Zero, especially early on after September 11th.
    Some of our patients, once they are away from Lower 
Manhattan, have noticed a general improvement in their 
symptoms, but find that exposure to cigarette smoke, to vehicle 
exhaust, to cleaning solutions, to perfumes or other airborne 
irritants that their symptoms are being provoked. They're 
having reoccurrence of their symptoms, in these other settings 
where irritants are present. None of them had such experience 
prior to September 11th.
    Now, not all who were part of the effort at or near Ground 
Zero developed these persistent respiratory problems. Some are 
more susceptible than others. The trouble is that we can't 
predict who the susceptibles are. It's something we recognize 
after the fact. It's very important for all individuals who 
have been affected this way that you prevent further exposure 
to irritants. But treatment with appropriate medications has to 
be instituted as quickly as possible, to prevent these 
conditions from becoming lifelong, disabling illnesses.
    I want to make one comment, there's been a tendency to 
ascribe to short-term problems the irritant reactions. To think 
of long-term health consequences as only those who have to do 
with asbestos and potential 20-year later cancer incidents. 
Well, I can tell you that there will be individuals, especially 
if they're not treated adequately, who will have developed 
asthma as a consequence of these exposures which we are here, 
until now calling them short-term reactions, who will have 
asthma for the rest of their lives, especially if they are not 
treated early. That's the importance of the kind of 
surveillance program that's been discussed here.
    In the past couple of months, and I think what I'm going to 
say relates more to the issues of concern expressed so far 
today. We have seen similar respiratory problems emerging among 
some of the office workers who have returned to buildings 
situated in the immediate periphery of Ground Zero, especially 
those located downwind from the debris pile and the fires that 
were actively burning until December. For most, these symptoms 
of eye, nose, throat, and chest irritation are transient and 
they're not of serious concern. That's for most people.
    We have patients with new onset asthma since they returned 
to work in nearby buildings, people who were never previously 
asthmatic who now have this condition. They were not at Ground 
Zero. They were four and five blocks downwind of Ground Zero, 
but experienced some of the same problems. Most of our patients 
note that now that the fires are out, their symptoms are 
improving. That's an encouraging fact. There are some who 
remain very provokable as time goes on.
    I want to talk about one other clinical feature that 
surprised us in its frequency and intensity, even though we 
predicted that we would have some of these problems, and that's 
the psychological distress that occurred especially among the 
early responders. Many of our patients came to us for 
respiratory problems, but a brief questioning also elicited 
reports of persistent flashbacks of images and sounds of human 
trauma and horror they had witnessed, especially early on. 
Police officers, construction workers, and others have had 
sleep difficulties, depression or irritability, and many had 
difficulty controlling their tears when they described this or 
whenever they were reminded of what this, and in New York City, 
there are constant reminders of this.
    The group debriefing sessions that many participated in 
were simply insufficient to help some of these individuals 
resolve these difficulties and the effects of their experience 
on their emotional well-being and the need for a well developed 
program to treat such individuals, I think, is clear. Among 
these tough ironworkers that we saw this weekend, I'd say one 
out of three were still experiencing significant impairments to 
their psychological well-being. It was really quite striking 
and surprising.
    I want to address the issue of asbestos exposure at and 
near Ground Zero, because it been such a constant feature of 
discussion. We know that asbestos is in the debris pile, 
there's no mistaking that, and we know that it's in settled 
dust inside and on the outside of buildings. We know that 
that's so. Fortunately, the data indicate that asbestos 
concentrations in the outside air suggests that there really 
will not be much of a problem as a consequence of walking down 
the street near it. That's comforting.
    For those who work at Ground Zero itself, respiratory 
protection is the key. The kind of respiratory protection 
that's been suggested early on from within 48 hours of the time 
of the attack, this is the appropriate thing. The problem is 
that compliance out there on the site can hardly be described 
as universal. That remains something of an issue.
    There is a group at special group risk for asbestos-related 
disease that hasn't been talked about today: the workers who 
are involved in the in cleanup of the buildings, the offices 
and residential spaces near the site. For an individual 
household resident or office occupant who cleans his or her own 
space, surely it should be done correctly, but even if it's 
done incorrectly, the likelihood of significant risk for 
asbestos-related disease is low. We know that from looking at 
occupational groups, the construction workers that have been 
working a lifetime with this material. The risks are very low 
for an individual apartment owner who does it, even wrong. 
Although by no means should that be encouraged, and surely we 
can prevent those exposures.
    Those individuals who are involved in doing the cleanup 
work day in and day out, perhaps for months, are at genuinely 
significant risk. These are unprotected workers. Many of them 
have been hired off the street, they're not unionized workers, 
they're often not English speaking, and they are among the most 
vulnerable of workers, that they should have been permitted to 
be exposed to asbestos dust in this fashion is a public health 
failure. Unfortunately, the information we have is that it's 
ongoing.
    Now, let me finish by saying that from our perspective, 
from our own clinical experience, the experience of the 
firefighters that have been so well studied, the information 
points clearly to the need for developing medical surveillance 
programs for everyone who placed himself or herself at risk in 
the course of their efforts, whether as employed workers or 
volunteers. A registry has to be established. It's quite clear, 
everyone agrees that that's so.
    Medical examinations to identify persistent respiratory, 
musculoskeletal, and psychological conditions should be made 
available to all who were there. Treatment should be initiated 
where findings warrant it. There's been a lot of talk about the 
need for ongoing research and surveillance for research 
purposes. We know of workers who now 5 months after the episode 
have still not been adequately evaluated and are still not 
receiving adequate treatment. We learned that from the 
ironworkers that we saw this weekend, 5 months after their 
exposure. It's key that they be identified and treated as 
rapidly as possible. Because the longer you delay treatment, 
the less effective treatment is, and the more likely you're 
going to wind up with long-term consequences.
    If resources are made available, a consortium of medical 
institutions under the guidance of occupational and 
environmental medicine expertise can be established, working in 
coordination with the appropriate Government agencies, to 
provide these evaluations and treatment programs. I am 
confident that we would receive full cooperation from relevant 
employers and labor organizations to facilitate the development 
of the registry and the clinical surveillance program itself. 
As others have said before, the many workers and volunteers who 
have given so much of themselves deserve no less. Surely, the 
sort of program that the firefighters have been able to 
establish is the sort of thing that's appropriate for many 
others.
    So I thank you, and I will be pleased to answer questions.
    Senator Clinton. Thank you very, very much, Doctor. I think 
that your insight and expertise is something we're going to be 
relying on as we move forward. Perhaps after the hearing, you 
and Mr. Scotto can talk about ideas you might have. Because I'm 
concerned by what he's reported with respect to the police 
officers. We look to you to give us some guidance.
    Our next witness is Ms. Christodoulou, who is the president 
of the Stuyvesant High School Parents' Association, and we 
welcome you here.

STATEMENT OF MARILENA CHRISTODOULOU, PRESIDENT, STUYVESANT HIGH 
                  SCHOOL PARENTS' ASSOCIATION

    Ms. Christodoulou. Thank you. On behalf of the 6,000 
parents at Stuyvesant High School, thank you for holding this 
hearing on a matter of great concern to our community.
    Stuyvesant is located four blocks from the World Trade 
Center. The 3,000 students and 200 staff members were evacuated 
in the middle of a cloud of toxic dust and debris as the second 
tower was collapsing. The Board of Education reopened the 
school on October 9. Unfortunately, environmental conditions in 
and around the school continue to pose a potential threat to 
our children.
    I am not a scientist, I am not a doctor. I am a parent, and 
the president of the Parents' Association. Having listened to 
respected experts for the last 5 months, our conclusion is that 
the environmental safety of Lower Manhattan is still very much 
in debate. While this debate is going on, our children are 
getting sick. Our experience since returning to school has been 
and continues to be problematic. As the inside of the school 
tested positive for asbestos, the Board of Education conducted 
an asbestos abatement prior to reoccupancy, and agreed to 
undertake environmental sampling inside and outside the school. 
The excavation operations at Ground Zero continue to release a 
variety of contaminants into the air. Several hundred trucks a 
day carry the pulverized debris and steel beams coated with 
asbestos from Ground Zero to a barge which is located right 
next to our school. It's less than 100 feet north of our 
school. This is the main debris removal from Ground Zero.
    In addition to whatever the composition of the debris is, 
which is dumped right next to our school and in the middle of 
the community, diesel emissions from the many trucks and cranes 
at the barge are a source of additional contaminants. That 
makes it extremely important to take preventive measures to 
prevent these contaminants from entering the school. 
Unfortunately, this has not happened. Results from 
environmental sampling conducted by the Board of Education 
demonstrates that on more than 50 percent of the days, from 
October 9 when our children returned to school to February 1, 
measurements of respirable particulate mater, the 
PM<INF>2.5</INF>, inside the school have exceeded EPA 
guidelines for children. These particulates may pose a greater 
danger because they contain a mixture of toxins. Levels of lead 
dust in excess of regulatory limits were found inside 
Stuyvesant on several occasions as recently as last Thursday.
    To date, the Board of Education has failed to take adequate 
measures to protect our children. It still has not cleaned the 
ductwork of the ventilation system. After months of stalling, 
it upgraded the filters of the ventilation system at the end of 
January, after our children had been in the school since 
October 9. You may hear from the speakers who follow me that 
conditions at Stuyvesant have stabilized. There is no evidence 
to support this conclusion, because the environmental quality 
outside the school is unpredictable.
    Also, in accordance with two independent environmental 
engineers, working with the Parents' Association, the upgrades 
to the ventilation system that the Board of Education has 
conducted are inadequate.
    The barge operation is a main source of contaminants. The 
PA's environmental engineer has measured and compared airborne 
concentrations of particulate matter at or near Ground Zero and 
at the north side of Stuyvesant by the barge, and has 
consistently found particulate matter to be higher at 
Stuyvesant than at Ground Zero. On several occasions, the EPA 
notified us that it had monitored high levels of certain 
contaminants, which I'm going to attempt to pronounce----
    Senator Clinton. You can just add that to the record.
    Ms. Christodoulou. OK, fine. At its monitoring station 
between the school and the barge. Carting of the Ground Zero 
debris material to the barge constitutes an unacceptable risk 
to our children and to the surrounding community along the 
truck route. Within two blocks from the barge operation, there 
are 4,500 school children, some as young as 4 years old. Of 
course, it's in the middle of a residential community.
    We are in the unique position to observe this operation, 
and we can report to you that despite assurances from 
Government officials, the trucks are not always adequately 
covered. On cold days, the debris cannot be hosed down to 
prevent the release of dust. The levels of visible dust in the 
air and on the pavement are high. Diesel emissions from the 
trucks and the cranes are high.
    This morning, you heard Mr. Johnson of the Department of 
Environmental Conservation testify that they are looking to 
install particulate traps and low sulfur fuel for the trucks. I 
have met with Mr. Johnson and with Ms. Wills, the chairwoman of 
Community Board One at the barge in early December, 2 months 
ago. We were talking about the same measures 2 months ago. I'm 
very disturbed that we're still talking about it. We need 
action. If the reason that action is not provided is a lack of 
funding, some agency, FEMA, whoever it is, should step in and 
provide this funding. We cannot just talk about things and not 
have action.
    To date, Government agencies have been unwilling to either 
relocate the barge to a less damaging site or to take effective 
measures to protect the community. Since the return to school 
on October 9, a number of students and faculty have reported 
and exhibited clinically diagnosable symptoms of illness. Many 
parents report that their children have experienced unusual 
rashes, nosebleeds, coughing attacks, and chronic sinus and 
respiratory problems. Parents have reported to us several 
emergency room visits.
    Despite what you may hear from the speakers that follow me, 
no epidemiological study of the students has been conducted. I 
can say this with full confidence, because parents have not 
been asked for their written consent, which is required in 
order to conduct a study on minors. Also, there has been no 
study or interviews of parents or students. The incidence of 
student illness cannot be adequately characterized based only 
on attendance rates and visits to the school nurse's office.
    In conclusion, these developments call into question any 
unequivocal assurances from Government agencies, including the 
EPA and the Board of Education, about the health and safety of 
our children.
    Regarding what courses of action should be implemented to 
protect environmental quality and public health, I have a whole 
list. They're in the record. I want to focus on two. First, the 
truck and barge operation right next to the school should be 
relocated to an area where there is less residential and 
educational impact. The Government should assume responsibility 
for implementing a centralized and coordinated effort to 
monitor and track incidence of illness. A central registry of 
all residents, workers, and students who have been exposed to 
contaminants as a result of the September 11th attacks should 
be established.
    The student population at Stuyvesant is very diverse. Many 
of our students come from first and second generation non-
English speaking immigrant families. We are concerned that many 
of these families do not have the wherewithal to seek early 
medical care. Dr. Stephen Levin has advised us that early 
detection and treatment of respiratory illness is critical in 
terms of preventing such illness from becoming chronic. I would 
like to take this opportunity to thank Dr. Levin for his help 
during this period.
    The Government should assume responsibility, therefore, for 
early detection and medical treatment of illness related to the 
World Trade Center disaster. I will also go a step further. In 
my opinion, a dedicated fund should be established to pay for 
medical costs associated with any future health problems of 
registered individuals.
    Thank you for the opportunity to address you.
    Senator Clinton. Thank you very much.
    I think we've got some Stuyvesant family members here, 
which I'm very glad to have. I think your points are very well 
made. Residents, too. I know. Well, we've heard a lot from the 
residents. I thought we'd give a plug to Stuyvesant. We're glad 
to have all of you here.
    Our next witness speaks from a different but related 
perspective, as a second grade teacher at PS 89. Everything 
that we've just heard about concerns affecting the high school 
students and teachers at Stuyvesant is certainly very much in 
the minds of all of us when it comes to the elementary school 
students. So I'm very pleased that Julie Hiraga would be here 
to speak on behalf of the students and teachers at PS 89.

     STATEMENT OF JULIE HIRAGA, TEACHER, PS 89, MANHATTAN; 
ACCOMPANIED BY: RANDI WEINGARTEN, PRESIDENT, UNITED FEDERATION 
                          OF TEACHERS

    Ms. Hiraga. Thank you. Good afternoon, Senator Clinton and 
members of the committee. I am pleased to be here with Randi 
Weingarten, president of the United Federation of Teachers. 
Thank you for this opportunity to testify on the health issues 
that concern those of us who live and work in Lower Manhattan.
    The brutal attack on the World Trade Center on September 
11th was a trauma we are all still learning to overcome, but 
slowly we are trying to return to our normal routine, and 
that's what the teachers at PS 89 want. We are scheduled to go 
back to our home school on February 28th, and although there's 
a lot of excitement and optimism, there's also some anxiety 
about safety. Teachers are concerned about having to keep 
windows closed and not having an outdoor play space for the 
children.
    Also, the school is on the truck route for debris removal. 
These huge trucks emit diesel fumes and their cargo throws a 
lot of dust in the air. Teachers are worried about the long-
term impact on their health and that of our students, and we 
wonder if symptoms may not emerge for some time.
    At PS 89, parents' environmental concerns have affected 
enrollment. Some families have moved. Others have withdrawn 
their children, and now we have only half as many students as 
before September 11th. Sadly, we hear that parents of up to 30 
more students intend to enroll them elsewhere, rather than 
return to our home school at Ground Zero.
    As for teachers, having our union as a watchdog has helped 
allay some of those fears. For example, the UFT's two 
industrial hygienists and its consulting physician made 
presentations to our staff and answered all of our questions. 
They and other union representatives explained what was being 
done to control the dust, such as watering down the trucks, and 
installing mats under all exterior school doors to hinder dust 
seepage. They helped our school get a more efficient filtration 
system and a HEPA vacuum for our custodial staff. They even 
sent us snacks and paper towels, which was a real morale boost 
when we needed it.
    We've seen what happened as other schools reopened. 
Stuyvesant High School was the first on October 9. After some 
of its staff and students complained of respiratory problems, 
the UFT asked the Federal Government to step in. As a result, 
on January 29, the National Institute for Occupational Safety 
and Health began surveying Stuyvesant staff to compare their 
symptoms with those at a high school away from the affected 
area. We saw that the union's experts were not content with 
acceptable facts and figures alone. They conducted onsite 
visual inspections to make sure that all the affected schools 
were properly cleaned and prepared for reoccupancy. When they 
spotted potential hazards, they forced the city to delay the 
move until it cleaned them spotless.
    So to sum up, we have lingering concerns about our 
students' psychological and educational welfare, as well as 
parental reactions. All of us at PS 89 have had concerns about 
air quality and other health hazards since September 11th. 
However, the independent monitoring and involvement of the 
UFT's health and safety experts has helped to reassure us.
    Thank you.
    Senator Clinton. Thank you very much.
    We'll now hear from Mr. Bernard Orlan, the director of 
Environmental Health and Safety, New York City Board of 
Education. Mr. Orlan, obviously the concerns that were 
expressed about Stuyvesant and about PS 89 and about all of the 
schools in the affected area are ones that I hope you will 
address in your testimony.

 STATEMENT OF BERNARD ORLAN, DIRECTOR OF ENVIRONMENTAL HEALTH 
          AND SAFETY, NEW YORK CITY BOARD OF EDUCATION

    Mr. Orlan. Good afternoon, Senator Clinton. I am happy to 
appear here today on behalf of Chancellor Harold O. Levy and 
the New York City Board of Education. We appreciate the 
opportunity to speak about how the events of September 11th 
have affected public schools in the area of the World Trade 
Center.
    I am Bernard Orlan and I am the director of Environmental 
Health and Safety for the New York City Board of Education. As 
you are aware, as of September 11th, we were forced to evacuate 
a number of schools in the downtown area. While it has been 
noted numerous times, it is worth pointing out once again that 
this evacuation was accomplished without a single injury, 
either to a teacher or to a child. Teachers and other staff 
kept their charges safe. Indeed throughout the entire system, 
teachers, principals, assistant principals and support staff 
worked tirelessly to get children home safely and in the 
aftermath of that day have helped our students get back to the 
business of learning.
    In the days following the disaster, many of our school 
buildings were used by various emergency agencies including 
FEMA, the city's Office of Emergency Management for rescue and 
ultimately, recovery operations. Other school facilities were 
used by the Red Cross as emergency shelters. Once permission 
was granted by the city to normalize activity from the 14th 
Street area to the Canal Street area and areas east of 
Broadway, schools in this area were tested for various 
contaminants, for particulate dust, for carbon monoxide, for 
asbestos and a host of others. We compared it to the air 
quality and established baseline levels that exist. 
Unfortunately, there are not very many guidelines out there 
that pertain to children of school age. Asbestos happens to be 
one, and dust particulate happens to be another. That's why I 
wholeheartedly agree with the other speakers that have 
discussed the registry and the need to take advantage of this 
situation. Hopefully, we'll never have to utilize this 
experience. But since we have survived at this particular 
point, it's incumbent upon us to use this as a laboratory, so 
that we know that our children have been safeguarded in the 
future against anything they may have been exposed to.
    The results of these tests and other tests that were taken 
in conjunction with various health agencies verified that the 
buildings were safe for children and staff to return. This left 
us south of Canal Street and west of Broadway seven schools 
that were contained in six separate buildings that could not 
immediately be reoccupied. They included two high schools south 
of the Trade Center area, they included one high school north 
of the Trade Center area, Stuyvesant High School, an 
intermediate school and two primary schools.
    Four of these schools were actually being used at the time 
by emergency workers, by Port Authority of New York and New 
Jersey, by FEMA, by various other and agencies as staging areas 
for the various rescue and recovery operations that were taking 
place. Once these buildings were turned back to the 
jurisdiction of the Board of Education, we began exhaustive 
environmental testing, both inside and outside the buildings. 
First, of course, would have been to test for asbestos. We used 
the most sensitive testing available. We went directly to the 
Transmission Electron Microscopy, because we are a school, we 
have to follow the most sensitive, exacting, AHERA guidelines. 
We had to take that step beyond what the EPA would have 
required normally in a residence. But we had to go to the EPA 
AHERA guidelines.
    In some instances, we did find elevated levels of asbestos, 
in others, we did not. Nevertheless, a decision was made to 
clean these buildings from top to bottom by AHERA certified 
asbestos abatement handlers that are State certified by the 
State Department of Labor, that are certified by EPA. Even in 
those situations where we did not encounter asbestos, the mind 
set of these workers that knew how to operate a HEPA vacuum, 
that knew how to wet wipe, that handled minute amounts of 
contamination, were very important to us. So although in 
hindsight we may not have needed to have these handlers used 
throughout all the buildings, nevertheless, it was a decision 
made and it is a decision we still stand by to make sure the 
buildings were cleaned as best they could be at that time.
    As the buildings were turned over to us to be allowed to 
reoccupy for our occupation, for education and for other 
activities that took place in the schools, we conducted a 
battery of tests. These included testing for dioxins and PCBs, 
asbestos, particulates, various metals, cyanides, various air 
contaminants. Prior to the reoccupancy, we received acceptable 
levels of all these contaminants. In addition, we worked 
together with the United Federation of Teachers 
environmentalists, the various health agencies that were 
involved, and the Parents' Association consultant to develop 
various tests that would give that feeling of comfort as we 
moved along, as we go further from the actual September 11th 
event. There were various tests that were conducted, again 
daily for asbestos. At Stuyvesant High School we sampled, 
continued to sample 21 times each day for asbestos, both inside 
and outside the building, around the building, on top of the 
building, close to the fresh air intakes, near the barge of the 
building. We'd take close to 100 samples of particulate air on 
instantaneous measure at these schools.
    We continue to do these either on a daily or weekly basis, 
depending on the necessity of the tests and based on the 
previous results that have been found. For example, metals and 
dioxin are done once a week. At this point, there are only two 
schools that have not been reoccupied, one would be PS 89, that 
shares a building with IS 89, and the school downtown, the High 
School for Economics and Finance. When they are ultimately 
going to return, which should be in a few weeks, they will 
follow a three-pronged approach that we've had with our other 
schools. Namely, when they do go in, the environmental 
monitoring must continue, that the environmental situation in 
the building in terms of the heating and ventilation system, 
must be inspected, enhanced when available, so that we can trap 
the smaller particles of air that many in the scientific 
community feel may be hazardous to the occupants of the 
building.
    In addition, we have barrier mats to avoid having people 
entering the building as being a vehicle for bringing in new 
contamination. These mats have to be laundered periodically so 
that they cannot bring anything else into the building from the 
surrounding areas. In addition, there are medical and metal 
hygiene staff located at each of our schools to assist and 
document as necessary in all of our schools. They will be there 
for the next period of time.
    Basically in conclusion, we have done everything we can do 
to ensure that our students are learning and our teachers can 
teach and they can do so in a clean and secure environment. We 
will continue to monitor their environment for those issues 
that we've documented up to this point, and other concerns that 
may arise. We will continue to work with members of the school 
and public health community so that we can as a team approach 
continue to safeguard the health and safety of the school 
occupants, the teachers and of course our children. Thank you.
    Senator Clinton. Thank you, Mr. Orlan.
    Our next witness is--we will have time for questions. Just 
a minute. We're going to hear from all of our witnesses.
    Our next witness is Dr. Phil Landrigan. I want to also ask 
Judith Berger-Arroyo to join us at the table as well. We're 
going to add her to this witness table for a very short 
testimony following Dr. Landrigan.
    Dr. Landrigan is the Ethel H. Wise professor and chairman, 
Department of Community and Preventive Medicine, the Mount 
Sinai School of Medicine. Certainly, I don't think there is 
anybody in the Nation who is more expert on the environmental 
effects of toxins and the exposures that children have than he 
is. I really appreciate your being here, Dr. Landrigan.

 STATEMENT OF PHILIP J. LANDRIGAN, M.D., CHAIR, DEPARTMENT OF 
  COMMUNITY AND PREVENTIVE MEDICINE; PROFESSOR OF PEDIATRICS, 
  DIRECTOR, CENTER FOR CHILDREN'S HEALTH AND THE ENVIRONMENT, 
                 MOUNT SINAI SCHOOL OF MEDICINE

    Dr. Landrigan. Thank you, Senator Clinton. Thank you very 
much. I want to commend you and Chairman Lieberman for having 
convened this hearing, and single you out for the extraordinary 
leadership that you've given to public health generally and to 
focusing September 11th on the consequences of the attack.
    It was good to see Congressman Nadler here this morning. A 
number of us have consulted Ground Zero Elected Officials Task 
Force. That's been a very rewarding activity.
    I was thinking as I came in this morning, I'm still having 
trouble personally on the 11th day of each month. I suspect 
that I and many of us will for a long time to come. It's good 
to have you transform that pain into the kind of energy that 
we're exercising here this morning.
    What I'd like to talk about, and I'll keep it very brief, 
because I appreciate that I'm the next to the last thing 
between everyone and lunch, is risk to children and 
particularly what do we do about assessing, preventing, dealing 
with the long-term health risk to children. We've heard a great 
deal today about the exposures, the asbestos, the particulates, 
the products of combustion, the other exposures that were 
visited upon New York. We've heard from my colleague, Steve 
Levin and from George Thurston and others, Dr. Kelly, about 
what's being done to protect the workers.
    Kids are a group at particular risk, of course, when we 
think about environmental hazards. They live close to the 
ground, so they breathe more dust than adults. They take in 
more air per pound of body weight per day than we do, because 
their respiratory rates are more rapid. They have more future 
years of life, so they have much more time to develop any 
disease that may be triggered by exposure. Last, of course, 
kids are more vulnerable. They're just inherently more 
vulnerable than adults to toxins.
    I put some numbers together. On the morning of September 
11th, there were 46,000 children living in Lower Manhattan 
below 14th Street. About 11,000 of these kids are under the age 
of 5, and 3 of them lived within \1/2\-mile radius of the 
tower. You've already heard information on the numbers of 
children who were at the various schools, which totals about 
4,500 children. We also estimate that there were about 1,700 
women in Lower Manhattan that morning who were pregnant, 
various stages during the course of their pregnancy.
    Thinking about risk to children, I think it's useful to 
divide those risks into several categories. You've heard all 
these this morning, so I'll just touch upon the headlines. 
First of all, there are the risks that are associated with 
inhaling ambient, outdoor air. I think the data that Dr. 
Thurston presented are crystal clear, that levels were higher 
at the beginning. They've declined since, and for the last 
several months, particularly since the fires have gone out, 
things are pretty decent.
    You've heard about the schools, and I've consulted pro bono 
to the Board of Education. It's my impression that by and 
large, inside the schools, conditions are good, that the Board 
of Education is making an extraordinarily diligent effort to 
deal with the problems in the schools. I'm still a bit worried 
about the playgrounds, because some of those outdoor play 
spaces are right by the roadway where the trucks go, as Mr. 
Hiraga just described the trucks. I've been down there, I've 
seen those trucks go by inadequately covered. I certainly 
wouldn't want any of my grandchildren to be out there.
    Then last, there's a question of homes. It's clear that the 
degree to which homes have been cleaned has been uneven. Some 
have been dealt with very well, of course, but others have not 
been dealt with adequately. Kids who are in those homes, and 
indeed, people of all ages, are at risk of exposure to 
particulates, asbestos, products of combustion, and whatever 
else may have gone into those homes in the days following the 
attack.
    So I salute you for having proposed that there be long-term 
surveillance of people who have been exposed to the products 
that were liberated into the air following September 11th. The 
way I see it now, there are two groups who are reasonably well 
covered by ongoing surveillance efforts, and one group who are 
mostly not covered at all. The workers are pretty well covered, 
there are obviously gaps. We heard from Mr. Scotto about the 
inadequate coverage of the police officers, but at least the 
firefighters, certain of the construction workers, are being 
well covered. My sense is that with the strong unions in place 
and people like Steve Levin to keep an eye on things, that if 
we all work together, we'll do a good job of covering the 
workers.
    We're also doing a reasonable good job of covering people 
at the other end of life, namely pregnant women and their 
children. Our group at Sinai with colleagues at Columbia have 
received supported from the New York Community Trust, and we 
hope to get additional support from National Institute of 
Environmental Health Sciences to organize a prospective 
epidemiologic study of pregnant women and their offspring. In 
fact, it's already been launched. We've already recruited a 
couple hundred women against our target of 600. So that is 
progressing reasonably well.
    The group who are pretty much uncovered by any sort of 
systematic medical effort at the present time are kids. Yes, 
there have been sporadic efforts, ATSDR I think has looked at a 
few people, various hospitals have looked at a few here and 
there. But I agree with what Ms. Christodoulou said, to my 
knowledge, there's been no organized effort to do systematic 
surveys of respiratory health problems, mental health problems, 
other health problems in children. I think this is a serious 
need that needs to be met. We need to put into place organized 
programs for examining, registering, caring for and tracking 
these children.
    I think these programs are going to have to be kept in 
existence for several decades. Because we know about the long-
term risks of asbestos, mesothelioma, in particular, that may 
not become evident for two, three and even four decades in some 
of these children. We've had some preliminary discussions about 
the need for such a registry with Dr. Henry Falk, the 
administrator of ATSDR. He's supportive, money may be an issue. 
I can say that, he can't.
    Thank you again, Senator Clinton, for having convened this 
hearing.
    Senator Clinton. Thank you very much, Doctor.
    Our final witness is Judith Berger-Arroyo. She's a public 
health nurse at the New York City Department of Health. She's a 
member of Local 436 of DC 37, Lee Saunders, the very excellent 
competent head of DC 37, is here. That was a union that 
basically was driven out of its headquarters because of its 
proximity to Ground Zero. So they've struggled not only with 
the needs of their members, who are throughout the city in 
various positions, but also very much trying to figure out how 
to keep themselves going. I think you're back in, now, Lee, 
basically? Good.
    Well, thank you very much, Ms. Berger-Arroyo. We're looking 
forward to hearing from you.

    STATEMENT OF JUDITH BERGER-ARROYO, PUBLIC HEALTH NURSE, 
                      DISTRICT COUNCIL 37

    Ms. Berger-Arroyo. Thank you, Senators Lieberman and 
Clinton, for giving us this opportunity to address your 
subcommittee.
    As you pointed out, my name is Judith Berger-Arroyo. I'm a 
public health nurse with Local 436. But in addition to being a 
member of Local 436, I am the member at large representative 
for Manhattan, which means I represent all the public health 
nurses that work in the borough of Manhattan. I am testifying 
not only on their behalf, but on behalf of the other 125,000 
members of District Council 37.
    We are the everyday heroes who helped in hundreds of ways 
at Ground Zero and elsewhere to keep the city working during 
the terrible tragedy that occurred on September 11, 2001. I am 
here today to request that the Federal Government provide 
funding for appropriate medical testing, treatment and 
surveillance, as well as continued safety training for us city 
workers who selflessly and violently put themselves in harm's 
way following the September 11th attack to assist the citizens 
of this great city.
    From the moment the first plane hit, we have worked, our 
members who work as paramedics and emergency medical 
technicians rushed to the scene to begin the rescue effort. 
Moments after the attack, DC 37 lost three members, two EMTs, 
Carlos Little and Ricardo Quinn from Local 2507, and Father 
Michael Judge, a chaplain from Local 299. A score of other 
members were injured in the aftermath. Hundreds of other DC 37 
members played and continue to play important roles in the 
rescue, recovery and cleanup effort in and around the World 
Trade Center.
    At this point, I want to bring out more of what our members 
specifically. I myself personally, Local 436 has close to over 
800 members in the New York City Public School System. We 
provide the health care there. I myself was a nurse in one of 
those public schools in the red zone, if not specifically at 
Ground Zero. As a member-at-large from Manhattan, I did hear 
from the public health nurses that we had at PS 89, plus a few 
other members that we had in the area who worked there.
    The cloud, even though it went up Broadway and up to a 
certain point, the wind, when it would change directions or 
anything else, would bring it up as far as Chinatown, where 
many of us worked. We worked for 12-hour shifts for days after 
that, because we had displaced shelters there. So even though 
the schools were closed, the shelters were open and the public 
health nurses manned those shelters in addition to providing 
services in the school.
    So I was exposed, and since December I've had this ``cold'' 
that I haven't been able to get rid of. The cough comes and 
goes, and once I think I'm feeling better it comes back.
    Myself and my colleagues are most fortunate, because we 
have health insurance that covers it. We have our own private 
doctors that we go to. We have DC 37 here to help us, with Dr. 
Weem from Mount Sinai. But we are concerned about parents and 
teachers and the students in those schools that don't have 
insurance or are immigrants and don't speak English and may not 
think about that. We do outreach on this, we've been hearing 
from our members.
    In addition, our members who were working in the area, not 
just at PS 89, and at the other schools, but we have the Bureau 
of Tuberculosis Nurses that worked in the area, we had 
epidemiologists, we had nurses that went down to Ground Zero 
itself the very next day that tested masks and everything else. 
A lot of them are coming back with either fatigue that they've 
never had before or they again, like myself, have coughs or 
this burr in our throats that we can't seem to get rid of. Some 
of our nurses who have suffered from asthma before, who were 
very well controlled on medication, now have had to add two or 
three more medications and are not doing very well at all. 
These are problems that continue to crop up for all of our 
public health nurses in the area.
    We also have, since I'm speaking on behalf of all the 
members of District Council, we have our Local 983, our urban 
park rangers, who were among those who assisted in the 
evacuation of Battery Park City and the surrounding areas. They 
were covered with, needless to say since they were evacuating 
with the cloud. Our Local 1322 and 376 members who work for the 
Department of Environmental Protection immediately responded by 
ensuring that the water supply to fight the huge fires was 
adequate.
    Our motor vehicle operators from Local 983 also responded 
immediately to address critical transportation needs. They are 
also the ones who helped move all those cars recently with all 
that dust and stuff to return them to their owners. As I speak, 
they continue to haul debris from Ground Zero hundreds of times 
a day. There are truck drivers, Local 375 hazmat workers, also 
played a critical role, to make certain that chemical hazards 
were abated quickly. Engineers and architects from Local 375 
have been there from day one to provide technical expertise in 
overseeing the safety of the rescue and recovery operations. 
Other members of DC 37, such as Local 768, public health 
sanitariums, Local 420, mortuary care technicians, local 371, 
social service workers, have all played vital roles by tending 
to the health and safety needs of those adversely affected by 
this terrible event.
    Until recently, Local 372, school lunch aides, fed 
thousands of meals a day to the rescue workers at Ground Zero. 
Since September 11, 2001, DC 37 has spoken out on the need for 
adequate funding for the city to address the multiple concerns 
of our residents, as well as our members, who have so vitally 
assisted in the rescue and recovery efforts. To aid New York 
City in its recovery, it is critical that the $20 million 
promised by President Bush be made available promptly to enable 
the city to meet the crushing and immediate economic needs.
    More particularly, an integral portion of the $12 million 
that you, Senator, and Senator Schumer have proposed to deal 
with worker health issues must be specifically earmarked for 
the medical testing, treatment and surveillance of employees 
who are exposed to the numerous dangers, chemicals and other 
toxins in and around Ground Zero. To date, only some of the 
employees working at Ground Zero have received baseline medical 
examinations. Unfortunately, hundreds of others have not. In 
order to adequately protect the health of these heroic workers, 
this money must be appropriated in an expeditious and efficient 
manner.
    We must not allow unnecessary bureaucratic hurdles and lack 
of coordination on the part of city, State and Federal agencies 
to further delay this essential funding. Monies for medical 
testing treatment and surveillance of workers should be 
allocated to the New York State Occupational Health Clinic 
Network, which is well equipped, trained and staffed, but 
presently lacks adequate funding to deal with the huge number 
of workers potentially affected by this disaster.
    Failure to allocate adequate funding to address these 
pressing occupational health issues will unduly burden the 
city's health insurance carriers and delay the needed medical 
treatment and surveillance that workers need now. Our 
Government should not place the burden of continued good health 
on these heroic workers who have already given so much.
    I also want to point out, as Dr. Levin and everyone has 
pointed out, a lot of our members are also suffering from a 
great deal of psychological stress. We have a great many public 
health nurses that have been unable to return to their areas of 
employment in the Manhattan area down there. In fact, we have 
one public health nurse that, she just can't even look down at 
the area. We have to try to arrange for a transfer for her, so 
she will be able to continue doing her job.
    DC 37 urges the subcommittee to immediately commit 
necessary Federal funds to New York City to be used in the 
following manner. To fund the occupational health clinics in 
New York City, in order to provide appropriate medical testing, 
treatment and surveillance. Develop training programs on safety 
and health-related issues for workers taking part in the 
rebuilding of the city and to develop a worker registry to 
identify workers affected by the September 11th attack. That is 
extremely important, because we need to know. A lot of these 
chemicals are long-term effect and not short term. We may not 
see anything for the next 10 or 20 years.
    I would like to thank you for your time, and will answer 
any questions that you might have.
    Senator Clinton. Thank you very much.
    Well, the time is vanishing, and there are so many 
questions. I reiterate that anyone with any questions in the 
audience, please get them to us, we will pass them on, get them 
answered. But there are several points that I want to touch on 
before we have to end.
    Mr. Orlan, let me turn to you, because there are two 
specific issues that were raised, and I want your direct 
response to them. The first, with respect to Stuyvesant, were 
the ventilation systems and the ductwork cleaned, and who did 
that work, if it was done?
    Mr. Orlan. The air mixing chambers and the ventilation 
system were cleaned by an asbestos hazard abatement company 
prior to the reoccupancy of the school. Prior to that weekend, 
and there was a holiday weekend, to ensure that there was 
nothing lurking behind the ventilation system, the ventilation 
system was run, a number of air changes, after which air 
sampling was conducted throughout the school. The analysis was 
using the TM analysis, we were able to get down to the smallest 
level of particulate. Those results were shared prior to 
reoccupancy of the school with both the environmentalists with 
the UFT, with the various regulatory agencies and with the 
parents' association consultant.
    Senator Clinton. Ms. Christodoulou, you just heard Mr. 
Orlan's response. What's your response to that?
    Ms. Christodoulou. I think it was not a direct response. 
Your question, Senator, was were the ducts cleaned. Mr. Orlan 
responded that the intakes of the ducts were cleaned. It's a--
--
    Senator Clinton. Let me stop you. Were the ducts cleaned, 
Mr. Orlan?
    Mr. Orlan. The ducts themselves were not cleaned.
    Senator Clinton. Is there some reason why the ducts 
couldn't be cleaned?
    Mr. Orlan. The ducts, there was a sufficient number of air 
changes going through the ducts. Whatever was reachable by the 
ducts, the diffusers, the air chambers, the air handling 
chambers themselves, were physically cleaned. From that point 
on, sufficient amount of air was run through the ducts. It was 
a protocol agreed upon by the parents' association consultant 
prior to running this. We shared results with that particular 
gentleman and with the environmentalists with the UFT.
    Senator Clinton. Well, now, I think this needs to be 
resolved. It's not going to be resolved here. But clearly, this 
is the kind of either misunderstanding or lack of information 
or just difference of opinion about what needs to be done that 
I would very much like to see resolved one way or the other. 
Because I think that going back to what Mr. Scotto said in the 
very beginning, I don't think anyone has any desire to expose 
our children to any toxins that can be controlled and 
eliminated. If there are legitimate differences of opinion, 
obviously my view is, you err on the side of doing more, not 
less, and you will do everything that possibly can not only in 
actuality, but frankly by perception, give the sort of 
confidence that we need.
    So I would hope that you can discuss this further and 
perhaps on behalf of the parents' association. I would 
appreciate getting a report as to whether you're going to go 
forward and do that, or whether some independent expert says 
it's not necessary. Because I think that that is the real 
bottom line on the Stuyvesant issue.
    But I also wanted to ask Mr. Orlan about PS 89. I know 
there are teachers and parents in the audience. I guess they're 
also wondering, can you have some kind of additional meeting 
with some independent mediator or expert there, so that the 
questions that they have can be answered? I know that this is 
something that would be on the minds of any teacher or parent 
about their children.
    Mr. Orlan. So far as the staff and parents of 89, we did 
meet again last week. Chancellor Levy attended, various 
representatives of medical establishments that are working with 
us, independent agencies. Also their own independent consultant 
that the parents have hired.
    I spoke to the president of the parents' association, and I 
did offer to meet with them on an ongoing basis, even when 
school does go back into session. If they have a regular PA 
meeting, if they just need me to come in for 5 minutes once a 
month to say, before we discuss reading and writing, let me 
tell you what we've done, what our test results are, what the 
mayor's office tells us is happening with the site and with the 
barge. I will be more than happy to do that. I've made that 
clear to them.
    Senator Clinton. Dr. Landrigan, as I've heard your 
testimony, you said that having consulted pro bono to the 
board, and I know you've also met with parents groups and 
teachers groups and others, you are willing to say that you 
think that the interior of the schools are acceptable, but 
you're worried about the playgrounds and the idling of the 
diesel trucks and the movement back and forth to the barge. Is 
that a fair paraphrase?
    Dr. Landrigan. Yes, Senator, it is. My colleague, Joel 
Foreman, who's a pediatrician with me at Mount Sinai, and he 
directs an ATSDR supported pediatric environmental health 
specialty unit, was actually at the meeting that Mr. Orlan 
mentioned that was convened last week with the parents of PS 
89. We're continuing to review the data. It's a work in 
progress, and we understand that an examination of the data at 
one point doesn't answer the questions for all time. But we're 
committed to continuing to work with the parents and with the 
board of education.
    Senator Clinton. I will take very seriously your 
recommendation about the registry for children. It's something 
that we need to move on quickly.
    Let me also just thank Dr. Levin for bringing to our 
attention the un-unionized, unprotected, undocumented workers 
who have been put into very difficult positions with these 
cleanups. I think we have to try to have an outreach also to 
try to deal with some of their potential health problems.
    Now, I have to wrap this up. In fact, ending on the note 
that several of you have mentioned, we need financial help to 
do the kind of registry, the monitoring, the tracking and 
surveillance, for all of these groups, and to provide the 
additional expertise. I know how difficult it is, because 
certainly those of us who have lived through what happened here 
and what happened in the following weeks with anthrax know that 
we don't have all the answers we wish we did have. The Hart 
Building in Washington, DC where Senator Schumer has his office 
was closed for months. Nobody knew how to clean it up. They had 
to go back and try twice with an untried system to pump gas 
into the building.
    So this is an issue, when it comes to our response to the 
health impact of these environmental disasters that flow from 
terrorism that we've got to do a better job in addressing. I'm 
on my way, actually, to go over to the city council, because I 
am concerned that we're not going to be having the support we 
need financially from the Federal Government to do the work 
that I think all of us agree needs to be done. It's something 
that to me just absolutely has to be a national priority.
    I don't think that the war on terrorism can only be fought 
either in Afghanistan or foreign countries or that our only 
response here at home is to beef up security. We also have to 
take whatever steps are necessary to protect the environment 
and our health. I think this hearing today illustrates that 
dramatically.
    Now, I thank all of you for participating. I want again to 
let the audience know that there are instructions on the table 
as you enter the auditorium for submitting questions and 
statements to the committee. Please do so by February 25, 2002. 
Let me thank you all for being here. I look forward to 
continuing to work with you on these issues.
    The subcommittee is adjourned.
    [Whereupon, at 2 p.m., the subcommittee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
Statement of Hon. Jerrold Nadler, U.S. Representative from the State of 
                                New York
    Thank you, Chairman Lieberman. I would like to thank you and 
Senator Clinton for holding this field hearing today, and for inviting 
me to testify, regarding the continuing impact of the September 11th 
attacks on the air quality in Lower Manhattan.
    As the Congressman representing ``Ground Zero'' and the surrounding 
area, I am deeply concerned about the environmental and health effects 
posed by the collapse of the World Trade Center for my constituents, 
and for those who go to school or work in the area. It has now been 
exactly 5 months since the terrorist attacks and, unfortunately, the 
people in Lower Manhattan still do not know whether or not it is safe 
to live and work in the area. The Environmental Protection Agency (EPA) 
has failed in its mission to ``. . . protect human health and to 
safeguard the natural environment . . .'' by not exercising its full 
authority to test and clean all indoor spaces where people live and 
work. As such, the EPA has created a full-scale crisis of public 
confidence.
    Yet, all is not lost. The EPA can and must act now to remedy this 
situation and make Lower Manhattan safe and to restore public trust. 
Despite statements to the contrary, the agency does currently have the 
authority and resources to do so, and it must do so quickly. However, 
if the EPA continues to fail New Yorkers, I will introduce legislation 
to mandate action.
    I am going to begin by being very blunt. We now know enough to be 
alarmed and outraged at the Federal Government's response to the 
environmental impact of September 11th. First, we know that EPA 
Administrator Christine Todd Whitman misled the public on September 18, 
2001 when she said she was ``glad to reassure the people of New York 
that . . . their air is safe to breathe, and their water is safe to 
drink.'' She made that statement without the indoor data necessary to 
make such a pronouncement. Second, we know that the EPA has made a 
series of conflicting comments about the presence and quality of 
hazardous materials, and has even knowingly withheld critical data 
regarding the causticity of the dust. Third, we know that the EPA 
delegated authority to New York City to handle indoor environments, but 
did nothing to ensure that the City's response was appropriate. This 
left New Yorkers to their own, uninformed devices, often without the 
means to take care of themselves and their families. This is true even 
as the EPA had its own building at 290 Broadway professionally tested 
and cleaned. Finally, we know that the EPA has treated New York 
differently than it has treated other locales contaminated by hazardous 
materials. New York was at the center of one of the most calamitous 
events in American history, and the EPA has essentially walked away.
    Ms. Whitman's statement, reassuring the public about the safety of 
air and water, which has been echoed by many at all levels of 
government, was based only on the EPA's outdoor tests--the results of 
which are still in dispute. At that time, there had been no systematic 
testing of indoor air or dust in residential or commercial buildings by 
any Government Agency, let alone by the EPA. In fact, the EPA did not 
intend to do testing even of outdoor air in residential areas of Lower 
Manhattan until my Ground Zero Elected Officials Task Force requested 
that it do so on September 21. Ironically, the very first public 
testing conducted inside residences, which was commissioned by our Task 
Force, commenced on the very day Ms. Whitman made her misleading 
statement. The results were made available to the EPA on October 12. 
The test results showed elevated levels of hazardous materials in these 
residences. The EPA did nothing and Ms. Whitman did not adequately 
clarify her statement.
    In recent weeks, the EPA has stated repeatedly that the city of New 
York, not the EPA is responsible for indoor testing. The city, however, 
didn't get around to testing inside homes until November and December. 
The full results of these test are still not available and, according 
to the Health Department, won't be until the spring. I do not 
understand why the results of tests undertaken by a public agency are 
being delayed for public release. Our test results took less than a 
month to be released. Nevertheless, just 3 days ago, the city 
Department of Health issued a press release regarding this limited 
indoor testing. Despite a pacifying headline, many the limited data in 
the press release has caused the scientists with whom we've consulted 
to believe that full results would directly contradict Ms. Whitman's 
statement. The release does make it clear, as did our commissioned 
study, that there were disconcerting levels of hazardous materials in 
peoples' apartments.
    Ms. Whitman's reassurances are deeply confusing in light of other 
statements made by agency officials and of other information we now 
have that the EPA has not itself released. For example, in a copy of a 
January 25, 2002 speech given by Walter Mugdan, EPA Region II counsel, 
which I have obtained, I find that he states, ``. . . a significant 
number of the WTC bulk dust samples that we analyzed did have more than 
1 percent asbestos.'' But an October 3, 2001 EPA memo ``Confirm[ing] No 
Significant Public Health Risk'' states, ``The vast majority of EPA and 
OSHA samples of air and dust analyzed for asbestos have been at levels 
that pose no significant risk to residents and workers returning to 
their homes or area businesses.'' This statement has been made 
repeatedly by EPA Region II officials. How are New Yorkers to interpret 
these conflicting remarks? I can't even tell you what they mean--except 
that they cannot both be true.
    Confusing remarks are one thing, withholding critical data 
pertaining to the public health is another. We know that it took a 
Freedom of Information Act request by the New York Environmental Law 
and Justice Project to get test results showing dangerous levels of 
hazardous materials in outdoor ambient air. The EPA claimed that this 
was an ``oversight.'' But now we have a new, frightening bombshell.
    According to this Sunday's St. Louis Post Dispatch, the U.S. 
Geological Survey (USGS), using the country's best detection equipment 
and methods, found pH levels in World Trade Center dust that are ``. . 
. as corrosive as drain cleaner'' and passed this information along to 
health experts at the EPA on a ``government-only'' website. That's 
right. As corrosive as drain cleaner. (By the way, it took less than 2 
weeks in September for these test results to be ready.) I submit this 
article for the record.
    Andrew Schneider, the paper's Pulitzer Prize-winning environmental 
journalist, charges, ``the USGS data was not released by the EPA nor 
apparently were the environmental agency's own test results on the 
dust.'' The EPA claims to have released this data to the public, but 
when Schneider reviewed all of the EPA's statements made since 
September 11th, he found nothing that warned of these high pH levels. 
According to the New York Committee for Occupational Safety and Health 
(NYCOSH), such dust ``once it's in contact with moist tissue--the 
throat, the mouth--nasal passages, the eyes and even sweaty skin--it 
becomes corrosive and can cause severe burns.'' This is utterly 
scandalous. We must find out why the EPA hid this information from the 
public and we must see all the data now. I hope that Senators Clinton 
and Lieberman will join me in calling on the Federal Government to 
explain why New Yorkers were misled, and to demand the immediate 
release of the full compliment of data.
    The EPA has not only provided false reassurances and misleading 
information. The EPA has also abrogated its responsibility to act. In a 
statement issued on January 17 in response to a press conference I 
held, the EPA states that it, ``has lead [sic] the effort to monitor 
the outdoor environment while the city of New York has taken the lead 
regarding the preoccupancy of buildings.'' At least the ERA admits that 
it has delegated authority to the city. Unfortunately, the EPA has yet 
to provide any justification for doing so, nor has it provided any 
evidence of the oversight measures it is compelled to take to ensure 
that the city is acting in accordance with the strictest federal 
standards. On January 23, I sent a formal inquiry to Administrator 
Whitman asking for answers to these and other questions about the 
city's response, which I submit for the record today. It has been over 
3 weeks since the letter was sent and I have yet to get a response.
    The EPA might say today, as it has in the past, that it does not 
have the proper legal authority to take the steps we are requesting to 
test and clean the areas affected by the collapse of the World Trade 
Center. It will probably say that the Clean Air Act, for example, does 
not govern indoor air and that it is therefore the responsibility of 
the local and State governments, or even that of the landlords and 
residents themselves. This is, again, all utterly misleading.
    Under Section 303 of the Clean Air Act, the EPA has the authority 
in an emergency situation to protect human health when there is an 
``imminent and substantial endangerment'' presented by a source of 
pollution. The intent of Congress is clear in this regard. A Senate 
Report from 1970 on Section 303 states, ``The levels of concentration 
of air pollution agents or combination of agents which substantially 
endanger health are levels which should never be reached in any 
community. When the prediction can reasonably be made that such 
elevated levels could be reached even for a short period of time--that 
is that they are imminent--an emergency action plan should be 
implemented.'' In short, the EPA should not wait for people to actually 
get sick before it acts, and it clearly has the authority to act under 
this law. Indeed, an EPA memo entitled ``Guidance on the Use of Section 
303 of the Clean Air Act'' was issued to the Regional offices on 
September 15, 1983, outlining these very points. I submit a copy of 
this memo for the record.
    But the Clean Air Act is not the only governing statute. The EPA 
has the authority to act on indoor air under the National Contingency 
Plan (NCP) of the Comprehensive Environmental Response, Compensation 
and Liability Act (CERCLA). In fact, I understand that the EPA has 
indeed been utilizing some of the NCP protocols at Ground Zero--
however, they have not relied on this authority, or any other, to test 
or remediate indoor environments.
    As we speak, the EPA is in fact doing indoor testing and 
remediation in Herculaneum, MO and other locales without Superfund 
designation. We must learn why the EPA is treating New York differently 
and I ask the Senators present here today to help me find out. This 
double standard is unconscionable.
    The EPA was unwilling to act on its own, and yet did nothing to 
ensure that those ostensibly charged with acting did ``the right 
thing.'' The EPA, on its web site and in public press releases referred 
residents to the New York City Department of Health, which recommended 
that people clean their potentially asbestos-laden dust with a ``wet 
rag or wet mop.'' Clearly such cleanup measures are inadequate, as seen 
by the EPA's own actions taken in its building at 290 Broadway. I again 
today ask why the EPA applied stricter measures to Federal buildings 
than the city advised for local residences and business equidistant 
from the World Trade Center.
    Given the lack of action, credible information or oversight, I 
believe the EPA has failed in its responsibility to protect the public 
health of the citizens of Lower Manhattan. This is quite simply 
shameful, for public health is the first thing we, as a government, 
must protect.
    In order to ensure a full and fair public assessment on the EPA's 
actions following September 11th, I have also asked the EPA National 
Ombudsman, Robert Martin, to investigate these matters. Mr. Martin has 
been doing so, and I am disappointed he has not been invited to testify 
and share the status of his investigation with the committee. However, 
I understand there is a time constraint today, so I have attached a 
statement from Mr. Martin to be included in the record. As you may also 
know, Administrator Whitman is attempting to place the Office of the 
Ombudsman under the control of the Inspector General, effectively 
stripping the Ombudsman of his independence and ability to investigate 
these claims. I sincerely hope that Administrator Whitman will stop her 
quest to eviscerate the office of the Ombudsman, and in so doing, 
further undermining the integrity of the agency.
    I realize that I have leveled serious charges here today, but I 
believe I have the moral responsibility to do so. The salient point is 
that we still do not know the extent of the presence of hazardous 
materials in some areas of the city. It may or may not be dangerous in 
many indoor areas of lower Manhattan--we just don't know. I am dismayed 
that there seems to be unwillingness on the part of our public agencies 
to get this information. But given that we do not have all of the 
facts, we cannot conclude anything. I do know that we must get the 
facts and act swiftly and appropriately to get the job done right.
    We must not fall into the catch-22 of saying there is no evidence 
of a public health emergency without taking any steps to get such 
evidence. The burden should not be on the landlords and residents 
themselves when the testing procedures and cleanup measures are 
expensive and must be conducted by properly trained personnel.
    The EPA has the statutory and regulatory authority to test and 
remediate indoor environments in Lower Manhattan, and has exercised 
such authority elsewhere. I am calling on the EPA today to immediately 
commence a program of full-scale testing and remediation using the best 
available technology, and to make a report of all such test results and 
actions available to the public. The EPA must also issue the test 
results in a manner which is tied directly to health standards, so that 
we can truly assess the public health risk posed to the people of Lower 
Manhattan. Finally, testing procedures should in no way impede the 
expeditious remediation of hazardous materials found by other 
government agencies or private researchers. Similarly, should the EPA 
find dangerous levels of hazardous materials before the full spectrum 
of testing is completed, cleanup measures should commence immediately.
    If the EPA fails to act again, despite its current authority, 
compel it I will introduce legislation to do so.
    People might say that the measures I am requesting here today are 
expensive. That may be, but we must protect the public health. Although 
the cost may be high today, imagine what the cost will be in the future 
if it turns out that they're really are dangerous levels of hazardous 
materials in Lower Manhattan. Imagine the City's and EPA's contingent 
liability to lawsuits 20 years down the road. Envision the potential 
health care costs.
    It is in the best interest of the residents, workers, students and 
businesses for the Government to act swiftly and appropriately to 
address the public's environment and health concerns. We cannot afford 
to wait while all the agencies point fingers at each other. There is 
still time to right this situation.
    Time is of the essence. My office has received numerous complaints 
from people experiencing adverse health effects such as headaches, 
nosebleeds, and respiratory ailments. The symptoms are so widespread 
that they have been dubbed ``The World Trade Center Flu.'' Public 
confidence is at stake. People know when they are sick, they know when 
something is not right, and they know when they are being lied to. I 
sincerely hope that we do not have another ``Love Canal'' on our hands, 
but the best way to avoid that is to do the necessary testing and 
cleanup now.
    Thank you for inviting me to testify before you today. I look 
forward to working with my colleagues in both chambers of Congress, and 
with all interested parties, to ensure that New York City is safe and 
prosperous for many years to come.
                                 ______
                                 
       [From the St. Louis, (MO) Post-Dispatch, February 9, 2002]
             Caustic Dust Blankets World Trade Center Area
                         (By Andrew Schneider)
    NEW YORK.--Even as the dust from the collapsed World Trade Center 
was still settling, top government scientists were determining that the 
smoky gray mixture was highly corrosive and potentially a serious 
danger to health.
    The U.S. Geological Survey team found that some of the dust was as 
caustic as liquid drain cleaner and alerted all Government agencies 
involved in the emergency response. But many of those on the front 
lines of protecting the health of the public and workers cleaning up 
the site say they never got the information.
    ``I'm supposed to be in the loop, and I've never heard any specific 
numbers on how caustic the dust actually was,'' said Dr. Robin Herbert, 
co-director of the Mount Sinai Center for Occupational and 
Environmental Medicine. ``There is a large segment of the population 
here whose physicians needed to know that information that USGS 
submitted. Exposure to dust with a high pH could impact everyone, but 
especially the very young, the very old and those with existing 
pulmonary disease.'' Census data show large concentrations of young and 
elderly living near the World Trade Center site.
    The EPA's office in New York said it repeatedly told the public 
that the dust was caustic because of the cement that was pulverized 
when the towers collapsed. But an examination of all the EPA's public 
and press statements made since September 11th found nothing that 
warned of the very high pH levels found by the Geological Survey 
scientists. Nor did the statements disclose the specific levels that 
the EPA's own testing found.
    ``We've not heard of EPA or anyone else releasing information on 
specific pH levels in the dust, and that's information that we all 
should have had,'' said Carrie Loewenherz, an industrial hygienist for 
the New York Committee for Occupational Safety and Health, which 
provides assistance to more than 250 unions.
    ``It's the specific numbers--those precise pH levels--that we need 
to make the appropriate safety decisions for the workers, and they were 
never released,'' Loewenherz said. ``The dust, once it's in contact 
with moist tissue, the throat, the mouth, nasal passages, the eyes and 
even sweaty skin, it becomes corrosive and can cause severe burns.''
    Most of the samples taken by USGS' team had a pH of 9.5 to 10.5, 
about the same alkalinity as ammonia. Two samples that were taken 
inside a high-rise apartment and in a gymnasium across from the 
wreckage of the World Trade Center had a pH of 11.8 to 12.1--equivalent 
to what would be found in liquid drain cleaner.
    The degree of acidity or alkalinity in a material is expressed as a 
pH measurement. Neutral pH--like water--is 7 on a 15-point scale. Lower 
than 7, to 0, is an indication of acid. Higher than 7, to 14, the top 
of the scale, is alkaline. Levels near either end of the pH scale can 
harm the health of people and animals.
    Bruce Lippy, Loewenherz's counterpart with the operating engineers 
union, is responsible for the 300 workers running heavy equipment at 
Ground Zero.
    ``Part of the dilemma we faced was not knowing precisely what was 
in the dust,'' Lippy said. ``We knew it was caustic but had no 
information on exactly how caustic it was. I was trying to get people 
to wear the respirators, but if I knew how high the pH levels were, I 
could have been more persuasive in convincing the workers of the 
dangers.''
    Only a handful of the 100 or so workers sorting wreckage and 
loading trucks on the site over 3 days last week were seen wearing 
respirators or protective masks.
                      scientists rush to manhattan
    Like the rest of the world, the USGS team watched the storm of dust 
roll across Manhattan after the terrorist attack on September 11th. 
With its world-class laboratories and sensors that can detect minerals 
on a distant planet, the Denver-based team was already making 
arrangements to get NASA's infrared sensors and aircraft over Ground 
Zero as the EPA and the U.S. Public Health Service requested its help.
    Responding to requests from the White House science office, the 
NASA team flew over Manhattan four times between September 16 and 
September 23, while USGS scientists collected samples of the dust from 
35 locations below.
    Back in Denver, more than two dozen scientists using the world's 
most sophisticated analytical equipment ran the samples through 
extensive testing.
    The Geological Survey's test results were posted September 27 on a 
Web site restricted to Government agencies.
    The USGS findings were ``evaluated by our technical experts and 
found to be consistent with the findings of EPA's Office of Research 
and Development,'' said Bonnie Bellow, the agency's spokeswoman in New 
York.
    ``The USGS data was also discussed by an interagency group of 
scientists, epidemiologists and health officials,'' Bellow said.
    But neither the EPA headquarters nor its New York office would 
comment on what came out of these discussions or which EPA results they 
were ``consistent'' with.
    The USGS data on pH levels were not released by the EPA, nor 
apparently were the environmental agency's own test results on the 
dust.
    ``It is extremely distressing to learn that the EPA knew how 
caustic samples of the dust were and didn't publicize the information 
immediately, or make sure that OSHA publicized it,'' said Joel Shufro, 
executive director of the New York Committee for Occupational Safety 
and Health.
    ``If we had known at the time exactly how caustic the dust could 
be, we would have been in a better position to make informed decisions 
about respiratory protection to recommend and about the urgency of 
ensuring that workers and residents followed those recommendations,'' 
Shufro said.
    ``It is inexcusable for EPA to have kept silent for so long about 
such a potential hazard.''
                      dust weakens strapping youth
    John Healy Jr. is 15, big, taller than his father. He looks as 
strong as a bull. But when he talks, wheezes and deep coughs punctuate 
his words. He and his father, John, live in an apartment overlooking 
what was the World Trade Center.
    ``Something is tearing him up, hitting his lungs hard,'' said his 
father. ``He had asthma when he was younger, but he was fine until 
after September 11th. If I knew the dust was that caustic, there's no 
way I would have brought him back here.''
    John goes to Stuyvesant High School, a 10-story building for the 
brightest of the bright. It's one block from the collapsed buildings 
and beside the Hudson River, where barges are being filled with debris 
destined for sorting at the Fresh Kills landfill.
    ``I need to go to this school, and I need to live here to do it, 
but something in that dust is just hurting me,'' the teen said as he 
looked down at the pile of pills, throat sprays and inhalers in his two 
large hands.
    His father looked out the narrow dining room window at the brightly 
lighted carnage bellow. A light film of dust coated the window.
    ``I can't understand why the Government didn't tell us what was 
actually in the dust,'' Healy said. ``Were they afraid we were going to 
panic? I needed that information to decide what was best for my son. I 
needed it.'' The teen's malady and other serious problems are being 
seen by physicians throughout New York.
    ``What we're finding is incredible irritation to the lungs, throat 
and nasal passages,'' said Herbert, from Mount Sinai. ``Some of the 
tissue is cherry red, vivid, bright, and we've never seen anything like 
it before.
    ``There are a large number of clinicians and public health 
specialists who are struggling to reconcile the health problems they're 
seeing with the exposure data they're being given,'' Herbert said. 
``The high pH in the dust may be a part of the answer. If the 
Government had these pH readings of 11 and 12, the public and their 
physicians should have been told.
    ``Any credible information the Government had relating to health 
issues just should have been released,'' she said. ``There is no 
justification for holding it. You don't conceal the information from 
those who need it.''
                            a dubious honor
    Mark Rushing and Tori Bunch have the debatable honor of having 
lived in one of the sites that USGS tested. In fact, their apartment on 
the 30th floor of a building overlooking the World Trade Center tied 
for highest pH--12.1--of the dozens of sites where samples were 
collected.
    ``It's obvious to those of us living here that the Government--
city, State and Federal--wanted things to return to normal as quickly 
as possible. The economic losses were great,'' Rushing said. ``But no 
matter how you view it, that's no excuse for the Government, any 
government, to conceal hazards from the people they are charged with 
protecting.''
    Rushing and Bunch found a new apartment as far from the World Trade 
Center as they could get and still be in the city. The apartment is on 
the lowest floor available.
    Even within the EPA, professionals believe the agency did a 
disservice by not acknowledging and releasing the Geological Survey's 
data.
    Cate Jenkins, a senior environmental scientist in the hazardous 
materials division at the EPA headquarters, said: ``The pH levels the 
USGS documented were far too high for EPA to ignore. They insisted that 
all the information regarding health and safety was being released to 
the public. Well, that's not true. There's nothing, internally or in 
public releases, that shows the agency ever disclosed specific pH 
levels.''
    Late Thursday, the EPA's Bellow told the Post-Dispatch: ``We have 
no specific data on pH levels.'' Bellow added, ``This is all the 
available information on the subject.''
    Late Friday, the EPA responded to the question of why it didn't 
collect its own pH numbers.
    ``EPA had enough information about the alkalinity of the material 
from the World Trade Center without doing further analysis,'' Bellow 
said.
    The question of why EPA didn't release the data it had had remains 
unanswered.
    The EPA is in a no-win situation. No Government Agency had been 
prepared for the enormity of the terrorist attack on New York. Tight 
budgets--Federal, State and city--ruled out planning and drills for an 
unfathomable event of this size.
    Even most critics say that no amount of preparation could have kept 
the workers fleeing the twin towers--and the rescue workers racing to 
save them--from sucking in lungfuls of toxic dust and smoke.
    But it's what the EPA and OSHA and the New York State and city 
health departments did after the dust settled and the smoke cleared 
that has generated the most criticism.
    On Monday, Rep. Jerrold Nadler, the New York Democrat who 
represents the people in Lower Manhattan, is holding a congressional 
hearing to determine who dropped the ball. He is expected to announce 
that legislation will be introduced to ``force EPA to do the proper 
testing inside offices and apartments and release the finding in a form 
that would be of value to the public and their physicians.''
    Sen. Joseph Lieberman, D-Conn., has scheduled a Senate 
investigation of the issue.
    Less than a week after the attack, on September 16, EPA 
Administrator Christie Todd Whitman told New Yorkers: ``There's no need 
for the general public to be concerned.''
    That was the same day that USGS and NASA flew their first sampling 
missions over the city.
    The EPA said its boss's comments that there were no dangers from 
dioxin, benzene, PCB or asbestos--all cancer-causing agents--were based 
on thousands of outside air samples. Last month, the Post-Dispatch 
reported that high levels of asbestos were found in many apartments and 
offices. The EPA said its regulations did not call for indoor testing.
    Hundreds of firefighters, paramedics and police officers are sick, 
suffering what some physicians call ``ground zero coughs.'' Their 
problems may have come from unprotected exposure the first week of the 
attack.
    But hundreds of other people--workers, students and residents--who 
fled the area and stayed out for weeks and then came back also are 
suffering major respiratory problems.
    The few Christmas decorations that adorned light poles in Lower 
Manhattan have been removed. But the metal poles still bristle with air 
monitors and vacuum pumps sucking in air almost around the clock, 
searching for asbestos fibers, chemicals and traces of heavy, toxic 
metals.
    These monitors are of little or no value when it comes to 
determining the health hazard from dust contaminating apartments and 
offices. For the most part, the EPA and the Occupational Safety and 
Health Administration say they're finding little, if anything, for New 
Yorkers to worry about.
    They are talking about contaminants in the air, which is the main 
pathway for toxic materials to enter the body.
    But the EPA pays little or no attention to indoor contamination.
    Late Friday, the New York City Health Department issued a brief 
statement, with very few details, about both indoor and outdoor testing 
done by the Agency for Toxic Substances and Disease Registry. This 
well-respected research arm for the Department of Health and Human 
Services, found pulverized fiberglass in almost half of the samples it 
examined. However, New York health officials released no specifics on 
the levels of toxic material found, and no one could be reached for 
comment.
    Attention is being paid to keeping the contamination on the site. 
Trucks hauling debris from Ground Zero pass through an EPA drive-
through shower before they reach the streets. City street sweepers and 
washers drive a seemingly endless circle up and down the streets of 
Lower Manhattan.
    But even blocks from the collapse, massive windows on offices and 
cornices on many apartment buildings are still caked with dust.
    ``We made this analytical effort because we were concerned about 
the likelihood that the composition of the dust could be potentially 
harmful to the rescue and cleanup workers at the site and to people 
living and working in Lower Manhattan,'' said USGS team member Geoffrey 
Plumlee, a geochemist who determined the pH levels.
    ``We shared our findings with EPA, FEMA, the Federal emergency 
response coordinator and everyone else we felt was appropriate. We 
anticipated that the results would have been shared with the people on 
the ground, those at risk, but it looks like the information never got 
to those who needed it.''
                                 ______
                                 
   Statement of Robert J. Martin, National Ombudsman, Environmental 
                           Protection Agency
    I am pleased and honored to provide testimony to this subcommittee 
exactly 5 months after the tragedy which struck this city and the 
Nation on September 11, 2001. The Hon. Jerrold Nadler of the U.S. House 
of Representatives and many affected citizens of New York City have 
asked that I as National Ombudsman and Chief Investigator Hugh Kaufman 
independently assess what needs to be done to protect the health and 
environment of the community.
    The initial phase of our investigation identified the fact that 
asbestos testing being performed and/or paid for by the Environmental 
Protection Agency was not performed with the best available technology 
to identify the true health risks posed by the tons of asbestos 
released into the community from the World Trade Center attack.
    As a working finding, I have concluded that the Environmental 
Protection Agency, or any other agency of Government that has not used 
the best available technology to measure asbestos levels, cannot 
irrebuttably conclude that dwellings in the community surrounding the 
World Trade Center attack are safe. As a working finding I have further 
concluded that besides asbestos, there are other hazardous materials 
that pose a risk to the public health and environment from the World 
Trade Center attack. These include, but are not limited to, benzene, 
lead, mercury, PBDEs (flame retardants), fiberglass, and PCBs.
    Although not a working finding, we have received substantial 
anecdotal information that the workers and visitors to Ground Zero may 
not have been provided adequate information, training, and protective 
gear to assure their health and safety. We have also received 
substantial anecdotal information that the Environmental Protection 
Agency has provided erroneous information to the public during their 
response to the World Trade Center attack.
    As in all other major National Ombudsman cases, we will be 
convening public hearings, taking on the record statements, 
interviewing witnesses, reviewing records and issuing Interrogatories 
and Requests for Production of Documents and Working Findings. The 
Ombudsman process is a transparent process and as in the past we expect 
that if mistakes have been made, they will be corrected during the 
process to afford the public the fastest possible help in protecting 
their health. We anticipate and welcome full cooperation from you, EPA 
and all other governmental authorities.
    We look forward to working with all the elected officials in this 
area just as I have done in other cases around the country from Florida 
to Idaho, and from Pennsylvania to Colorado. I particularly want to 
point to the leadership of Congressman Jerrold Nadler and the Ground 
Zero Elected Officials Task Force in their efforts an behalf of all the 
citizens in helping to expeditiously solve these problems.
                                 ______
                                 
Initiation of Administrative and Civil Action Under Section 303 of the 
             Clean Air Act During Air Pollution Emergencies
    The purpose of this guideline is to explain the statutory 
requirements and resource needs which must be met in order to take 
action under Section 303 of the Clean Air Act\1\ in the event of an air 
pollution emergency.
---------------------------------------------------------------------------
    \1\ Section 303, as amended in 1977 and codified at 42 U.S.C. 
Section 7603, reads as follows:
    (a) Notwithstanding any other provision of this chapter, the 
Administrator, upon receipt of evidence that a pollution source or 
combination of sources (including moving sources) is presenting an 
imminent and substantial endangerment to the health of persons, and 
that the appropriate State or local authorities have not acted to abate 
such sources, may bring suit on behalf of the United States in the 
appropriate United States District Court to immediately restrain any 
person causing or contributing to the alleged pollution to stop the 
emission of air pollutants causing or contributing to such pollution or 
to take such other actions as may be necessary. If it is not 
practicable to assure prompt protection of the health of persons solely 
by commencement of such a civil action, the Administrator may issue 
such orders as may be necessary to protect the health of persons who 
are, or may be, affected by such pollution source (or sources). Prior 
to taking any action under this section, the Administrator shall 
consult with the State and local authorities in order to confirm the 
correctness of the information on which the action proposed to be taken 
is based and to ascertain the action which such authorities are, or 
will be, taking. Such order shall be effective for a period of not more 
than 24 hours unless the Administrator begins an action under the first 
sentence of this subsection before the expiration of such period. 
Whenever the Administrator brings such an action within such period, 
such orders shall be effective for a period of 48 hours or such a 
longer period as may be authorized by the court pending litigation or 
thereafter.
    (b) Any person who willfully violates, or fails or refuses to 
comply with, any order issued by the Administrator under subsection (a) 
of this section may, in an action brought in the appropriate United 
States District Court to enforce such order, be fined not more than 
$5,000 for each day during which such violation occurs or failure to 
comply continues.
---------------------------------------------------------------------------
    This guideline is directed toward both meteorological episodes 
(e.g., thermal inversions) involving dangerously high levels of 
criteria or non-criteria pollutants, situations in which chronic 
exposure to air pollution causes endangerment by cumulative effect, and 
incidents involving industrial accidents or malfunctions (e.g., 
breakdown of pollution control devices) resulting in the release of air 
pollutants in hazardous concentrations.
                        statutory prerequisites
1. An Imminent and Substantial Endangerment to Health
    The threshold prerequisite is the existence of ``evidence that a 
pollution source or combination of sources (including moving sources) 
is presenting an imminent and substantial risk of harm. It should be 
emphasized that endangerment means a risk or threat to human health, 
and that EPA should not delay action until actual injury occurs. Such 
delay would thwart the express intent of the Clean Air Act to protect 
the Nation's air quality in the interest of the public health. Section 
303 is a precautionary provision, aimed at the avoidance of potential 
harm. This is best illustrated by the House Report on the Clean Act 
Amendments of 1977:

          In retaining the words ``imminent and substantial 
        endangerment to the health of persons'', the committed intends 
        that the authority of this section not be used where the risk 
        of harm is completely speculative in nature or where the harm 
        threatened is insubstantial. However, . . . the committee 
        intends that this language be constructed by the courts and the 
        Administrator so as to give paramount importance to the 
        objective of protection of the public health. Administrative 
        and judicial implementation of this authority must occur early 
        enough to prevent the potential hazard from materializing.

    H.R. Rep. No. 95-294, 95th Cong., Sess, 328 (1977) (emphasis 
added).
    There is also some judicial opinion supporting an interpretation of 
the endangerment standard as being merely precautionary, and permitting 
remedial action prior to the occurrence of any actual harm. In Ethyl 
Corporation v. Environmental Protection Agency, 541 F.2d 1 (D.C. Cir. 
1976), the Court ruled that EPA had properly acted to regulate lead in 
gasoline upon finding, under Section 211 of the Clean Air Act, that 
lead emissions would ``endanger'' as requiring only a finding that lead 
emissions presented a ``significant risk'' of injury to the public. 
There were no finding of the presence of actual harm. In upholding the 
Agency's view of the ``endanger'' standard in Section 211, the Court 
explained:

          When one is endangered, harm is threatened; no actual injury 
        need ever occur. A statute allowing for regulation in the face 
        of danger is, necessarily, a precautionary statute. Regulatory 
        action may be taken before the threatened harm occurs; indeed, 
        the very existence of such precautionary legislation would seem 
        to demand that regulatory action precede, and, optimally, 
        prevent, the perceived threat.

    541 F.2d at 13. In Reserve Mining Company v. Environmental 
Protection Agency, 514 F.2d 492 (8th cir. 1975), the court had 
similarly interpreted an endangerment standard in the Federal Water 
Pollution Control Act in a case involving asbestos discharges into Lake 
Superior. The court stated that ``Congress used the term 
``endangering'' in a precautionary or preventive sense, and, therefore, 
evidence of potential harm as well as actual harm comes within the 
purview of that term.'' 514 F.2d at 528.
    An important question for purposes of Section 303 of the Clean Air 
Act, however, concerns the effect of the modifying phrase ``imminent 
and substantial'' upon the meaning of ``endangerment.'' In Reserve 
Mining, the Court stated that the ``term `endangering' . . . connotes a 
lesser risk of harm than the phrase `imminent and substantial 
endangerment to the health of persons.' '' 514 F.2d at 528. Accord, 
Ethyl Corporation v. Environmental Protection Agency, 541 F.2d at 20 
n.36. This issue is particularly important to EPA's ability under 
Section 303 to abate suspected carcinogens, the harm from which might 
take many years to manifest itself.
    It is our position that in order to adequately safeguard public 
health by being in a position to preclude an air pollution emergency at 
its inception, the phrase ``imminent and substantial endangerment'' 
must be interpreted to refer to an imminent and substantial risk of 
harm, no matter how distant the manifestation of harm may be. If there 
exists a non-speculative risk of harm, the agency may properly act 
under Section 303. This is consistent with the legislative history 
quoted previously, and with the established definition of 
``endangerment'' as referring to the risk of harm; not actual harm 
itself. This is also consistent with the 1970 Senate Report on Section 
303, which states:
    The levels of concentration of air pollution agents or combination 
of agents which substantially endanger health are levels which should 
never be reached in any community. When the prediction can reasonably 
be made that such elevated levels could be reached even for a short 
period of time--that it is that they are imminent--an emergency action 
plan should be implemented . . . S. Rep. No. 91-1196, 91st Cong., 2d 
Sess. 36 (1970). Thus, EPA may properly take action to abate air 
emissions when a substantial risk of harm is about to arise. This is 
several steps prior to the occurrence of any actual harm, but is 
appropriate in view of the precautionary nature of Section 303.\2\
---------------------------------------------------------------------------
    \2\ This permits the Agency to act to seek abatement of emissions 
reasonably believed to be carcinogenic but for which a harmful level, 
and the time for harm from such emissions to become apparent, are both 
uncertain.
---------------------------------------------------------------------------
    This approach is also crucial to the Agency's ability to abate 
emissions which are believed to be but which are yet not confirmed as 
dangerous to human health. In United States v. Vertac Chemical 
Corporation, 489 F. Supp. 870 (E.D. Ark. 1980), the Court found the 
chemical dioxin, widely believed but not fully proven to be hazardous, 
to be presenting a ``reasonable medical concern over public health'' 
and to be thereby constituting an imminent and substantial endangerment 
to health under Section 7003 of the Resource Conservation and Recovery 
Act. Id. at 885. An Agency response under Section 303 of the Clean Air 
Act would be appropriate in the presence of pollutants reasonably 
believed to be dangerous to human health. As with regard to any 
pollutants sought to be abated under Section 303, EPA must be prepared 
to document the basis of its belief in the danger of these pollutants. 
If the Agency can show a ``reasonably medical concern'' created by the 
suspect emissions, it will have met the ``imminent and substantial 
endangerment'' test of Section 303.
    Appendix L of the State Implementation Plan regulations (40 CFR 
Part 51) outlines a phased emission reduction program for air pollution 
emergencies involving criteria pollutants. In increasing degrees of 
seriousness, the levels are ``alert'', ``warning'', ``emergency'', and 
``significant harm to health.'' The ``significant harm to health'' 
levels are levels at which actual injury occurs and are levels that 
should never be reached. It is not consistent with the intent of the 
Act for the Regional Offices to wait until the levels of ``significant 
harm to health,'' specified in 40 CFR 51.16(a), are reached prior to 
initiating a Section 303 action. The ``emergency'' level is intended to 
be the level at which action must be taken to avoid reaching levels of 
significant harm. Generally speaking, it is at these designated 
emergency levels that an imminent and substantial endangerment, i.e., 
an imminent and substantial risk to public health, is deemed to exist. 
The ``warning'' and ``alert'' levels specified in Appendix L are 
designed to ameliorate situations before the emergency stage by 
application of moderate controls.
    Under certain circumstances an imminent and substantial 
endangerment to health may exist even though the Appendix L emergency 
levels have not been reached. Accordingly, the concentrations outlined 
in Appendix L as the ``emergency levels'' are only to be considered as 
a guide in determining when an imminent and substantial endangerment to 
health exists. Flexibility is essential and appropriate action must be 
taken pursuant to Section 303 whenever it is necessary to prevent the 
significant harm to health levels from being reached. For example, if 
review of forecasted meteorological conditions indicate that a 
situation is likely to deteriorate so rapidly that any action started 
at the emergency level in Appendix L would come too late to be 
effective in preventing the significant harm to health level from 
being, reached, the Agency should act at such earlier time as is 
necessary to allow for enforcement action to be effective. Moreover, 
emergency conditions may be present even if there is no clear 
prediction that specified endangerment levels will be reached. An 
imminent and substantial endangerment to health may exist, for example, 
where pollutant concentrations lower than established emergency levels 
occur or are predicted to occur for an extended period of time.
    With regard to non-criteria pollutants, sources of information on 
dangerous concentrations may vary. Among these are standards 
established by the Occupational Safety and Health Administration (OSHA) 
for exposure to air pollutants inside the workplace. Although not 
directly related to ambient air, these standards might provide a 
starting point for assessing the risk to the public when such 
pollutants, e.g., various organics, become airborne in a community. 
Computerized health effects data bases, such as Toxline and Chemline, 
might also be helpful. (These data bases are run by the National 
Library of Medicine and may be accessed through the EPA Headquarters or 
regional office libraries.) It will be necessary to gather scientific 
and medical data, in addition to meteorological data, in order to find 
an imminent and substantial endangerment to public health as a result 
of emissions of non-criteria pollutants. The role of experts for this 
purpose is discussed below.
2. State or Local Authorities Have Not Acted to Abate Pollution 
        Source(s)
    A second prerequisite to initiating a Section 303 action is that 
the Administrator receive evidence ``that appropriate State or local 
authorities have not acted to abate such sources.'' Section 51.16(a) of 
40 CFR requires that each State Implementation Plan for a priority I 
region include a contingency plan which, as a minimum, provides for 
taking any emission control actions necessary to prevent ambient air 
pollutants concentrations of criterial pollutants from reaching levels 
which could cause significant harm to the health of persons. More 
specifically, the State Implementation Plans submitted to the 
Administrator were: (1) to specify two or more stages of episode 
criteria; (2) to provide for public announcements whenever any specific 
stage has been determined to exist; and (3) to specify emission control 
actions to be taken at each episode stage. (Section 51.16(g) of the 
Implementation Plan regulations requires that the State Implementation 
Plans for Priority II regions include, as a minimum, requirements (1) 
and (2);) Although Section 51.16 addresses only SIP contingency plans 
for criteria pollutants, the requirement of State or local failure to 
abate applies also to conditions involving non-criteria pollutants. The 
issue for purposes of implementing Section 303 is at what point it 
becomes the duty or the prerogative of EPA to act to abate an air 
pollution emergency.
    Prevention and curtailment of an air pollution emergency is 
initially the responsibility of State and local governments. EPA has 
secondary responsibility for taking steps to avert emergency 
conditions. The Regional Office's initial duty, therefore, is to 
observe State and local abatement efforts (e.g., monitoring 
implementation of an emergency episode plan) and to render assistance 
should a State or locality request it. The Regional Office should take 
action under Section 303 only if State and local action is either 
unsuccessful or not forthcoming, as where a State lacks adequate 
abatement resources or simply refuses to attempt to abate the 
emergency. Under such circumstances, the Regional Office may assume 
primary responsibility for curtailing the emergency or, preferably, 
render technical assistance to the State's abatement efforts.
    The time allowed for State and local government to take adequate 
action prior to EPA's assuming primary responsibility will obviously 
depend on the nature of the potential or actual emergency. The more the 
endangerment would be increased by delay, the shorter this lead-time 
should be. All that is required by Section 303, however, is that State 
or local action be insufficient to abate or preclude the emergency 
conditions, and that the appropriate State or local agency by consulted 
in order to determine what action it intends to take, and whether the 
information upon which EPA intends to act is accurate. The requirement 
of consultation should not be viewed as an obstacle to effective action 
by EPA. As explained in the House Report on the 1977 Clean Air 
Amendments:

          The consultation requirement is in furtherance of the 
        committee's intent that the Administrator not supplant 
        effective State or local emergency abatement action. However, . 
        . . if State and local efforts are not forthcoming in timely 
        fashion to abate the hazardous condition, this provision would 
        permit prompt action by the Administrator.

    H.R. Rep. 95-294, 95th Cong., 1st Sess. 328 (1977). The 
consultation requirement is therefore not a concurrence requirement, 
but rather one of notification and corroboration prior to taking 
action. The scope of action taken by EPA should be restricted to what 
is necessary as a supplement to any action taken by State or local 
authorities, as, e.g., where a State is able to implement only portions 
of its SIP emergency episode plan, yet further action is needed to 
curtail the episode.
                   relief available under section 303
    The foregoing statutory prerequisites apply to both the initiation 
of a civil action to abate an air pollution emergency and to the 
issuance of an order by the Administrator directly to the source of the 
hazardous air emissions, demanding a curtailment of those emissions. 
These two forms of relief--the civil action for an injunction and the 
administrative order--are briefly discussed below.
1. Injunctive Relief
    Section 303 permits the Administrator to seek injunctive relief in 
a Federal district court ``upon receipt of evidence that a pollution 
source or combination of sources (including moving sources) is 
presenting an imminent and substantial endangerment to the health of 
persons, and that the appropriate State or local authorities have not 
acted to abate such sources . . .'' Pursuant to the Memorandum of 
Understanding between EPA and the Department of Justice, codified in 
Section 305 of the Clean Air Act, the action would be filed on behalf 
of the Administrator by the U.S. Attorney for the appropriate Federal 
court district. EPA Regional and Headquarters Offices, however, have 
the responsibility of providing all data and evidentiary material to 
the Department of Justice.
    As will be discussed more fully below, it is essential to a 
successful civil action that expert testimony by elicited, either in 
the form of affidavits or through expert appearances at depositions or 
trial, regarding the risk of harmful effects to the health of persons 
from exposure to the relevant pollutant. This is especially so in the 
case of an emergency involving a non-criterial pollutant, the harmful 
levels or effects of which have not already been established by EPA or 
other agencies. A diligent effort should be made to obtain evidence, 
perhaps from citizen complaints or hospital records, that the 
particular emission sought to be controlled has in fact already caused 
adverse effects to the health of some individuals. Such evidence, while 
not essential to a Section 303 action, could be helpful in 
substantiating an imminent and substantial endangerment. Among the 
experts to be consulted concerning hazardous pollutants and the 
presence and extent of any adverse health effects are physicians, 
epidemiologists, and toxicologists.
    In addition, expert meteorological testimony is needed in order to 
assess the magnitude of hazardous pollutant concentrations and to 
pinpoint the source of the dangerous emissions, if not already known as 
in an area of numerous industrial point sources), and to ascertain the 
expected geographical breadth of the emergency, based upon such 
parameters as current and forecasted wind speed, wind direction, 
atmospheric stability, temperature, and precipitation.\3\
---------------------------------------------------------------------------
    \3\ Atmospheric stability refers the degree of turbulence in the 
atmosphere.
---------------------------------------------------------------------------
    The meteorological expert may also be able to predict the duration 
of an emergency episode by determining the time which will elapse 
before changed meteorological conditions might substantially improve 
the dispersion of the hazardous pollutant concentrations.
    Also, experts in industrial processes and pollution controls will 
be needed in order to explain to a court the nature of the polluting 
process and what abatement options are available, e.g., plant shutdown 
versus reduced production. In any action for an injunction, a court can 
be expected to provide no more relief than is necessary, and place as 
light a burden as possible on the emitting source, in providing for 
effective curtailment of the air pollution emergency. The industrial 
expert will thus play a crucial role in the shaping of judicial relief 
in a Section 303 action.
    This testimony--medical, scientific, meteorological, and 
technical--is essential to prevailing in a Section 303 suit. The burden 
of proof will be on the Government, which must show by a preponderance 
of the evidence that the defendant is the source of air pollutants 
which, by their very nature or because of existing meteorological 
conditions, have caused harm to individuals or are presenting and 
imminent and substantial risk of such harm. In order to assure the 
credibility of this testimony, sampling personnel should be prepared to 
testify to the reliability and quality assurance of the air samples 
evaluated by the experts.
    The procedure for seeking an injunction are set forth in the 
Federal Rules of Civil Procedure, Rule 65 (copy attached). In the event 
that immediate relief is needed, Rule 65 provides for temporary 
injunctive relief in the form of a preliminary injunction which can be 
obtained from a Federal district court, after a hearing, in order to 
reduce further emissions of the suspect pollutant below emergency 
levels until a full trial can be held. The Government should be 
prepared to have its experts testify in court if preliminary or 
permanent injunction is sought.
    The following should be kept in mind as elements of proof necessary 
to obtaining a preliminary injunction:
    (1) Absent immediate injunctive relief, irreparable harm will be 
caused by the polluting source(s); (2) this harm would outweigh any 
harm to the source(s) from the granting of relief requiring the 
source(s) to abate emissions; (3) the risk to public health is 
sufficient to make success on the merits and the granting of a 
permanent injunction likely; and (4) the public interest necessitates 
immediate relief. See 7-pt. 2 Moores Federal Practice para, 65.04 
(1980); See also United States v. Midwest Solvent Recovery, Inc., 484 
F. Supp. 138.144 (N.D. Ind. 1980). In addition, Rule 65 provides for 
injunctive relief in the form of 10-day temporary restraining order 
(TRO), which can be granted without a hearing while a motion for 
preliminary injunction is prepared.\4\
---------------------------------------------------------------------------
    \4\ Only once has a TRO been requested under Section 303. The 
incident occurred in 1971, in Birmingham, AL. After local efforts to 
curtail emissions from several sources failed, a TRO was requested and 
granted under Section 303, requiring various process modifications and 
cessations.
---------------------------------------------------------------------------
    Expert testimony in the form of affidavit should suffice for the 
purpose of obtaining a TRO.
    The proof necessary to obtain a TRO is that immediate and 
irreparable injury will occur if injunctive relief is withheld until 
the defendant can be given notice and an opportunity to appear. Rule 65 
implies that a hearing on a motion for preliminary injunction should 
take place as soon as possible after the granting of a TRO. Id., Para. 
65.05-65.08; see also 4 West's Federal Forms Section 5297 (1970).
2. Administrative Order
    Prior to the 1977 Clean Air Act Amendments, the only method of 
enforcement provided in Section 303 was injunctive relief from a 
Federal district court upon a showing of imminent and substantial 
endangerment from air pollutant emissions. The 1977 Amendments left 
this authority in place and added a provision authorizing the 
Administrator to issue an order to a source to take steps to curtail 
its emissions in the event ``it is not practicable to assure prompt 
protection of the health of persons solely by commencement of . . . a 
civil action.'' Within twenty-four hours of issuing the order, however, 
the Administrator must file a suit for injunctive relief, or the order 
will expire. Upon such filing, the court may then extend the life of 
the order pending litigation. Violation of the order may be penalized 
up to $5,000 per day per violation. This penalty may be sought in a 
civil action brought to enforce the order.\5\
---------------------------------------------------------------------------
    \5\ This is analogous to the provision in Section 113(b) of the 
Clean Air Act for a civil action to enforce, and seek penalties for, 
violation of, an order issued under Section 113(a) to comply with 
emission limitations.
---------------------------------------------------------------------------
    Also in such an action, a source may challenge the Administrator's 
basis for issuing the order.
    This administrative order mechanism was intended by Congress to 
enhance EPA's emergency response capability even beyond that provided 
by the TRO process previously discussed. As explained in the 1977 House 
Report:

          Even more prompt action may be necessary where pollution 
        levels exceed the never to be exceeded levels without prior 
        forecast that this may occur . . . The committed bill reflects 
        the committee's determination to confer completely adequate 
        authority to deal promptly and effectively with emergency 
        situations which jeopardize the health of persons. Thus, the 
        section provides that if it is not practicable to assure prompt 
        protection of health solely by commencement of a civil action, 
        the Administrator may issue such orders as may be necessary for 
        this purpose.

    H.R. Rep. No.95-294, 95th Cong., 1st Sess. 327-28 (1977) (emphasis 
added). The administrative order is thus an available enforcement 
mechanism in those instances where even a TRO might be issued too late 
to effectively curtail an endangerment to public health. Such 
situations might be those involving emissions that are hazardous even 
in very limited duration of exposure, rendering a TRO too late to be 
fully effective, or situations which, although potentially quite 
harmful, are expected to be of very short duration, such that the 
emissions would cease before the TRO could issue e.g., the demolition 
of an asbestos-lined building). In such situations, the time required 
to gather the expert evidence in support of a TRO might defeat efforts 
to avert adverse public health effects, absent a more immediate 
enforcement mechanism.
    The administrative order is just such a mechanism. Expert testimony 
is not required for issuance of an administrative order. What is 
needed, however, is evidence which reasonably leads the Administrator 
to believe that certain air emissions from particular sources are 
creating an imminent and substantial endangerment to public health. 
This evidence might be in the form of emissions data combined with 
adverse meteorological reports and medical bulletins. Provided the 
informal consultation requirement has been met, the Administrator may 
issue an order calling for abatement of emissions by whatever means the 
Administrator determines are necessary under the circumstances of the 
case. Because of the potential adverse economic impact of such an order 
upon the source, the order should require no more than what is clearly 
necessary to curtailing hazardous emissions. The fact that the order 
may only last twenty-four hours, during which time a TRO application 
and civil suit can feasibly be filed, and that the basis of the order 
may be challenged by any source subject to it in a proceeding to 
enforce the order, are indicative of Congress' intent that the order be 
immediately available although not necessarily supported by the best 
possible expert credible evidence.
    Note that the administrative order may also be used to require 
additional sampling or monitoring by the suspected source with a view 
toward abating its emissions. This additional data can then be utilized 
in a subsequent civil action, if such an action is necessary to 
abatement.
    Additional sampling and monitoring may also be required of a source 
through the use of Section 114 of the Clean Air Act. Section 113(a)(3) 
permits EPA to issue an order to a source if it fails to comply with a 
requirement of 114. Such an order is not effective until the person to 
whom it is issued has had an opportunity to confer with EPA.
    Thus, Section 114 provides a mechanism for requiring source 
sampling and monitoring with a much lower standard of proof of 
violation than that required by Section 303. EPA may issue an order 
requiring sampling and monitoring under Section 114 for the purpose 
``(i) of developing or assisting in the development of any 
implementation plan under Section 110 or 111(d), any standard of 
performance under Section 111, (ii) of determining whether any person 
is in violation of any such standard or any requirement of such a plan, 
or (iii) carrying out any provision of this Act . . .'' This is 
contrasted with the requirement under Section 303 that EPA have 
evidence that a source ``is presenting an imminent and substantial 
endangerment to the health of persons, and that appropriate State or 
local authorities have not acted to abate such sources.'' However, 
while the standard for issuing a 114 order is lower, a 114 testing 
order takes longer to enforce because it must be enforced by the 
issuance of a 113(a)(3) order after the source has been offered an 
opportunity to confer.
 delegations for issuing administrative orders and judicial complaints 
                           under section 303
I. Administrative Orders
    Pursuant to Delegation 7-49, authority to issue administrative 
orders under Section 303 rests with the Regional Administrators and the 
Assistant Administrator for Air, Noise, and Radiation. The Regional 
Administrators must consult with the Associate Enforcement Counsel for 
Air before issuing such orders. The Assistant Administrator for Air, 
Noise and Radiation must consult in advance with the Associate 
Enforcement Counsel for Air and notify any affected Regional 
Administrator or their designees before issuing orders. Because speed 
is of the essence in issuing administrative orders under Section 303, 
the Headquarters concurrences card be issued by telephone and followed 
up later in writing.
II. Referral of Civil Actions for Injunctive Relief
    Pursuant to Delegation 7-22-A, all referrals to the Department of 
Justice of requests for civil actions for emergency TRO's must be made 
the Special Counsel for Enforcement. The Special Counsel for 
Enforcement must notify the Assistant Administrator for Air, Noise and 
Radiation and the appropriate Regional Administrator when a case is 
referred to the Department of Justice.
      forms for obtaining injunctive relief motion for temporary 
                           restraining order
    The United States of America, by its undersigned attorneys, by 
authorization of the Attorney General and acting at the request of the 
Administrator of the Environmental Protection Agency, moves that this 
Court, in order to prevent irreparable injury to the United States and 
its citizens, enter immediately an order to restrain temporarily the 
defendants set for this in the complaint from discharging excessive 
(pollutant) into the ambient air pending action by this Court on the 
complaint filed this day by the United States in this cause, and in 
support of the motion, states:
    Defendants are discharging from their plants and/or installations 
at (city, State), substantial amounts of (pollutant), into the ambient 
air. Such discharges (in combination with adverse weather conditions) 
have caused or are contributing to, concentrations of (pollutant), in 
the ambient air exceedings a level of (number) (units) of (pollutant). 
This level presents an imminent and substantial endangerment to the 
health of persons.
    The appropriate State and local authorities have diligently 
attempted to decrease the level of contamination in the atmosphere. 
However, defendants continue to discharge (pollutant) into the ambient 
atmosphere causing imminent and substantial endangerment to the health 
of persons.
    The presence of such levels of (pollutant) is a present and 
continuing danger to human health. Unless the discharges of (pollutant) 
are immediately restrained, the health of people in the area will 
continue to suffer immediate and irreparable harm.
    Plaintiff further moves for said Temporary Restraining Order to be 
issued forthwith and without notice, on the ground that the discharge 
constitute and imminent and substantial endangerment to the health of 
persons.
    Therefore, in view of the immediate danger to public health that 
the defendants are contributing to by the release of (pollutants) into 
the ambient air, plaintiff prays that the Court enter a temporary 
restraining order immediately.
                      temporary restraining order
    This cause came to be heard on the motion of plaintiff, upon the 
complaint herein and affidavits attached thereto, for a temporary 
restraining order; and, it appearing to the court therefrom that 
immediate and irreparable injury, loss and damage will result to the 
plaintiff before notice can be given and the defendant or his attorney 
can be heard in opposition to the granting of a temporary restraining 
order for the reason that continued levels of pollution by (pollutant) 
will cause irreparable damage to the health of persons, it is
    ORDERED, that defendants set out in the complaint filed herein, 
their agents, servants, employees and attorneys and all persons 
in,active concert or participation with them are hereby restrained from 
causing or contributing the alleged pollution and each defendant 
separately must take the following action:
    (List each defendant separately and state what immediate action 
that defendant must take).
    ORDERED, that this order expire within 10 days after entry, unless 
within said time it is for good cause shown extended for a longer 
period, and it is further
    ORDERED, that this order expire within 10 days after entry, unless 
within said time it is for good cause shown extended for a longer 
period, and it is further
    ORDERED, that plaintiffs complaint be set for hearing on 
preliminary injunction on (date) at (time) of that day or as soon 
thereafter as counsel can be heard, in the United States District 
courtroom in the city of ______, State of______.
    This order issued at city, state, this ______ day of (month), 
(year).
                      complaint (for civil action)
    The United States of America, by its undersigned attorneys and by 
authority of the Attorney General alleges that:
    1. This is a civil action to enjoin the above names defendant(s) 
from discharging any (pollutant) into the ambient atmosphere from their 
manufacturing operations in the (city, state) area. Such discharges 
contribute to the imminent and substantial endangerment to the health 
of persons as determined by the Administrator of the Environmental 
Protection Agency. Authority to bring this action is in the Department 
of Justice by 42 USC 7605.
    2. This court has jurisdiction of the subject matter of this action 
pursuant to 28 USC 1345.
    3. Defendant(s) are corporations doing business in (city, state) 
within the ______ District of (Federal district court).
    4. During normal operation of the defendants' plants the defendants 
discharge (pollutant) into the ambient air.
    5. The Administrator of the Environmental Protection Agency has 
received evidence that a combination of pollution sources, including 
the defendant's plants, are presenting an imminent and substantial 
endangerment to the health of persons of discharging matter into the 
ambient air.
    6. The appropriate State and local authorities have diligently 
attempted to decrease the level of contamination in the atmosphere. 
However, the various sources emitting (pollutant) in significant 
quantities, including the defendants plants, continue to discharge 
(pollutant) into the ambient atmosphere to levels that cause 
significant harm to the health of human beings.
    7. The average (pollutant) level in the ambient air for the past 
forty-eight (48) hours is approximately (number) (units). Such levels 
for such periods of time are harmful to the health of human beings.
    8. The discharges of matter by the defendants should be eliminated 
pursuant to Section 303 of the Clean Air act which provides:
    (a) Notwithstanding any other provisions of this Act, the 
Administrator upon receipt of evidence that a pollution source or 
combination of sources (including moving sources) is presenting an 
imminent and substantial endangerment to the health of persons, and 
that appropriate State or local authorities have not acted at abate 
such sources, may bring on behalf of the United States in the 
appropriate United States district court to immediately restrain any 
person causing or contributing to the alleged pollution to stop the 
emission of air pollutants causing or contributing to such pollution or 
to take such other action as may be necessary. If it is not practicable 
to assure prompt protection of the health of persons solely by 
commencement of such a civil action, the Administrator may issue such 
orders as may be necessary to protect the health of persons who are, or 
may be, affected by such pollution source (or sources). Prior to taking 
any action under this section, the Administrator shall consult with the 
State and local authorities in order to confirm the correctness of the 
information on which the action proposed to be taken is based and to 
ascertain the action which such authorities are, or will be, taking. 
Such order shall be effective for a period of not more than 24 hours 
unless the Administrator brings an action under the first sentence of 
this subsection before the expiration of such period. Whenever the 
Administrator brings such an action within such period, such order 
shall be effective for a period of 48 hours or such longer period as 
maybe authorized by the court pending litigation or thereafter.
    (b) Any person who will fully violate or fails or refuses to comply 
with, any order issued by the Administrator under subsection (a) may, 
in an action brought in the appropriate United States district court to 
enforce such order, be fined not more than $5,000 for each day during 
which such violation occurs or failure to comply continues.
    9. The continuous emission of (pollutant) into the ambient air the 
defendants contributes to the present situation which, if allowed to 
continue, will cause significant harm to the health of persons in the 
city area.
    10. The United States of America and its citizens will suffer 
immediate and irreparable harm to their health unless the defendants 
are immediately restrained from discharging (pollutant) into.
                   wherefore, the united states prays
    a. That the defendants, their officers, directors, agents, 
servants, employees, attorneys, successors, and assigns, and each of 
them cease the discharge of (pollutant) into the ambient air in a 
manner prescribed by this Court and not discharge such matter 
thereafter unless pursuant to instruction to do so from this Court.
    b. That costs and disbursements of this action be awarded to the 
plaintiff; and
    c. That this Court grant such other and further relief as it seem 
just and proper.
    (no signature necessary)
          united states environmental protection agency region
(Address)
IN THE MATTER OF ______
(source)
DOCKET NO (______ )
SECTION 303 OF THE CLEAN ______)
AIR ACT, AS AMENDED, ______)
42 U.S.C. Section 7401 et seq., ______)
42 U.S.C. Section 7603 ______)
______
    The Regional Administrator for Region (______) of the United States 
Environmental Protection Agency (EPA) makes the following Findings of 
Fact, reaches the following Conclusion of Law and Issues the following 
Order:
                            findings of fact
    1. The Administrator of EPA his delegated the authority vested in 
him by Section 303 of the Clean Air Act (the Act) as amended, 42 U.S.C. 
Section 7401 et seq., 42 U.S.C. Section 7603, to the Regional 
Administrator for Region (______).
    2. Section 303 of the Act, 42 U.S.C. Section 7603 provides that, 
upon receipt of evidence that a pollution source or combination of 
sources is presenting an imminent and substantial endangerment to the 
health of persons and that appropriate State or local authorities have 
not acted to abate such sources, the Administrator may issue such 
orders as may be necessary to protect the health of persons who are, or 
may be, affected by such pollution source or sources.
    3. Defendants are discharging from their plants and/or 
installations at (city/State), substantial amounts of (pollutant), into 
the ambient air.
    Such discharges (in combination with adverse weather conditions) 
have caused or are contributing to, concentrations of (pollutant)), in 
the ambient air exceeding a level of (number) (units) of (pollutant).
    This level presents an imminent and substantial endangerment to the 
health of persons.
    4. (source) is a source which is presenting an imminent and 
substantial endangerment to the health of persons.
    5.(state) and (local jurisdiction) authorities have not acted to 
abate (list sources).

    OR

    (state) and (local jurisdiction) authorities have diligently 
attempted decrease the level of contamination in the atmosphere. 
However, defendants continue to discharge (pollutant) into the ambient 
atmosphere causing imminent and substantial endangerment to the health 
of persons.
                           conclusion of law
    1. The Regional Administrator for Region ( ) The Regional 
Administrator, is vested with the authority of the Administrator under 
Section 303 of the Act, 42 U.S.C. Section 7603.
    2. Source(s) have been found by the Regional Administrator to be 
presenting an imminent and substantial endangerment to the health of 
persons and to be an appropriate subject for the issuance of an order 
under Section 303 of the Act.
                                 order
    The Regional Administrator for Region ( ) hereby orders that 
defendants set out in this order, their agents, servants, employees and 
attorneys and all persons in active concert or participation with them 
are hereby ordered to refrain from causing or contributing to levels of 
pollution that will cause irreparable damage to the health of persons 
and each defendant separately must take the following action:
    1. (List each defendant separately and state what immediate action 
that defendant must take.)
    2. This order shall be effective for a period of not more than 
twenty-four hours unless the Regional Administrator files a civil 
action on behalf of the United States in the appropriate United States 
district court to immediately restrain any person causing or 
contributing to the alleged pollution to stop the emission of air 
pollutants causing or contributing to such pollution or to take such 
other actions as may be necessary.
    3. This Order is effective immediately upon receipt by defendants. 
The Regional Administrator for Region ( ) hereby issues the above-
identified Order which shall become effective as provided therein.
                               __________
       Statement of Elizabeth H. Berger, Resident, New York City
    Chairman Lieberman, Ranking Member Voinovich, committee members, 
staff members, esteemed panelists and neighbors, thank you for inviting 
me to tell you about the doubts, concerns and questions which have 
confronted those of us living and working in Lower Manhattan every day 
since September 11th. We live in a time of deep uncertainty, but are 
required to make countless decisions that may affect our health and 
that of our children for decades to come.
    I have lived south of Fulton Street for more than 19 years. My 
husband and I bought our first home here, brought our children home 
here from the hospital and helped site the local nursery school. We 
remember life downtown before there was a single all-night deli (it 
opened on Fulton Street for Op Sail in 1986), when restaurants closed 
early Friday evening and didn't reopen until Monday lunch (except the 
Roxy Diner on John Street, which stayed open through Saturday night), 
when the closest supermarkets were in New Jersey. In those days, we 
schlepped bags on the subway and had everything else delivered, basic 
things most New Yorkers take for granted: dry cleaning, fresh 
vegetables, laundry detergent.
    But we loved being downtown. We loved the huge buildings on the 
narrow, winding streets, we loved being close to the water and really 
knowing in some powerful, visceral way that Manhattan was an island. We 
loved the views, all the subways and weird bus lines, the scale and the 
feeling that we were at the center and beginning of everything.
    We loved the way we and other downtown pioneers turned a business 
district into a community. This was especially true as we had children: 
the World Trade Center was our indoor play space, our mall, our 
theatre. It was where we flew kites, went rollerskating, learned to 
ride two-wheelers, and the only place to buy a decent loaf of bread. 
Dancers performed there, and musicians, and Ernie and Bert. My 
children, who are 5 and 2, spent part of every day of their lives at 
the World Trade Center.
    This is why it is so absurd to heed the call to return to normal. 
There is no more normal for all of us.
    I saw the first plane before it hit. Our building was evacuated. It 
was 8 days before we knew that it was structurally sound, another few 
weeks before we were assured that 1 Liberty wouldn't topple on us. That 
entire time, I thought not of the apartment we might lose--of our home, 
the 5,000 family photos, the important papers, my grandmother's 
jewelry, my children's drawings and my husband-the-writer's life work--
but of the destruction of our community: 20 years work gone in 18 
minutes.
    The theme of my remarks is uncertainty, but I never doubted that we 
would return. We helped build downtown, and we'll help rebuild it. It 
was after the city recertified our building for reoccupancy about 6 
weeks after the attack, that I realized that the question was not 
whether by how. From a health perspective, there has been little 
guidance and fewer answers.
    When I first returned to our apartment, I just sat down and cried. 
It was a mess and we spent 2 hours cleaning it--not the dust that 
covered everything, thinly in some places, like when the butler in 
English movies goes upstairs and reopens the ballroom that has been 
closed for 10 years, and thickly in others, like a blanket--but the 
French toast that had been sitting on the table since my husband and 
son had hurriedly left 2 weeks before. It didn't occur to us to wear 
masks or take off our shoes. We just needed to straighten up. Recall, 
in this regard, that it is the city's job to certify for structural 
integrity, not for environmental safety; I knew this, but didn't quite 
get what it meant until later.
    We then began the great education process which has made downtown 
residents experts in products and services we never knew existed: FEMA, 
HEPA, OSHA. We all learned fairly quickly which were the best cleaning 
companies and scientific testers, but what no one, to this day, can 
agree on is what clean means and how to measure it.
    It took eight guys in white suits and respirators 5 days to clean 
my apartment. But is it clean? No one tells you what to keep and what 
to toss. In October, I attended a panel discussion at Cooper Union 
featuring leaders in the field of pediatric environmental health--who 
knew it existed--including, Dr. Landrigan's associate, and among six 
doctors there were seven opinions, ranging, in essence, from throw it 
in the washing machine to get out of town and don't look back.
    What's in the stuff? Every day the air smelled different and the 
winds blew a different course.
    We reluctantly made our own rules, divined from press reports, high 
school science as we remembered it and the advice of friends and 
neighbors. But even that was mixed. One scientist friend had his 
apartment tested and declared it safe for his family; the managing 
agent of his building, however, reported high levels of asbestos and 
lead. In the end, 248 stuffed animals, 8 handmade baby quilts, 5 
mattresses, a trousseau's worth of sheets and towels, a kitchen full of 
food and 13 leaf-and-lawn bags of toys went into our trash, but not our 
books, draperies and upholstered furniture or our clothes, though the 
bill to dry clean them industrially was $16,500 (and they all came back 
on individual wire hangers with individual plastic covers and 
individual twist-ties). We washed the walls, but didn't repaint. Some 
people we know repainted, but kept their mattresses. Some people kept 
their stuffed animals but threw away their furniture. Some people kept 
what they couldn't bear to lose and got rid of the rest. We have still 
not decided what to do about our floors: will stripping, sanding and 
resealing them contain the toxic mix of asbestos, fiberglass, concrete, 
human remains, heavy metals and the vague ``particulates,'' or just 
release more of it into our indoor air?
    Indoor air quality is a touchy issue in our building. Converted in 
the late 1970's, we have a primitive central air system that circulates 
air from apartment to apartment. Some people in our building hired 
professional cleaners. Others did it themselves, and a few locked the 
door and didn't come back for a while. After the guys in the suits 
left, we sealed our windows, filtered our vents and bought six triple-
HEPA-filtered air purifiers, which we run 24 hours a day. My clean air 
is making its way through the building, as is that of my less 
fastidious neighbors.
    The same is true for outdoor air. All of our building's systems and 
public spaces have been professionally cleaned, following City DEP 
guidelines, yet we are surrounded by Class B commercial buildings that 
have either not been cleaned or have been cleaned summarily. We live on 
the 11th floor, and see the porters, without protective gear, up on the 
roofs with push brooms. That stuff, too, is coming through our vents. 
My son's nursery school vigorously cleaned its outdoor play space, then 
stopped using it. PS 234 is now back, but the kids are not allowed to 
run in the yard. We don't live in a bubble. If the outdoor air's not 
good enough to breathe, how can we breath it inside?
    In our case, much of this debate has been academic. The mantra of 
real estate is ``location, location, location'' and, given ours, we 
decided that it would be foolish to return our two young children to 
their home until the fires went out. Although we were urged to return 
to normal, we were chastened by early reports of high asbestos and 
heavy metal readings in the Warm Zone; though we were told we were in 
the Financial District Zone, our building's front door was 20 feet from 
the fence.
    Our view was controversial. It was based on intuition, not hard 
science or ``facts.'' Our pediatrician didn't necessarily agree. 
Several of our neighbors with children were back. But every time we 
waffled, something else would happen: the benzene plume, high asbestos 
readings on the debris, the fire fighters' cough. We have only been 
home for 3 weeks. All of us are happier, but are we safe?
    We've opened our windows, but are avoiding the park. Some of our 
neighbors have HEPA window screens. Some still have the duct tape. 
Others have put their apartments on the market.
    What's the right thing to do? Ours is a culture based on authority, 
and to date there has been none. We would do whatever we needed to do, 
if only we knew what that was. In this regard, the failure of the 
Federal regulators to recognize that ours is a residential community 
and that OSHA standards simply do not apply is an outrage. Burning 
computers, fluorescent bulbs, copiers, electrolytic fluid and bodies . 
. . let me tell you, everyone downtown knows that we are the baseline 
of the 30-year study on what happens when worlds collide. As a parent, 
that is the most frightening responsibility I have ever faced.
    The attack on the World Trade Center was an attack on America, and 
has led me to consider the whole idea of being American in a new and 
unironic way. What I do find ironic, however, is that the only 
authority I have found with respect to cleaning up the mess is William 
James, the father of Pragmatism, arguably the only American 
contribution to world philosophy. As the Harvard professor said in a 
lecture he gave right here in New York City in 1907, at Columbia 
University, ``we have to live today by what truth we can get today, and 
be ready tomorrow to call it falsehood.'' I first read that as a 19-
year-old college student, and thought it was pretty cynical stuff. Now, 
as a 41-year-old mother of two, while I'm horrified by the implications 
for my children's future, I know it is the only way we can live.
    Thank you.
                                 ______
                                 
                  U.S. Environmental Protection Agency
Memorandum

January 11, 2002

Subject: LPreliminary Assessment, Asbestos in Manhattan Compared to 
Libby Superfund Site; Why Cleanup of WTC Contamination is Ineffective 
to Date; Advantages of Cleanup Under Superfund Statute; and Summary 
Risk Assessment for WTC Fallout

From: LCate Jenkins, Ph.D.

To: LAffected Parties and Responsible Officials

    This memorandum compares data for asbestos in settled dusts and air 
inside residences in the town of Libby, MT, which is designated as a 
Superfund site due to this residential contamination, and similar data 
for the interior of buildings in Lower Manhattan contaminated by 
fallout from the World Trade Center (WTC). The reasons why the current 
cleanup of WTC dusts inside buildings is ineffective is also discussed, 
along with the advantages in addressing the cleanup through the 
Superfund statute.
    In addition, this memorandum provides a summary of calculated 
cancer risks for occupancy of Lower Manhattan buildings, which was 
performed in more detail in my December 19, 2001 memo.<SUP>1</SUP> 
Whereas high level EPA and NYC officials have stated in sworn testimony 
and to the press that there were no such risks,<SUP>2</SUP> the 
appropriate offices in EPA have been effectively proscribed from 
conducting such a preliminary evaluation.
    The analyses, projections, and opinions in this memorandum 
represent my own professional judgment and do not necessarily represent 
the official position of the U.S. Environmental Protection Agency, and 
has not been reviewed by EPA. This memorandum is not intended as any 
final or definitive assessment risks from continued and past exposures 
to asbestos in Manhattan.
  1. asbestos contamination in buildings, manhattan compared to libby 
                             superfund site
    In Libby, MT, interiors of homes and residential soils have been 
contaminated with asbestos from an adjacent vermiculite mining 
operation. Homes have vermiculite insulation in attics, and vermiculite 
was used for gardening. In addition, there are numerous waste piles of 
vermiculite in the area.<SUP>3</SUP> On December 20, 2001, the Governor 
of Montana designated Libby for fast-track listing as a Superfund site 
under the Comprehensive Environmental Response and Liability Act 
(CERCLA).<SUP>4</SUP>
    In Lower Manhattan, interiors of residences and offices were 
contaminated with asbestos, fiberglass, fine particulate matter, and 
possibly significant concentrations of other toxic materials from the 
fallout from the implosion of the World Trade Center (WTC).
    Tables at the end of this memo provide levels of asbestos in 
settled dusts and air in two apartments before cleanup from the Ground 
Zero Task Force Study,<SUP>5</SUP> and levels of asbestos in settled 
dusts in one apartment after cleanup from a study by the New York 
Environmental Law and Justice Project.<SUP>6</SUP>
Use of ``PCM-equivalent'' asbestos data from Manhattan for comparison 
        to Libby
    In order to compare asbestos levels found in Manhattan with that 
from Libby, the data in the tables is for asbestos fibers longer than 5 
<greek-m>m, width greater than 0.25 <greek-m>m, and an aspect ration 
greater than or equal to 3 to 1. This is called ``PCM-equivalent 
asbestos.'' The data from Libby only includes asbestos levels that are 
PCM-equivalent. The Ground Zero Task Force Study<SUP>7</SUP> of WTC 
contamination provided not only total asbestos levels, but also PCM-
equivalent asbestos levels.
    The reason why only fibers longer than 5 <greek-m>m (PCM-
equivalent) are given in the Libby risk assessment is because many 
believe that asbestos fibers shorter than this cannot cause cancer, 
because they can be eliminated from the body. Not all agree.
Comparison of Libby and Lower Manhattan data
    As can be seen from the above tables, the asbestos contamination in 
Lower Manhattan, up to seven blocks away from Ground Zero, is 
comparable or higher than that found in Libby, Montana, a designated 
Superfund site.
    Most of the available data for Manhattan is before even a 
rudimentary cleanup. One particular piece of data, the residue inside 
an air vent at 105 Duane St., three blocks outside the boundary where 
EPA said there was any contamination (7 blocks from Ground Zero), is 
particularly alarming. This air duct sample was taken on December 3, 
2001, long after all cleanups that had been thought necessary were 
completed.
    The highest level of dust inside a building in Manhattan was 79,000 
structures (asbestos fibers) per square centimeter (s/cm<SUP>2</SUP>). 
This was at 45 Warren St., an apartment building 4 blocks away from 
Ground Zero where all of the windows faced north, away from the World 
Trade Towers, locked in on all other 3 sides by other buildings. To the 
casual observer, this apartment would not be described as being heavily 
contaminated. There is a color photograph included at the beginning of 
the study,<SUP>8</SUP> where a dining room table showing only a light 
dusting from WTC fallout, the dark grain of the wood clearly visible.
    In comparison, the highest concentration of interior dust found 
inside a home at Libby was only 3658 s/cm<SUP>2</SUP>. This means the 
highest amount of asbestos lying on a surface in Manhattan was 22 times 
that ever found in Libby.
    The logical question thus arises: Why is EPA leaving people to 
their own devices in the cleanup of New York City, while intervening to 
clean homes at taxpayers expense in Libby because of an ``imminent and 
substantial endangerment to public health''?
             2. ineffective cleanup of wtc asbestos to date
    To date, the cleanup of the WTC fallout containing asbestos, 
fiberglass, fine particulate matter, and possible significant 
concentrations of other toxic materials is not proceeding efficiently 
or effectively.
Asbestos does not leave buildings with ordinary cleaning methods
    The asbestos contamination is not going to leave buildings in 
Manhattan by itself with ordinary cleaning any more than it will in 
Libby. In the case of Libby, MT, the EPA stated:<SUP>9</SUP>

          This indicates that there are multiple locations around Libby 
        that are likely to contain asbestos fibers in indoor dust, and 
        that this dust may serve as an on-going source of potential 
        exposure for residents.

    Note that the dusts inside Libby residences were found to have the 
highest calculated cancer risks for the Superfund-designated site.
    Complex regulatory strategies and whole environmental statutes 
address the necessary protocols for asbestos abatement inside 
buildings, just because it will not go away by itself after a few 
weeks, months, or years with ordinary cleaning measures. The National 
Emission Standards for Hazardous Air Pollutants (NESHAPS) under the 
Clean Air Act and the regulatory requirements under the Asbestos Hazard 
Emergency Response Act (AHERA) both include rigorous methods to 
stringently clean every surface, like inside air ducts, and removal of 
carpets, drapes, and upholstered furniture which cannot be effectively 
cleaned, even AFTER the offending asbestos objects such as insulation, 
ceiling tiles, and asbestos floor tiles have been removed from the 
building. During these abatements, trained certified personnel must be 
wearing HEPA respirators and protective clothing. Etc.
EPA's crude air testing cannot detect hazardous levels of asbestos
    EPA has demonstrated a willingness and promptness in responding to 
concerns of citizens by coming out to apartments and other buildings 
and conducting an air test for asbestos. This test is called the 
``AHERA TEM clearance test,'' which stands for Asbestos Hazard 
Emergency Response Act transmission electron microscopy. EPA is using 
this AHERA TEM clearance test and claiming that if is shows 70 or fewer 
asbestos structures per square millimeter, then the air is 
safe:<SUP>10</SUP>

          In evaluating data from the World Trade Center and the 
        surrounding areas, EPA is using a protective standard under 
        AHERA, the Asbestos Hazard Emergency Response Act, to evaluate 
        the risk from asbestos in the outdoor and indoor air. This is a 
        very stringent standard . . . The number of structures--
        material that has asbestos fibers on or in it--is then counted. 
        The measurements must be 70 or fewer structures per square 
        millimeter . . . .

    This statement by EPA is false and a gross misrepresentation of the 
AHERA regulations which do not in any way claim that a simple air test 
alone showing 70 or fewer structures per square millimeter can be used 
directly to determine if air is safe.
            AHERA TEM clearance test not sensitive enough to detect 
                    hazardous levels of asbestos
    The first, and fatal problem in using the AHERA TEM test is that it 
is quite insensitive. It cannot detect airborne asbestos at levels that 
are shown to cause excessive cancers.
    First, it is necessary to explain a very confusing way in which the 
results of the AHERA TEM test are reported. There are three different 
ways to express the results, using one or all of the following units of 
measure:
    <bullet> structures per square millimeter (s/mm<SUP>2</SUP>)
    <bullet> structures per milliliter (s/mL)
    <bullet> structure per cubic centimeter (s/cm<SUP>3</SUP>)
    The ``structures per square millimeter'' unit is the value the 
laboratory gets first, before converting it to structures per 
milliliter. The lab needs to use the volume of air pulled across the 
filter to make this conversion. Since a ``milliliter'' is the exact 
same volume as a ``cubic centimeter,'' the last two units are identical 
and used interchangeably. See my December 19 memo for a more detailed 
explanation.
    EPA has been giving test results using the ``structures per square 
millimeter'' units. EPA will typically describe results as ``below 70 
structures per square millimeter'' or however much was detected above 
70. But what does 70 s/mm<SUP>2</SUP> mean? This is not a SAFE level. 
This is only the lowest level that the method can detect. This 70 
structures per square millimeter (s/mm<SUP>2</SUP>) level is equivalent 
to 0.02 structures per milliliter (s/mL):
    The 0.02 s/mL (which is equivalent to 70 s/mm<SUP>2</SUP>) level is 
not a safe level. It is only the lowest level that the method can 
detect because of the method background (there is asbestos in the 
cellulose filters used to collect the air). The EPA has determined that 
a concentration of asbestos in air that is 0.0004 s/mL will result in 
an increased risk of cancer of 1 in 10 thousand.<SUP>11</SUP> An 
elevated cancer risk of over 1 in ten thousand is the action level, or 
trigger, for EPA to declare an imminent and substantial endangerment to 
public health under CERCLA, as explained in Section 4 of this memo. 
Thus, the AHERA TEM clearance text can only tell if the air has 50 
times the safe level (or 10 times the safe level if it is assumed that 
only 20 percent of the asbestos is in the hazardous size range called 
``PCM-equivalent.'').
            Air testing under passive conditions will not detect ``real 
                    world'' asbestos levels
    EPA is conducting the AHERA TEM clearance test under passive 
conditions when the dusts are not being disturbed. As discussed in the 
Ground Zero Task Force study<SUP>12</SUP> and my December 19 
memo,<SUP>13</SUP> any activities which stir up dusts will result in 
vastly higher airborne asbestos concentrations.
    I suggest that when a Government Agency comes out to test air for 
asbestos, be prepared to have the air drawn from a ``human activity 
simulator.'' Have a large box with the open end sitting on carpeting or 
on a couch that was contaminated. Have a plunger like a broom stick 
mounted to a flat board about 1 foot square. (Use a broom if you have 
to.) Put the plunger through a hole in the top of the box. You will be 
making something the equivalent to a butter churn. Have 3-inch holes on 
both sides of the box so that air can enter and exit. Then, the EPA or 
NYC health inspector can draw air through the hole in one side of the 
box while you are beating the carpet or the couch with the paddle. If 
EPA tells you that this violates the testing protocols, reply that even 
using the AHERA TEM test in lieu of certified professional abatement 
violates the protocols.
            EPA's air testing violates the AHERA protocols
    By even performing the AHERA TEM clearance test in lieu of 
professional asbestos abatement, EPA is violating the AHERA 
regulations. This is because the AHERA TEM clearance test is only 
allowed in conjunction with a whole range of asbestos abatement 
procedures that go on prior to even taking the test.<SUP>14</SUP> It 
was designed to catch only gross contamination problems caused by some 
worker on the asbestos abatement project, such as emptying one bag of 
asbestos contaminated material into another inside a room that had 
previously been carefully abated.
EPA use of 1 percent asbestos level for cleanups will result in 
        ineffective cleanups
    There is another reason why the cleanup will be ineffective. Both 
EPA<SUP>15</SUP> and the NYC Department of Environmental Protection 
(NYC DEP) are claiming that only dusts over 1 percent asbestos or more 
are hazardous. The NYC Department of Environmental Protection (NYC DEP) 
advised building owners<SUP>16</SUP> to test dusts inside buildings to 
see if they were over 1 percent. They said that if the dusts were over 
1 percent, a professional asbestos abatement contractor should be used 
for an inspection and cleaning:

          EPA is using the 1 percent definition in evaluating exterior 
        dust samples in the Lower Manhattan area near the World Trade 
        Center. All affected landlords have been instructed to test 
        dust samples within their buildings utilizing this standard. 
        Landlords were notified that they should not reopen any 
        building until a competent professional had properly inspected 
        their premise. If more than 1 percent asbestos was found and 
        testing and cleaning was necessary, it had to be performed by 
        certified personnel.

    This has presented problems, because there was no way for a 
landlord to test at the 1 percent level if the dust was present in a 
fine layer, and because dusts containing less than 1 percent are known 
to be hazardous by EPA.
            EPA determination that dusts and soils containing less than 
                    1 percent asbestos are hazardous
    The U.S. EPA has clearly stated that levels of asbestos lower than 
1 percent could present hazards:''<SUP>17</SUP>

          Levels of 1 percent or less could present a risk where there 
        is enough activity to stir up soil and cause asbestos fibers to 
        become airborne.

    In one independent study, it was found that soils containing only 
0.001 percent asbestos were still capable of producing measurable 
airborne asbestos concentrations greater than 0.01 fibers per 
milliliter (equivalent to structures per milliliter).<SUP>18</SUP> This 
air concentration is over the action level for declaring a public 
health emergency, as discussed above for the sensitivity for the AHERA 
TEM clearance test.
            EPA Region 2, by its own actions, has demonstrated its 
                    belief that asbestos in dust at levels lower than 1 
                    percent are hazardous
    There is another very important reason to believe that dust 
containing less than 1 percent asbestos is unsafe: EPA Region 2 
believes it is, and was willing to use taxpayer dollars to remove it 
from their own building in NYC. This is what happened:
    First, the EPA found no asbestos in any of WTC fallout samples 
outdoors that was over 1 percent north of Warren St.<SUP>19</SUP> As a 
result, EPA told the press and everyone that the only contaminated 
areas were below Warren St. and West of Broadway, the ``zone of 
contamination.'' Next, EPA referred everyone to the NYC Department of 
Health (NYC DOH) cleanup recommendations<SUP>20</SUP> inside this same 
``zone of contamination'' south of Warren. These are the controversial 
recommendations which do not even recommend HEPA respirators, which 
just say ``avoid breathing the dust'' while you mop up the asbestos.
    This is what happened next: EPA's offices are at 290 Broadway, 
which is 2 blocks north of Warren St., outside the ``zone of 
contamination.'' Even though EPA said there was no asbestos over 1 
percent up this far north at its offices, and that it was safe, EPA had 
its own offices cleaned by certified asbestos abatement contractors. At 
taxpayer expense.
    Aside from considerations of criminal negligence and intentional 
failure to warn citizens in both the ``zone of contamination'' and 
outside this zone that they also should be using certified professional 
asbestos abatement contractors--aside from these considerations, EPA 
Region 2 at a minimum has demonstrated its recognition that dusts 
containing less than 1 percent asbestos are hazardous.
            There are no AHERA or other test methods for percent levels 
                    of asbestos in thin layers of settled dusts
    Unless the windows were blown out by the blast, WTC fallout inside 
buildings in Manhattan was usually in thin layers, too thin to scoop up 
into a jar or bag. Only dusts that can be put into a bag or jar can be 
tested for the percentage of asbestos by the PLM percent asbestos 
method.
    If there is only a thin, visible surface dusting, or even an 
invisible layer of dust, you are required to use what are called 
``wipe'' samples or ``microvacuum'' samples. Wipe samples can only be 
tested for the number of asbestos fibers per area, not a percentage of 
asbestos in the total dust. These are not AHERA methods or even EPA-
validated methods, but they are used for Superfund investigations. 
Thus, it was impossible for a landlord to test premises in most cases 
for whether or not the asbestos was present at 1 percent or higher, 
because there was not enough dust to use the PLM method.
    It is inexcusable to try to brush together enough surface dust to 
make up a ``bulk'' sample that can be placed in a jar for PLM percent 
asbestos testing. This violates the method, and results in a highly 
diluted sample due to the mixture with other dusts that are present, as 
well as subjecting the very fine asbestos to escape to the air during 
the brushing process.
    Under the AHERA standard, which EPA claims it is using, the 1 
percent level only applies to the material from which the asbestos dust 
originated. All of the sample collection methods for PLM asbestos 
analysis in the AHERA regulations at 40 CFR Part 763 address collection 
of asbestos containing materials themselves. There are very strict 
separate procedures for collecting samples of each particular type of 
asbestos containing material, such as floor or ceiling tiles, or 
insulation. There are no methods or protocols for taking dust samples 
from surfaces. Thus, trying to run a PLM percent asbestos test on dust 
violates the AHERA regulations.
            The PLM method for percent asbestos is too insensitive to 
                    find asbestos at levels of concern
    EPA used PLM percent asbestos analyses of thick WTC fallout on 
streets outdoors. Many, if not most, of these samples showed no 
detectable asbestos<SUP>21</SUP> See the tables at the end of this memo 
for a summary of the findings. The PLM method is unreliable at 
concentrations of 1 percent and less. In other investigations, EPA 
found that soil samples below the level of detection of PLM did in fact 
have high levels of asbestos when analyzed with SEM (scanning electron 
microscopy) methods.<SUP>22</SUP> Thus, many of the outdoor dust 
samples in Manhattan probably were actually contaminated with asbestos.
    Likewise, if landlords did manage to test their fine indoor dust 
layers and found no asbestos by the PLM method, it could well have been 
there in hazardous amounts.
Current EPA recommendations for Manhattan Cleanup Will Leave Most 
        Asbestos
    To this date, EPA still recommends the unsafe and ineffective 
cleanup recommendations of the NYC Department of Health (NYC DOH). The 
EPA web page from early October until this present day specifically 
states that schools, businesses, and residences should be cleaned using 
the NYC DOH methods.<SUP>23</SUP> Not only are these methods 
ineffective, they are also unsafe to those who follow them, as detailed 
in my December 3 and 19, 2001 memoranda.<SUP>24</SUP>
            Dry-type HEPA vacuums do not remove asbestos from carpets
    The NYC DOH recommends dry-type HEPA vacuum cleaners, even though 
the EPA has found that dry-type HEPA vacuum cleaners simply do not 
remove the asbestos from the carpeting any better than a regular vacuum 
cleaner, removing essentially none at all.<SUP>25</SUP> Professional 
abatement firms recognize that dry HEPA vacuums are ineffective in 
removing asbestos. There is documentation of at least one certified 
asbestos abatement firm who removed and disposed of all carpeting which 
was over padding in common areas in an apartment building near Ground 
Zero, in recognition of the fact that there was no way to remove the 
asbestos.<SUP>26</SUP>
    The same EPA studies also document the fact that even the wet-
extraction HEPA vacuum cleaners are inefficient in removing asbestos 
from carpeting--only 60-70 percent.
            Upholstered furniture, drapes, vents and ducts not 
                    addressed by NYC recommendations
    The NYC DOH recommendations also do not address the problem of 
upholstered furniture, which is almost impossible to effectively clean. 
Draperies are another problem, often too large for washing in machines, 
and some must be dry cleaned. Therefore, cross-contamination will occur 
if these drapes are sent to commercial facilities for cleaning.
    The NYC DOH also does not address the problem of contaminated duct 
work, or air conditioners or other contaminated equipment, lice the 
insides of computers which use cooling fans.
Any EPA recommendation of professional asbestos abatement not 
        enforceable
    EPA officials have claimed they recommended professional asbestos 
abatement for buildings ``unless they only had a light 
dusting.''<SUP>27</SUP> Even if EPA has issued such guidance, it will 
not result in effective asbestos removal, because EPA has no legal 
authority to enforce the use of certified asbestos abatement 
contractors. The EPA has stated that it is using the AHERA statute as 
the authority or standard for cleanup after the WTC disaster. This 
statute only requires schools to use certified asbestos abatement 
professionals. For the owners of buildings, the only requirement is 
that if the owner does choose to have an asbestos inspection, then a 
certified professional must be used. It does not require that any 
advice or action resulting from that inspection be followed. The owners 
of many buildings have not been hiring certified asbestos abatement 
professionals, even when they were heavily contaminated.<SUP>28</SUP>
    For tenants, the AHERA has no effect whatsoever. Many, if not most, 
tenants have been cleaning their own apartments.<SUP>29</SUP>
High cost of professional abatement prohibitive to most, preventing 
        effective cleanup
    Because professional asbestos abatement is expensive, tenants have 
chosen to perform their own cleanups or hire unqualified persons. For a 
2-bedroom apartment, the cost of professional abatement is $5,000; for 
a 2-bedroom apartment, the cost is around $10,000. That would not 
include the costs of replacement of any carpeting, upholstered 
furniture, or draperies that cannot be effectively cleaned.
    Recently, Bonnie Bellow of the EPA Region 2 press office claimed 
that tenants do not have to pay for their cleanups; that all they have 
to do is apply to the Federal Emergency Management Administration 
(FEMA) for reimbursement. This is false, and not borne out by the many 
accounts of citizens trying to apply for such costs. Some insurance 
companies have paid for cleaning, but others have not. Sometimes 
volunteers cleaned out buildings, and sometimes the Red Cross handed 
out vouchers for cleaning, but not by professional asbestos abaters. 
There are no statistics on what has actually happened.
Disorganized cleanup resulting in re-contamination of previously 
        cleaned areas
    The disorganization of the cleanup is resulting in cross-
contamination of previously cleaned areas. Some individual apartments 
may well be cleaned using professional abatement. But if another 
apartment is not cleaned, the air ducts for the whole building can 
become contaminated again. Dusts can be tracked from one area inside 
the building which is not effectively cleaned to another area which is 
cleaned.
              3. advantages for a cleanup under superfund
    At this time, I believe that the best solution to the problem in 
Lower Manhattan is to invoke one or more parts of the Comprehensive 
Environmental Response and Liability Act (CERCLA), or Superfund. It 
would bring order to the situation and begin to alleviate the current 
exposures to asbestos, fiberglass, fine particulates, and other toxic 
substances like mercury and lead. It would enable the use of better 
methods to test and monitor the contamination, particularly for 
asbestos. It would take the financial burden away from citizens and 
transfer them to the Government.
    It would add credibility to the final solution after the action was 
completed. Under CERCLA, there would be a point in time where the 
Government could announce that the action was finished, and that 
Manhattan was restored. Otherwise, there will be no opportunity for the 
government to declare closure.
Two types of action under Superfund are possible
    In Montana, the Governor exercised the ``silver bullet'' option 
under CERCLA by requesting that EPA put Libby on the fast track for 
listing on the National Priorities List, which means making it a 
Superfund site. As a result, Libby does not have to wait years for EPA 
to assess its hazards and make comparative cost-benefit judgments. 
Federal money would go immediately to the cleanup, although the State 
would be required to contribute 10 percent of the costs. The costs 
should not be a problem to New York, as the Federal Government is 
already contributing as much as it will take to put Manhattan back 
together.
    Another option would be to declare a public health emergency under 
the CERCLA authority. Even though Libby is now scheduled for fast track 
Superfund listing, EPA is now apparently intending to invoke this other 
authority to address the situation at Libby. EPA has never before 
invoked this authority under CERCLA. If EPA does invoke it for Libby, 
it should be no problem to use it for Lower Manhattan.
Stigmatization of a Superfund balanced by public confidence and a point 
        of closure
    There would be considerable stigmatization in a Superfund listing 
for Lower Manhattan, potentially increasing the rate of economic 
decline. However, the widespread knowledge of health concerns even 
without a Superfund listing may have already had that effect. 
Declaration of a public health emergency or a Superfund listing, 
followed by an efficient and organized cleanup, with all watchdog 
scientists agreeing on protocols, may actually help the public's 
perception and restore confidence. Right now there is nothing but 
chaos.
Cleanup using AHERA is not working
    As seen from the preceding section, the cleanup is not proceeding 
effectively. This is because EPA is trying to use the AHERA statute as 
the authority. The AHERA statute is voluntary for all but schools. The 
AHERA statute places the financial burden on the public.
    The AHERA statute also specifies certain antiquated test methods 
for asbestos, which offer some protection, but only if used in 
conjunction with all of the other rigorous asbestos abatement 
procedures which can only be performed by certified contractors. EPA is 
trying to adapt these insensitive test methods, the AHERA TEM clearance 
test for air, and the PLM test for asbestos, to situations which they 
were not intended by the regulations.
Cleanup under CERCLA authority would allow the use of better testing 
        methods
    Under the CERCLA statute, there is no prohibition against using the 
best testing methods available. See the tables at the end of this memo. 
The test methods which were used are described along with the data. For 
the Libby Superfund site, Dr. Eric Chatfield designed the testing 
protocols and chose the methods he believed were the best. These 
methods were not limited to methods that the EPA had developed and 
validated, but included methods developed by the American Society for 
Testing and Materials (ASTM) and the International Standards 
Organization (ISO).
    Dr. Chatfield was also the lead investigator in the Ground Zero 
Task Force study of Lower Manhattan, where state-of-the-art methods 
were again used. The HP Environmental study, also included in the 
tables, utilized the best methods which could be devised for 
characterizing Lower Manhattan.
    Whether addressed through a CERCLA action or any other means, Lower 
Manhattan has not undergone adequate testing. Within EPA itself, we do 
not have the expertise to design or carry out state-of-the-art testing 
protocols for asbestos. For other hazardous substances, we do have 
expertise, but not for asbestos. The experts I know of at this present 
time include the researchers responsible for the Ground Zero Task Force 
study (Eric Chatfield and John Kominsky), the researchers for the HP 
Environmental study (Hugh Granger, Thomas McKee, James Millette, Piotr 
Chmielinski, and George Pineda), and Michael Beard of Research Triangle 
Institute.
           4. summary, asbestos risk assessment for wtc dusts
    My December 19, 2001 memo<SUP>30</SUP> provided a detailed 
rationale for projecting cancer and asbestosis risks from WTC fallout 
by calculating exposures from the very limited data which is currently 
available. In that assessment, various exposure scenarios were 
hypothesized, and risks of lung cancer for smokers and non-smokers, 
mesothelioma (a cancer of the chest cavity), and asbestos risks were 
hypothesized. As stated at the beginning of this memorandum, I believe 
that initiating such an effort fills a critical need that was thwarted 
in the appropriate EPA offices by the constant reassurance of high 
level EPA officials that no such assessment was necessary.
PCM-equivalent Correction Factor and Other Changes to Risks in December 
        19 Memo
    My December 19 risk assessment used the concentration of all 
asbestos fibers, not just ``PCM-equivalent'' fibers (those longer than 
5 <greek-m>m, width greater than 0.25 <greek-m>m, and an aspect ration 
greater than or equal to 3 to 1) in making calculations of risk. An 
explanation was provided as to why this correction was not made, along 
with providing a range of 80 to 90 percent non-PCM-equivalent fibers 
for WTC asbestos if such a correction were to be used. This was based 
on two studies: From the Ground Zero Task Force study,<SUP>31</SUP> the 
PCM-equivalent fibers ranged from 1.3 to 20 percent of total asbestos 
fibers/bundles for 8 different samples of settled dusts, with a mean of 
8.7 percent. For the HP Environmental study,<SUP>32</SUP> for 3 air 
samples, PCM-equivalent fibers ranged from 3.1 percent to 6.5 percent, 
with a mean of 5.6 percent. Because of the uncertainty from such 
limited data, if any conversion were to be made at this time for WTC 
fallout, then 20 percent of the total asbestos should be assumed to be 
PCM-equivalent.
    No correction should be made for PCM-equivalents to asbestosis 
risks that were projected in the December 19 memo. This is because the 
ATSDR reviewed studies showing that asbestosis is associated with 
shorter asbestosis fibers.<SUP>33</SUP> In addition, it would probably 
be appropriate to use an uncertainty factor of 1,000 for asbestos 
risks, according to CERCLA guidelines,<SUP>34</SUP> so that the risks I 
had previously projected in the December 19 memo for asbestosis would 
be 1,000 times higher.
    No correction should be made for the type of asbestos, chrysotile 
vs. amphibole vs. amosite, etc. This is because EPA does not recognize 
any difference in toxicity for the purpose of making risk 
assessments.<SUP>35</SUP>
Cancer risk level constituting an imminent and substantial endangerment 
        to Public health pursuant to Superfund
    The EPA generally considers an upper-bound lifetime cancer risk to 
an individual of between 10<SUP>-4</SUP> and 10<SUP>-6</SUP> as a safe 
range. A risk of 1074 represents a probability that there may be one 
extra cancer case in a population of 10,000 (1 per 10,000). A 
10<SUP>-6</SUP> risk is the probability that there may be one extra 
cancer case in a population of one million people over a lifetime of 
exposure (1 per 1,000,000. The National Contingency Plan (NCP) 
(Superfund) requires that the 10<SUP>-6</SUP> risk level should be the 
point of departure; the goal in any response by the EPA to ameliorate 
exposures to carcinogens from man-made sources. A response action is 
generally warranted if the cumulative excess carcinogenic risk for any 
single individual affected by a site exposing humans to carcinogens 
exceeds 1 in 10,000 (the 10<SUP>-4</SUP> risk level) using reasonable 
maximum exposure assumptions for either the current or reasonably 
anticipated future exposures.<SUP>36</SUP>
Cancer risks for Libby compared to Lower Manhattan
    The December 20, 2001 risk assessment<SUP>37</SUP> prepared by Dr. 
Weis of EPA's Carcinogen Assessment Group (CAG) found that for maximum 
concentrations of asbestos exposures to Libby residents through 
breathing suspended dusts inside residences, the cancer risk was 
between 1 in 1,000 to 1 in 100. This cancer risk exceeded the threshold 
of 1 in 10,000 necessary to be considered an endangerment to public 
health.
    My December 19, 2001 preliminary risk assessment, based on much 
more limited data, projected maximum risks as high as 1 in 1000, to 
cancer risks of 1 in 10 for a persons either living apartments and/or 
working in buildings that retained much of the asbestos in carpeting, 
ducts, furniture, and draperies. If a correction factor for PCM-
equivalents of 20 percent is applied to these projections, the risks 
range from 2 in 10,000, to risks of 2 in 100. For a laborer spending 
only 3 months cleaning out buildings in Lower Manhattan without proper 
protection, cancer risks of 1 in 5 were projected, which would be 4 in 
100 if a correction for PCM-equivalents was applied. Other possible 
exposure scenarios were evaluated as part of my December 19 memorandum.
    Risks could be much higher if there were also exposures to 
fiberglass, fine particulate matter, and other toxic substances at the 
same time. There are wide ranges of uncertainty in these calculated 
risks, because only limited data was available. However, I believe that 
these calculations establish the need for a more rigorous evaluation of 
risks.
                                 ______
                                 

                 Tables.--Lower Manhattan Asbestos Data
------------------------------------------------------------------------
                                                         PCM-equipment
     Settled Asbestos Dusts, Building  Interiors         structures per
 Manhattan.--Fibers and Bundles (Structures)  Longer   square centimeter
                  than 5 Micrometers                        (s/cm<SUP>2</SUP>)
------------------------------------------------------------------------
Ground Zero Task Force Study,<SUP>38</SUP> data from Table 21.
 High Exposure Building, Before Cleanup, 250 South
 End Ave. Fibers and bundles longer than 5
 micrometers. Heavy visible dust layer, could still
 read addresses on envelopes on table and see the
 lines on a yellow legal pad on the table. Windows
 had been blown out from some apartments. [Note Table
 21 says fibers/cm<SUP>2</SUP>, but title of table is ``fibers
 plus bundles'', which equals structures.] TEM
 analysis using American Society for Testing and
 Materials ASTM D6480-99.
 
250SEA-10D-D1 (A) (sample collected with toothbrush               21,000
 sample) top of cupboard with glass doors............
250SEA-10D-D1 (B) (wipe sample) top of cupboard with              19,000
 glass doors.........................................
250SEA-10D-D2 (A) (sample collected with toothbrush)              18,000
 living room high boy side table.....................
250SEA-10D-D2 (B) (sample collected with toothbrush)              28,000
 living room high boy side table.....................
 
Ground Zero Task Force Study,<SUP>39</SUP> data from Table 19.
 Low Exposure Building, Before Cleanup, 45 Warren
 St., dust layer visible on dark table, grain of wood
 still visible. 5 blocks from Ground Zero, building
 faced north away from Ground Zero. Only light
 dusting. See photo in study itself. Fibers and
 bundles longer than 5 micrometers. [Note Table 19
 says fibers/cm<SUP>2</SUP>, but title of table is ``fibers plus
 bundles'', which equals structures] TEM analysis
 using American Society for Testing and Materials
 ASTM D6480-99.
 
45WAR-2-D1, 2nd floor, living room table near window,              2,300
 wipe sample.........................................
45WAR-2-D2, 2nd floor, living room window sill, wipe              60,000
 sample..............................................
45-WAR-5-D1, 5th floor, living room, window sill,                 79,000
 wipe sample.........................................
45-WAR-5-D2, 5th floor, roof level office, green                  22,000
 wooden chair, wipe sample...........................
 
NY Environmental Law and Justice Project, 105 Duane
 St., after cleanup.<SUP>40</SUP> Microvacuum method followed by
 American Society for Testing and Materials ASTM D-
 5755:
 
Sample inside central air conditioning duct. Total               111,000
 asbestos concentration reported as 555,000 s/cm<SUP>2</SUP>.
 Estimated that 20 percent of the structures are over
 5 micrometers, or 111,000 s/cm<SUP>2</SUP>.....................
------------------------------------------------------------------------
Note: The total asbestos levels found in Manhattan by the Ground Zero
  Task Force study are much higher. The reason why only the ``PCM-
  equivalent'' asbestos levels are given in the tables below is to make
  comparison with the Libby data possible. See the explanation at the
  beginning of this memo.


 
------------------------------------------------------------------------
                                                         Weight percent
                                                       (%) (all asbestos
Thick WTC Fallout Dust Deposits  Outdoors Manhattan.--   included, not
Includes all asbestos, not just fibers  longer than 5      just PCM-
                     micrometers                           equivalent
                                                           asbestos)
------------------------------------------------------------------------
Ground Zero Task Force Study,<SUP>41</SUP> data from Table 22.
 Analyses by gravimetric matrix reduction (American
 Society for Testing and Materials ASTM STP 1342)
 followed by PLM analyses of larger fractions and TEM
 measurement of fine portion of samples.
 
Roof of automobile, Church St. south of Duane St.....               0.67
45 Warren St., roof, outside 5th floor loft, gaps in                1.05
 stone floor.........................................
250 South End Ave., Apartment 11D, exterior window                  2.25
 ledge...............................................
250 South End Ave., ground level courtyard, top of                  2.05
 wall................................................
 
HP Environmental Study, Table 5.<SUP>42</SUP> PLM analyses:
 
No. 1--Barkley St. west of Church....................              <0.25
No. 2--Barkley St. between Broadway and Church.......                 ND
No. 3--Barkely and Greenwich.........................                 ND
No. 4--Barkey between Greenwich and Joe Dimaggio Hwy.                 ND
No. 5--Barkey at Joe Dimaggio Hwy....................                0.5
No. 6--Warren and Church.............................              <0.25
No. 7--Murray near Broadway..........................               0.75
No. 8--Murray and Greenwich..........................                 ND
No. 9--Chambers between Broadway and Greenwich.......                 ND
No. 10--Murray between Greenwich and Joe Dimaggio....               0.75
No. 11--Warren between Greenwich and Joe Dimaggio....               0.75
 
EPA data on bulk dusts taken outside buildings in
 Manhattan<SUP>43</SUP> All the analyses performed EPA for
 Manhattan used the less sensitive PLM method. EPA
 did not fraction the sample and use electron
 microscopy techniques in addition to PLM as did the
 Ground Zero Task Force study above. EPA in its risk
 assessment for Libby, however, noted that soil
 samples showing non-detectable asbestos by PLM alone
 actually had high levels when analyzed by scanning
 electron microscope (SEM) methods.<SUP>44</SUP>
 
48 of 177 dust samples...............................             1-4.46
129 dust samples.....................................                 ND
------------------------------------------------------------------------


 
------------------------------------------------------------------------
Airborne Asbestos, Building Interiors Manhattan.--PCM-   PCM-equivalent
     equivalent  fibers and bundles longer than 5          fibers per
                     Micrometers                       milliliter (f/mL)
------------------------------------------------------------------------
Ground Zero Task Force Study:<SUP>45</SUP> data from Table 16.
 High Exposure Building, 250 South End Ave, before
 cleanup, passive conditions (no activities to
 disturb dusts). Fibers and bundles longer than 5
 micrometers. TEM analysis using the International
 Standards Organization ISO10312 direct transfer
 method
 
250SEA-10D-A1, Apartment 10D, den....................              0.063
250SEA-10D-A2, Apartment 10D, den....................              0.060
250SEA-10D-A3, Apartment 10D, living room............              0.048
250SEA-10D-A4, Apartment 10D, living room............              0.075
250SEA-10D-A5, Apartment 10D, bedroom................              0.081
 
Ground Zero Task Force Study: Table 8.<SUP>46</SUP> PCM-
 equivalent fibers and bundles longer than 5
 micrometers. Passive Conditions (no activities to
 disturb dusts) low exposure Building, 45 Warren St.
 before cleanup. TEM analysis using the ISO10312
 direct transfer method.
 
45 WAR-2-A1, 2nd floor living room...................              ``not
                                                           statistically
                                                           significant''
                                                           [detected but
                                                              uncertain]
45 WAR-2-A2, 2nd floor living room...................                 ND
45 WAR-2-A3, 2nd floor master bedroom................              0.010
 
HP Environmental Study: Table 6.<SUP>47</SUP> Two building
 interiors near Ground Zero. Passive conditions,
 before cleanup. Analyses by the modified EPA Level
 II TEM method where samples were heavily loaded (all
 3 samples below where asbestos detected), which uses
 indirect preparation to separate out interferences
 from other non-asbestos parts of WTC dusts. Study
 demonstrated that up to 10 times more asbestos was
 detectable by this method.
 
Sample 2.............................................              0.007
Sample 7.............................................              0.167
Sample 9.............................................              0.346
8 out of 11 samples, interior of 2 buildings near                     ND
 collapsed WTC towers................................
 
EPA data: Passive conditions, after incomplete               usually not
 cleanup. EPA has been using the simple AHERA TEM               detected
 clearance test method inside buildings at the
 request of tenants and others. This is a violation
 of the AHERA protocols, which only allow this test
 to be performed after professional and complete
 asbestos abatement, which must thoroughly clean all
 surfaces. The AHERA TEM clearance method is only
 meant as an inexpensive, but not an assurance by
 itself, that asbestos has been adequately abated.
 The use of a leaf blower or other strong fan in
 conjunction with taking the air sample would be
 needed for that in addition to wipe samples of
 surfaces. EPA Region 8 found that at Libby, even
 when there were activities going on to disturb
 dusts, air monitors worn by people sitting on
 couches, etc. always gave higher readings than a
 stationary air monitor in the same room (such as is
 the case in the AHERA TEM test).....................
------------------------------------------------------------------------


                      Tables.--Libby Asbestos Data
------------------------------------------------------------------------
                                                         PCM-equivalent
 Settled Asbestos Dusts, Building Interiors Libby.--     structures per
    Fibers and Bundles (Structures)  Longer than 5     square centimeter
               micrometers (<greek-m>m)                     (s/cm<SUP>2</SUP>)
------------------------------------------------------------------------
EPA Region 8 data<SUP>48</SUP> Microvacuum sampling by American
 Society for Testing and Materials ASTM D-5755 with
 analyses by TEM and counting rules specified in
 International Standards Organization ISO 10312.
33 out of 261 samples (13 percent) that had                      20-3658
 detectable asbestos.................................
228 out of 261 samples (87 percent) had non-                          ND
 detectable asbestos.................................
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                         Weight percent
                                                       (%) (all asbestos
  Residential and Garden Soils Libby.--Includes all      included, not
 asbestos,  not just fibers longer than 5 micrometers      just PCM-
                                                           equivalent
                                                           asbestos)
------------------------------------------------------------------------
EPA Region 8 data:<SUP>49</SUP> Analysis by PLM. EPA found that
 for those Libby samples with non-detectable analysis
 by PLM, many were found to actually have high levels
 when scanning electron microscope (SEM) methods were
 used.
 
Yard soil, 13 of 258 ( 5 percent) samples had                1-5 percent
 detectable asbestos.................................
Yard soil, 106 of 258 (41 percent) samples had a                   trace
 trace asbestos......................................
Yard soil, 139 of 258 (54 percent) had non-detectable                 ND
 asbestos............................................
Garden soil, 43 of 109 (39 percent) had detectable                   1-5
 asbestos............................................
Garden soil, 59 of 109 (54 percent) had a trace                    trace
 asbestos............................................
Garden soil, 43 of 109 (39 percent) had non-                          ND
 detectable asbestos.................................
Driveway, 21 of 263 (8 percent) had detectable                         1
 asbestos............................................
Driveway, 141 of 263 (54 percent) had a trace                      trace
 asbestos............................................
Driveway, 101 of 263 (38 percent) had non-detectable                  ND
 asbestos............................................
------------------------------------------------------------------------


 
------------------------------------------------------------------------
    Airborne Asbestos, Building
  Interiors Libby.--PCM-equipment     PCM-equipment      PCM-equipment
 fibers and bundles  longer than 5   MEAN fibers per    RANGE fibers per
            Micrometers              milliliter f/mL    milliliter f/mL
------------------------------------------------------------------------
EPA Region 8 data:<SUP>50</SUP> Routine and
 Active Occupancy. Analyses by
 TEM.
 
Routine activities, personal air                 0.35        0.023-0.048
 monitor, 2 of 5 (40 percent)
 samples had detectable asbestos..
 
Routine activities, personal air    .................  .................
 monitor, 3 of 5 (60 percent)
 samples had non-detectable
 asbestos.........................
Routine activities, remote                      0.009       0.0003-0.036
 stationary air monitor, 4 of 10
 (40 percent) samples had
 detectable asbestos..............
Routine activities, remote                         ND                 ND
 stationary air monitor, 6 of 10
 (60 percent) samples had non-
 detectable asbestos..............
Active cleaning activities,                     0.010        0.004-0.013
 personal air monitor, 6 of 26 (23
 percent) samples had detectable
 asbestos.........................
Active cleaning activities,                        ND                 ND
 personal air monitor, 20 of 26
 (77 percent) samples had non-
 detectable asbestos..............
Active cleaning activities, remote              0.008        0.007-0.010
 stationary air monitor, 3 of 17
 (18 percent) samples had
 detectable asbestos..............
Active cleaning activities, remote                 ND                 ND
 stationary air monitor, 14 of 17
 (82 percent) samples had non-
 detectable asbestos..............
------------------------------------------------------------------------

                                 ______
                                 
                               References
    1. Jenkins, C. (December 21, 2001) Wipe sampling for asbestos in 
Lower Manhattan; Projection of airborne levels from settled WTC dusts; 
Estimation of increased cancer risks based on various WTC dust exposure 
scenarios. C. Jenkins, Ph.D., Environmental Scientist, Office of Solid 
Waste. Memo addressed to Affected Parties and Responsible Officials. 
Posted at www.nyenvirolaw.org.
    2. Jenkins, C. (December 3, 2001) World Trade Center asbestos. C. 
Jenkins, Ph.D., Environmental Scientist, Office of Solid Waste. Memo 
addressed to Lillian Bagus and Robert Dellinger. Posted at http://
www.nycosh.org/linktopics/WTC-catastrophe.html
    3. See EPA Region 8 website for Libby, MT at http://www.epa.gov/
region8/superfund/libby/index.html
    4. See 12/21/01 AP article posted at http://www.montanaforum.com/
indices/libby.php?nnn=6.
    5. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001) Summary 
Report: Characterization of particulate found in apartments after 
destruction of the World Trade Center. Requested by: ``Ground Zero'' 
Elected Officials Task Force. Chatfield Technical Consulting, 
Mississauga, Ontario, Canada and Environmental Quality Management, 
Inc., Cincinnati, OH. Posted at http://www.nycoshorg/linktopics/WTC-
catastrophe.html.
    6. New York Environmental Law and Justice Project (January 2002). 
Information on 105 Duane St. posted at website at www.nyenvirolaw.org.
    7. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. cit.
    8. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. cit.
    9. Weis, C. (December 20, 2001) Amphibole mineral fibers in source 
materials in residential and commercial areas of Libby pose and 
imminent and substantial endangerment to public health. Memo from Chris 
Weis, Ph.D., DABT, Senior Toxicologist/Science Support Coordinator, 
Libby Asbestos Site, EPA Region VIII, Denver, CO to Paul Peronard, On-
Scene Coordinator, Libby Asbestos Site.
    10. U.S. EPA (2001) EPA response to September 11th, Benchmarks, 
Standards and Guidelines Established to Protect Public Health. Posted 
at: www.epa.gov/epahome/wtc/activities.htm
    11. U.S. EPA (2001) Asbestos (CASRN 1332-21-4) Integrated Risk 
Management System (IRIS). Posted at http://www.epa.gov/iris/subst/
037l.htm
    12. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. 
cit.
    13. Jenkins, C. (December 19, 2001), op. cit.
    14. U.S. EPA, Regulations at Title 40 of the Code of Federal 
Regulations, Part 763, 40 CFR 763. Posted at www.access.gpo.gov/nara/
cfr/cfrhtml<INF>--</INF>00/Title<INF>--</INF>40/
40cfr763<INF>--</INF>00.html.
    U.S. EPA Guidelines for conducting the AHERA TEM clearance test to 
determine completion of an asbestos abatement project. OTS. NTIS 
Publication No. PB 90-171778, EPA Publication No. EPA 560/5-89-001.
    15. EPA (2001-2002) Web page: EPA Response to September 11th posted 
at: http://www.epa.gov/enviro/nyc/bulkdust/. After accessing this page, 
click on any one of the dots on the map to find the following 
statement:

          ``Asbestos in Bulk Dust If a substance contains 1 percent or 
        more asbestos, it is considered to be an ``asbestos-containing 
        material.'' EPA is using the 1 percent definition in evaluating 
        dust samples from in and around Ground Zero and other areas 
        potentially impacted by the World Trade Center collapse. The 
        majority of areas in which EPA has found levels of asbestos in 
        dust above 1 percent are in the vicinity of the World Trade 
        Center work zone. Daily summaries of this data and how it 
        compares to the level of concern for public health are also 
        available.''

    16. Miele, J. A., Commissioner, Department of Environmental 
Protection, city of New York (October 25, 2001) letter to Residents of 
Lower Manhattan. Posted on the internet at www.nyeljp.org.
    17. www.epa.gov/region8/superfund/libby/qsafe.html
    18. Addison, J. (1995) Vermiculite: a review of the mineralogy and 
health effects of vermiculite exploitation. Reg. Tox. Pharm. 21:397-
405.
    19. EPA (2001-2002) Web page: EPA Response to September 11th posted 
at: http://www.epa.gov/enviro/nyc/bulkdust/. After accessing this page, 
click on any one of the dots on the map to find the following 
statement:
    ``If dust or debris from the World Trade Center site has entered 
homes, schools or businesses, it should be cleaned thoroughly and 
properly following the recommendations of the New York City Department 
of Health.''
    20. New York City Department of Health (2001) Responds to the World 
Trade Center Disaster, Recommendations for People Re-Occupying 
Commercial Buildings and Residents Re-Entering Their Homes. Posted at 
www.ci.nyc.ny.us/html/doh/html/alerts/wtc3.html
    21. EPA (2001-2002) Web page: EPA Response to September 11th posted 
at: http://www.epa.gov/enviro/nyc/bulkdust/
    22. Weis, C. (December 20, 2001), op. cit.
    23. EPA (2001-2002) Web page: EPA Response to September 11th posted 
at: http://www.epa.gov/enviro/nyc/bulkdust/. After accessing this page, 
click on any one of the dots on the map to find the following 
statement:
    ``If dust or debris from the World Trade Center site has entered 
homes, schools or businesses, it should be cleaned thoroughly and 
properly following the recommendations of the New York City Department 
of Health.''
    24. Jenkins, C. (December 3, 2001), op. cit.
    Jenkins, C. (December 19, 2001), op. cit.
    25. Evaluation of Two Cleaning Methods for Removal of Asbestos 
Fibers from Carpet, U.S. EPA Risk Reduction Engineering Laboratory, 
Cincinnati, OH 45268, Publication No. EPA/600/S2-90/053, April 1991. 
Posted at www.epa.gov/ncepihom/nepishom. Also available from the 
National Technical Information Service.
    Evaluation of Three Cleaning Methods for Removing Asbestos from 
Carpet: Determination of Airborne Asbestos Concentrations Associated 
with Each Method, U.S. EPA Risk Reduction Engineering Laboratory, 
Cincinnati, OH 45268, EPA/600/SR-93/155, September 1993. Posted at at 
www.epa.gov/ncepihom/nepishom/
    26. Lefrak Corp. (December 16, 2001) Gateway Plaza advisory, posted 
at www.lefrak.com/all%20pages/gwyadvise/repairs.html. Contains the 
following statement:
    ``There are 16 floors in the 600 building where the carpeting was 
installed with padding and seams. We are immediately removing the 
carpeting on these floors as it would be impossible to clean the carpet 
in these cases.''
    27. Mugdan, Walter (December 19, 2001) Regional Asbestos 
Coordinators and National Asbestos Coordinators Meeting for December, 
in which Cate Jenkins participated.
    28. New York Environmental Law and Justice, website describing duct 
cleaning by management after asbestos found. Posted at 
www.nyenvirolaw.org.
    29. Swaney, S. (January 8, 2002) personal communication from former 
resident at 333 Rector St., NYC.
    Haughney, C. (January 7, 2002) In N.Y.,--Taking a breath of fear. 
Washington Post, page A01. Posted at http://www.washingtonpost.com/wp-
dyn/articles/A11173-2002Jan7.html
    30. Jenkins, C. (December 19, 2001), op. cit.
    31. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. 
cit.
    32. Granger, R.H., McKee, T.R., Millette, J.R., Chmielinski, P., 
and Pineda, G. (October 2, 2001) Preliminary Health Hazard Assessment: 
World Trade Center, HP Environmental, Inc., 104 Elden St., Herndon, VA 
20170. Paper submitted to the American Industrial Hygiene Association. 
Please request a copy of paper from <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f49e919a9f9d9a87da97958091b4918495da939b82da">[email&#160;protected]</a>
    33. ATSDR (2000) Toxicological Profile for Asbestos, U.S. 
Department of Health and Human Services, Public Health Service Agency 
for Toxic Substances and Disease Registry. Available by calling 1-888-
42-ATSDR. At this time, only the final draft version is posted on the 
internet at www.atsdr.cdc.gov/toxprofiles/tp61.html.
    34. EPA (1997) Rules of thumb for superfund remedy selection. 
Publication No. EPA 540-R-97-013, NTIS PB97-963301. Posted at 
www.epa.gov/superfund/resources/rules/
    EPA (2000) Presenter's manual for: ``Superfund Risk Assessment and 
How you Can Help''. Publication No. EPA/540/R-99/013. Posted at 
www.epa.gov/superfund/programs/risk/vdmanual.pdf
    35. U.S. EPA (1986) Airborne Asbestos Health Assessment Update. 
U.S. Environmental Protection Agency, Office of Research and 
Development. Washington, DC. Publication No. EPA/600/8-84/003F.
    U.S. EPA (2001) Asbestos (CASRN 1332-21-4), Integrated Risk 
Information System (IRIS). Posted at www.epagov/iris/subst/0371htm.
    36. EPA (1997) Rules of thumb for superfund remedy selection. 
Publication No. EPA 540-R-97-013, NTIS PB97-963301. Posted at 
www.epa.gov/superfund/resources/rules/
    EPA (2000) Presenter's manual for: ``Superfund Risk Assessment and 
How you Can Help''. Publication No. EPA/540/R-99/013. Posted at 
www.epa.gov/superfund/programs/risk/vdmanual.pdf
    37. Weis, C. (December 20, 2001), op. cit.
    38. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. 
cit.
    39. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. 
cit.
    40. Sampling by Ed Olmsted, CIH on December 3, 2001 for New York 
Environmental Law and Justice Project. Results posted at 
www.nyenvirolaw.org.
    41. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. 
cit.
    42. Granger, R.H., McKee, T.R., Millette, J.R., Chmielinski, P., 
and Pineda, G. (October 2, 2001), op. cit.
    43. EPA (October 3, 2001) EPA and OSHA websites provide 
environmental monitoring data from World Trade Center and surrounding 
areas. Press release, posted at www.epa.gov/epahome/newsroom.htm.
    Analyses of bulk dust on EPA website posted at www.epa.gov/enviro/
nyc/bulkdust/
    44. Weis, C. (December 20, 2001), op. cit.
    45. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. 
cit.
    46. Chatfield, E.J., and Kominsky, J.R. (October 12, 2001), op. 
cit.
    47. Granger, R.H., McKee, T.R., Millette, J.R., Chmielinski, P., 
and Pineda, G. (October 2, 2001), op. cit.
    48. Weis, C. (December 20, 2001), op. cit.
    49. Weis, C. (December 20, 2001), op. cit.
    50. Weis, C. (December 20, 2001), op. cit.
 Statement of Kerry Kelly, M.D., Chief Medical Officer, New York City 
                            Fire Department
    Good morning and thank you for inviting me to appear before this 
subcommittee. I am the chief medical officer of the New York City Fire 
Department. I responded to the World Trade Center at 9:30 a.m. on 
September 11th, and participated in the rescue and recovery efforts 
that thousands of our members undertook on that day and in the days 
that followed.
    The FDNY response to the WTC event placed our members at the 
epicenter within moments of the first plane hitting the North Tower. 
Members from emergency squads, rescue companies, engines, ladders and 
medical teams from across the city responded to the call. Firefighters 
about to end their daily tour of duty stayed on; off-duty firefighters 
commandeered vehicles; retirees and members on sick leave found their 
way to the scene. Within a matter of minutes, these rescuers became 
victims, soldiers in the worst terrorist attack on our Nation's soil.
    Three hundred and forty-three members lost their lives that day. 
Over 200 members were seen in emergency rooms for physical trauma. Many 
members required hospitalization and surgical intervention for 
significant orthopedic injuries. The rescue and recovery effort 
involved hundreds of members, following a job-wide recall during the 
first few days of the operation.
    In the initial moments and hours after the collapses, firefighters 
and emergency workers continued to work without pause in the desperate 
search for survivors. The air was full of thick debris and dense dust 
clouds, and visibility was so bad that one could not see people more 
than three feet away. With the collapse of the towers, an avalanche of 
acrid debris, metallic meteors and a shower of gray dust descended on 
the survivors, blanketing the new wave of rescuers as they rushed in to 
assist. It seemed as though day had turned to night, but still our 
members continued searching for survivors in a surreal black blizzard 
of debris. Fine dust coated every crevice, making features 
indiscernible. Debris and dust choked breath and irritated eyes.
    Due to the vast numbers of FDNY personnel at the scene, respirators 
were not available for all members working at the site. Many also found 
it more difficult to operate while wearing respirators, and many chose 
to carry on their search for survivors unprotected.
    Members ignored or fought against symptoms, and many did not sleep 
for days, pushing themselves to continue the search for survivors. In 
the immediate aftermath of the collapse, as the rescue work began, many 
members complained of eye irritation, as well as cough and congestion. 
As the air quality improved, eye irritation symptoms improved, but 
cough complaints continued. Pulmocort inhalers, an inhaled steroid, 
were offered to offset the allergic cough symptoms.
    Concerns for the physical and mental health of members were raised 
by FDNY medical staff in those first few hours and days. Due to the 
cough symptoms that members exhibited, questions were also raised about 
the exposure levels that were present at the scene. It was, and still 
is, unclear what exposures members might have experienced following the 
fall of two 110-story towers combined with the combustion of two planes 
and jet fuel.
    Within a week of the tragedy, the Fire Department's Bureau of 
Health Services (BHS) began preparing for an unparalleled medical 
monitoring procedure for all members exposed at the site. BHS partnered 
with National Institute for Occupational Safety and Health (NIOSH) and 
the U.S. Centers for Disease Control and Prevention (CDC) on this 
project. We are very grateful for the funding we received from CDC to 
conduct this initial analysis of our members. From October 6-12, an 
initial sampling of 400 exposed members were given a comprehensive 
medical evaluation. BHS, NIOSH and CDC were satisfied with the 
logistics and implementation of the medical evaluation, and BHS 
immediately began the vast project of testing the remaining members.
    We worked 7 days a week, with three shifts a day, and were able to 
evaluate approximately 180 members per day. From October 31 until 
January 31, the medical monitoring of all personnel who responded to 
the WTC was undertaken. Almost 10,000 firefighters and 800 EMS 
personnel have now been evaluated. I am proud to say that our initial 
medical evaluation of all the members who responded to the World Trade 
Center is now complete.
    Medical monitoring consisted of ECGs, pulmonary function tests, 
chest x-rays, hearing evaluations, and blood testing consisting of 
cbcs, chemistries, liver functions, lipid profile, lead, beryllium, 
pcbs and urine mercury and urinalysis testing. In addition, testing of 
dioxins and hydrocarbons was done at the CDC lab on the initial group 
of 400. Blood from all remaining members was banked, to be tested at a 
later time if the need arises. Although some of these tests are part of 
routine medical examinations, other more specialized testing was also 
conducted due to environmental concerns.
    At the time of the medical monitoring members also completed a 
computerized survey regarding their physical complaints to assist the 
Department in tracking the symptoms that members are experiencing. BHS 
has compiled a very complete record of each of our members from prior 
annual exams to use as a baseline for comparison.
    Since the testing was completed less than 2 weeks ago, the complete 
results from this computer survey are still being tallied. Preliminary 
blood tests have not indicated any significantly elevated levels of 
toxic metals or abnormal chemistries or blood counts. At the time of 
completing the computer survey, 25 percent of our members reported 
cough and shortness of breath on exertion. The pulmonary function tests 
taken during the medical evaluation have shown a decline that matches 
this complaint. In most cases, this change has not affected overall 
functional capacity. Some members remain ``off the line'' with active 
symptoms, while others have returned to work. Our current medical leave 
rate is a reflection of both the rise in respiratory symptoms and post-
traumatic stress. There has been a two-fold increase in both 
respiratory problems and stress related problems in the last 5 months.
    It remains to be seen how members will recover from this event.
    However, in order to measure recovery, we must continue to monitor 
all of the members who responded to the WTC event. We are grateful to 
have received funding from CDC for one additional medical examination 
per member in the future. We remain concerned about potential health 
problems in the future. We are also concerned about longitudinal follow 
up with our members. Those who become ill, or experience a trauma of 
this level in their working life, may choose to retire from this job 
when they can no longer withstand the rigors of this work. We want to 
ensure that our members continue to receive monitoring in the future, 
whether or not they retire from the Department. For this reason, the 
Fire Department's Bureau of Health Services is now actively seeking 
funding for this project.
    We must affirm our commitment to the members of our Department who 
gave so much to this city and this country, and who have inspired 
people around the world with their courage and determination. We owe it 
to them continue to monitor the effects that their exposure on 
September 11th will have on their future. BHS has the pre- and post-WTC 
records, the expertise and the logistical set-up to conduct an 
unprecedented and thorough investigation of the effects of the exposure 
our members experienced on that terrible day. Let's not forget that 
more of our members experienced a far greater level of exposure than 
any other group in this city.
    As far as I know, there are no hard-and-fast answers to the 
potential effects of exposures. Many unknowns remain. That is why it is 
critical that we continue our monitoring.
    The events of September 11th were catastrophic. In a matter of 
moments, our members became participants in a battlefield. The FDNY 
response was outstanding when we review the numbers of civilians saved 
and we measure the heroic efforts of so many individuals. Our losses 
are deep felt with the deaths of members from every rank and every 
branch of our service. Our memories are filled with the experiences of 
that day and the many days that followed. Both physically and 
emotionally, we have been challenged by this event. As we rebuild our 
Department, we must also restate our commitment to our members who 
worked so hard to save others. I am sure we can all agree it is no less 
than they deserve.
    Thank you for your time.
                               __________
    Statement of George D. Thurston, Sc.D., Associate Professor of 
     Environmental Medicine, New York University School of Medicine
    Thank you for holding this hearing, and for giving me this 
opportunity to contribute to the process of examining the environmental 
consequences of the attacks of September 11th.
    I am George D. Thurston, a tenured associate professor of 
Environmental Medicine at the New York University (NYU) School of 
Medicine. My scientific research involves investigations of the human 
health effects of air pollution.
    I am also the director of the National Institute of Environmental 
Health Sciences' (NIEHS) Community Outreach and Education Program at 
the NYU Department of Environmental Medicine. A goal of this outreach 
program is to provide an impartial scientific resource on environmental 
health issues to the public and to decisionmakers, and this is my 
purpose in testifying to you here today.
    In the aftermath of the attack of September 11th and the subsequent 
anthrax bio-terrorism, we have come to realize that terrorism is more 
than a security threat: it can also represent an environmental health 
threat. On September 12, my research center received an urgent request 
from the Office of the Director of the NIEHS, one of the National 
Institutes of Health, to respond to environmental impacts of the attack 
of September 11th by doing whatever we could to monitor the air 
pollution that was resulting from the disaster's dust and fires, and to 
assess its environmental health consequences. That very evening, we 
sent a research team into the World Trade Center Disaster Zone to 
collect numerous samples of the dust from locations surrounding Ground 
Zero. Figure 1 shows a map of the locations where we collected settled 
WTC dust samples on the evening of the 12th and on the 13th of 
September.
    Our NYU Medical School research team also set up an ambient air 
monitoring station at the NYU Downtown Hospital at Beekman Street, just 
5 blocks to the east-northeast of Ground Zero. We sampled for various 
types of particle air pollution: ultrafines, soot, fine particles, and 
inhalable particles from Friday, September 14 until the end of 2001, 
when the fires had been extinguished. Although our work is far from 
complete, we have weighed these samples to determine the ambient 
particulate mass concentrations, as well as analyzed the ambient air 
pollution samples and the WTC dust for their constituents. Our sampling 
data, therefore, applies to the general public living and working in 
the vicinity of the disaster, rather than to exposures at Ground Zero. 
So my testimony today focuses only on those community exposures and 
possible health effects among the general population in the downtown 
Manhattan area of New York City.




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    It is of interest to note that the NYU Downtown Hospital was 
founded many years ago after an earlier terrorist bomber attack on Wall 
Street on September 16, 1920 that killed dozens of New Yorkers, and it 
was felt that downtown New York City needed a local hospital ready to 
respond to such emergencies. Some 81 years later, when this city needed 
it, the NYU Downtown Hospital was ready, and met that need. Moreover, 
despite having to run on diesel power and being in an emergency status, 
the hospital aided our environmental assessment efforts by providing us 
with space and power on its second floor, where we could run our 
sampling lines out to sample pollution in the ambient air.
    Our analyses of the WTC dust samples revealed that some 99 percent 
of the dust was as particles too large to be breathed deeply into the 
lung, being largely caught in the nose, mouth and throat when inhaled. 
This large dust, however, contained approximately one-third fiberglass, 
with much of the remainder as alkaline cement dust. This large dust 
was, therefore, quite caustic and irritating to the eyes, nose and 
throat, consistent with the now famous ``World Trade Center cough'' 
that nearby residents reported. Only trace amounts of asbestos were 
found in our samples. The less than one percent that was as 
PM<INF>2.5</INF>, or the particles that would reach deepest in the 
lung, was found to have a neutral pH, with no detectable asbestos or 
fiberglass. Thus, while our analyses are consistent with the 
Government's conclusion that the WTC dust is not likely to have short- 
or long-term serious health impacts on otherwise healthy local 
residents, we found that it is very irritating and capable of causing 
the symptoms reported by many residents.




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Our sampling of the ambient air pollution at NYU Downtown Hospital 
showed that air pollution levels were quite high in the first weeks 
following the attack, especially at night, but then diminished as the 
fires were brought under control. By early October, soot levels in the 
downtown area were generally similar to those that we measured at the 
NYU Medical School in Midtown (at First Ave. and 26th St.), although 
levels occasionally climbed in downtown on clear, calm nights 
throughout the fall. In Figure 3, the solid line on the left shows the 
declining trend in soot levels in September through December. Overall, 
our independent air pollution sampling results were largely consistent 
with the data reported by the U.S. EPA. In particular, although short-
term peaks in PM<INF>2.5</INF> particulate matter air pollution for a 
few hours did occur at night, the 24-hour averages were of 
PM<INF>2.5</INF> were within the legal limits set by the U.S. air 
quality standards.




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Despite the fact that individual pollutants in the community were 
apparently at safe levels for otherwise healthy persons in the general 
population, this does not mean that no effects might have been 
experienced by especially susceptible individuals, such as infants or 
persons with pre-existing respiratory disease. In addition, it is 
impossible to know what potential interactive effects might have 
occurred among the various pollutants, even at these low levels. 
Ultimately, only epidemiological follow-up studies of possible effects 
among especially susceptible individuals will provide a fuller 
determination of the issue of possible health effects from the various 
pollutants in the WTC plume.
    Finally, I feel strongly that we must make sure to learn all the 
lessons that we can from this horrible catastrophe regarding the 
communication of risk to the public in such emergency situations. 
Something like what happened to New York City on September 11th could, 
unfortunately happen again, and we must be prepared. It is an 
understatement to say that the public is skeptical of government 
pronouncements of safety in such situations. In this case, I feel that 
the EPA was too quick to declare the air ``safe'', and did not well 
enough define what was meant by that term. Although the fine particle 
pollution was not of a level that would make otherwise healthy people 
very sick, the dust was caustic and irritating, causing many to have 
severe and upsetting symptoms, including eye, nose, and throat 
irritation. This caused people to further doubt governmental 
pronouncements of safety, even after more complete data were available 
confirming the EPA position. As a result, the press turned to the 
academic research community of New York City to fill the void. 
Fortunately, New York City is itself blessed with vast resources, 
including a host of some of the finest educational and research 
institutions in the world. Other locales may not have such local 
resources as were available in New York City, and be less able to meet 
such a disaster.
    It has been my duty and honor to play a role in the academic effort 
to answer the environmental questions that New Yorkers had, and still 
have. But we must improve the current situation. While we cannot create 
governmental trust where there is none, I believe that we should draw 
from what happened in New York City to help the Nation better cope with 
such situations in the future. The Government should designate a suite 
of environmental parameters to be measured in such situations, and 
designate the appropriate health standards most appropriate for 
comparison in such short-term exposure situations. Moreover, I 
recommend that we create a mechanism by which blue-ribbon panels of the 
leading independent experts in the United States are formed in advance, 
perhaps by the National Academy of Sciences, to be on stand-by in case, 
God forbid, such an emergency occurs again. If this is done, there 
would then be an independent expert panel ready to be assembled, 
briefed, and to then give their quick-turnaround assessment of the 
public's environmental risks, and of the appropriate actions that are 
needed to protect public health. Without such a new mechanisms, I fear 
that any future such disasters may be accompanied by the same 
unfortunate confusion, doubts, and distrust. Let us act now to help 
preclude this risk communication problem in the future.
    Thank you for the opportunity to testify on this important issue.
                               __________
       Responses by George Thurston to Additional Questions from 
                            Senator Clinton
    Question 1. In your testimony, you were critical of EPA's use of 
the term ``safe''. This gets directly to the issue of risk 
communication. How can government entities improve methods of risk 
communication?
    Response. The specifics of risk communication are going to vary 
from situation to situation, but a basic principle that I see as 
important is to define carefully what is meant in statements to the 
public, and to explicitly state the limitations on what is being said. 
The public wants to be informed of what is known and what is not known, 
as well as what are the most important factors for them to consider, so 
that they can take the most appropriate individual actions to protect 
themselves and their families. For example, when I have discussed the 
risks associated with particulate matter exposures in Lower Manhattan 
after September 11th, I have always tried to separate out the exposures 
experienced by workers at Ground Zero as opposed to the public that is 
located blocks away. I have also tried to always include a 
differentiation between the effects of short-term pollution exposures 
(of hours or days) versus those of long-term exposures (of months or 
years). Making these kinds of careful distinctions, rather than broad-
brush generalities or reassurances, reduces the chances of potential 
misunderstandings among the public, and thereby is more likely to 
better maintain confidence in these more careful and qualified risk 
communication pronouncements.

    Question 2. I agree with your call for parameters. Can you comment 
further on this--how should we proceed with this effort?
    Response. There is a need to come up with exposure limitation 
guidelines for pollutant exposures from shorter-term exposures in such 
disaster situations, as opposed to the existing exposure limitation 
guidelines that are more often designed primarily to protect against 
more routine situations with longer duration exposures in the case of 
non-community (i.e., uncommon) pollutants, such as those pollutants 
more usually found in occupational settings. A critical feature of this 
guideline-setting process will be external review by scientists and the 
public outside the Government. Such peer review is generally a part of 
the routine standard setting process, but given the emergency situation 
faced by the governmental agencies involved in this disaster, they did 
the best they could with what was available. But we must be better 
prepared with more directly applicable guidelines in the future, should 
such a horrible disaster ever occur again. A case in point was the 
exposure limit set by the U.S. EPA for short-term asbestos exposures. 
While the standard for acceptable limits in the air for short-term 
exposure applied by the EPA in this emergency situation may yet in the 
long-run be deemed as the most appropriate, there was no time for 
external peer review of the guideline applied in the days and weeks 
following the disaster, so this gave the impression to some that the 
guideline used by the EPA was potentially arbitrary, rather than on a 
solid scientific health-based footing. This doubt undermined trust by 
those individuals in the EPA pronouncements regarding the health 
implications of the ambient asbestos exposures they were measuring and 
reporting. This uncertainty and resultant mistrust must be addressed as 
soon as possible by conducting independent and public peer review of a 
new set of guidelines for acceptable vs. unacceptable pollutant 
exposure limits in disaster situations.

    Question 3. Do appropriate health standards exist for short-term 
exposure situations, such as those experienced by many at the World 
Trade Center? Do such standards need to be developed? Should they be 
developed?
    Response. As I noted above, health-based guidelines for acceptable 
vs. unacceptable  exposures in such shorter-term exposures are not 
available for all pollutants, especially for those pollutants that are 
usually of greatest health concern from long-term exposure, and that 
are not usually experienced in such an acute manner by the general 
public. For these pollutants, the appropriate agencies, such as the 
U.S. EPA, must develop a set of best science health-based guidelines 
that have undergone the usual scientific and public peer-review 
process, so as to avoid the kind of uncertainty that was faced by these 
agencies and the public in the wake of September 11th.
                               __________
     Statement of Eric Goldstein, Natural Resources Defense Council
    Good morning Chairman Lieberman, Senator Clinton and members of the 
Subcommittee, my name is Eric A. Goldstein and I am the director of the 
New York Urban Program at the Natural Resources Defense Council, Inc. 
(``NRDC''). NRDC, as you know, is a national, non-profit legal and 
scientific organization active on a wide range of environmental issues, 
including urban air quality. Since shortly after its founding in 1970, 
NRDC has placed a special focus on the New York region's environment 
and the quality of life of city residents. We are especially grateful 
to you for convening this hearing and for your continuing interest and 
dedication to safeguarding air quality and environmental health in New 
York.
    In the aftermath of the September 11th tragedy, my NRDC colleagues 
Megan Nordgren, Mark Izeman and I began collecting data and conducting 
interviews as part of year-long study of the environmental impacts of 
the World Trade Center attacks and government's response to the 
problems identified. We are releasing a preliminary version of that 
study this coming Wednesday, and would ask you to consider 
incorporating this full document into the hearing record. This morning, 
I will briefly make three points and propose four recommendations for 
action by this subcommittee to help address air quality problems in the 
wake of the Trade Center disaster.
    First, it is important to state what is widely known to anyone who 
lives or works in the vicinity of Ground Zero--the September 11th 
attacks, in addition to the horrific loss of human lives and huge 
economic dislocations, constituted an unprecedented assault on Lower 
Manhattan's environment. The collapse of the 110 story towers, the 
conflagration of vast amounts of toxic materials, the forceful 
distribution of debris and dust, and the long-burning fires at Ground 
Zero combined to create what was unquestionably the single largest air 
pollution episode in the history of New York City. NRDC's report 
estimates that at least 10,000 New Yorkers suffered short-term 
respiratory and other pollution-related impacts from the Trade Center's 
collapse and subsequent fires. Thousands of apartments and offices in 
the immediate vicinity of Ground Zero received significant loadings of 
polluted dust--everything from asbestos to fiberglass to pulverized 
cement to, in many cases, metals and other toxic substances.
    There is, of course, much we do not yet know about the air quality 
impacts from the September 11th attacks. That is why the health studies 
now being undertaken by distinguished medical institutions like 
Columbia University's Mailman School of Public Health and Mt. Sinai's 
Selikoff Center for Occupational and Environmental Medicine, as well as 
similar work at New York University's Nelson Institute of Environmental 
Medicine, is so important.
    But here in most condensed fashion is what we can say about air 
quality right now. In general, outdoor air quality in Lower Manhattan 
today is approaching or similar to levels in this area prior to 
September 11th, with the exception of the Ground Zero work-pile and 
localized hot spots, such as areas with heavy concentrations of diesel 
equipment or vehicles and, at times, areas where Trade Center debris is 
being moved or transferred to barges. The most worrisome air pollution 
problem facing Lower Manhattan now involves indoor pollution threats in 
some residences and offices that were engulfed with thick layers of 
contaminated dust and whose buildings were not properly cleaned.
    In short, from what we now know, the bulk of the exposures have 
already occurred and the bulk of damage from the terrorist attacks has 
been felt. The air pollution challenges that remain are manageable and 
solvable. But, they exist and they shouldn't be swept under the rug.
    Let me briefly turn to government's response to the environmental 
health challenge presented by the September 11th attacks. In many ways, 
the response of government agencies and their employees to the Trade 
Center attacks was heroic and a testament to the merits of public 
service, which is too often undervalued. Environmental and Health 
Agency staff performed many tasks with distinction. U.S. Environmental 
Protection Agency personnel, for example, undertook numerous 
assignments including the removal of hazardous waste from the Ground 
Zero site, the deployment of HEPA vacuuming trucks for collection of 
dust layers from city streets, and the establishment of sophisticated 
air monitoring and testing facilities. But when one closely examines 
the governmental response to air pollution impacts from the collapse of 
the Trade Center Towers and the subsequent fires, a more complicated 
picture emerges.
    One major problem was overlapping jurisdiction among at least nine 
city, State, and Federal agencies, which meant that no single agency 
was in overall charge of the environmental aspects of the response to 
the September 11th attacks in New York. For example, no agency took the 
lead in insuring environmental safety for those working at Ground Zero. 
No agency took affirmative charge of the environmental clean up and 
inspection of environmental conditions prior to re-occupancy of 
residences and office buildings that were coated with debris and 
pollution. Many such problems, NRDC believes, resulted from 
shortcomings by the Giuliani administration, which handled so many 
other aspects of the September 11th response magnificently and which 
was in tight, overall command of the entire rescue, recovery and clean-
up effort. The low profile of the City's Department of Environmental 
Protection--the 6,000 person department with wide-ranging New York City 
Charter duties to respond to environmental emergencies--lends support 
to the growing belief the department, for whatever reason, did not rise 
to the challenges posed by the September 11th attacks.
    A second major problem involved communicating environmental health 
information to the public. There appeared to be no coordinated strategy 
for conveying such information to concerned citizens, no regular 
briefings by governmental leaders of environmental or health agencies, 
and no one place for citizens to turn for environmental guidance and 
advice. Moreover, government statements on air quality, at least as the 
public understood them, stressed the good news and de-emphasized issues 
that might raise further concerns. By focusing almost exclusively on 
long-term risks in their public statements, government officials 
omitted warnings regarding short-term health effects, particularly to 
Ground Zero workers and other sensitive sub-groups. Admittedly, 
government agencies had a very difficult assignment here, and were 
responding not to an industrial accident but an unprecedented act of 
war. Nevertheless, as a result of shortcomings on the communication 
front, a troubling credibility gap on environmental health issues 
emerged.
    A third difficulty, and one of continuing concern, has been 
environmental safety shortcomings at Ground Zero. While the rescue, 
recovery and site clean-up operations have made remarkable progress 
under exceptionally challenging circumstances, the way environmental 
health issues have been handled represents a glaring exception to this 
post-September 11th record of accomplishment. A prime example has been 
the failure to require Ground Zero workers to wear appropriate 
respirators. The OSHA representatives--who will be speaking later and 
who will probably state that they were only at Ground Zero in an 
advisory capacity and did not or could not insist upon the wearing of 
respirators by the Ground Zero work force--certainly have some 
explaining to do. Among other on-site safety problems of significance 
were undue delays in establishing worker safety training procedures.
    A final shortcoming in government's environmental response to the 
Trade Center attacks involves problems assisting Lower Manhattan 
residents on environmental safety and clean-up issues. In addition to 
the previously stated communications gaps, city agencies failed to 
provide complete and proper clean-up protocols to many Lower Manhattan 
residents and failed to inspect even the most heavily contaminated 
buildings for environmental safety, prior to re-entry. Once again, no 
agency took overall responsibility for supervising the environmental 
clean up and safe re-occupancy of apartments (and office buildings) 
immediately surrounding Ground Zero. It was left, for the most part, to 
residents and building managers to sort these complex challenges out 
for themselves.
    Let me conclude by listing four of the recommendations contained in 
the forthcoming NRDC World Trade Center report, on which we believe 
this subcommittee could be most helpful:
    (1) Urge the New York City Department of Environmental Protection 
and the U.S. Environmental Protection Agency (with whatever other 
agencies they deem appropriate) to: (a) create an Air Pollution 
Assistance Center located in the Ground Zero vicinity, fully staffed 
with a range of government personnel who could provide one-stop advice 
for local residents and office workers, and (b) create a Joint Task 
Force that will promptly begin door-to-door visits to and inspections 
of individual buildings, to verify environmental conditions, at least 
in the immediate ring of buildings within a 10-block radius of Ground 
Zero;
    (2) Prod the Occupational Safety and Health Administration and 
relevant New York City officials to commence without further delay 
enforcement of environmental safety rules at the Ground Zero work site;
    (3) Assist medical institutions, such as those listed above, in 
securing monies for public health studies, and help obtain funds for a 
full health registry of all Lower Manhattan residents and workers who 
may have been affected by pollution in the aftermath of September 11th, 
and
    (4) Consider convening a second hearing this spring to review 
whether Federal Clean Air Act pollution standards and/or pollution 
monitoring requirements for New York need revision in the wake of 
lessons learned from the September 11th tragedy.
    Thank you very much for inviting NRDC to testify at this important 
hearing. We stand ready to assist this subcommittee in addressing the 
air quality impacts of the World Trade Center disaster in any way we 
can.
                               __________
  Statement of Marianne Jackson, Deputy Federal Coordinating Officer, 
                  Federal Emergency Management Agency
    Good morning, Mr. Chairman and members of the subcommittee. I am 
Marianne Jackson, Deputy Federal Coordinating Officer for Federal 
Emergency Management Agency (FEMA) for the World Trade Center disaster. 
I thank you for this opportunity to update you on FEMA's disaster 
response operations in New York City, especially related to health 
concerns and clean up, since the World Trade Center attacks on 
September 11, 2001.
    The events of September 11th have become indelibly etched in our 
collective memory because of the unthinkable and evil terrorist acts 
perpetrated against the citizens of this great nation. The twin towers 
at the World Trade Center complex collapsed and nearby buildings either 
partially collapsed or suffered extensive collateral damage. The sheer 
magnitude of this disaster caused untold suffering and generated 
thousands of tons of debris.
    I appreciate being invited here today to give you an update on 
FEMA's continuing activities and the types of assistance we are 
providing, along with our partners, to help alleviate the suffering of 
the residents of New York City, to deal with the cleanup, and to 
monitor the potential health effects on the emergency responders. As 
you know, until you have seen the devastation in person, you can't even 
begin to appreciate the enormity of this disaster and the recovery that 
is involved. But I can assure you that tremendous work has already been 
accomplished.
    The level of cooperation and professionalism exhibited by all of 
the Federal, State and local personnel and emergency responders has 
been outstanding. I am especially moved and deeply humbled by the 
heroic and unselfish efforts of the many emergency responders from 
right here in New York City and of those who came in from around the 
Nation to assist in the response and recovery. These people placed 
themselves in harm's way to help others in their time of need and I am 
forever grateful to them for their ultimate sacrifice and bravery. Many 
of these policemen, firemen, and emergency medical technicians 
tragically lost their own lives while doing what they do best, putting 
everything aside to rush to the scene to save lives, rescue the trapped 
and injured, and be the first responders. We will never forget what 
they did and are committed to doing everything we possibly can to 
ensure that any potential health effects they may encounter are 
monitored and followed up. Just as they gave for us, we must in turn 
reach out and do whatever we can to help them.
    Some 3,500 Federal workers were deployed to New York to support the 
disaster response, about 1,300 from FEMA, and almost 2,000 from other 
Federal departments and agencies. All of these responders are caring 
people working together toward a simple goal to help the victims 
recover from this terrible national tragedy. There are still 491 people 
working on the recovery in New York at the Disaster Field Office.
                               background
    As background, I want to describe how FEMA works with other 
agencies in responding to disasters. As you know, our mission is to 
reduce the loss of life and property and protect our Nation's critical 
infrastructure from all types of hazards. Our success depends on our 
ability to organize and lead a community of local, State, and Federal 
agencies and volunteer organizations. Our experiences in responding to 
natural disasters have taught us who to bring to the table and what 
questions to ask so that we may facilitate managing a wide range of 
emergencies. We provide the management framework and the financial 
resources to help State and local governments meet the needs, of their 
communities.
    The Federal Response Plan (FRP) forms the heart of that framework. 
The FRP lays out the process by which interagency groups work together 
in Washington, DC, and in all 10 FEMA Regions, to enable the Federal 
Government to respond as a cohesive team to a wide range of natural and 
manmade disasters and catastrophes. This team is made up of 26 Federal 
Departments and Agencies, as well as the American Red Cross, and is 
organized into interagency functions based on the authorities and 
expertise of the members and the needs of our counterparts at the State 
and local level.
    Since 1992, and again in response to the tragic events on September 
11, 2001, the Federal Response Plan has proven to be a solid framework 
time and time again for managing major disasters and emergencies 
regardless of cause. It works during all phases of disasters, including 
readiness, response, recovery and mitigation. The framework is 
successful because it builds upon the existing professional disciplines 
and relationships among the participating agencies. Among Federal 
agencies, FEMA has the strongest ties to the emergency management and 
fire service communities. We plan, train, exercise, and operate 
together to prepare for and respond to all types of hazards all of the 
time. That puts us in a position to manage and coordinate programs that 
address their needs. Similarly, the Department of Health and Human 
Services has the strongest ties to the public health and medical 
communities, and the Department of Justice has the strongest ties to 
the legal, law enforcement, and victims' assistance communities. The 
Federal Response Plan respects these relationships and areas of 
expertise and relies upon them to define the decision-making processes 
and delivery systems so that we maximize the use of all available 
resources.
    We received tremendous support from some our partners: 
transportation of assets and movement support provided by the 
Department of Transportation; telecommunications assistance from the 
National Communications System; logistical and managerial support 
provided by incident management teams from the U.S. Firefighting 
Service; mass care, feeding, and mental health support from the 
American Red Cross and other volunteer organizations; resource support 
from the General Services Administration; food stamp program support 
from the Department of Agriculture; assistance in resolving power 
restoration problems from the Department of Energy, a medical screening 
tool to assist in evaluating any potential medical outcome related to 
worksite exposure has been developed U.S. Army Corps of Engineers; 
invaluable support from the various branches of the Department of 
Defense; and extensive environmental monitoring and sampling support 
from the Environmental Protection Agency.
                         monitoring air quality
    Immediately following the attacks on September 11th, the importance 
of air quality, emergency responder health, environmental degradation, 
and related issues emerged as critically important, in addition to 
responding to the immediate needs of the victims of the attacks. Right 
away we began working closely with the Environmental Protection Agency 
(EPA), the New York City Department of Environmental Protection and New 
York State Department of Environmental Conservation to monitor and 
address air quality concerns. Under the FRP we mission assigned and 
provided funding to EPA to conduct air sampling throughout Manhattan, 
Brooklyn and Staten Island. Air quality monitoring continues today with 
numerous monitoring sites providing data that can be used to evaluate 
health and safety standards. Our funding will permit this monitoring to 
continue through September 30, 2002.
          ensuring appropriate safety and preventive measures
    The health and safety of emergency responders is always a paramount 
concern of ours. Right after the attacks numerous Government Agencies 
such as the Occupational Safety and Health Administration (OSHA), 
National Institute for Occupational Safety and Health (NIOSH), within 
the Department of Health and Human Services (HHS), EPA, and State and 
city agencies dispatched representatives to the site to provide advice 
on health issues and establish appropriate safety measures and 
protocols. In fact, a comprehensive Health and Safety Plan was 
developed with input from numerous Federal, State, and New York City 
agencies. FEMA is a strong supporter of site safety. Our experience in 
disaster responses has taught us the importance of ensuring the safety 
of the emergency responders so that they do not themselves become 
disaster victims.
    Federal personnel and teams deployed into the disaster area, such 
as the Urban Search and Rescue Teams, U.S. Army Corps of Engineers 
personnel, and medical personnel from the Department of Health and 
Human Services, arrived with the necessary protective gear and as a 
result of health and safety advisories that were issued were able to 
adopt the required safety protocols. In the first weeks, FEMA's Safety 
Officer closely coordinated with and participated daily in the New York 
City Interagency Health and Safety Meeting and, as a result, was able 
to pass on advisories and provide training from the meetings.
            long-term health monitoring of first responders
    We took measures to address immediate health concerns involving 
emergency responders through our coordination with the Department of 
Health and Human Services and its Public Health Service. Five Disaster 
Medical Assistance Teams, four Disaster Mortuary Teams, one Veterinary 
Medical Assistance Team, and one Mental Health Assistance Team, were 
dispatched to New York City to provide health care and related 
assistance. The Naval Hospital Ship USNS Comfort and burn nurses were 
also deployed to support the response.
    Long-term health monitoring was funded by FEMA for medical 
surveillance of 11,000 firefighters and 4,000 State emergency 
responders working at Ground Zero. As of December 31, 2001, blood 
samples had been drawn by local clinics coordinated by the FDNY Medical 
Office. These samples are being used to help establish a health 
baseline. Follow-up and additional testing is to be completed by the 
Center for Disease Control (CDC) over the next 12 months. We provided 
$9 million for immediate testing, analysis and program management with 
CDC as the lead agency.
    In an effort to be cautious, we have asked the Urban Search and 
Rescue (US&R) Task Forces that deployed to the World Trade Center to 
notify us of any medical problems/illnesses resulting from or related 
to their deployment. We have encouraged them to use the Workman's 
Compensation Program as applicable and complete and provide us with 
copies of the Federal Employee's Notice of Traumatic Injury and Claims 
for Continuation of Pay/Compensation Form (Form CA-1).
    A Centers for Disease Control doctor took voluntary blood samples 
from members of the California-8 and Florida-1 US&R Task Forces to 
study long-term effects and will provide FEMA the results of that 
study. In addition, another doctor who is a member of Indiana Task 
Force-1, created a database of medical problems he was seeing while in 
New York at the Jacob Javits Center. Also, the Ohio Task Force 
developed a survey for their members to capture any illnesses that they 
may have and provided the survey to the other Task Forces.
    Personal Protective Equipment (PPE) requirements are incident 
specific and the US&R Task Forces and Incident Support Teams (IST) are 
trained on evaluation and detection to determine the level of 
appropriate gear. PPE requirements for this incident were briefed to 
the Task Forces and IST during deployment. The standard equipment was 
P-100 APR's (respirators) and an ample stock was maintained at the 
Jacob Javits Center for IST and Task Force members to use.
    FEMA will continue to encourage the 28 US&R Task Forces to monitor 
their World Trade Center deployed personnel for any medical issues and 
to use the Workman's Compensation Program.
    In another critical health area, we provided support to address the 
long-term mental health of responders and others who may have been 
affected by this tragedy. We coordinated and facilitated the actions 
necessary for the National Association of Fallen Firefighters to work 
directly with the Fire Department of New York (FDNY) in providing 
immediate and long-term crisis and grief counseling to fire fighters 
and their families. We also funded Project Liberty, a long-term mental 
health disaster recovery program administered by the New York State 
Office of Mental Health. To date almost $23 million has been approved 
for this program.
      assistance for clean up to ensure safe reentry of buildings
    As you know, because of the amount of dust and debris that resulted 
from the building collapses, clean up of residences and the surrounding 
area has been a major priority. We provided housing assistance grants 
to be used for clean up of residences. In addition, the New York State-
administered Individual and Family Grant program provided grants for 
items such as High Efficiency Particulate Air (HEPA) vacuum cleaners, 
air filters, and other eligible items to help residents with reentry 
into their homes. In many cases landlords and/or insurance companies 
funded clean up. I should also mention that voluntary agencies were 
very active and helped with clean up for Special Needs residents.
    We also supported the New York City Department of Health through 
their Community Teams and our own Outreach Teams in distributing to 
residents flyers containing recommendations on actions needed in order 
to be able to re-occupy buildings and homes. This flyer addressed clean 
up and safety and health concerns and was developed to facilitate 
individuals moving back into their homes.
    The Small Business Administration (SBA) was on site September 12 
and opened their first office to serve the public on September 14. 
Through SBA, low interest loans are available to homeowners, 
businesses, renters and non-profit organizations to repair or replace 
damaged property. Additionally for businesses Economic Injury Disaster 
Loans (EIDL) were available to pay necessary obligations until business 
operations returned to normal. SBA assistance for physical loss has 
provided home loans for 306 individuals totaling nearly $4.7 million 
and 428 business loans totaling over $26 million. Eligible government 
clean-up costs and monitoring activities are being funded 100 percent 
through FEMA's Public Assistance program. For example, the New York 
City Board of Education's clean up of schools near Ground Zero is an 
eligible expense as is the clean up of city vehicles such as fire 
trucks and police cars.
                            lessons learned
    We learn from every disaster experience and incorporate these 
lessons learned wherever possible into our planning and processes to 
improve the next disaster response. The World Trade Center and Pentagon 
disaster responses are no different. We have learned from both. We 
recognize the need to have alternate operating facilities and flexible 
response and operations plans that provide for actions such as 
establishing a Fire Support Branch, an External Logistics Team and 
robust and redundant communications networks. I should add, however, 
that the Federal response to the World Trade Center attack clearly 
reinforced the soundness of the Stafford Act and once again validated 
the effectiveness of the Federal Response Plan and current FEMA 
policies and procedures for responding to a disaster event.
                        authority and resources
    All of FEMA's work, the response and rescue efforts, the recovery 
programs, and plans to prevent future events, have been created out of 
the authority the Environment and Public Works Committee has provided 
through the Stafford Act. This legislation has served us well and has 
provided the necessary authority and flexibility to empower us to do 
our best. You can be proud of your work and its results. All of us at 
FEMA thank you for your leadership. We believe current enabling 
legislation and resources are sufficient for FEMA to respond 
appropriately.
    There is no doubt that the disaster response and recovery in New 
York City will be a long-term process, but the President has said that 
we will provide whatever assistance is needed to get the job done. I 
can assure you that FEMA will be there as long as needed.
    Thank you Mr. Chairman, I would be pleased to answer any questions 
you may have.
                                 ______
                                 
       Response by Marianne Jackson to Additional Question from 
                           Senator Lieberman
    Question. Like so many other Federal employees, the members of the 
FEMA Massachusetts Task Force 1 have private health insurance which 
does not provide health care screening after deployment in potentially 
hazardous conditions such as the World Trade Center complex. Some 
members have already reported health problems. General concern has been 
expressed as to the long-term health effects of ``Ground Zero'' 
exposure. In order to provide both adequate care and answers to such 
long-term effects, what is FEMA doing to screen and monitor these 
members who were deployed to WTC? Is what we are doing sufficient? If 
not, and since time may be critical, what can be done to expedite a 
solution?
    Response. As we watched the images of fire and smoke on September 
11th and the days that followed, we immediately recognized that there 
was a potential risk to the health and well being of the rescue workers 
and we moved quickly to assign the mission for air monitoring to the 
U.S. Environmental Protection Agency through the Federal Response Plan. 
As the disaster response unfolded, FEMA Urban Search and Rescue (US&R) 
personnel worked closely with local incident management officials and 
supporting Federal agencies to determine and provide appropriate levels 
of personal protective equipment based on the best available 
information. In addition, FEMA met with Department of Labor 
representatives to identify and coordinate requirements and procedures 
for processing any US&R workers compensation claims arising from the 
WTC and Pentagon responses.
    As US&R Task Forces returned home, higher than expected illnesses 
were reported by some of the Task Forces. FEMA encouraged Task Force 
personnel to file Federal worker compensation claims and contact FEMA's 
Worker's Compensation Agent, LIFECARE, to receive information on how to 
seek treatment if they suspected their illness was related to the 
response, and to also provide a record of those individuals who took 
part in the response and the dates of their mission deployment. FEMA 
has surveyed all participating Task Forces to develop data on which 
members worked these disasters and the amount of time they worked in 
the impact areas. This information is still being received from the 
Task Forces and compiled.
    In February and March, FEMA hosted a series of meetings involving 
the Department of Health and Human Services, the Environmental 
Protection Agency, the Occupational Safety and Health Administration, 
the National Institutes of Health, and the Agency for Toxic Substances 
and Disease Registry to discuss possible approaches for properly 
addressing the long-term health effects of the September 11th attack on 
the responders and others. Participants in the meeting were tasked with 
developing recommendations for action. A number of strategies were 
proposed the week of March 11th and are under an expedited review. FEMA 
continues to monitor US&R responder health issues and support 
processing of all workers compensation claims received from the Task 
Forces.
                                 ______
                                 
      Responses by Marianne Jackson to Additional Questions from 
                            Senator Clinton
    Question 1. What assistance has been provided to the schools and to 
local tenants (commercial and residential) through FEMA for cleanup of 
indoor air and dust?
    Response. The following assistance has been provided for cleanup of 
indoor air and dust:
                       cleanup at public schools
    FEMA has provided funding, or is currently developing estimates for 
funding, in all cases where the New York City Board of Education has 
requested clean up of dust at public school buildings owned by the 
Board. This funding, estimated at $4.7 million, covers cleanup of 
contents and equipment, cleanup of interiors and exteriors, testing for 
hazardous materials, and abatement of those materials if discovered.
                       air monitoring at schools
    FEMA is providing funds to the New York City Department of 
Environmental Protection (DEP) for rooftop air monitoring at city 
schools. Immediately after the collapse of the World Trade Center 
Towers, DEP began conducting monitoring for asbestos, acid gases, 
metals, and volatile organic contaminants at schools in each of the 
five boroughs; DEP discontinued this activity after one month, 
incurring costs of approximately $730,000. DEP continues to monitor for 
asbestos at four schools immediately adjacent to the World Trade Center 
site. FEMA is considering funding this activity through completion of 
debris removal operations; the cost is estimated at $240,000.
    The New York City Board of Education has requested assistance with 
interior air monitoring at six schools in the vicinity of the World 
Trade Center site. The estimated cost of this monitoring is $3 million. 
FEMA has agreed to fund testing for the period prior to occupancy of 
the buildings (estimated costs of $1.5 million), but has not yet 
determined the eligibility of on-going air monitoring inside the 
buildings after the students have reoccupied them. This determination 
is based on the assumption that students would not be allowed in the 
buildings if a potential health hazard existed.
            cleanup of new york university (nyu) facilities
    FEMA has not yet provided funding for the cleanup of the New York 
City public school buildings at 90 and 100 Trinity Place. The Board of 
Education spent approximately $2.5 million to clean the interior, 
exterior, and ductwork of these buildings, as an emergency health and 
safety measure. However, the Board of Education leases these buildings 
from NYU, which is responsible for such work. FEMA can provide funding 
for such work only to NYU as the entity with legal responsibility for 
these facilities.
            cleanup of residences and commercial businesses
    FEMA, in cooperation with the New York State-administered 
Individual and Family Grant Program, is providing eligible occupants 
with high-efficiency air filters that trap minute particulate matter. 
Others have received funds for general clean up and smoke abatement. 
The Small Business Administration Disaster Loan Program assists 
commercial businesses.

    Question 2. What were the greatest challenges that FEMA faced in 
its response to the September 11th attack on the World Trade Center?
    Response. Among the major challenges facing FEMA in response to the 
attacks of September 11th were obtaining operational information, 
communications inter-operability, and flight restrictions.
    From an operational standpoint, trying to gather information about 
the incident, what happened, what assistance was needed, along with the 
requirement to gather information about what else might be occurring 
presented a challenge. The attack, which directly affected the New York 
City Office of Emergency Management and the Fire Department of New 
York, impacted the flow of information. The attacks essentially created 
4 major incidents that we had to respond to that developed in rapid 
succession, with the very real possibility that additional attacks were 
likely. As a result, it was necessary that we moderate our initial 
response until we had a better understanding of the big picture. Once 
we had a better handle on the situation, we were then able to deploy 
additional resources to New York City and the Pentagon.
    From a communications standpoint, communications interoperability 
issues impacted our capability to collect and exchange information. The 
inability to have common communications capability at the initial 
stages of the response slowed our ability to gather information, and to 
coordinate the Federal response. Cell phone saturation created another 
major communications challenge. This event clearly pointed out the high 
level of dependence of Federal, State and local responders on cell 
phones for communications and the vulnerabilities that can be 
associated with this mode of communication.
    The decision to impose flight restrictions certainly was a good 
one, and undoubtedly saved a great number of lives, but it limited our 
ability to deploy and move resources and emergency teams. Because our 
contingency planning had never anticipated that a flight restriction 
would be put into effect, we had not planned on how to move emergency 
teams from all parts of the country without air transport. While the 
flight restrictions did delay some of the initial responses, we were 
able to work around the problem and move teams by ground transport. 
Since September 11th, we have worked with U.S. Department of 
Transportation to develop alternative movement plans and established 
plans for flight restriction waivers and priority air shipments.

    Question 3. It appears that there have been more applications to 
FEMA for human assistance in conjunction with the September 11th attack 
on the World Trade Center deemed ineligible or denied by FEMA than have 
been reimbursed. Please confirm and explain why this is the case? How 
does the ineligibility/denial rate compare with other disasters?
    Response. Traditionally, FEMA's Mortgage and Rental Assistance 
Program averages a 20 percent to 30 percent eligibility rate. The 
current rate for New York is 28 percent. Several factors contribute to 
this low rate. Two of the more prominent criteria for program 
eligibility are that the applicant must have suffered a loss of 
household income totaling 25 percent or greater and that the applicant 
have delinquent mortgage or rental payments as a result of the 
disaster. Of the applicants determined ineligible, 64 percent did not 
meet the criteria in these two categories. That is, household income 
was not affected to any substantial degree and/or the applicant was not 
delinquent on a housing payment.
    It should be noted that these determinations are made based on the 
initial application. If circumstances change, applicants can re-
establish their eligibility.

    Question 4. What resources can FEMA provide to conduct long-term 
health monitoring of first responders, other rescue and response 
workers, as well as workers, residents, and school children in Lower 
Manhattan?
    Response. FEMA will provide the following resources:
                            first responders
    FEMA has provided funds to the U.S. Department of Health and Human 
Services, Public Health Service, to conduct baseline testing of first 
responders. The funding, $9 million, was used to take blood samples 
from 11,000 fire fighters and 4,000 New York State employees. This work 
is now complete.
                            civilian workers
    The New York City Office of Labor Relations has indicated that they 
may request FEMA funding for first-phase medical monitoring of civilian 
workers at the World Trade Center site. The city estimates the cost for 
providing this testing to 2,000 workers to be $140,000. At this time, 
the city has not provided sufficient information on the proposed 
request for FEMA to evaluate the eligibility of this activity. If FEMA 
determines that the testing is necessary to respond to an immediate 
threat to health--as with the testing done for first responders--the 
cost of the testing would be eligible.

    Question 5. What is the estimated budget and expected time frame 
for completion of cleanup?
    Response. The estimated budget and timeframe for completion is as 
follows:
                   assistance to the city of new york
    The current cost estimate for removal of debris at the World Trade 
Center site is $1.325 billion. This estimate includes:
    <bullet> $750 million for work at the site by the City of New York 
and its contractors.
    <bullet> $575 million for disposal of debris at the Fresh Kills 
landfill, including barging contracts.
    This estimate does not reflect funds that may be recouped through 
the sale of recycled steel; however, that amount is expected to be 
relatively small. The City of New York expects to complete work at the 
site by May 30, 2002.
                       direct federal assistance
    FEMA is providing funds to the U.S. Environmental Protection Agency 
for the following activities related to debris removal operations:
    <bullet> Assessment of hazardous substances and oil releases--$13 
million (complete)
    <bullet> Development and implementation of decontamination plan--
$15 million (complete)
    <bullet> Set-up of hygiene station at the site--$4 million 
(complete)
    <bullet> Operation of wash stations at the site and landfill--$24.5 
million (until March 31)
    <bullet> Hazardous materials advisory activities--$1.5 million 
(until March 31)
    <bullet> Air monitoring at the site and landfill and in Lower 
Manhattan, the four other boroughs, and New Jersey--$25.7 million 
(through September 30)
    FEMA is also providing funds (approximately $1 million) to the U.S. 
Army Corps of Engineers for technical support at the landfill. The 
total amount of Direct Federal Assistance is $84.7 million.

    Question 6. There are reportedly many building roofs and terraces 
in and around Ground Zero that have not been cleaned since September 
11th. Will FEMA provide assistance in this regard?
    Response. Yes, FEMA will provide the following assistance:
                            public buildings
    FEMA has provided funding, or is developing estimates for funding, 
for cleanup of dust at facilities owned by public entities throughout 
Lower Manhattan. This funding covers cleanup of contents and equipment, 
cleanup of building interiors and exteriors, testing for hazardous 
materials, and abatement of those materials if discovered.
                           private buildings
    The New York City Department of Environmental Protection (DEP) has 
requested assistance with inspection and cleanup of buildings within 
the area of Lower Manhattan bounded by the Chambers Street, Battery 
Place, Pearl Street, and the Hudson River. DEP estimates that, of the 
approximately 500 private buildings located within this area, 250 
buildings will require cleaning of facades, roofs, and terraces. The 
U.S. Environmental Protection Agency has provided FEMA with a 
determination that a possible health threat exists due to the presence 
of this dust. Consequently, FEMA has agreed to assist DEP with the 
cleanup of exteriors of these buildings as an emergency measure.
    The cleanup, currently estimated at approximately $10.5 million, 
will include testing for asbestos-containing materials and any 
abatement measures necessary if such materials are discovered. FEMA 
will fund a one-time cleanup of the buildings, as well as any overtime 
costs DEP incurs for contract management and inspection. DEP is 
responsible for ensuring that building owners are aware of the effort, 
identifying those structures that require cleanup, and securing right-
of-entry and indemnification for work on these buildings. Additionally, 
the city is responsible for ensuring that there is no duplication of 
benefits with insurance proceeds. FEMA will not provide funding for a 
series of cleanup efforts for these structures, nor for long-term 
monitoring activities.
                              city streets
    Immediately after the collapse of the towers, DEP began testing 
surfaces to identify and isolate asbestos-contaminated areas. The 
results showed that many surfaces, including streets, sidewalks, 
buildings, vehicles, and playgrounds, were contaminated with hazardous 
levels of asbestos. DEP closed streets and businesses in contaminated 
areas and conducted round-the-clock asbestos cleaning and removal. The 
estimated cost of this activity, which is eligible for Federal 
assistance, is $114,000.

    Question 7. What resources can FEMA make available for tenant 
groups and individual residents to hire professional environmental 
cleaning firms to remediate their homes? What assistance has FEMA 
provided in this regard to date?
    Response. Under the Stafford Act, FEMA is charged with providing 
temporary housing while individuals work on their permanent housing 
solutions. Temporary housing is provided as a grant of up to $10,000 to 
make emergency repairs to a home to make it livable, including any 
applicable clean up. If the home cannot be made livable quickly for 
this amount, FEMA provides funds to rent alternative accommodations for 
up to 18 months while the individual completes permanent repairs.
                               __________
    Statement of Carl Johnson, Deputy Commissioner, New York State 
                Department of Environmental Conservation
    Thank you for providing the New York State Department of 
Environmental Conservation (NYSDEC) with the opportunity to testify 
about our efforts to assist the residents and businesses of Lower 
Manhattan to recover from the devastation caused by the destruction of 
the World Trade Center Complex. We share, with Governor Pataki and our 
sister agencies, the highest level of commitment to managing the 
cleanup, and we appreciate the excellent coordination among all levels 
of government involved in this effort.
    As with other New York agencies that have never reacted to a 
disaster of this magnitude, in many respects NYSDEC's efforts at the 
World Trade Center are unprecedented. Although these efforts spanned 
many environmental media and critical issues, I will focus my testimony 
today on the air quality issues noted in the subcommittee's letter of 
invitation to Governor Pataki.
                 air quality monitoring and assessment
    As soon as possible after the attacks on the World Trade Center, 
NYSDEC began to work with other State, Federal and local environmental 
and health agencies to monitor and assess the environmental impacts 
from the devastation. We established a multi-jurisdictional air-
monitoring group to coordinate this effort, which initially focused on 
worker safety during the rescue efforts. Safeguards were put in place 
to prevent excessive exposure to contaminants released by the 
destruction of these buildings, and these safeguards remain in effect 
today.
    Next, along with our sister agencies, we began the process of 
identifying specific monitoring needs and then put in place the process 
of collecting that information. NYSDEC, along with USEPA, OSHA, the 
State Department of Health, and the city of New York, continue this 
aggressive air monitoring effort. All of the data is posted on the EPA 
website as it becomes available. NYSDEC collects data specifically on 
asbestos, PM<INF>2.5</INF>, PM<INF>10</INF> and dioxin.
Asbestos
    Asbestos was used in the early stages of construction on Tower One, 
and as a result, asbestos levels have been detected occasionally in the 
samples we have collected. There are 18 monitoring locations in Lower 
Manhattan at which asbestos samples are collected. NYSDEC is 
responsible for seven of these sites, primarily located outside the 
exclusionary zone, in conjunction with USEPA. We operate the equipment 
and change the filters on a daily basis. Once our staff remove a 
filter, we forward it to USEPA for analysis. This data, like other 
asbestos data, is then uploaded to the USEPA website to ensure that the 
public has access to this information as quickly as possible.
    In determining, together with our sister agencies, a standard to be 
used in monitoring asbestos levels, we decided on the asbestos standard 
most protective of public health--the Asbestos Hazard and Emergency 
Response Act (AHERA) standard of 70 structures per millimeter squared. 
This standard, which USEPA established, is used primarily for indoor 
air purposes and in schools to determine when it is safe for activities 
to resume in a school building once it has been cleaned of asbestos. 
Applied to outdoor air, this is a very conservative standard of 
comparison.
    Our multi-agency agreement to use the AHERA standard ensures that 
there is a consistent approach used in analyzing the asbestos results. 
These results must be obtained using Transmission Electron Microscopy 
(TEM)--a method required to analyze for asbestos because it identifies 
individual asbestos fibers and does not confuse asbestos fibers with 
fiberglass or other fibers.
    To date, more than 5,500 asbestos samples have been taken in Lower 
Manhattan, with only 31 of the total samples above the TEM AHERA level. 
Of those 31 samples, 27 were collected prior to October 9. The 
remaining four were reported after that date. All of the levels above 
the standard were observed in or very near to the exclusionary zone 
around Ground Zero.
    Thousands of asbestos samples have been taken at the Staten Island 
Landfill to which debris is taken, with only 40 of the samples above 
the TEM AHERA level. All of the levels above the standard were observed 
within the exclusionary zone at the Landfill.
    While we continue to monitor for asbestos, it is clear from the 
findings that the asbestos levels detected in the ambient air have not 
generally been above what is considered a safe indoor air standard--one 
that is protective of the children in our schools.
    NYSDEC also collects data from nine sites located in all five 
boroughs of New York City. To date, this data does not indicate that 
the TEM AHERA standard has been exceeded.
    I would like to bring to your attention the results of the 
residential monitoring study performed jointly by the New York City 
Department of Health (NYCDOH) and ATSDR. In this effort, indoor dust 
and air in buildings around the World Trade Center in Lower Manhattan 
were sampled. The results of the study are only now becoming available, 
and appear to indicate that asbestos levels in indoor air are below 
USEPA standards. In some locations, asbestos was found in settled dust.
Particulate Matter
    NYSDEC uses two types of sampling techniques to monitor for small 
particles in the air, also known as particulates. At present, we are 
sampling for both PM<INF>2.5</INF> (fine particulates) and 
PM<INF>10</INF> (both fine and coarse particulates) levels in Lower 
Manhattan. We have selected five new monitoring sites in Lower 
Manhattan--the Coast Guard Station in southern Manhattan, Park Row 
(near City Hall), the Borough of Manhattan Community College, Albany 
Street at West Street and Wall Street at Broad Street. Equipment at 
these sites is a combination of both continuous air quality monitoring 
devices and filter based air quality monitoring devices. The continuous 
air quality devices provide information on the levels of 
PM<INF>2.5</INF> 24 hours a day, 7 days a week. This data is reported 
automatically to two websites, one operated by the NYSDEC and the other 
operated by USEPA. Both are available to the public.
    To date, the particulate levels in Lower Manhattan, as well as 
throughout the rest of the city, have not demonstrated significant 
increases. In fact, readings have been consistent with levels recorded 
prior to the attacks on the World Trade Center. At no time has there 
been a level of particulates monitored that exceeded the National 
Ambient Air Quality Standards for a 24-hour period for either 
PM<INF>2.5</INF> (65 micrograms per cubic meter) or PM<INF>10</INF> 
(150 micrograms per cubic meter). In fact, on only one day since the 
attacks occurred has there been a daily average recorded at any monitor 
throughout New York City that exceeded the 40 micrograms per cubic 
meter level that USEPA uses as a guideline for concern for sensitive 
individuals. Also located at our new monitoring sites are monitors to 
collect PM<INF>10</INF> data. There has been no exceedance of this 
standard.
    There has been some discussion about occasional spikes in the 
particulate levels which could present public health concerns. These 
short-term increases in particulate matter have been infrequent, and 
were present previous to the World Trade Center collapse.
Dioxin
    Finally, the Department has been involved in the field work for 
dioxin monitoring. The Department maintains three sites and collects 
samples for dioxin analysis by USEPA. As in the case of asbestos and 
particulate levels, dioxins have been detected in some of the samples. 
However, the presence of dioxin is also consistent with the nature of a 
disaster such as this one, where fires continued burning for an 
extended period of time. While the early results were above USEPA's 30-
year public health exposure guideline, since the fires were 
extinguished these levels are decreasing. Similar decreasing 
concentration trends have been observed for lead and PCB measurements.
Odors
    The presence of odors in Lower Manhattan and concerns about eye, 
throat, nose and respiratory irritation are a cause of concern to those 
who live and work in this area. Odors, which can result from fires such 
as those that burned after the World Trade Center's destruction, have 
abated substantially. Short-term exposures to contaminants near the 
immediate area of the World Trade Center may have contributed to the 
irritation which some residents reported.
    We monitor air quality for specific parameters and measure the 
results against standards that have been set as the result of lengthy 
public processes. Outside of the immediate area of the World Trade 
Center, we have not seen a significant cause for concern through our 
air quality monitoring. At the site, DEC and other agencies have 
consistently and strongly recommended that workers use appropriate 
safety equipment to minimize their exposure to these irritants. NYSDEC 
will continue its air monitoring activities and expand them as needed 
in consultation with the city and Federal agencies. We will maintain 
these activities until this effort is completed.
                       transportation conformity
    I would like to raise to you a critical priority for the State of 
New York, along with the city of New York and neighboring counties. In 
nonattainment areas, the Clean Air Act Amendments of 1990 wisely 
requires State Implementation Plans for air quality and transportation 
plans, programs and projects to conform--so that the transportation 
projects which are put in place help congested areas, such as 
Southeastern New York, to attain National Ambient Air Quality 
Standards.
    In the 10-county region which includes New York City, Long Island, 
and the lower Hudson Valley, the New York Metropolitan Transportation 
Council (NYMTC) is the Metropolitan Planning Organization (MPO) 
responsible for implementing this program. NYSDEC, the State Department 
of Transportation, USEPA and Federal transportation agencies oversee 
this process. NYMTC's state-of-the-art computerized simulation models, 
and its efforts to implement the conformity requirements of Federal 
law, are among the best in the Nation.
    Among the many tragedies of September 11th, NYMTC lost three of its 
staff; its office space; and its computer hardware, models, and data 
bases in the terrorist attacks. While the Clean Air Act contemplated 
many circumstances under which natural disasters could affect a 
transportation network, it never contemplated an act of terrorism that 
would destroy an MPO's offices and much of its institutional knowledge. 
On one single day, over 100,000 jobs relocated from Lower Manhattan, 
and other jobs have been lost since then, making much of the previously 
used data obsolete.
    NYMTC, along with other public and private businesses that had been 
housed in the World Trade Center, is struggling now to recover from 
this devastating loss. Along with moving to temporary offices in Long 
Island City, NYMTC is working to reestablish its models, and to develop 
data bases on the vastly different commuting patterns that now affect 
the transportation networks and air quality of New York City and 
surrounding counties. As it does so, we recognize the serious problem 
that the New York Metropolitan Area cannot proceed with major new 
transportation projects--even those needed to replace the networks 
damaged or destroyed on September 11th--without a limited and temporary 
waiver from the Clean Air Act's conformity requirements. Governor 
Pataki, along with transportation organizations, businesses, and 
commuters in this region, are greatly concerned about the need for this 
waiver, and I urge your strong support for it.
    Already, we are working with staff from the Senate Environment and 
Public Works Committee, along with House Committee staff, on this 
problem. On behalf of Governor Pataki, I want to thank Senator Clinton 
and the committee staff for their sympathy and interest in the State's 
waiver request. As they have noted, environmental concerns with the 
waiver need to be considered as part of this process. We agree with 
this concern, and have met several times with environmental 
organizations to discuss the proposed waiver; how the State intends to 
oversee its implementation; and how we will ensure the maintenance of 
air quality during the period covered by the waiver. Our task is made 
easier by Governor Pataki's strong and well-demonstrated commitment to 
measures that protect and improve New York's air quality. We believe 
that the citizens and workers of the New York Metropolitan Area can 
rest assured that every effort will be made to continue to improve New 
York City's air quality while we work to recover from the devastation 
of September 11th.
                         diesel truck emissions
    I also would like to raise the issue of idling trucks related to 
the cleanup. State regulation provides that no truck shall idle for 
more than 5 minutes, except in situations where the truck is to stand 
for more than 2 hours at a temperature below 25 degrees Fahrenheit. 
NYSDEC environmental conservation officers enforce this regulation, and 
encourage the reporting of idling complaints to the Department's 
Regional Office. In addition, the city of New York has an even more 
stringent requirement that allows only 3 minutes of idling, which city 
officers are able to enforce.
                               conclusion
    I want to reiterate Governor Pataki's appreciation to the 
subcommittee for providing us with the opportunity to relate to you the 
actions that the State has taken and will continue to take since the 
morning of September 11th to respond to and clean up the devastation 
caused by the destruction of the World Trade Center Complex. For the 
number of staff hours that have gone into our efforts to date, the 
information that I have provided to you today is indeed brief. I hope, 
though, that it provides you with a sense of the commitment we feel to 
ensuring that public health and environmental quality are safeguarded 
throughout the activities we are undertaking to clean up this site.
    I want to remind you, as well, that the State's commitment to Lower 
Manhattan will not end when all of the debris is removed from the site. 
We will continue to monitor air quality in this region, and we look 
forward to developing--along with the city of New York, the New York 
State Legislature, other State and Federal agencies and the citizens of 
Manhattan--environmentally sound plans for the future of this 
devastated area.
    Thank you again for allowing me to testify before you today.
                                 ______
                                 
 Responses by Carl Johnson to Additional Questions from Senator Clinton
    Question 1. Please provide further information on the State's 
efforts to reduce diesel emissions at the site.
    Response. Late last year, the New York State Department of 
Environmental Conservation (Department) asked the Northeast States for 
Coordinated Air Use Management (NESCAUM) to convene appropriate State, 
local and Federal representatives to discuss efforts that could be 
undertaken to reduce diesel emissions from the ongoing recovery efforts 
at the World Trade Center site. The NESCAUM discussions also began tile 
development of diesel emission control practices for use during the 
reconstruction phase that is scheduled to begin this year.
    Given the nature of the cleanup, the Department recognized quickly 
that the only option for reducing diesel emissions during the recovery 
phase would be to require trucks and diesel equipment operating at the 
site to use ultra-low-sulfur diesel fuel (ULSD). During recovery, our 
options are limited to the use of low-sulfur diesel because of the lead 
time required to construct and install retrofit equipment on diesel 
engines. The retrofit equipment would not be available for diesel 
engines and trucks prior to the completion of the recovery effort at 
the site.
    Since the initial meeting, the NESCAUM group has been working to 
make the switch to low-sulfur diesel at the World Trade Center site. 
The fuel is available and could be provided to the site for a small 
difference in price. We are working with Mayor Bloomberg's office to 
recruit various construction companies currently under contract at the 
site to make this switch.
    We also are working with FEMA to ensure that the city of New York 
is reimbursed for the use of the low sulfur diesel during the recovery 
phase.

    Question 2. There have been reports that some of the trucks 
transporting debris from the site are uncovered and not fully wetted 
down. Who is responsible for monitoring this operation? What further 
actions can be taken to ensure that this operation is conducted in a 
manner that is as clean as possible?
    Response. During the course of the debris removal operation, the 
Department's law enforcement personnel have monitored truck tarping and 
decontamination activities. Our law enforcement staff have been 
instrumental in ensuring that dust control measures are in place and 
are being used. Any questions about dust control measures have been 
addressed immediately.
    Shortly after the September 11th attack, measures were put in place 
to reduce the environmental impacts of the recovery and removal 
operation. These activities included the use of wash-down stations to 
decontaminate trucks and wetting down their loads to control dust. 
Continuously, roadways around Ground Zero have been wetted down to 
reduce dust. Using two piers which are nearer to Ground Zero than other 
transport points to the Staten Island Landfill, Pier 6 and Pier 25, 
also helped reduce the environmental impacts of the removal of debris. 
The shorter transport distances reduce truck emissions and the chance 
for dust to come off the loads.

    Question 3. Why are the debris barges not being required to be 
covered in some fashion?
    Response. Barges transported from the Marine Transfer Stations at 
59th Street and Hamilton Avenue were covered by the netting systems 
that historically were used at these transfer stations to cover 
residential solid waste. Barges coming from Pier 25 and Pier 6 did not 
have these netting systems, and the size of the barges makes it 
difficult to cover them.
    Other actions have been taken to control dust, and to protect 
against the loss of materials recovered from the World Trade Center 
site. The debris is wetted down to control dust, and the barges are not 
filled completely. Freeboard (essentially empty space at the top of the 
barge) is maintained from the top of the barge down to the top of the 
debris as an effective way to keep recovered debris from blowing. The 
relatively slow speed of the barges also reduces the possibility for 
debris to be blown away in transit. The transport route of the barges 
is well separated from the general public to minimize their potential 
exposure.

    Question 4. What actions will be taken during the rebuilding 
process to reduce as much as possible the noise, dust, diesel exhaust, 
and other forms of pollution at the site?
    Response. As part of our discussions with NESCAUM and other State, 
local and Federal entities, we are looking at the long-term issues 
associated with emissions from the rebuilding activities that will 
begin later this year at the World Trade Center site. It is our intent 
to require the use of ULSD in all diesel equipment associated with the 
reconstruction efforts at the site. The fuel is available in the New 
York Metropolitan Area and can be readily supplied once a contractor 
selected for the reconstruction activities requests it.
    With respect to retrofitting diesel engines, the Department will 
continue to work with New York City and contractors to maximize the use 
of diesel retrofit control technologies during reconstruction 
activities. We are seeking to identify a contractor that can pilot the 
use of both low-sulfur diesel and retrofit technologies. Through this 
pilot, we will establish a basis to demonstrate to the contractors 
involved in the reconstruction efforts that the diesel control program 
will not affect equipment operation and will not affect productivity. 
These are proven diesel emission reduction technologies, and the pilot 
project is meant to demonstrate that it is logistically possible to 
incorporate these strategies into the rebuilding efforts.
    With respect to dust from the site, the City of New York should 
require the continuation of the dust control practices that are 
currently in place at the World Trade Center as part of the recovery 
effort.
 Statement of Thomas R. Frieden, M.D., M.P.H., Commissioner, New York 
 City Department of Health and Joel A. Miele, Sr., P.E., Commissioner, 
          New York City Department of Environmental Protection
    Good morning. I am Dr. Thomas Frieden, Commissioner of Health for 
New York City. With me today is Commissioner Joel Miele of the New York 
City Department of Environmental Protection. We appreciate having the 
opportunity to be here today. I am very pleased that the committee is 
holding these hearings. This is a complex and highly technical subject, 
and we would like to take this opportunity to explain how the situation 
is being monitored and let you know our views on the implications of 
these findings.
    As I have reviewed the record of activities of DOH and other 
agencies since the first day of the disaster, one of the most vivid 
pictures to emerge, and one that I find quite extraordinary, is the 
tremendous cooperation and coordination among Federal, State and local 
environmental, occupational and health agencies. The degree of teamwork 
among more than a dozen agencies is probably unprecedented. For the 
first several weeks after September 11th, health and environmental 
agencies met daily to discuss environmental health issues. These 
meetings and conference calls continued three times a week through the 
end of 2001. Weekly conference calls continue.
                      i. department of health role
    Following the attack on the World Trade Center, the New York City 
Health Department had a multifaceted role in overseeing and 
coordinating many health-related issues. Immediately after the attacks, 
the Health Department established surveillance systems to (1) monitor 
emergency departments in the immediate area to assess acute injuries 
among victims, (2) assess hospital staffing and equipment needs 
citywide, (3) monitor illness and injuries among rescue workers at the 
World Trade Center site, and (4) detect unusual disease syndromes that 
might represent a bioterrorist event at emergency rooms throughout the 
city.
    Other responsibilities included monitoring water and food safety in 
the immediate area, conducting rodent and vector control, initiating a 
worker safety program, and providing regular advisories to the public 
and the medical community regarding issues of public health concern 
related to the attack. The Department also facilitated development and 
coordination of environmental sampling plans and results.
    Many individuals were exposed to large amounts of smoke, dust, and 
airborne substances during and after the initial collapse of the World 
Trade Center buildings. The potential release of contaminants, 
including asbestos, particulate matter, volatile organic compounds, 
dioxins, PCBs, metals and other substances during and after the 
explosion was a primary public health concern from the very beginning, 
and air monitoring was established immediately, and continued over 
time. The Health Department closely reviewed, and continues to review, 
the numerous air quality, debris sample results and personal air 
monitoring tests being conducted by various agencies. The data from air 
quality tests thus far have been, in general, reassuring. None of the 
testing done to date has shown results that would indicate long-term 
health impacts.
    The numerous substances of potential concern have led to some 
confusion about health effects over the short and long term. Some 
substances, such as the particulate matter from the dust or the smoke 
in the air, can be irritating but are not expected to have long-term 
effects. Other substances, such as asbestos, are not expected to have 
short-term effects, but if elevated over long periods of time can have 
serious health effects. Asbestos was one of the substances of greatest 
concern since it was a known building component in the World Trade 
Center. However, except for a few transient spikes found in air 
sampling during the initial weeks, the asbestos levels have been within 
standards.
    An indoor study conducted by Department of Health and the Federal 
Agency for Toxic Substances and Disease Registry (ATSDR) of both air 
and dust samples taken in November and December of 2001 at 30 
residential buildings in Lower Manhattan showed no elevated levels of 
asbestos in the air. Dust sample tests showed low levels of asbestos in 
some samples and the presence of fiberglass in some other dust samples. 
Asbestos and fiberglass can be a problem if they become airborne. 
Airborne fiberglass can cause cough and skin, throat and eye 
irritation. While there are no known long-term effects of fiberglass, 
it is classified as a possible carcinogen. While these findings are not 
unexpected, they underscore the importance of properly cleaning 
surfaces to minimize exposure. DOH has issued advisories to building 
owners and residents about appropriate cleaning methods. DOH has issued 
advisories for residents about appropriate cleaning methods.
    The standards used are very conservative. For example, for 
asbestos, we are using the indoor air quality standard for reentry into 
a school after asbestos removal. This stringent standard is being 
applied to outdoor air quality in the residential areas. Stringent 
standards are also being used for other substances, such as dioxins, 
identified at the perimeter of the site. It is both duration of 
exposure and concentration of the substance that are important to 
determine health effects. Many of the standards were based on exposures 
for prolonged periods of time. This is a key point. Some substances may 
cause short-term effects; others have the potential to cause long-term 
impact. In some instances, the health effects of exposures are not 
known. Standards for other substances have been designed to include 
many safety factors so that acceptable levels of exposure are far below 
the levels at which health effects are expected to occur.
    Many residents living and working in the community have reported 
short-term health effects, such as acute breathing problems; worsening 
of existing respiratory disease such as asthma; eye, nose, and throat 
irritation; nausea, and headaches. Many residents also continue to 
experience emotional and stress-related illness and anxiety.
    Students of Stuyvesant High School, who returned to their school on 
October 9, 2001, reported similar complaints. DOH performed an analysis 
of these complaints, which shows that the average daily rate of 
headaches, respiratory, skin, eye, throat, and injury complaints of 
Stuyvesant was higher in October and November of 2001 than in the 
previous year, and higher than four other NYC public high schools. The 
data also shows that complaints decreased from October to November 
2001.
    DOH has also been working with the U.S. Centers for Disease Control 
and Prevention to develop a protocol for a World Trade Center Registry, 
which, if funded, would generate and maintain a database that can be 
used as a basis for conducting studies that can provide a more complete 
picture of short- and long-term health and mental health impacts among 
affected populations.
    The City Health Department recognizes residents' concerns and will 
continue to work closely with local, State and Federal agencies to 
monitor air quality and to inform the public of findings as soon as 
results are available. Together with the City Department of Mental 
Health, which is also under my jurisdiction, we are addressing 
resident's mental health concerns by promoting the ongoing Project 
Liberty program, a statewide disaster-recovery initiative that offers 
free crisis counseling, education and referral services. DOH will 
continue its community outreach and education efforts. Now I would like 
to turn to Commissioner Miele to discuss DEP's role in our joint 
efforts.
       ii. the role of the department of environmental protection
    In addition to DEP's operation of the city's sewer and water 
systems, our expertise in regulating asbestos in New York City was a 
significant portion of our responsibilities following September 11th. 
Since 1985, DEP has been the New York City agency with responsibility 
for regulating asbestos abatement. Starting September 12, DEP operated 
a network of outdoor air monitors that have been used for monitoring 
outdoor asbestos levels. Aside from repairing water and sewer 
infrastructure, assessing and mitigating risks caused by the presence 
of asbestos-containing material has dominated DEP's work in responding 
to the Trade Center attack.
    Since September 11th, DEP or its contractors analyzed 3060 samples 
from 37 outdoor monitoring sites in Lower Manhattan; 500 samples 
collected adjacent to the four schools in the vicinity of the Trade 
Center; and 328 samples taken in the four boroughs of the city outside 
of Manhattan. The map and all sampling results to date from the sites 
shown on this map are available to anyone on DEP's website: 
www.nyc.gov/dep. Of these samples, only 9 of the total of 3864, or 0.2 
percent, exceeded the Federal re-occupancy standard for indoor air. 
These 9 samples were all taken in the vicinity of Ground Zero. As 
Commissioner Frieden noted, there is no established standard for 
asbestos in outdoor air. Unlike carbon monoxide, nitrogen oxides and 
other gases whose presence in outside air is regulated under the Clean 
Air Act, asbestos is a once-prevalent building material, and previous 
work at standard-setting has focused on establishing safe levels for 
asbestos within buildings. On September 12, when my colleagues and I 
were creating our monitoring networks, we knew that there were no 
reliable, scientifically-based, acceptable standards that would tell us 
what level of asbestos in outdoor air might be considered ``safe'' or 
``unsafe.'' Therefore, we opted to use EPA's indoor post abatement re-
occupancy of schools standard as our threshold level of concern since 
we felt it was more protective.
    Let me briefly explain our sampling methodology. The samples are 
collected on filters and examined under PCM (Phase Contrast Microscopy) 
utilizing a specific method developed by the National Institutes for 
Occupational Safety and Health. The PCM analysis counts all fibrous 
particles, including asbestos. PCM sample results are compared to the 
clearance/re-occupancy standard for indoor air following an asbestos 
abatement project. This standard is 0.01 fibers per cubic centimeter. 
Samples found to be above this standard are re-examined using TEM 
(Transmission Electron Microscopy). The TEM analysis identifies the 
type of particles collected. TEM results are compared to the clearance/
re-occupancy standard for indoor air in schools after an asbestos 
abatement project. This standard is 70 structures of asbestos per 
square millimeter. The standard was established pursuant to the Federal 
``Asbestos Hazard and Emergency Response Act'', usually known as 
``AHERA''.
    Based on all Federal, State and local test results, public health 
experts have consistently expressed confidence that, based on sampling, 
airborne asbestos levels do not pose a threat to human health. Health 
professionals have stated that short-term exposure to airborne 
asbestos, at levels equal to or lower than 0.01, carries an extremely 
low risk of causing asbestos-related illness.
    Before allowing occupants in any residential or commercial building 
near the Trade Center site, the city's various agencies, acting through 
its Office of Emergency Management, required building owners to take 
these steps:
    <bullet> assess the building's structural strength and stability 
using qualified professionals;
    <bullet> restore gas and electrical service;
    <bullet> restore building water service, including flushing, re-
filling and cleaning roof tanks where necessary;
    <bullet> assess the presence of hazardous materials such as 
asbestos, and remediate as required under applicable city regulations 
using qualified professionals; and
    <bullet> inspect, clean and repair mechanical and HVAC systems.
    While property owners were accomplishing these tasks, DEP and its 
sister agencies, again acting through the Office of Emergency 
Management, assumed responsibility for cleaning streets, sidewalks and 
common areas so that there was a safe outdoor environment to reach the 
buildings for contractors and workers who were retained by owners and 
managers to effect all necessary exterior and interior cleanup of 
private buildings. To assist property owners, DEP engaged in the 
following tasks, among others:
    <bullet> developed and distributed advisories to building owners 
and occupants;
    <bullet> established HELP lines for concerned owners or tenants to 
respond to complaints or concerns about proper abatement procedures for 
contractors;
    <bullet> provided telephone consultation to building owners, 
contractors, consultants and tenants related to asbestos clean up;
    <bullet> performed site inspections and conducted building surveys;
    <bullet> reviewed sampling data submitted by building owners, their 
contractors and consultants;
    <bullet> reviewed the scopes of work for clean up of asbestos-
containing material; and,
    <bullet> developed emergency certification procedures and offered 
daily certification exams to ensure a properly trained and qualified 
work force was available.
    Although city, State and Federal agencies have provided oversight 
and guidance on interior clean up, that task remains the responsibility 
of building owners and occupants. For example, some building owners 
identified the presence of asbestos-containing material (ACM) during 
their assessment for hazardous materials in areas of the buildings 
under their control. Once material is identified as ACM, New York City 
rules require that a licensed contractor with certified asbestos 
workers perform the clean-up activities. As noted above, DEP technical 
staff has been continuously available to assist in the development of 
plans for handling asbestos clean-up activities. At the completion of 
the cleanup activities, the city's regulations require clearance air 
sampling by licensed professionals prior to allowing re-occupancy of 
areas where asbestos work had been performed.
    As general guidance to Lower Manhattan residents, the Department of 
Health developed a fact sheet ``Recommendations for People Re-Occupying 
Commercial Buildings and Residents Re-Entering Their Homes.'' This fact 
sheet, along with others on related topics, was distributed very widely 
in Lower Manhattan. These fact sheets offer general information on air 
quality issues as well as practical, ``how-to'' information on dealing 
with dust, debris and other potentially hazardous conditions that 
residents face as they return to their homes.
    Finally, I have a few words concerning the potable water supply and 
the marine waters that surround the city. Although I believe the 
Subcommittee's major objective is to review issues associated with air 
quality, I would like to take a few minutes to assure the subcommittee 
that neither New York Harbor, nor the city's potable water supply were 
degraded by the Trade Center attack.
    As a result of the attack, DEP and EPA were concerned that 
rainwater washing off the Trade Center site and into the sewers and the 
harbor could be polluted. Manhattan's sewers--as well as most city 
sewers--are combined sewers, meaning rainwater flooding into the sewers 
from the streets ends up in the same pipe as the sanitary flow. During 
a rainstorm, a percentage of this combined flow ends up at our 
treatment plants, and the remainder of the combined flow is discharged 
untreated into surrounding waters through outfalls located at the 
bulkheads. In the case of Lower Manhattan, the combined sewers serving 
that area lead to a very large pumping station at East 13th Street in 
Manhattan. From there, the sewage is pumped to Greenpoint, Brooklyn 
where it is treated at the Newtown Creek wastewater treatment plant.
    DEP routinely samples raw sewage going into the Newtown Creek 
plant, as well as treated effluent coming out of Newtown Creek, several 
times each day. We also regularly take samples from open waters at 
various locations in New York Harbor, including near the Battery. DEP 
tests these samples for ``conventional parameters,'' such as 
temperature, pH, dissolved oxygen, suspended solids and coliform. These 
conventional parameters have consistently remained within their normal 
ranges since September 11th.
    Using the more sophisticated testing capabilities that EPA has at 
its disposal, beginning September 11th, their staff immediately began 
supplying us with results from tests for ``unconventional parameters'' 
on samples of run-off from the Trade Center site, harbor waters, and 
sewage. These unconventional parameters include PCB's, dioxin, asbestos 
and other organic chemicals and contaminants for which the city's 
harbor water quality laboratories do not routinely test. Initial runoff 
samples taken near Rector Street showed elevated levels of PCB's, 
dioxin, asbestos and metals. Follow-up samples showed concentrations of 
these substances below levels of concern. Samples of harbor water and 
samples of effluent from the Newtown Creek plant also show the presence 
of ``unconventional parameters'' at levels too low to be of concern.
    Finally, let me reassure all New Yorkers that continuous sampling 
of the drinking water supply at the reservoirs, in the aqueducts, and 
within the city's distribution system have shown all parameters to be 
within the normal range and below any levels of concern.
    Thank you Mr. Chairman and Senators for this opportunity to present 
testimony. We look forward to answering your questions.
                                 ______
                                 
 Responses by Thomas R. Frieden to Additional Questions from Senators 
                        Lieberman and Voinovich
    Question 1. In your testimony, you mentioned a World Trade Center 
Registry. Can you elaborate on this concept?
    Response. Over the past few months, the New York City Department of 
Health (NYCDOH), in collaboration with the Centers for Disease Control 
and Prevention (CDC), has developed a protocol for a comprehensive WTC 
Registry Such a registry is an important public health tool that will 
provide a population base for assessing potential short- and long-term 
health impacts. The Registry will include workers and responders to the 
WTC site and Fresh Kills Landfill, evacuees of impacted WTC buildings, 
residents, and people working within defined perimeters at the time of 
and shortly after the disaster. The registry could include more than 
100,000 people and would provide a system of followup for 10-20 years. 
Substantial funding is, therefore, needed to implement and maintain the 
Registry. It is our understanding that the Agency for Toxic Substances 
and Disease Registry (ATSDR) has requested funding from the Federal 
Emergency Management Agency (FEMA) for the Registry and that if the 
funding is awarded, ATSDR would collaborate closely with the New York 
City Department of Health, which would administer the Registry.

    Question 2. In February, the Department of Health put out a press 
release regarding some preliminary findings on indoor air, which you 
also mention in your testimony. There is a discussion of fibrous glass 
found in indoor air samples. Can you please elaborate on this? At what 
levels did the fiberglass occur? Can people remediate this dust in the 
same way that, they do asbestos-containing dust?
    Response. As mentioned in the original testimony, the New York City 
Department of Health, in collaboration with the New York State 
Department of Health (NYSDOH) and the ATSDR, conducted Residential Air 
and Dust Sampling in 30 Lower Manhattan buildings. In each building, 
attempts were made to collect dust and air samples from one common area 
(e.g. lobby, hallway); an outdoor area (e.g. near front entrance); and 
two individual apartments. Fifty-nine apartments were sampled. Fibrous 
glass was detected in settled dust samples from 23 of the apartment 
samples, 11 of the common areas, and 9 of the outdoor area samples. 
Fibrous glass, when detected, ranged from 2 percent to 35 percent of 
total detectable fibers in the indoor samples and from 15 percent to 72 
percent in the outdoor samples. The results of the dust samples 
underscore the importance of wet cleaning and HEPA vacuuming to reduce 
dust in indoor environments. Sampling was also conducted to better 
clarify what, if any, fibrous glass was found in the air samples. These 
results, which are pending, will be included in the final ATSDR report.

    Question 3. In your press release, you indicate that there were two 
dust samples which had greater than 1 percent asbestos--the definition 
for asbestos--containing material. Were these indoor dust samples or 
outdoor dust samples?
    Response. Two of the dust samples were determined to be asbestos-
containing materials (as defined as material that contains 1 percent or 
greater of asbestos as assessed by Polarized Light Microscopy (PLM)). 
Both of these samples were collected outdoors and professional 
asbestos-abatement work was completed.

    Question 4. Is the Department of Health making detailed information 
from this indoor air sampling available on its website? If not, why 
not?
    Response. The NYCDOH and ATSDR will provide a full report to the 
public, not only on the website, but also through public meetings, as 
soon as the final report is available from ATSDR. Two community 
meetings were, already held to explain the asbestos and fiberglass 
results: The final report is expected to be completed in late spring 
2002. Information on this study is also available on the ATSDR website 
at, www.atsdr.gov. In addition, New York City has recently established 
a toll-free WTC, Hotline that can be accessed at (212) 221-8635. The 
Hotline responds to WTC-related indoor and outdoor air quality 
inquiries, provides referrals for specific requests, and maintain a 
data base to identify problems to be addressed.

    Question 5. Do you have adequate resources to meet response needs? 
Has access to resources been an obstacle to fulfilling your 
responsibilities in this regard?
    Response. As with other responding agencies, the New York City 
Department of Health has had to stretch existing resources to respond 
to expanded public health needs following the WTC disaster. Although 
assistance from State and Federal public health agencies has been very 
helpful, there is still much that needs to be accomplished. For 
example, the WTC Registry will need substantial funding for 
establishment and maintenance over 10-20 years. We are also working 
with other agencies to ensure an efficient integration of activities 
and to decrease duplicative efforts as we seek additional funding. The 
NYCDOH is anticipating further funding from FEMA to continue to address 
the needs of Lower Manhattan.
                               __________
    Statement of Thomas J. Scotto, President, Detectives Endowment 
           Association, Inc., New York City Police Department
    On behalf of all of the members of the NYC Police Department, I 
wish to express our appreciation to this committee for affording us the 
opportunity to express our concerns regarding the aftermath of the 
tragic events of September 11, 2001.
    Since that date, members of the NYC Police Department have worked 
around the clock at the World Trade Center and the Staten Island 
Landfill.
    As such, they have been exposed to a number of identifiable toxic 
substances and perhaps 100's of other combinations of these toxins that 
may never be identified and the long-term health effects of which are 
still unknown.
    The major concerns of police officers can be grouped into 3 
categories.
    1. The development of a uniform procedure to provide physical exams 
over an extended period of time to monitor the overall effects of their 
exposure to the elements at Ground Zero and the Staten Island Landfill.
    2. Assuring essential and required medical treatment within the 
basic health coverage provided by the city.
    3. In recognition of the fact that many of the illnesses which 
result from contact with toxic substances can take in excess often 10 
years to appear:

    (a) Revise the current pension provisions to protect the families 
of those who retire and then may suffer a debilitating and/or terminal 
illness as a result of their exposure to Ground Zero and the Staten 
Island Landfill environment.
    (b) Revise the current legal requirement which imposes an 
unrealistic time limit on ones ability to commence an action against 
the city.
  Statement of Edward J. Malloy, President, Building and Construction 
                   Trades Council of Greater New York
    Good morning Mr. Chairman and members of the subcommittee. My name 
is Edward J. Malloy. I serve as president of the Building and 
Construction Trades Council of Greater New York, an organization 
consisting of 60 affiliated local unions and district councils 
representing more than 100,000 working men and women in New York City. 
I also serve as an appointee of Governor George E. Pataki to the 11-
member Board of Directors of the Lower Manhattan Redevelopment 
Corporation. Thank you for the opportunity to testify before the 
subcommittee and for bringing this hearing to New York.
    On the morning of September 11, 2001, nearly every unionized 
construction project in New York City shut down as workers rushed to 
Ground Zero. In the early days of this tragedy, it is estimated that 
more than 10 thousand of our members volunteered their skills on the 
site. In the ensuing weeks and months since, when the City of New 
York's Department of Design and Construction (DDC) assigned recovery 
and clean-up responsibilities to a team of the area's most respected 
contractors, approximately two thousand of our members per day were 
employed in two around-the-clock shifts of 12 hours each. Today, as 
this recovery and clean-up effort moves toward conclusion, several 
hundred of our members remain on the job.
    In testifying before the subcommittee this morning, we would like 
to draw your attention to two areas of interest and concern. The first 
is the record on measurable safety and health data and the partnership 
between labor, management, and Government which has produced rather 
impressive results in this regard. The second is the less certain issue 
of how we address safety and health exposures which are not as easily 
detectable as common bumps and bruises. On this second front, although 
significant efforts through our safety and health partnership have been 
made to prevent such exposures, there is an immediate need for clinical 
medical services to be made available to identify and treat any 
conditions that may not have been prevented or yet detected.
    First, on November 20, 2001, the Building and Construction Trades 
Council of Greater New York joined with the Building Trades Employers 
Association, the Occupational Safety and Health Administration (OSHA), 
and other public and private entities working at Ground Zero to 
implement an emergency safety and health partnership agreement on the 
site. A copy of this agreement is attached to our testimony for your 
consideration. It should be stressed that prior to this agreement being 
executed, labor and management in our industry had been working under 
less formal but effective means with OSHA and DDC to assure the 
implementation of a safety and health program in which every member of 
the building and construction industry on the site was required to 
participate.
    The results of this partnership and other cooperative efforts are 
encouraging. With more than 2 million hours of labor completed, there 
have been 96 claims for workers' compensation reported. Of these 
claims, 13 have resulted in lost time due to injury or illness. No 
deaths or life-threatening injuries have occurred. All experts with 
whom we have consulted advise that the number of injuries and 
illnesses, as well as their relative severity, are well below what 
might have been expected. It is our intention, with both a continuation 
and expansion of the commitment to safety and health, that this record 
be maintained and improved. As we are sure the subcommittee is aware, 
however, the circumstances of this project dictate that good providence 
in addition to the most diligent human attention to safety and health 
concerns will be required if our intentions are to be fulfilled.
    The second matter of concern pertains to the need for clinical 
medical services to be made available to every individual who has 
either resided, volunteered, or been employed at Ground Zero or in the 
nearby vicinity, particularly in the earliest days of this tragedy when 
it would seem that the potential for exposures to contaminants was at 
its highest. We appreciate Senator Hillary Rodham Clinton's efforts to 
secure $12 million for this purpose and submit to the subcommittee that 
additional funding must be provided to assure that every individual 
whose health has potentially been adversely affected by activities at 
or near Ground Zero is able to receive clinical medical services.
    It is vitally important that individuals who may have been exposed 
to contaminants be screened and, if necessary, treated. Doing so will 
assure to the highest degree possible that conditions which can be 
treated and resolved are, and that conditions which may entail longer 
term consequences can be treated in a way that mitigates or even 
eliminates such consequences.
    Taking action on this matter in a timely fashion will not only 
minimize the potential for human suffering, but also represent a 
responsible approach to minimizing the negative fiscal implications of 
healthcare and insurance costs which have come to be associated with 
the events of September 11th.
    It is also really important that these services be made available 
in a well-organized and centrally-accountable manner so that a 
comprehensive and professional evaluation can be made of what the 
systemic exposures to contaminants and health problems at Ground Zero 
have been. To date, the majority of scientific evaluation of which we 
are aware has occurred with regard to monitoring contaminants in the 
air, water, and soil. It has not occurred as thoroughly in monitoring 
the blood, respiratory, and other body systems of human beings who may 
have been harmed by these exposures. We have attached for your 
consideration an initial proposal by the Mount Sinai Medical Center to 
provide the clinical medical services needed to address this situation 
for members of the building and construction industry. We of course 
support such services being made available to any other affected 
individuals.
    Mr. Chairman and members of the subcommittee, the losses and 
devastation caused by the events of September 11th are well-known. It 
is imperative that every effort be made to assure that no further 
unnecessary and preventable tragedies result, whether 10 days or 10 
years from now. The provision of funding to make clinical medical 
services available to all individuals who need them is among the most 
important work that we believe the Federal Government can undertake 
going forward. We do not hesitate to argue that it is a particular 
moral obligation to assure that those men and women who responded so 
selflessly and even heroically to the events of September 11th receive 
every possible consideration for their well-being that can be offered. 
We will be pleased to cooperate with you in every way to achieve this 
goal.
    Thank you.
                                 ______
                                 
WTC Emergency Project Partnership Agreement Between U.S. Department of 
    Labor Occupational Safety and Health Administration and Site Co-
Incident Commands NYC Department of Design and Construction (DDC), NYC 
 Fire Department (FDNY); Employee Association, Building & Construction 
 Trades Council of Greater NY (BCTC); Employer Associations, Building 
   Trades Employers' Association (BTEA), Contractors Association of 
Greater New York (CAGNY), General Contractors Association (GCA); Prime 
Contractors, AMEC Construction Management, Inc., Bovis Lend Lease LMB, 
Inc., Turner/Plaza Construction Joint Venture, Tully Construction. Co., 
                                  Inc.
    Whereas the United States Department of Labor Occupational Safety 
and Health Administration (OSHA) and the undersigned parties mutually 
recognize the importance and value of contractors, employees, employee 
representatives, and Federal, State and city government agencies 
exerting leadership by bringing their respective skills to bear in a 
cooperative, focused, voluntary effort to ensure a safe and healthful 
environment for all personnel involved in the WTC Emergency Project.
    Accordingly, to advance our mutual goal, we strongly agree on the 
need to continue to develop a working relationship that fosters mutual 
trust and respect for each organization's respective role in the WTC 
Emergency Project. We recognize and embrace the responsibilities 
inherent in those roles and are committed to work as partners to 
achieve the following shared strategies and objectives:
    <bullet> Prevention of occupational related fatalities and serious 
injuries and illnesses for all workers involved in the WTC Emergency 
Project
    <bullet> Compliance with and implementation of the WTC Emergency 
Project Environmental, Safety and Health Plan
    <bullet> Immediate abatement of all serious hazards
    <bullet> The sharing of all exposure monitoring data to include 
sampling for air contaminants, noise, heat and cold, radiation and 
biological agents
    <bullet> The sharing of a11 safety hazard data
    All of the undersigned parties agree to continue to work in 
cooperation with organizations assisting in the WTC Emergency Project 
to achieve the above mentioned goals of this agreement including but 
not limited to; NYC Office of Emergency Management (OEM), New York City 
Police Department (NYPD), NYC Department of Health (DOH), NYS 
Department of Environmental Conservation (DEC), NYS Department of 
Labor--Public Employee Safety and Health Program (PESH), Port Authority 
of NY & NY, Liberty Mutual Insurance Company, Environmental Protection 
Agency (USEPA), Building and Construction Trades Department of AFL-CIO 
(BCTD).
    This agreement shall be in effect until the completion of the WTC 
Emergency Project. Should any party choose to withdraw prior to the WTC 
Emergency Project's completion, a notice of intent to withdraw will be 
provided to all parties 30 days prior to any proposed termination. 
Changes maybe made by any party to this agreement with the written 
concurrence of all parties.

References:

1. WTC Emergency Project Environmental, Safety and Health Plan
2. Strategic Alliance between USDOL/OSHA, BTEA & BCTC--November 21, 
2000
                                 ______
                                 
   Mt. Sinai I.J. Selikoff--Center for Occupational & Environmental 
                                Medicine
      Proposal: Medical Surveillance Program for Construction and 
  Infrastructure Repair Workers Exposed to Environmental Contaminants 
                  From the World Trade Center Disaster
                               background
    Hazardous exposures, such as asbestos, silica, fibrous dusts, heavy 
metals, PCBs, polycyclic aromatic hydrocarbons, dioxins, and noise, 
related to the World Trade Center disaster may result in short-term and 
long-term illness among people working at or near Ground Zero. Short-
term health effects of exposures may include asthma/reactive airways 
disease, chemical burns or irritation of the nasal passages, throat, 
and upper airways, sinusitis, persistent cough, musculoskeletal 
disorders, noise-induced hearing loss, and psychological problems, such 
as post-traumatic stress disorder. Some of these health problems can 
become long term if left untreated.
    Therefore, there is a great need for medical surveillance to detect 
current illness, recommend treatment regimens, and provide baseline 
examinations should other health problems related to the disaster 
arise.
Medical Surveillance Program
    A three-phase program is proposed:
    <bullet> Planning Phase. --Identify exposed workers; analyze 
exposure data; develop educational and benefits information materials; 
develop secure and confidential data base to support project 
administration and long-term followup.
    <bullet> Clinical Examination Phase.--Conduct baseline exams; 
provide results to examinees; coordinate clinical followup; continue 
outreach; manage data base.
    <bullet> Evaluation Phase.--Analyze results from medical exams; 
generate report and disseminate results; develop recommendations for 
long-term clinical followup and preventive measures to reduce disease 
incidence in this population.
Contents of Baseline and Followup Medical Surveillance Examinations
    The actual contents of the baseline and followup exam will be based 
on review of current data and updated as new information becomes 
available. For this proposal, the examination includes:
    <bullet> Standardized History.--Detailed work history at or near 
the WTC site; current symptoms; prior medical and occupational/exposure 
history.
    <bullet> Physical examination.--Particular attention to the nose, 
throat, respiratory, musculoskeletal and neurological systems.
    <bullet> Laboratory tests.--Complete blood count; blood 
chemistries; urinalysis.
    <bullet> Pulmonary function tests.
    <bullet> Chest x-ray.
    <bullet> Hearing tests.
Frequency and Scheduling of Examinations
    <bullet> First examination (baseline): As soon as possible.
    <bullet> Second examination: One year later. Additional 
examinations for some individuals may be recommended by examining 
physicians.
    <bullet> Third examination: Fifteen years later.
Estimated 2-Year Cost: $10,510,000.
    <bullet> Year 1: Planning Phase and Baseline Examination Phase; 
Administrative costs: $800,000; 7000 clinical examinations: $4,655,000. 
($665. per individual).
    <bullet> Year 2: Followup Examinations; Administrative costs: 
$600,000; 7000 clinical examinations: $4,655,000. ($665. per 
individual).
Mount Sinai Center for Occupational and Environmental Medicine
    The Mount Sinai Irving J. Selikoff Center for Occupational and 
Environmental Medicine, situated in the Department of Community and 
Preventive Medicine at Mount Sinai School of Medicine, has expertise in 
evaluating and managing occupational and environmental exposures, 
illnesses, and injuries. The Center integrates occupational medicine, 
industrial hygiene, ergonomics, social work, occupational health 
education, and coordination of return to work for workers who have 
suffered occupational injuries and illnesses. Our program emphasizes 
prevention as well as diagnosis, treatment, and management of 
occupational and environmental health problems. The Center specializes 
in addressing the very types of exposures and health consequences 
experienced by workers at the WTC disaster site.
                               __________
  Statement of Stephen M. Levin, M.D. Medical Director, Mount Sinai--
Irving J. Selikoff Center for Occupational and Environmental Medicine, 
Department of Community and Preventive Medicine, Mount Sinai School of 
                                Medicine
    Chairman Lieberman, Senator Clinton, and members of the 
subcommittee. I am pleased to appear before you today to discuss the 
health impacts of the attack on the World Trade Center on September 
11th, our understanding of the short-term and longer-range risks to 
health, and a perspective on what needs to be put in place to meet the 
needs of the thousands of workers and volunteers who played a role in 
the response to this disaster.
    My name is Stephen M. Levin, M.D. I am Medical Director of the 
Mount Sinai--Irving J. Selikoff Center for Occupational and 
Environmental Medicine, in the Department of Community and Preventive 
Medicine at the Mount Sinai School of Medicine in New York. Our Center 
is funded by the New York State Department of Health and is part of a 
statewide network of occupational medicine clinics established by the 
State legislature to examine and treat workers who have developed 
illness or injury caused by their exposures at work. We have an 
explicit mission--to find ways to prevent occupational illness, placing 
us in the domain of public health. We provided over 6,000 patient 
services in the last year, and since September 11th, we have examined 
more than 250 men and women who worked or volunteered at or near 
``Ground Zero.'' Most of these individuals came to us because they had 
respiratory symptoms that developed after their exposures there.
    Our Center has long experience with the health consequences of 
exposures in the construction environment, and we were able, therefore, 
to predict, unfortunately all too accurately, what health risks were 
posed by the exposures at and near Ground Zero--exposures to the wide 
range of airborne irritants present in the smoke and dust caused by the 
fires and the collapse of the towers, just reviewed by Dr. Thurston. As 
with most cases of illness caused by environmental agents, the 
likelihood of developing illness and the severity of that illness 
depend largely on dose--how much exposure has occurred.
    I want to discuss today what we have observed among adults who were 
exposed at the World Trade Center site. My colleague and Department 
Chairman, Dr. Philip Landrigan, in the next panel will talk about risks 
to children. Among the people fleeing the buildings, the firefighters, 
police, and emergency medical technicians who responded, and the 
citizens who tried to help after the planes hit the towers--there were 
many who were caught in the huge, dense cloud of dust and combustion 
gases released by the collapse of the buildings. These groups had some 
of the worst exposures, inhaling high concentrations of smoke and dust. 
Those who came to the Ground Zero area after the collapse, in the first 
days and weeks after September 11th, to perform rescue and recovery 
work or to restore essential services there, also had heavy exposures, 
as they selflessly and often heroically did what they could in the 
effort to save lives. The thousands of construction and support workers 
who have been involved in the removal of debris from the site, often 
working 12 hour days, sometimes 6 or 7 days a week, also had all too 
frequent exposures to the dusts and gases which until recent weeks were 
a constant feature of the site.
    We were concerned that these exposures would cause respiratory 
tract difficulties, and that is, in fact, what we have seen clinically. 
Problems range from persistent sinusitis, laryngitis, bronchitis, and 
among some, the first attacks of asthma they have ever experienced. The 
problems have been especially severe among those who had respiratory 
problems prior to September 11th--many have noticed a marked worsening 
of their pre-existing sinus problems or breathing difficulties. But 
what is perhaps most striking is the occurrence of respiratory 
problems--chest tightness, cough, shortness of breath, wheezing--among 
individuals who were in excellent physical condition before. The 
experience of our patients parallels that of the firefighters who have 
been evaluated by Dr. David Prezant, who I believe is here today and 
perhaps can comment later. High rates of respiratory illness have been 
found among the firefighters, a group well recognized to be physically 
fit prior to this exposure.
    Some of our patients, once away from Lower Manhattan, have noticed 
a general improvement in their symptoms, but find that exposure to 
cigarette smoke, vehicle exhaust, cleaning solutions, or other airborne 
irritants provokes reoccurrence of their symptoms, in ways that they 
never experienced before September 11th. Not all who were part of the 
effort at or near Ground Zero developed persistent respiratory 
problems; some are more susceptible to the effects of such exposures 
than others. The difficulty is, we have no way to predict who the 
susceptibles are. It is very important that, in addition to preventing 
further exposure to irritants as much as possible, treatment with 
appropriate medications be instituted as quickly as possible, to 
prevent these conditions from becoming lifelong, disabling illnesses.
    In the past 2 months, we have seen similar respiratory problems 
emerging among some of the office workers who returned to buildings 
situated in the periphery of Ground Zero, especially those located 
downwind from the debris pile and the fires which were actively burning 
until December. For most, the symptoms of eye, nose, throat, and chest 
irritation are transient and not of serious concern. But we have 
patients with new onset asthma since their return to work in nearby 
buildings - people who were never previously asthmatic. Fortunately, 
most of my patients report that their symptoms are generally improving, 
now that the fires have for the most part been extinguished and the 
airborne irritant burdens have decreased.
    A clinical feature, which surprised us in its frequency and 
intensity, is the degree of psychological distress among the early 
responders. Many of our patients who came to us for respiratory 
problems also reported persistent flashbacks of images and sounds of 
human trauma and horror they had witnessed, especially early on. Police 
officers, construction workers, and others have had sleep difficulties, 
depression or irritability, and many had difficulty controlling their 
tears whenever reminded of what they had seen, even months after the 
events themselves. The group debriefing sessions that many participated 
in at the site was simply insufficient to help such individuals resolve 
the effects of this experience on their emotional well-being.
    To address the specific issue of exposure to asbestos at and near 
Ground Zero, it is important to note that asbestos has been found in 
the debris at the site itself and in settled dust on surfaces in nearby 
buildings. Fortunately, the concentration of asbestos fiber in outside 
air is low, and poses a correspondingly low risk of disease. For those 
who work at the Ground Zero site itself, respiratory protection to 
prevent inhalation of asbestos fiber is necessary, and the use of such 
respiratory protection is the current policy for workers at the site, 
although compliance can hardly be described as universal. A special 
group at increased risk for asbestos-related illness (twenty or more 
years from now) are the workers engaged in clean-up operations in 
offices and residential buildings near the site. For the household 
resident or office occupant whose exposure during the cleaning of 
settled dust is brief, there is a very low increase in risk of illness, 
even if the wrong methods are used. Such risk should be avoided, and 
Dr. Landrigan will likely address the special risk for children in such 
settings. The risk to unprotected building service workers, however, 
who perform dust-disturbing tasks day in and day out for perhaps months 
is of much greater magnitude. This group requires training and 
protection. Many are hired off the street, are not English speaking, 
and are among the most vulnerable of workers. That they should have 
been permitted to be exposed to asbestos dust in this fashion is a 
public health failure.
    From the perspective of what needs to be done now, our clinical 
experience, taken together with what has been learned from the study of 
the NYC firefighters, points to the need for developing a medical 
surveillance program for those who placed themselves at risk in the 
course of their efforts--whether as employed workers or volunteers. A 
registry of those who were present at or near Ground Zero must be 
established as quickly and comprehensively as possible. Medical 
examinations, to identify persistent respiratory, musculoskeletal, and 
psychological conditions should be made available to all who were 
there, and treatment should be initiated where findings warrant it. The 
longer treatment is delayed, the more difficult treatment becomes, and 
the less successful the clinical outcome. If resources are made 
available, a consortium of medical institutions under the guidance of 
occupational/environmental medicine expertise can be established, 
working in coordination with the appropriate government agencies, to 
provide clinical evaluations and treatment programs. I am confident 
that we would receive full cooperation from relevant employers and 
labor organizations to facilitate the development of the registry and 
the clinical surveillance program itself. The many workers and 
volunteers who have given so much of themselves deserve no less.
    Thank you, and I will be pleased to answer questions.
                               __________
Statement of Marilena Christodoulou, President, Stuyvesant High School 
                          Parents' Association
    On behalf of the six thousand parents at Stuyvesant High School, I 
want to thank you for holding this hearing on a matter of great concern 
to our community.
    Stuyvesant High School is an academically excellent school for 
which each student must take a competitive examination in order to gain 
admission. Approximately 20,000 students take the Specialized Science 
High Schools' entrance examination for the 750 available spaces at the 
school. It is the most competitive school in the New York City Public 
School System and arguably in the country.
    The school, located four blocks north of the World Trade Center, 
was heavily impacted by the events of September 11th. The 3,000 
students and 200 staff members were evacuated in the middle of a cloud 
of toxic dust and debris as the second tower was collapsing. Almost 
immediately, the school building was commandeered for use by rescue and 
recovery agencies and personnel.
    The Board of Education (BOE) reopened the school on October 9. We 
were the first school in the Ground Zero area to return to its 
building. Some of the remaining six schools have only returned last 
week and one school, PS 89, has initiated legal proceedings against the 
BOE seeking an injunction against the return. The goal of our Parents' 
Association (PA) has been to ensure that the return to Stuyvesant would 
occur only when the streets were safe for walking and the building was 
safe for occupancy. Our single most important concern is the issue of 
air quality--both inside and outside the school--specifically, the 
possible presence of airborne contaminants and related potential 
adverse health effects. Unfortunately, it is my opinion that the return 
to Stuyvesant was premature and that environmental conditions in and 
around the school continue to pose a potential threat to our children's 
health and well-being.
    As the inside of the school tested positive for asbestos, the BOE 
conducted an asbestos abatement prior to reoccupancy. We were 
encouraged by the fact that the BOE's cleanup should have taken care of 
not only asbestos, but also all other particulate contaminants. In 
addition, as a result of negotiations with the PA, the BOE agreed to 
undertake environmental sampling inside and outside the school (which 
continues to this day). Results are reviewed by H.A. Bader Consultants, 
Inc., the PA's hired environmental engineers, and by the PA 
Environmental Health & Safety Committee.
    The excavation operations and the few remaining fires at Ground 
Zero continue to release a variety of contaminants into the Lower 
Manhattan air. These contaminants, all of which are associated with 
potential adverse health effects, include asbestos, lead, crystalline 
silica, dioxins, carbon monoxide, diesel and gasoline exhaust, PCB's, 
heavy metals, and benzene and other volatile organic compounds. In 
addition, several hundred trucks a day carry pulverized debris and 
steel girders coated with remnants of asbestos fireproofing from Ground 
Zero past Stuyvesant to the waste transfer barge operation located 
immediately adjacent to the north side of the school on Pier 25. This 
is the main debris removal operation from Ground Zero. Additional 
contaminants are released into the air as loads are transferred from 
trucks to barges. Diesel emissions from the many trucks and cranes at 
the barge are another source of contaminants.
    Our experience since returning to school has been and continues to 
be problematic. Our children are getting sick. We are also concerned 
about the possible delayed health effects (like cancer) 10-20 years 
from now from exposure to the chemicals in the air.
                  contaminants are entering the school
    Our goal is to prevent contaminants in the outdoor environment from 
entering the school and affecting our children. The primary route of 
outdoor contaminants into the school (assuming windows and doors are 
kept closed) is through the ventilation system. The main defense 
against contaminants is the filtration in the ventilation system. To 
date, the BOE has failed to take adequate measures to protect our 
children. Despite repeated requests from the PA, the BOE still has not 
cleaned the ductwork of the ventilation systems. After months of 
stalling, the BOE finally upgraded the filters at the end of January. 
Although these replacement filters provide an improvement in 
efficiency, they still do not provide adequate protection, according to 
evaluations by two independent professional ventilation engineers 
working with the PA.
    Results from environmental sampling conducted by the BOE 
demonstrate that, on more than 50 percent of the days from October 9, 
when our children returned to school, to February 1, measurements of 
respirable particulate matter (PM<INF>2.5</INF>) inside the school have 
exceeded EPA guidelines for children. These particulates may pose a 
greater danger because they may contain a mixture of toxins. Levels of 
lead dust in excess of regulatory limits were found inside Stuyvesant 
on several occasions in December, January, and February.
          the barge operation is a main source of contaminants
    It is clear that the close proximity of the barge to the school is 
putting our children at a greater risk of exposure to toxic 
contaminants. The PA's environmental engineer has measured and compared 
airborne concentrations of particulate matter at Ground Zero and on the 
north side of the Stuyvesant building, and found the particular matter 
to be higher at Stuyvesant. As the north side of the school faces away 
from Ground Zero and towards the barge operation, the only reasonable 
explanation is that we have elevated levels of particulates coming from 
the barge/truck operation. The PA expert also reports that levels of 
particulate matter at Stuyvesant have consistently been double the 
levels at Barclay Street, one block from Ground Zero.
    On several occasions, the EPA notified the PA that, weeks earlier, 
it had monitored high levels of certain contaminants in outdoor air at 
its monitoring station, between the school and the barge, in excess of 
EPA regulatory limits. These contaminants included asbestos, 
tetrachloroethane, and isocyanate. Unfortunately, the EPA has not been 
monitoring the latter contaminants on a regular basis nor is it 
monitoring and disclosing the full array of possible contaminants. 
Further, there is no system in place for proactive notification of the 
residents, workers, and students in the area to enable them to take 
protective measures (like staying at home) on days when levels of 
contaminants in the air are high.
    Carting of the Ground Zero debris material to the barge constitutes 
an unacceptable risk to our children and to the surrounding community 
along the truck route. We are in the unique position to observe the 
truck and barge operation, and we can report to you that, despite 
assurances from government officials, the trucks are not always 
adequately covered; on cold days the debris cannot be hosed down to 
prevent the release of dust; and the levels of visible dust in the air 
and on the pavement are high.
    To date, government agencies have been unwilling to either relocate 
the barge operation to a less damaging site or to take effective 
measures to protect the community. There was discussion to containerize 
the debris at Ground Zero prior to trucking them to the barge; to 
install particulate traps by the barge; and to use low-sulfur fuel for 
the trucks and the cranes. To date, none of these measures has been 
implemented.
    Even simple measures such as halting barge operation on below-
freezing non-hose down days, rerouting trucks from Pier 25 to Pier 6 
during the hours when school children are outdoors, and directing 
trucks hauling loads with high dust content to Pier 6, have not been 
implemented.
    There are 4,500 school children, some as young as 4 years old, 
within two blocks of this barge operation. We are at a loss to 
understand how the Government could locate a toxic dump right next to a 
school in the middle of a residential community. The BOE has taken no 
effective action to have the barge relocated, or to ensure its 
operation in an environmentally safe manner.
    In summary, our children are exposed to three sources of 
contaminants: the air inside the school, the toxic composition of the 
Ground Zero debris trucked and dumped at the barge, and the diesel 
emissions and combustion byproducts generated by the trucks and the 
cranes.
             incidence of illness among students and staff
    Since the return to school on October 9, a number of students and 
faculty have reported and exhibited clinically diagnosable symptoms of 
illness. Many parents report that their children have experienced 
unusual rashes, nosebleeds, coughing attacks, and chronic sinus and 
respiratory problems, including new onset asthma and chemical 
bronchitis. Parents have reported to us several emergency room visits. 
It has been reported that several custodians have chemical bronchitis. 
Since the return to Stuyvesant on October 9 through December 14, at 
least 11 students have left the school due to air quality problems. 
These students, who will not be allowed to return by the BOE, have 
chosen to leave one of the most prestigious public high schools in the 
Nation, and to forfeit a public educational opportunity that 
essentially cannot be replaced.
    Several faculty members have left or taken sabbaticals for health 
reasons or medical concerns. The teachers' union has filed a grievance 
over environmental conditions at the school. The National Institute for 
Occupational Safety and Health (``NIOSH''), a branch of the Centers for 
Disease Control, has begun an investigation of environmental conditions 
and health effects among teachers at Stuyvesant (and other Lower 
Manhattan locations). However, NIOSH can only investigate the health 
impact on workers and has no jurisdiction to conduct an evaluation of 
our children. Neither the BOE nor the NYC Department of Health have 
conducted an epidemiological study of the students. The incidence of 
student illness cannot be adequately characterized based only on 
attendance rates and visits to the school nurse's office.
    Stuyvesant's student population is very diverse. Many of our 
students come from first and second generation non-English speaking 
immigrant families. We are concerned that many of these families do not 
have the wherewithal to seek early medical care. Dr. Stephen Levin, of 
the Mt. Sinai Selikoff Center for Occupational and Environmental 
Medicine, has advised us that early detection and treatment of 
respiratory illness is critical in terms of preventing such illness 
from becoming chronic. (I would like to take this opportunity to thank 
Dr. Levin for his help during this period).
    In conclusion, these developments call into question any 
unequivocal assurances from government agencies, including the EPA and 
the BOE, about the health and safety of our children.
                       immediate action is needed
    The following courses of action should be implemented to protect 
environmental quality and public health:
    (a) Barge Operation.--The truck/barge operation on Pier 25 should 
be relocated to an area where there is less residential and educational 
impact.
    (b) Ventilation Protocols.--The Government should immediately issue 
protocols for proper preventive measures to be taken by schools and 
other institutions in the area with regard to installation of 
protective air filtration and cleaning and operation of ventilation 
systems.
    (c) Cleaning of Buildings and Enclosed Structures.--The Government 
should mandate regular proper cleaning (i.e., wet-cleaning and HEPA-
vacuum) of building interiors and other enclosed structures in the 
area, including foot-bridges such as the one outside Stuyvesant.
    (d) Cleaning of Streets and Sidewalks.--The Department of 
Sanitation, as well as entities such as the Battery Park City 
Authority, should be required to regularly wet-clean the streets and 
sidewalks in the area, as it is necessary for dust suppression.
    (e) Environmental Monitoring and Notification.--The Government 
should take action to ensure complete environmental testing, both 
indoor and outdoor; full and timely disclosure of results; and 
immediate and full notification of elevated levels of contaminants to 
residents, workers, and students in Lower Manhattan.
    (f) Monitoring of Incidence of Illness and Medical Coverage.--The 
Government should assume responsibility for implementing a centralized 
and coordinated effort to monitor and track incidence of illness among 
residents, workers, and students in the area. A central registry of all 
residents, workers, and students who have been exposed to contaminants 
as a result of the September 11th attacks should be established. The 
Government should assume responsibility for early detection and medical 
treatment of illness related to the World Trade Center disaster. Also, 
in my opinion, a dedicated fund should be established to pay for 
medical costs associated with any future health problems of registered 
individuals as a result of WTC chemical exposure.
    Thank you for the opportunity to address you today.
                               __________
 Statement of Julie Hiraga, Teacher at PS 89 in Manhattan Representing 
                   the United Federation of Teachers
    Good morning, Chairman Lieberman, Senator Clinton and members of 
the committee. My name is Julie Hiraga. I am a second grade teacher at 
PS 89 in Manhattan and am here representing Randi Weingarten, president 
of the United Federation of Teachers. Thank you for this opportunity to 
testify on the health issues that concern those of us who live and work 
in Lower Manhattan.
    The brutal attack on the World Trade Center on September 11th was a 
trauma we are all still learning to overcome, but slowly we are trying 
to return to normal. At PS 89, one of seven schools in the immediate 
vicinity of Ground Zero, the teachers and paraprofessionals quickly led 
children out of harm's way even as the Twin Towers fell and smoke and 
debris filled the air. Miraculously, not one student was injured or 
lost in the attack.
    Following the disaster, our schools were relocated to other sites, 
and some were moved yet again. For the children in PS 89, our two moves 
took their toll, emotionally and educationally. The adjustments were 
especially disruptive for students who had to take State tests in 
reading and language arts. Unfortunately, children did not start 
getting counseling until January. Still, the teachers have been doing 
their best to keep students calm and focused on learning.
    This has been a very frightening time for all of us, but the 
teachers of PS 89 want to return to our normal routine. Right now, we 
are scheduled to go back to our home school on February 28, and 
although there's a lot of excitement and optimism, there's also some 
anxiety about safety. Teachers are concerned about having to keep 
windows closed and not having an outdoor play space for the children.
    Also, the school is on the truck route for debris removal. These 
huge trucks emit diesel fumes and their cargo throws a lot of dust in 
the air. Teachers are worried about the long-term impact on their 
health and wonder if symptoms may not emerge for some time.
    Parents, too, are worried about air quality and health issues and 
we wonder how that will affect student enrollment. Right now, we have 
only half the students we had before Sept. 11 because parents have 
moved or withdrawn their children. Now parents of about 30 more 
students have applied to withdraw their children when we go back to our 
building because they are concerned about health and safety. The 
problem is compounded when children hear some classmates talk about 
their parents' worries and become fearful.
    Having our union as a watchdog has helped allay some of those 
fears. The UFT's two industrial hygienists and its consulting physician 
made presentations to our staff and made sure that our questions were 
answered. They reviewed all the air-testing data and assured us that 
they will continue reviewing the reports. They said that air testing 
and sampling of a number of contaminants that could prove harmful to 
students and staff will continue on a regular schedule, both inside and 
outside every affected school.
    The union's representatives have also been very responsive to our 
concerns and needs. They explained what was being done to control the 
dust, such as watering down the trucks and installing matting under all 
exterior school doors to hinder dust seepage. They helped our school 
get a new, more efficient filtration system and a new HEPA vacuum for 
our custodial staff. They even sent us snacks and towelettes, and that 
gave us a real morale boost when we needed it.
    We've also had a chance to see what has happened at the other 
schools that reopened. Stuyvesant High School was the first to reopen 
on October 9. Teachers in my school followed events there very closely. 
Stuyvesant is further from Ground Zero than PS 89, but the fires were 
still burning when students and staff returned. Many of my colleagues 
wondered if the air was safe, even though experts who reviewed the 
sampling data tried to reassure everyone.
    Since some staff and students at Stuyvesant complained of 
respiratory problems, the union asked the Federal Government to conduct 
its own evaluation. As a result, on January 29 the National Institute 
for Occupational Safety and Health (NIOSH) began the first survey 
comparing staff symptoms at Stuyvesant High School with those at a high 
school out of the affected area (Fiorello LaGuardia High School in 
midtown Manhattan).
    We also saw that the union's experts were not content with 
acceptable facts and figures alone. They conducted on-site visual 
inspections of all the affected schools to make sure they were properly 
cleaned and prepared for reoccupancy. A good example is what happened 
at the High School for Economics and Finance, which was had been 
scheduled to reopen on January 30. Both the monitoring data and a 
preliminary inspection showed that everything was ready. But then 
additional work was done, releasing new dust and debris. Because union 
representatives made a follow-up visit on the Sunday before the 
scheduled reopening, they saw these new potential hazards and kept 
students and staff from moving back until the board cleaned the school 
again.
    In the meantime, our sister school, IS 89, reoccupied the top two 
floors of our shared building on January 22. It is doing well, which is 
encouraging. I also hear that the staffs at PS 150 and PS 234, which 
had many of the same concerns we had, are glad to be back in their own 
buildings.
    So to sum up, there are lingering concerns about the our students' 
psychological and educational welfare, as well as about parental 
reactions. All of us at the school have had concerns about air quality 
and other health hazards in the aftermath of September 11th. However, 
the independent monitoring and involvement of the union's health and 
safety experts has helped reassure us.
    Thank you.
                               __________
   Statement of Bernard Orlan, Director of Environmental Health and 
                Safety, New York City Board of Education
    Mr. Chairman, Ranking Member Voinovich and Senator Clinton, I am 
happy to appear before you on behalf of Chancellor Harold O. Levy and 
the New York City Board of Education. We appreciate this opportunity to 
speak about how the events of September 11th affected public schools in 
the area of the World Trade Center. My name is Bernie Orlan and I am 
director of Environmental Health and Safety for the New York City Board 
of Education.
    As you know, last September 11th, we were forced to evacuate a 
number of schools in the downtown area. While this has been noted 
numerous times, it is worth pointing out again that this evacuation was 
accomplished without a single injury--either to a teacher or a child. 
Teachers and other staff kept their charges safe. Indeed throughout the 
system, teachers, principals, assistant principals and support staff 
worked tirelessly to get children home safely and in the aftermath of 
that day have helped our students get back to the business of learning.
    In the days following the disaster, many of our school buildings 
were used by various agencies including FEMA and the city's Office of 
Emergency Management for rescue and ultimately, recovery operations. 
Other school facilities were used by the Red Cross as emergency 
shelters. Once permission was granted by the city to normalize activity 
from 14th street to Canal Street and areas east of Broadway, schools in 
this area were tested for particulate dust, asbestos and other 
compounds including carbon monoxide and carbon dioxide. We also 
established baseline levels for general air quality. The results of 
these and other tests verified that the buildings were safe for 
children and staff to return.
    This left us with seven schools contained in six buildings that 
could not immediately be reoccupied. These included two high schools 
south of Ground Zero and one high school, one intermediate school and 
three elementary schools north of Chambers Street, which is north of 
Ground Zero. In all, more than 5,000 students were displaced.
    Four schools were being used by emergency workers and agencies. 
Once these buildings were turned back to the Board of Education 
jurisdiction, we began exhaustive environmental testing, beginning with 
tests for asbestos debris. Very little of this was found. Nonetheless, 
the decision was made to clean each school as if it were contaminated. 
Following the strict AHERA protocol designed by independent monitors 
certified by both NYS Dept of Labor and the U.S. Environmental 
Protection Agency, teams of approved asbestos abatement handlers began 
a top-to-bottom cleaning, first by HEPA-vacuuming and wet wiping the 
buildings. Following the cleaning, the buildings were retested and 
found to be clear of contaminants that would have come from the 
collapse of the World Trade Center.
    Just as the teachers and staff safeguarded the children as they ran 
from their schools, it is our duty to safeguard them on their return.
    Before the schools could reopen, a battery of environmental testing 
was performed in and around each school. These included wipe and air 
sampling for asbestos, respirable particulate concentrations, mercury, 
PCBs, silica, fiberglass, hydrocarbons, dioxins, metal and cyanides. I 
have provided a summary of these test results as an addendum to these 
remarks. For the record, in and around the schools, we have not found 
any of these materials in any concentration known to be hazardous. 
While we expect to find background levels of some of these materials in 
the air--in particular respirable dust--since mid-December when the 
long-burning fires were extinguished, in daily tests, we found all of 
these tests to show these contaminants to be absent or on rare 
occasion, present in quantities that measure for the most part below 
conservative safety guidelines.
    At this point, only PS 89--which shares a building with IS 89--and 
the High School for Economics and Finance, have yet to return to their 
buildings. With the return to their home sites, we take a three-pronged 
approach to safeguarding the physical health of our staff and students. 
At every school, we perform more than 100 separate air tests a day. We 
are also sampling over 24-hour periods, in order to collect and examine 
all particulates and we continue to provide periodic environmental 
surveillance for the contaminants of concern. Barrier mats at school 
entrances help prevent people from tracking debris into the school. All 
ventilation systems were inspected and upgraded to enhance their 
efficiency to capture the finer dust particles. In addition, medical 
and metal hygiene staff are located at each school to provide 
assistance and documentation as necessary.
    In conclusion, we have done everything we can do to ensure that our 
students are learning and our teachers are teaching in a clean and 
secure environment. We will continue to monitor their environment and 
will continue to share all the information we collect with parents, 
their environmental consultants, the unions and the public. We will 
continue to work diligently and tirelessly for the health and safety of 
our community so that they can continue to focus on our overall mission 
of teaching and learning.
    I am happy to take your questions.
                               __________
   Statement of Philip Landrigan, M.D., M.Sc., Chair, Department of 
    Community and Preventive Medicine and Professor of Pediatrics, 
Director, Center for Children's Health and the Environment, Mount Sinai 
                           School of Medicine
    Mr. Chairman and members of the subcommittee: My name is Philip J. 
Landrigan, M.D. I am a pediatrician, chairman of the Department of 
Community and Preventive Medicine and director of the Center for 
Children's Health and the Environment of the Mount Sinai School of 
Medicine. A copy of my curriculum vitae is attached to my testimony. 
Thank you for having invited me to testify before you today.
    I will focus my testimony on the impacts of the September 11th 
World Trade Center attacks on the health of children.
                              demographics
    On September 11, 2001, 46,000 children ages 0-19 resided in Lower 
Manhattan below 14th Street. Approximately 11,000 of these children 
were under the age of 5 years, and 3,000 lived within a half-mile 
radius of the tower. Twelve hundred children were attending the three 
primary schools closest to the World Trade Center (P.S. 89, P.S. 150, 
and P.S. 234); 300 children were in attendance at I.S. 89; and 4,000 
children were at Stuyvesant High School, the Leadership High School and 
the High School for Finance. We estimate that 1,700 women in Lower 
Manhattan were pregnant on the morning of September 11th.
                               exposures
    When the twin towers were destroyed, the communities of Lower 
Manhattan were enveloped in smoke and soot. Women, children and persons 
of all ages were placed at risk of exposure to dust, debris, asbestos, 
fibrous glass, products of combustion, volatile organic compounds 
(VOCs), polychlorinated biphenyls (PCBs) and dioxins. For many weeks 
last fall and into early winter, these communities were subjected 
intermittently to the smell of acrid smoke from the long-burning fires. 
Many offices and apartments were coated with dust that entered those 
structures through shattered windows or inadequately protected air 
handling systems.
    You have learned much today already about these exposures. In 
particular, you have been informed of the risks to workers by my Mount 
Sinai colleague, Dr. Stephen Levin. To provide further background on 
the nature of these exposures, I attach to my testimony articles 
prepared by our group at Mount Sinai that were published in November in 
Environmental Health Perspectives, the journal of the National 
Institute of Environmental Health Sciences (NIEHS).
                 the special vulnerability of children
    Children are particularly vulnerable to environmental toxins such 
as those released into the air of Lower Manhattan on September 11th. 
Several factors act together to increase children's risk.
    <bullet> Children live closer to the ground than adults and thus 
are more like to inhale any materials stirred up from dust.
    <bullet> Children breathe more air per pound of body weight per day 
and thus take into their bodies proportionately larger quantities of 
any toxic materials suspended in the air.
    <bullet> Children's developing lungs and other organ systems are 
more sensitive than those of adults.
    <bullet> Children have more years of future life in which to 
develop delayed diseases that may result from exposures to dust, 
asbestos or other toxic materials.
                           prenatal toxicity
    Potential for toxicity in utero affecting the next generation is a 
further dimension of the September 11th disaster. The possible physical 
and psychological consequences of the attacks on pregnant women and 
their children are not known and need to be explored.
    To address this issue, researchers at Columbia University Center 
and the Mount Sinai School of Medicine have developed a joint project 
to examine infants born to women who were pregnant on September 11, 
2001 and who were either acutely or chronically exposed to the fires 
and explosions. The acute exposure group will consist of pregnant women 
who actually were in the World Trade Center or in nearby office 
buildings at the time of the attacks. The chronic exposure group will 
consist of women who live and work in the communities of Lower 
Manhattan. Samples of blood and other biological fluids will be taken 
from these women to assess their exposures. Their infants will be 
evaluated at birth and periodically over the first several years of 
their lives. Outcomes will be assessed.
                         community health needs
    Protection of the health of community residents in Lower Manhattan, 
particularly young children and pregnant women, requires that we take 
strong and consistent action on several fronts.
Sound Health Recommendations
    The most immediate need in the communities of Lower Manhattan is 
for scientifically sound, evidence-based guidance (1) about the risks 
to children and families and (2) about what families can do to minimize 
those risks.
    To formulate health recommendations for families and communities in 
Lower Manhattan, we have relied heavily on the extensive environmental 
assessment data collected by the U.S. Environmental Protection Agency, 
State and city agencies, the Board of Education and private 
consultants. Although there is always room for more sampling, the 
aggregate amount of data that has been collected in Lower Manhattan 
since September 11th is astounding. It represents the most 
comprehensive environmental sampling that has ever been undertaken in 
any community in the United States. Most of these data, including all 
the data collected by governmental agencies, are of high quality and 
very credible.
    In the early weeks after the disaster, while the sampling data were 
still quite incomplete, we urged prudent avoidance. At that time the 
smell of acrid smoke hung heavy over Lower Manhattan, especially at 
night and on days with little wind. Although the actual measured levels 
of airborne pollutants where below Federal standards, there were 
intermittent peaks of exposure. Accordingly, we developed 
recommendations in collaboration with the Ground Zero Elected Officials 
Task Force and the Manhattan Borough President that urged families to 
take the following prudent steps:
    <bullet> Limit the amount of time you spend out of doors near the 
WTC site.
    <bullet> Limit vigorous outdoor exercise and vigorous play by 
children in the affected area. Both increase the rate of breathing.
    <bullet> For ongoing clean up, use a HEPA vacuum (they can be 
rented) and a damp mop or rag on floors, walls and furniture to clean 
your apartment. Brooms stir up dust.
    <bullet> Be sure all air-handling systems in your building are 
properly cleaned.
    <bullet> Frequently change filters on air conditioners and other 
ventilation equipment, and run air conditioners on `recirculate' with 
vents closed.
    <bullet> Use HEPA air filters at home or in the office.
    <bullet> Keep windows closed.
    <bullet> Take your shoes off at the door.
    More recently, now that the fires have largely been extinguished, 
we have continued to monitor health risks to community residents, 
particularly to children. Much of this assessment has focussed on the 
schools and on the question of whether to reopen the schools and 
playgrounds in Lower Manhattan.
School Health Risks
    Based on our review of the most recent data, we are comfortable 
that the indoor environment of the schools in Lower Manhattan is now 
clean and safe for children and adults.
    The public schools in Lower Manhattan have undergone an extensive 
array of environmental tests more thorough than any that have been 
performed in any other New York City public school. Measurements of 
contaminants (fine particulates, PCBs, dioxins, lead and other metals, 
asbestos, and volatile organic compounds) have found levels that in 
virtually every instance are well below applicable standards and 
background levels. The following paragraphs summarize our 
interpretation of these data:
    <bullet> PCBs, Dioxins, and related compounds.--These compounds are 
produced by almost any sort of combustion and are found widely in our 
industrialized society. If one were to test air and surfaces in any 
large city, trace levels of these compounds would frequently be 
detected. The air and surface test results undertaken in the schools in 
Lower Manhattan found all levels to be either undetectable or far below 
even the most conservative standards. For instance, the highest 
reported wipe sample level of dioxin in P.S. 89 was 0.032 ng/
M<SUP>2</SUP>. This is nearly 1,000 times below the New York State 
Department of Health standard.
    <bullet> Fine Particulates (PM<INF>2.5</INF>). These particles are 
ubiquitous in a city environment. They arise principally from the 
combustion of fuel in car, truck, and bus engines as well as industrial 
exhaust. The U.S. EPA guideline of 40 micrograms/m<SUP>3</SUP> is based 
on a 24-hour average. All of the EPA 24-hour average measurements of 
fine particles near the schools in recent months have been well below 
this level. In any urban environment, levels of fine particulates 
fluctuate from moment to moment and day to day. In fact, spot 
measurements taken at 13th Street, where P.S. 234 was temporarily 
housed, revealed levels greater than 100 micrograms/m<SUP>3</SUP>. The 
levels of fine particulates in Lower Manhattan are now more a 
reflection of background urban air pollution than a result of the 
continuing WTC clean up. Indeed these levels may increase when the 
roadways are re-opened to general traffic.
    Asbestos. Although ``no asbestos is good asbestos'', the levels of 
asbestos fibers in the air in Lower Manhattan and in and around P.S. 89 
are at background levels for the city, and the levels in the schools 
are well below the AHERA standard of 70 structures/mm<SUP>2</SUP>.
    That said, however, we need to be watchful for the long-term 
consequences of exposure to asbestos. Almost no data exist on the 
possible long-term consequences of low level asbestos in early 
childhood. Causes of malignant mesothelioma have, however, been 
reported in the grown children of asbestos workers who were exposed to 
take-home asbestos; among non-working women in the asbestos mining 
townships of Quebec who were exposed in the community; and among long-
term residents of a community near an asbestos-cement plant in Northern 
Italy.
    Last, with regard to the question of playgrounds, we have advised 
that they be kept closed for the present time, because trucks are still 
rolling by on the West Side Highway carrying construction materials and 
potentially asbestos. Although measured levels of particulates and 
asbestos are below Federal standards, we believe that prudence should 
dictate that children not play outdoors in immediate proximity to the 
highways where these trucks are running.
    I have attached to my testimony a copy of a letter that we 
submitted on February 5, 2002 to the parents, staff and community of 
P.S. 89. Previously we had submitted a similar letter to the family of 
P.S. 150. We have provided similar advice pro bono to the New York City 
Board of Education.
Home Health Risks
    Many apartments in Lower Manhattan were heavily inundated by dust 
on September 11th. Dust entered these apartments through shattered 
windows and also through air handling systems.
    Cleanup of apartments has been very uneven. Some have been 
effectively and thoroughly cleaned with HEPA vacuums, while others 
appear not to have been adequately cleaned. Although data are more 
fragmentary and incomplete than for the schools, there appear to have 
been apartments and buildings where children may have been 
significantly exposed to particulates and asbestos.
                              future needs
Follow up Assessment
    It will be very important to continue to follow up vulnerable 
populations who were present in Lower Manhattan on September 11th and 
in the succeeding weeks and who were therefore placed at risk of 
exposure to toxic materials liberated from the fires and explosions at 
the World Trade Center. Specific follow up assessments that are needed 
are the following:
    <bullet> Follow up of women in Lower Manhattan who were pregnant on 
September 11th and their children.--As I have noted above, studies are 
already underway as a joint endeavor between the Columbia University 
School of Public Health and the Mount Sinai School of Medicine. They 
need to be sustained for at least 3-5 years.
    <bullet> Follow up of children residing in and attending schools in 
Lower Manhattan.--To date, only scattered assessments of children in 
Lower Manhattan have been undertaken; these initial studies are 
proceeding under the leadership of CDC, ATSDR, the New York City and 
New York State Departments of Health. While these studies will provide 
useful information on the impact of the environmental exposures on 
September 11th on the health of children in New York, with a particular 
focus on asthma and other respiratory problems, they have some 
shortcomings. One problem is that the number of children included is 
relatively small. Second, the planned duration of follow up is 
limited--only one year. This will limit these studies' ability to 
address parent's concerns about the possible long-term consequences of 
the events of September 11th on their children's health. Third, the 
studies currently underway are not assessing the impacts on children's 
mental health of the events of September 11th. Those psychological 
impacts are expected, however, to be substantial.
    A need exists therefore to generate high quality information on the 
short and long-term health consequences, including the mental health 
consequences on children, of the events of September 11th.
                          broad national needs
    The events of September 11th and the anthrax attacks that followed 
underscored the weakness, deterioration and current state of disarray 
of the public health infrastructure in the United States. They 
underscore how ill prepared are most doctors and hospitals to 
recognize, response and care for victims of chemical and biological 
attack. Most American physicians have never seen anthrax or smallpox, 
the two agents judged most likely to be used in biological terrorism. 
Most hospitals do not have plans for the proper isolation of victims or 
the protection of their staff.
    The lack of preparedness for chemical weapons is equally low. It is 
sobering to note that in the aftermath of the Tokyo subway attack with 
sarin in 1995 many secondary cases of chemical poisoning occurred in 
hospital workers caring for the victims of the attack. These cases 
resulted because health care workers were untrained and because 
hospitals had no plans in place for the chemical decontamination of the 
victims prior to treatment.
    A major need exists in the United States to strengthen programs for 
disease tracking. The extremely sensible recommendations of the Pew 
Commission on Public Health need to be heeded by health officials at 
every level of government. Training programs in public health and 
disaster preparedness need to be established for doctors, nurses, and 
other health care providers. Hospitals, particularly major hospitals in 
urban centers, need to be provided the resources and materials needed 
to develop response plans. These plans need to be closely coordinated 
with prehospital responders including fire departments, emergency 
medical technicians, and the Federal Emergency Management Agency.
                               conclusion
    Many questions of profound importance for public health were raised 
by the attacks on September 11th. Many of these questions remain to be 
answered, and some will not be answered for decades. The urgent need 
now is to put in place the studies and to establish the registries and 
the disease tracking systems that will enable us to answer these 
questions in the future. New York, Washington and all of the United 
States need to press forward and not be paralyzed by these terrible 
attacks. At the same time, we must put in place the prudent safeguards 
that will prevent further loss of life. Thank you. I shall be pleased 
to answer your questions.
                               __________
    Statement of Lee Saunders, on Behalf of Judith Berger-Arroga of 
                          District 37, AFSCAME
    Thank you Senators Lieberman and Clinton for giving us this 
opportunity to address your subcommittee. My name is Lee Saunders and I 
am the Administrator for District Council 37, AFSCME. I am testifying 
on behalf of the 125,000 members of District Council 37. Our members 
are the ``Everyday Heroes'' who helped in hundreds of ways at ``Ground 
Zero'' and elsewhere to keep this city working during the terrible 
tragedy that occurred on September 11, 2001. I am here today to request 
that the Federal Government provide funding for appropriate medical 
testing, treatment and surveillance as well as continued safety 
training for our remarkable members--city workers who selflessly and 
valiantly put themselves in harms' way following the September 11th 
attack to assist the citizens of this great city.
    From the moment the first plane hit, our members who work as 
Paramedics and Emergency Medical Technicians rushed to the scene to 
begin the rescue effort. Moments after the attack DC 37 lost three 
members--two EMTs, Carlos Lillo and Ricardo Quinn from Local 2507 and 
Farther Mychal Judge a Chaplain from Local 299. Scores of other members 
were injured in the aftermath. Hundreds of other DC 37 members played 
and continue to play important roles in the rescue, recovery and clean-
up effort in and around the World Trade Center.
    Our Local 983 Urban Park Rangers were among those who assisted in 
the evacuation of Battery Park City and the surrounding areas. Our 
Local 1322 and 376 members who work for the Department of Environmental 
Protection immediately responded by ensuring that the water supply to 
fight the huge fires was adequate. Our Motor Vehicle Operators from 
Local 983 also responded immediately to address critical transportation 
needs. As I speak, they continue to haul debris from ``Ground Zero'' 
hundreds of times a day. Local 375 HAZMAT workers also played a 
critical role to make certain that chemical hazards were abated 
quickly. Engineers and Architects from Local 375 have been there from 
day one to provide technical expertise in overseeing the overall safety 
of the rescue and recovery operations. Other members of DC 37, such as 
Local 768 Public Health Sanitarians, Local 420 Mortuary Care 
Technicians and Local 371 Social Service Workers, have all played vital 
roles by tending to the health and safety needs of those adversely 
affected by this terrible event. Until recently, Local 372 School Lunch 
Aides fed thousands of meals a day to the rescue and other workers at 
``Ground Zero''.
    Since September 11, 2001, DC 37 has spoken out on the need for 
adequate funding for the city to address the multitude of concerns of 
our residents as well as our members who have so valiantly assisted in 
the rescue and recovery efforts. To aid New York City in its recovery, 
it is critical that the $20 billion promised by President Bush be made 
available promptly to enable the city to meet its crushing and 
immediate economic needs.
    More particularly, an adequate portion of the $12 million that 
Senators Schumer and Clinton have proposed to deal with worker health 
issues must be specifically earmarked for the medical testing, 
treatment and surveillance of employees who were exposed to the 
numerous dangerous chemicals and other toxins in and around ``Ground 
Zero''. To date, only some of the employees working at ``Ground Zero'' 
have received baseline medical examinations. Unfortunately, hundreds of 
others have not. In order to adequately protect the health of these 
heroic workers, this money must be appropriated in an expeditious and 
efficient manner. We must not allow unnecessary bureaucratic hurdles 
and lack of coordination on the part of city, State and Federal 
agencies to further delay this essential funding. Monies for medical 
testing, treatment and surveillance of workers should be allocated to 
the New York State occupational health clinic network, which is well 
equipped, trained and staffed but presently lacks adequate funding to 
deal with the huge numbers of workers potentially affected by this 
disaster.
    Failure to allocate adequate funding to address these pressing 
occupational health issues will unduly burden the city's health 
insurance carriers and delay the needed medical treatment and 
surveillance that workers need now. Our government should not place the 
burden of continued good health on these heroic workers who have 
already given so much.
    DC 37 urges this subcommittee to immediately commit necessary 
Federal funds to New York City to be used in the following manner:
    <bullet> To fund the Occupational Health Clinics in NYC in order to 
provide appropriate medical testing, treatment and surveillance.
    <bullet> Develop training programs on safety and health related 
issues for workers taking part in the rebuilding of the city.
    <bullet> Develop a worker registry to identify workers affected by 
the 911 attack.
    I would like to thank you for your time and will answer any 
questions you may have.
                               __________
    Statement of Marjorie J. Clarke, Ph.D., Scientist-in-Residence, 
                             Lehman College
    My name is Marjorie J. Clarke, Ph.D. I'm a scientist-in-residence 
at Lehman College, and an adjunct professor at Lehman and Hunter 
College, City University of New York. I was the Department of 
Sanitation's specialist on emissions from incinerators in the 1980s, 
the author of a book and numerous publications on the subject of 
minimizing emissions, and I served on a National Academy of Sciences 
committee on Health Effects of Waste Incineration, co-authoring the NRC 
publication by that name. I also served on the New Jersey Standard-
Setting Task Force on Mercury emissions from incinerators in the early 
1990s. My graduate degrees are in geology, environmental sciences, and 
energy technology. More details about my credentials can be gleaned 
from the above website.
    I thank the Senate Environment Committee for having this hearing on 
the health impacts on lower Manhattan due to the World Trade Center 
collapses and fires. I hope that, once you have fully investigated the 
statements and actions by EPA and other governmental agencies at all 
levels, investigated the precedents set by earlier EPA actions that 
have applied to similar situations elsewhere but not in Lower 
Manhattan, that you will work hard to investigate what happened, why it 
happened, to make recommendations for improvements in procedures, 
standards, communications, and research, and to seek to have 
implemented the many good recommendations that were made at the hearing 
and subsequent testimony. It's vital to understand that not only are 
there immediate problems to remediate (clean up, treatment of illness), 
but there are many more problems to solve so that the next time there 
is an environmental disaster of any kind, procedures are in place for 
every aspect of the myriad of issues that result. As important as 
remediating current problems and preventing new ones, I hope you will 
publicize everything that you find so that the public understands, and 
is therefore more likely to support all recommendations.
    There are several issues of importance to and lessons to be learned 
by New York State in the way the environmental agencies have handled 
air quality issues in Lower Manhattan since September 11th.
    First, I concur with the Ground Zero Task Force, that there still 
needs to be a Cleanup Oversight Agency--I'd go further and say that 
there needed/needs to be one agency responsible for monitoring health 
and providing health assistance, and another for environmental 
sampling, analysis and public dissemination of the results. There was a 
long delay before all the environmental and health agencies even began 
to talk with one another about sampling of air quality and accumulated 
dust. I heard from a high level policy official at City DEP that it 
took 2 weeks for discussions to start between the head of NYCDEP 
(Miele) and the local USEPA office. When did DEC begin to coordinate 
with these other agencies? Can we learn specific lessons from each 
breakdown in communications and preparedness and devise specific 
procedures for all to follow in the future?
    Second, the WTC collapses and fires actually constituted a brand 
new, combination type of air pollution source, with aspects of a (1) 
crematorium (most of the bodies will never be found because they were 
cremated, and their ashes scattered all over downtown and surrounding 
areas intermingled with the asbestos, fiberglass and concrete dusts), 
(2) a solid waste incinerator of unprecedented proportion (described 
below), (3) asbestos factory (but on a scale thousands of times the 
size and intensity of what would be found even in a badly operated 
factory) and (4) volcano (the initial cloud was similar to nuee--
ardente--hot gas and dust cloud--in some respects, depositing ash in a 
large area). There are many toxic, carcinogenic and irritating 
pollutants, standards need to be rewritten to assess the impacts of 
synergy--to protect the public health.
    Since this is a new type of air pollution source, with 
characteristics of a crematorium, a solid waste incinerator, an 
asbestos factory, and even an ash-spewing volcano, no emissions 
standards exist and therefore, none of the existing standards for other 
sources directly applied. Many of us remember the bitter battles 
between Brooklyn residents and the city over the Brooklyn Navy Yard 
plant. The emissions from this plant would have been controlled well 
over 90 percent for most pollutants, and yet we have an incinerator 
downtown which continues to burn totally uncontrolled. New York State 
wrote a law banning the construction of this incinerator due to public 
pressure. Yet the extent of environmental contamination by this 
incinerator would have paled in comparison to what people have been 
living with for months. The emissions from the World Trade Center fires 
were orders of magnitude more than any incinerator, many months have 
passed, and we have heard very little about a serious attempt to 
contain the emissions from the site. No attempt had been made to put 
out the fires (i.e. by cutting off the sources of oxygen from above and 
the tunnels below.) No procedures have been established to require or 
do this. Why wasn't there discussion to erect a temporary structure 
(dome) over the site, and install incinerator emissions controls to 
clean the air inside the dome so that the workers could do their work 
in safer conditions and the cleanup around the downtown be finished, 
once and for all? (Now every time there is a wind, the debris is picked 
up and dispersed)
    Third, there has been a toxic and carcinogenic ``soup'' of air 
pollutants in the downtown air, constantly being generated by fires, 
and worse, smoldering embers that incompletely combust thousands of 
tons of toxic precursors present in the form of fine particles and 
gases--the perfect recipe formation of dioxins, furans, and similar 
products of incomplete combustion.
    It's hard to imagine a more perfect machine for generating toxic 
and carcinogenic air pollution. First, there were thousands of tons of 
asbestos, fiberglass, silica, and very alkaline concrete which was 
pulverized into various size fractions, but much of which was extremely 
fine in size. Then there was a tremendous source of heavy metals, PCBs, 
and acids just from the building's contents (latex paints typically 
contain mercury--think of the number of gallons there was on the 
walls). Lead came from volatilization of lead from car batteries, 
leaded glass in computer screens, lead solder, and lead pigments among 
other sources. Mercury would have come from batteries, fluorescent 
lighting, paints, thermostats and thermometers, mercury light switches, 
and other sources. The same is true of cadmium, chromium, arsenic, and 
other heavy metals. Most of this was initially pulverized; much of that 
was then in a form easy to volatilize given a high enough temperature.
    In addition there were combustible products and packaging all over 
the buildings--everything from products and packaging made of paper, 
cardboard, wood and plastic, including furniture, floor coverings, 
textile partitions just to name a very few. Fire is easier to start 
when the combustible matter is a very fine size because the temperature 
and oxygen can get to all surfaces quickly (try to start a log burning 
vs. small scraps of paper). The source of heat in the WTC came not only 
from burning of the jet fuel, but also from the cars underground, as 
well as from the combustible materials in the building (paper and 
plastic are highly combustible).
    The paper and plastics are not only important because they fed the 
fires, which volatilized metals and other toxic gases, but also because 
under conditions of a few hundred degrees to 1800 degrees Fahrenheit, 
dioxins, furans, and similar compounds form, de novo, when paper and 
plastic smolder where insufficient oxygen and temperature is present to 
burn them thoroughly. In the 1970s, before it was known that municipal 
solid waste incinerators needed to be designed and operated very 
carefully to combust the waste thoroughly, some incinerators created 
tens of thousands of nanograms/cubic meter of dioxin emissions. The 
stack size of one of these incinerators was a tiny fraction of the 
equivalent stack size of the World Trade Center air pollution source. 
In the pile, there was certainly little oxygen, there was a great deal 
of dioxin precursors (paper and plastics), and the temperatures were 
perfect for incomplete combustion, so the smoldering would have 
permitted the generation of an enormous quantity of toxic and 
carcinogenic organics.
    Dioxin is a family of 210 discrete man-made chemicals that are some 
of the most carcinogenic and toxic chemicals known. Dioxin is the 
contaminant of Agent Orange that was responsible for birth defects 
across Vietnam after that war ended. Dioxin adheres very tightly to 
particulate matter in incinerators, and is stored in fatty tissues in 
human beings for long periods of time. Dioxins are created in large 
quantities in poorly designed, uncontrolled incinerators, when products 
such as paper, cardboard, wood are incompletely burned with such 
substances as PVC plastic, benzene, and other chlorinated ring 
structures. The Trade Center was full of fuel for such incomplete 
combustion. The optimal temperatures for formation of dioxin are 
roughly between 400 to 1800 degrees Fahrenheit. European dioxin 
emission standards from an incinerator with a small stack (as compared 
with the area of Ground Zero) are 0.1 nanograms (billionths of a gram) 
Toxic Equivalents per cubic meter of emission.
    The finer the size of the particulate matter, the greater that 
amount of volatilized heavy metals, dioxins/furans, and acid gases that 
can condense from the air and adsorb onto the particulate surfaces 
(because the surface area of the particulate is so much greater). Also, 
the finer sizes of particulate matter, laden with toxic and 
carcinogenic substances, can evade the body's coughing mechanism--the 
cilia--all the way down to the alveoli (air sacs) where they can reside 
for the long-term. The longer the fires burned, the greater was the 
source of volatilized metals, organics, and acids. The fires burned and 
smoldered for at least 100 days; a decision was made on some level not 
to attempt to suffocate them (i.e., blocking off all the sources of air 
from above and below). Because the decision was made not to contain the 
site, every time we have a heavy wind, the dust that is still all over 
Lower Manhattan is kicked up and spread around more. The city's meager 
attempts to wet down the streets certainly resulted in some of the 
asbestos/fiberglass/toxic and carcinogenic dust to be washed out into 
the harbor via the storm sewers (doing unknown damage to ecosystems 
there), but much of the dust remained in place, just to become airborne 
again once the water had evaporated. The city should have been applying 
a ``wet-vac'' technology to collect the dust so that it could be 
brought to a hazardous waste disposal site.
    Fourth, there are a few types of air quality standards----
    (1) Ambient air quality--mostly irritants (SO<INF>2</INF>, 
NO<INF>x</INF>, CO, O<INF>3</INF>, particulates) from cars,
    (2) Occupational exposures (a wide range of pollutants, 8-hour/day 
exposure), and
    (3) Emissions from point and non-point sources (as measured in the 
stack or tailpipe).
    (4) There are just a few standards for hazardous air pollutants, 
which cause health effects with far lower doses (ppm, ppb) than the 
criteria air pollutants for which there are ambient air quality 
standards. Most toxic and carcinogenic air pollutants are not regulated 
under ``NESHAPS'', and there has been decades of delays in standard-
writing for other pollutants. This needs to be rectified soon, before 
we face something like this again.
    The shortcoming of ALL these types of standards is that they were 
calculated by considering the effect on human health and the 
environment (i.e., the health of ecosystems) of only one pollutant at a 
time. If the air contains 2, or 5, or 500 discrete organics, heavy 
metals, acids, each of which has its own toxic and carcinogenic 
properties, but every pollutant is below the individual standard 
levels, then the Government points to that and says that the air is 
safe. But is it? The Government hasn't written standards for 
combinations of pollutants, so it considers the air to be safe if all 
standards, as currently written, are met. It's common sense that 
elevated levels of five pollutants is worse than one. It's also common 
sense that when there are widespread complaints of symptoms ranging 
from headaches and coughing to new onset asthma in marathon runners, 
and when everyone who entered into areas a half mile away and more from 
Ground Zero could smell the pollution, the air has not been ``safe'' 
for everyone. The additive effects of multiple pollutants need to be 
considered in assessing evacuation zones, public and health measures. 
Furthermore, two or more pollutants can interact with one another and 
produce impacts that are significantly more than the additive effects. 
Research has shown that inhalation of both asbestos and cigarette smoke 
produces several times the effect of either one alone. When 1+1+1 does 
not equal 3, but equals 30, this is called synergy. The Mt. Sinai 
Environmental Sciences Laboratory, which pioneered research into the 
health effects of asbestos, has found that those exposed to asbestos 
and who smoke, have not twice but 80 to 90 times the probability of 
suffering from asbestos-related diseases such as lung cancer, 
mesothelioma and asbestosis.
    Despite the fact that the air was still so full of contaminants 
that everyone could smell ``it'' many blocks from Ground Zero until the 
end of November, all three environmental agencies stated that nothing 
was wrong with the air at the City Club's forum on October 26. Their 
basis is that each individual pollutant is below action or standard 
levels ``most'' of the time. But it is clear that a large number of 
pollutants are significantly elevated above background levels. I 
received an email from Dr. David Cleverly, dioxin expert at USEPA, that 
dioxin had been 50 times normal background levels, but not as high as 
actionable levels most of the time.
    But EPA's website says that ``most of the air samples taken in 
areas surrounding the work zone and analyzed for dioxin have been below 
EPA's screening level, which is set to protect against significantly 
increased risks of cancer and other adverse health effects. The 
screening level is based on an assumption of continuous exposure for a 
year to an average concentration of 0.16 nanograms per cubic meter (ng/
m<SUP>3</SUP>)'', which is 60 percent higher than incinerator emission 
standards at the stack exit in several European countries. Twelve days 
after the attack, ambient concentrations of dioxin were 0.139 ng/
m<SUP>3</SUP> at Church and Dey just east of the site, 0.16 and 0.18 at 
Barclay and W. Broadway just north of the site, and at Broadway and 
Liberty, levels were at the 0.1 level. No measurements were taken 
northeast of the site, which would be downwind most often. The 
temperatures of the debris have also continued to be sufficient to 
vaporize many toxic heavy metals, such as lead, cadmium, chromium, 
arsenic, mercury, to mention just a few of the many that have surely 
been emitted in large quantities from this uncontrolled incinerator. I, 
myself, could smell the metals in the air while I was at the Municipal 
Building for a meeting in early October. My colleague, and medical 
waste incinerator expert who wrote the city's Medical Waste Management 
Plan in 1991, Wally Jordan of Waste Tech, remarked that he smelled 
chlorinated organics when he went to the site around that time. From 
what I have heard, the temperature of the pile has been within this 
temperature range for much of the time since September 11th, so the 
emissions from these fires could easily be similar to a number of 
uncontrolled incinerators.
    Only recently did EPA put any dioxin data at all on its website, 
and there is no mention of background or action levels for dioxin or 
any other pollutant. Many heavy metals have not been listed on the 
websites. Background levels refer to what is loosely considered to be 
``normal'' levels of any given pollutant in the atmosphere. But what 
does it mean if dioxin plus hundreds of discrete substances including 
asbestos and several other toxic and/or carcinogenic organic compounds, 
heavy metals, silica, acids and other gases and particulate matter are 
elevated, or even many times background levels, and are borderline 
actionable? Doesn't it seem likely that breathing air in which many 
toxic or carcinogenic pollutants are borderline actionable is worse for 
public health than breathing air in which only one pollutant is 
borderline? Yet standards assume the impact on human health is from 
only one pollutant. Is it protective of public health to look at each 
pollutant one at a time, ignoring the additive effects of inhaling each 
of several pollutants? Can we assume that the impacts on human health 
is only the additive effect of the concentrations of each pollutant, or 
might there be synergistic interactions between some of these compounds 
that increase the impacts further? Since ambient air standards are for 
individual pollutants, it is imperative that research be done to assess 
the impacts on public health of combinations of pollutants. Standards 
need to be rewritten as well to assess the impacts of synergy. The 
environmental agencies at all levels need to become more expert in 
evaluating the health and environmental effects of various mixtures of 
pollutants. Based on this information EPA should rewrite its air 
quality standards to assess the impacts of various combinations of 
pollutants so that we will be ready next time to know how to protect 
the public health.
    Fifth, various governmental agencies have applied occupational 
safety exposure levels for specific pollutants to those exposed to WTC 
air. But there are several distinct groups of those exposed, and each 
group has had distinctly different exposures:
    <bullet> Those working on the pile (Variables: the level of 
emissions have decreased over time as the fires decreased in extent, 
degree of protective respirator/masks used, amount of time spent).
    <bullet> Those who were caught in the initial horrendous dust 
cloud, covered in dust, running away, breathing intense quantities of 
dust deeply into the lungs and ingesting dust particles.
    <bullet> Those living in the area (Variables: level of emissions 
varies depending on specific location, on weather, and length of time 
since September 11th; degree of protective respirator/masks used).
    <bullet> Those who cleaned apartments (level of exposure varying 
with amount of dust in apartment, method of cleaning, degree of 
protective respirator/masks used, amount of time spent in cleaning).
    <bullet> Those working in the area--8 hours a day five days a week; 
(Variables: degree of protective respirator/masks used).
    <bullet> Those at risk: children, elderly, compromised immune 
systems, those with pulmonary problems are more likely to suffer more 
adverse affects than others for all the above categories.
    <bullet> Handlers of disposed debris: shipments to India, S. 
Korea--no protection for workers offloading (no knowledge of contents).
    <bullet> Most of these groups of exposed cannot be compared with 
occupational exposure. Studies of occupational exposure assume 5 days a 
week, 8 hours a day exposure to adults (healthy males?) What about 
those who live there, those at risk, those caught in the initial cloud? 
This requires considerable investigation, and many new standards need 
to be created to address these different categories of exposure.
    Sixth, entrainment of pollutant-laden fine dust is also occurring, 
as we heard, by loading debris into trucks and barges. There are 
standards for reducing entrainment of incinerator ash. These involve 
spraying water and containment in leak-proof, covered trucks. Why 
aren't we enforcing those standards? Is it because this is not an 
incinerator? Shouldn't common sense dictate that the closest standards 
that exist be the ones to be followed in such a case? We heard that 
``guys with guns'' enforce covering of trucks--Now. But I had heard 
from people who lived in the area, that the military had been enforcing 
the opposite in the first weeks, when pollutant levels were highest, so 
that they could check the trucks' contents. That the trucks might be 
covered by leaky tarps now does not negate the exposure to residents 
and workers of pollutants that were emitted earlier.
    Seventh, air quality data has been selectively shared with the 
public, leaving the public mistrustful. Further, the agencies waited 
far too long to begin adding monitors to the area. We can only imagine 
the levels of dioxin, asbestos, heavy metals, acids, other organics, 
silica, etc. that was in the air while people were running from the 
area. We shouldn't ignore this impact on their health. On EPA's 
website, it initially listed only asbestos in air, asbestos in dust and 
a gross measure of particulate matter in air. After several weeks 
passed, EPA added PCB and lead. After another few weeks, a few days' 
individual samples of dioxin were presented. All told, this is maybe 20 
pages of information. But in a televised public forum (City Club forum 
held October 26 and subsequently televised on CUNY TV), EPA said that 
all of its data was online. EPA repeated this at City Council hearings 
on November 1 and at State Assembly hearings later in November. Early 
on, I learned that EPA had 900 pages of data, including a list of heavy 
metals, dioxins and furans, acid gases, as well as those items listed. 
But EPA has demanded that the Manhattan Borough President and City 
Council must file Freedom of Information requests for it or else come 
to the repository and look at it. I asked for an electronic copy. I was 
told I was the first one to ask for it, and was told that it would not 
be possible to email me the data. How could this be, since the data 
surely exist on someone's computer? The Borough President's office 
never filed the FOI request (since their policy is not to do so). It is 
just this kind of secretive behavior that invites journalists or others 
without scientific training, who do go down to view the full datasets, 
to quote data selectively. If the data were freely available in a 
spreadsheet, then academic, environmental, and community institutions 
could have already started studies. Those who want to conduct analyses 
are still unable to do so. Considering what is available online, the 
datasets appear to be thin, with many pollutants missing from the 
database and with only a few dates sampled for some pollutants. The 
first date that dioxin data are available are 12 days after the event. 
Most data are not available daily. Datasets for many pollutants are not 
available at all online.
    Where was EPA while thousands of New York City residents were 
exposed to air pollutants from the WTC collapses? The EPA website shows 
only summaries of data, when they could have made data from September 
11th onwards available for Lower Manhattan. If more or earlier data is 
available online, it's not easy for the public to find. EPA should make 
its entire air quality archives easily available on its website as well 
as those from all other sources.
    Not only was EPA's secretiveness reprehensible this time, but 
procedures should be put in place NOW to ensure that should anything 
like this ever happen again, the environmental agencies would 
immediately be meeting to coordinate comprehensive sampling and 
analysis, AND prompt disclosure to the public via the internet of ALL 
data along with all current and applicable standards as well as 
background levels for each pollutant.
    We also need to conduct research to understand toxic and 
carcinogenic impacts of multiple pollutants. One method of doing this 
is by conducting assays using surrogate organisms, to observe the 
impacts of different pollutant combinations. Tetramitus flagellate is 
one such organism that has been shown to indicate toxicity of unknown 
mixtures. Dr. Robert Jaffe, of the Environmental Toxicology Laboratory, 
http://www.envirolab.com/ has been pioneering work in this area.
    Eighth, very little has been spoken about building codes, and how 
the composition, structure, and operation of buildings contributed to 
the death toll, and how revision of these regulations is needed to 
prevent future deaths. When I worked on the 83rd floor of WTC 1 for a 
couple of years around 1980, we didn't have fire drills very often (I 
can only remember one, maybe two). When we did have drills, we were 
told to walk down the stairs to the 78th floor at which point we were 
told to stay put. That was the total extent of the fire drill. Is that 
protective of public health? The truth is, the WTC buildings were so 
tall that they were not readily evacuable. The stairways were not 
designed to evacuate everyone in a reasonable amount of time. To 
complicate this further, the Port Authority made announcements to go 
back to their offices. They did not immediately send announcements to 
everyone in both buildings to evacuate to the ground floor and leave. 
Some people who had gone to the first floor returned to their offices 
and lost their lives. A last point: Firefighters were coming up the 
same stairwells that the thousands of office workers were using to 
evacuate. This effectively halved the capacity of the stairwells for 
evacuation purposes. How many people might have gotten out if they 
didn't have to wait to enter a stairwell that was reduced to half its 
original capacity (remembering that some of the stairwells became 
impassable due to the fires themselves)? How many other tall buildings 
in NYC have insufficient number of narrow stairwells? How many are not 
totally evacuated during fire drills? What about those in wheelchairs 
on high floors? All these questions point to the need to limit the 
number of floors of new buildings to a size that can easily and 
routinely be evacuated quickly, assuming that firefighters will need 
space in the stairwells.
    Insofar as construction of future buildings is concerned, attention 
must be paid to the safety factor chosen for retarding the effect of 
fire on the building's structural members. The WTC was designed to 
withstand the impact of a 707 aircraft. But why wasn't it also assumed 
that the 707 would be carrying thousands of gallons of jet fuel, and 
that this jet fuel would cause a fire of sufficient temperature and 
duration to melt the steel members? This is not a difficult mental 
exercise, and structural engineers figured this out within a day or so 
of having watched the floors compact. There is no room for error. If 
just one floor gives way, because the steel has partially melted, the 
weight of floors above comes crashing down, and the entire building 
will collapse, immediately, as we saw. Note that WTC building No. 7 was 
not even hit by an aircraft, but it also collapsed due to the duration 
of fire. The structural engineers interviewed said that it would have 
been possible to put a thicker layer of protective coating on the 
structural members of the WTC, but it would have cost a little more. 
How many people would have been saved if the buildings held together 
for another half hour? We should learn from this disaster. Building 
codes should be revisited to address all these issues and correct all 
deficiencies.
    Since the City Council's Environmental Protection committee held 
two days of hearings (November 1 and 8), and the New York State 
Assembly held hearings in late November 2001, the Senate Environment 
Committee would be well served by looking at the transcripts and videos 
of those presentations--particularly those presented by the public.
    I'll close by drawing an analogy with the way the environmental 
agencies are dealing with the public health hazard downtown. In south 
Florida, where I grew up, in the 1940's, as tourism was quickly 
growing, the Government kept information about hurricanes secret for 
fear that too much information would hurt business, particularly the 
tourist trade. Predictably, south Florida got walloped a couple of 
times, and then the Government, wisely, decided to make an about-face 
and become the world's experts on hurricane tracking, prediction, 
alerts, mitigation and standards for evacuation of the population to 
protect the public health. They established a world-class center in 
Coral Gables to serve as the source of information and research. Later, 
by the time I was six, I was tracking every hurricane's progress on a 
chart I got for free at the 7-11 store by listening to the radio for 
coordinates.
    We have exactly the same situation here. There is a lot we don't 
know. The Government wants to protect business and the tourist trade. 
The Government has kept a great deal of information off limits to 
anyone for the first several weeks, and lately it has made it difficult 
to obtain in any usable form. Even worse than this is that we don't 
know the long-lasting impacts of the initial huge, dense cloud of 
finely pulverized asbestos and silica-laden dust on those running and 
inhaling deeply in its midst. We don't know the additive and 
synergistic effects of combinations of many toxic and carcinogenic 
pollutants that continue to be emitted from the fires or entrained from 
the dust as it blows off the rooftops and ledges. Will this exposure to 
air pollution compromise immune systems, making people more vulnerable 
to future illnesses or terrorist attacks? On what basis did the 
Government choose a perimeter for evacuation? On what basis did they 
rush to reopen the area? Have we learned anything from this experience? 
Now is a time for the environmental agencies to pull their heads from 
the sand, make an about-face, coordinate and release all data and 
interpretive guidelines on the Web. We need to err on the side of 
caution rather than seeking to go ``back to normal'' at the cost of the 
public health.
    The Federal Government should assist the city by committing its 
funds and encouraging the Governor to seek additional Federal September 
11th grants on an accelerated basis to conduct ongoing, comprehensive 
surveillance of symptoms in affected populations, buy room filters for 
residents, pay for proper indoor and building cleanup, research the 
acute and long-term impacts on health of highly concentrated 
combinations of pollutants acting for a short time, as well as elevated 
levels of combinations acting for longer periods of time.
    The Federal Government should write new standards to reflect short-
term exposure to high concentrations, as in the initial cloud, as well 
as synergistic effects of many toxic, carcinogenic pollutants.
    We also need to have contingency planning for different types of 
environmental disasters as this new war against terrorism progresses. 
We need to actively examine worst case scenarios and plan for them. We 
need to understand how far to evacuate and for how long. This is the 
only way to regain public trust. Recalling the hurricane example, and 
realizing that we may not be finished with terrorism, becoming the 
world's experts in environmental health disasters and being truly open 
with the public is the best course of action in the long term.
                            recommendations
    1. To investigate, quantify, substantiate, and publicize any lies, 
misstatements, unpreparedness, lack of coordination, ineptitude, lack 
of attention to redirecting staff, or worse that did occur in the days 
and months since the World Trade Center attack on September 11, 2001. 
The Ombudsman should investigate all apparent or actual conflicts of 
interest that might have motivated agency and elected officials to make 
statements or make decisions.
    2. To investigate and come to conclusions on:
    (a) the bases for EPA's and other elected and appointed officials' 
statements as to the safety of the downtown area for reoccupancy, 
(i.e., what did they know, when did they know it, who did they ask, 
what agencies did they coordinate with, and on what topics--example: 
when did EPA first learn about the caustic nature of the dusts from 
USGS),
    (b) the instructions and protective equipment tenants and landlords 
were given for cleaning indoors, by which agencies, and the agency 
procedures on which this was based, and
    (c) the lack of attention to indoor air quality by EPA and the 
agencies for months after the attacks despite precedents of EPA having 
done so in other similar instances. Knowing this information should 
help in designing.

          (1) Improved procedures for intra- and inter-agency 
        communications in the event of environmental disasters.
          (2) Criteria for evaluating whether an incident, be it a 
        natural or man-made disaster is an Environmental disaster, and 
        procedures for their use.
          (3) Procedures for immediate, multi-pronged, and continual 
        communications of all information with the affected public.
          (4) The standards that should be used to protect public 
        health. Per Cate Jenkins memo, the NYC DOH chose a standard 
        many orders of magnitude less protective than the one in one 
        million standard that EPA typically chooses.

    3. To issue recommendations on EPA emergency actions in the case of 
suspected environmental accidents, disasters, releases. Which Federal 
Agency takes the lead in protecting public health in such a 
circumstance? How do they coordinate, on what topics, and in what time 
frame? How fast should they communicate and coordinate with the State 
and local agencies? How is the responsibility and work to be divided?
    4. To issue, publicize and widely disseminate a report combining 
measures and procedures used to measure all specific pollutants from 
ALL air quality and dust measurements that have been taken by EPA, 
other agencies, and private companies since September 11th. It would be 
helpful if this, and other reports you issue, were available for 
download, and that data be available in database or excel format that 
can be used in research (PDF format cannot).
    5. To characterize and quantify the extent to which the public's 
health has been adversely affected (those working on the pile, those 
living/working in the area, children, elderly, immune-depressed, short- 
and long-term) by the air pollution from the WTC attacks, or at least 
make detailed recommendations of who should research this.
    6. To seek to make the overall results of extensive medical tests 
(baseline and continuing) being done on the entire group NYC fire-
fighters to become public.
    7. To make determine and make recommendations on how much money is 
necessary to examine and conduct long-term follow-up on all those 
exposed to air pollution and dusts from the September 11th attacks, and 
from where the source of funding might come, and seek increased Federal 
funding to cover these costs.
    8. To recommend that the National Academy of Sciences conduct a 
risk assessment of the public health impacts due to the air pollution 
caused by the September 11th attacks.
    9. To ensure that guidance is disseminated to all physicians and 
hospitals in the area to look for and properly treat those exposed to 
WTC air. According to Mt. Sinai February 4, 2002 memo to help 
physicians determine whether pulmonary symptoms are related to WTC, 
some symptoms from exposure can begin as late as 3 weeks after exposure 
or cessation of exposure. If physicians have to be given guidance on 
these issues, many of those exposed are likely not to realize their 
symptoms are WTC-related. Why didn't the city, State or Federal 
government issue this memo in September? Efforts are not being made to 
locate all those who were exposed and to characterize their exposures 
and register their symptoms over time.
    10. To recommend and publicize specific measures that need to be 
taken immediately to clean up the downtown area of dangerous dusts and 
to prevent the continuous reentrainment and spread of these dusts from 
the Ground Zero area into surrounding areas.
    11. To investigate existing EPA standards and procedures to see 
whether standards required to prevent, control, or remediate 
environmental contamination in environmental disasters, accidents, or 
releases were not used to prevent, control or remediate pollution in 
this case (and why). Example: to prevent the spread of incinerator ash 
when it is transported from its source to a landfill, Federal 
regulations requires that the generating (and intermediate handling) 
facility be enclosed and operated with negative air pressure, that the 
ash is totally wetted, that trucks transporting ash be entirely 
containerized and sealed to prevent entrainment or leaking onto the 
ground, and that receiving facilities operate under similar 
constraints. Despite the fact that the debris from the WTC has the 
consistency and many properties of incinerator ash, leaky, imperfectly 
covered trucks are continuously scattering the debris between Ground 
Zero and the barge at Pier 25. Why aren't existing protective 
procedures being used? Steps need to be taken (i.e., legislation) to 
ensure that in all future environmental disasters, the entire array of 
existing procedures be canvassed and that the most protective 
procedures appropriate to the situation be utilized.
    12. To develop and recommend what measurements need to be taken in 
the event of an environmental release, accident or disaster, and how 
the measuring stations should be deployed and operated. It is 
unconscionable that data taken early on is still dribbling out from the 
Federal Government--e.g., Two samples that were taken inside a high-
rise apartment and in a gymnasium across from the wreckage of the World 
Trade Center had a pH of 11.8 to 12.1--equivalent to what would be 
found in liquid drain cleaner. It is clear that stations were not 
deployed in concentric rings around Ground Zero were not done, and few 
of the measuring stations were in the predominant downwind areas. It is 
clear that many measurements were ``grab'' samples, only for 5 or 6 
minutes. Since the wind direction and speed varies, it is necessary to 
have continuous, long-term samples looking both for long-term averages 
and for short-term spikes.
    13. To recommend measures that need to be taken immediately to 
remediate the public health impacts resulting from inhalation and 
ingestion of polluted air. First we need to identify Everyone who was 
in the area at the time of the attacks, including the pile and 
enforcement workers, those who have lived or worked in the area, those 
who have been hired to clean up apartments and businesses. Then we need 
to get medical histories to construct a baseline (a Registry). The 
exposure should be quantified, first by location during each day of the 
pollution period, and then by the type of activities performed--those 
breathing heavily due to working on the pile, running for one's life, 
etc. involves an increased exposure due to more forceful inhalation 
(more air and particles brought deeper into the lungs, allowing the 
possibility for more to be retained long-term in the lung. This study 
and ongoing medical examinations and treatments, for all diseases that 
should arise, should be performed, at Federal expense, for a period of 
20 or 30 years.
    14. To investigate the procedures underway at Fresh Kills 
landfill--are they protective of workers, what is the airborne 
dispersion of dangerous materials. Procedures at the barge should also 
be investigated; are workers wearing protective gear? Are materials 
being well-contained?
    15. To investigate the disposal and marketing of WTC debris and 
recyclable steel--has testing been done to quantify whether this is a 
hazardous waste, and should be transported and handled under those 
rules? If it is hazardous waste, is the facility that has been selected 
for the debris, consistent with Federal or State rules? To the extent 
that scrap steel or other materials are exported to other countries 
(e.g. steel that has already gone to India and S. Korea), has EPA or 
any other Federal or other agency advised those on the receiving end 
about the composition of the materials, or protective handling 
procedures? This isn't the first time a company or municipality in the 
United States has exported toxic waste to another country without 
proper advice or precautions, and it won't be the last. There should be 
a law.
    16. To encourage research into and adoption of more protective 
building codes (less toxic materials, evacuable buildings, better fire 
drill and practice evacuations, better, more well-thought out 
announcement systems during emergencies. It is arguable that many 
people died in stairwells too small to evacuate everyone, especially 
since their capacity was reduced by half due to firefighters climbing 
them at the same time. It is arguable that some died when they heard 
Port Authority announcements to go back to their offices. Could the 
buildings be built with fewer toxics?
    17. If the U.S. Attorney General's statements can be taken at face 
value, we can expect worse terrorist attacks in the future. It is not 
unlikely that any future attacks will involve some degree of 
environmental contamination. Many scenarios for future attacks would 
involve some of the same issues as are being dealt with here (indoor 
contamination, removal, not just wetting of outdoor contamination). In 
addition to terrorist attacks, environmental disasters can and have 
occurred in other ways: industrial accidents, natural disasters (e.g., 
major earthquakes in urban areas, tornadoes, fires, hurricanes). 
Utilizing my knowledge of geology, it is a 100 percent certainty that 
major west coast cities will suffer even greater destruction 
(collapses, fires) than they have already due to larger earthquakes in 
the future. We just can't reliably predict when. Therefore, many of 
these recommendations will be useful in protecting public health after 
future disasters.
    18. There are no uniform, justifiable procedures for determining 
the evacuation of nearby populations after an environmental disaster, 
therefore, we are woefully unprepared for any environmental disasters 
in the future. This time, the ``frozen zone'' was not based on specific 
scientific principles, and neither was the timing of allowing people to 
return. We should learn from the experience with establishing hurricane 
evacuation routes, and the procedures taken to order evacuations for 
approaching hurricanes. As important, it is necessary to develop 
justifiable procedures for repopulation after an environmental disaster 
(i.e., the testing that needs to be done, the verification that safe 
conditions exist).
    19. For these reasons, and similar to the decision to establish a 
National Hurricane Research Center in Coral Gables (when it was 
realized that we didn't know how to track, predict, evacuate or 
minimize impacts of hurricanes), we need to establish a permanent 
Environmental Disaster Research center dedicated to conducting all the 
research that was needed prior to now to determine and address the 
synergistic and other impacts on human health of various types of 
environmental disasters. Examples of research would include 
investigating the impacts of combinations of pollutants that we have 
observed in this case. Other areas for research, development, and 
demonstration would be the measurement technologies for screening for 
unknown combinations of pollutants, as Dr. Robert Jaffe has developed. 
This research should then be used to develop new air quality standards 
to address impacts from combinations of pollutants. Results of the 
research conducted at this facility would be invaluable to the Congress 
and those writing air quality, emissions, occupational safety, and 
NESHAP standards at EPA.
                                 ______
                                 
                              Attachment 1
                   [From CorpWatch, February 6, 2002]
                          Trading in Disaster
                (By Nityanand Jayaraman and Kenny Bruno)
world trade center scrap lands in india, indian citizens group protests 
     wtc scrap, potential contaminants in world trade center debris
    CHENNAI and NEW YORK--It might seem like a tangent to the tragedy 
of the Sept 11th attacks: the fate of the thousands of tons of steel 
that formed the twin towers. As with so many other unwanted materials 
from the United States, more than 30,000 tons of steel scrap--possibly 
contaminated with asbestos.
    PCBs, cadmium, mercury and dioxins--has been exported to India and 
other parts of Asia. Though the risks from the scrap are probably not 
on the order of the health threats at Ground Zero, the United States 
nevertheless has the obligation to ensure that toxic contamination from 
the World Trade Center is not exported to other nations.
                          mysterious shipments
    At least one shipload, onboard a vessel named Brozna, landed in the 
South Indian port city of Chennai in early January. The scrap was 
unloaded, as any routine consignment would be, by port workers with 
absolutely no protection. Two other ships, Shen Quan Hai and Pindos, 
also reported to be carrying World Trade Center scrap berthed and 
offloaded their cargo in Chennai. But preliminary investigations failed 
to reveal documentation linking the cargo to the Trade Center. Reports 
are vague about another shipment making its way into Northern India 
through the Western port city of Kandla.
    Similar shipments have reportedly reached China, where Baosteel 
Group purchased 50,000 tons of the potentially toxic scrap. Malaysia 
and South Korea are also reported to have received shipments. 
Eventually, most of the 1.5 millions tons of scrap from the cleanup may 
end up dirtying Asian ports and threatening Asian workers.
    Few details are known about who purchased the scrap, but an 
unidentified Indian trader reportedly bought an undisclosed amount of 
the World Trade Center debris, and the 33,000 ton shipment onboard the 
Brozna was collected by Chennai-based Sabari Exim Pvt. Ltd. and removed 
to the company's facilities outside the city.
    Nor are the names of U.S.-based traders who may have exported the 
shipments to India known. However, two New Jersey companies were among 
the bidders that won the contract for removing more than 60,000 tons of 
Trade Center scrap. New Jersey-based Metal Management Northeast, bought 
40,000 tons and Hugo Neu Schnitzer, based outside Jersey City, bought 
25,000 tons. Schnitzer was reportedly eyeing the Southeast Asian 
markets, possibly Malaysia, where prices are higher.
             public health concerns from tribeca to chennai
    In this case, it is hard to accuse the United States of double 
standards because U.S. safety regulations were trampled in the chaos 
over Ground Zero. In Lower Manhattan, thousands of rescue workers and 
residents have been exposed daily to unknown but significant dangers 
from air contamination. Hundreds of New York firefighters are filing to 
go on permanent disability, while serious respiratory infections and 
other chronic health problems afflict area residents, especially 
children. A few days after the attacks, even President Bush stood on 
the rubble without protective gear, joining the rest of a city too 
shocked and too busy to take proper precautions against the toxic cloud 
over Manhattan.
    The steel scrap imported by India and China may not represent the 
same level of health threat as Ground Zero. But given the amount of 
material involved, and the short time frame for any decontamination 
process, it is indeed possible that the steel is contaminated with 
toxic materials.
    In the months after the bombing reports surfaced about the presence 
of toxic contamination at Ground Zero, including poisons such as 
dioxins, polychlorinated biphenyls (PCB), cadmium, mercury, asbestos 
and lead in the debris. What remains in question is whether toxic 
chemicals have attached themselves to the steel scrap.
    There are no safe levels of exposure to cancer-causing substances 
like asbestos, PCBs and dioxins, and toxic metals like cadmium, mercury 
and lead. Asbestos, PCBs and dioxins may cause harm even in miniscule 
doses. Also, like cadmium and mercury, once ingested or inhaled, they 
resist degradation or excretion and tend to build up to dangerous 
levels in the body over the long run.
    Insurance companies like American International Group and Liberty 
Mutual have refused coverage to the demolition contractors charged with 
the cleanup. The contractors fear that without insurance they will be 
driven into bankruptcy by an anticipated flood of lawsuits over 
asbestos, mercury and other toxins released into the air by the 
collapse of the twin towers and clean-up efforts, according to the New 
York Times.
                         not enough information
    Contamination of steel scrap is a common concern in the scrap 
industry. As far as CorpWatch has been able to determine, U.S. 
authorities have not studied the levels of contaminants in the Trade 
Center scrap that was exported. If they have, the information has not 
reached Indian authorities or port workers.
    Trade union groups swiftly moved into action when the exports were 
reported last month, but were hamstrung by the lack of information. 
``The Port Authorities tell us that steel scrap is legal. Unless we 
find evidence of contamination, we can't stop the shipment,'' said S.R. 
Kulkarni, secretary of the Mumbai-based All India Port & Dock Workers 
Union.
    Nor has the information been forthcoming in the United States. The 
New York Environmental Law and Justice Project recently filed a Freedom 
of Information Act request with the USEPA after U.S. public health 
activists suspected regulatory officials were downplaying the toxic 
contamination in and around Ground Zero.
    However, Chennai-based lawyer T. Mohan says there's enough doubt 
raised about the safety of the debris to warrant precautionary steps. 
``There were talks to declare Ground Zero a Superfund site. That's 
proof enough for us to be concerned that this consignment may be 
contaminated,'' he noted.
                           who's responsible?
    Under the Basel Convention on the Transboundary Movement of 
Hazardous Waste, it falls to the Indian Government to prevent the 
import of wastes if they are found hazardous. That's because the United 
States refuses to sign the Basel Convention and is therefore not bound 
by the treaty. This includes an amendment know as the Basel Ban 
prohibiting developed countries from exporting hazardous material to 
industrializing nations like India. But Mohan believes that morally, 
``the burden of proving [the waste] is not hazardous rests with the 
U.S. exporters and U.S. Government.''
    Despite a Indian Supreme Court order prohibiting the imports of 
hazardous waste into India, U.S. shipments top the list of hazardous 
waste exports to India. Everything from zinc ash, toxic ships-for-scrap 
and lead-bearing wastes are routinely sent to unscrupulous importers in 
India. The Indian regulatory agencies, notably the port and customs 
authorities and the Indian Ministry of Environment and Forests, have 
maintained their habitual silence on matters such as this that pertain 
to human health and environment.
    ``They seem more intent on passing the buck to each other rather 
than dealing with the problem and hauling in the U.S. Government for 
negligence,'' says Attorney Mohan.
    Steel reprocessing is a dirty business, especially when the steel 
contains plastic, chemical and heavy metal contaminants. In fact, 
secondary steel almost always contains some toxic materials. Lower 
wages and laxer environmental regulations in Asian countries mean that 
Asian traders and reprocessors can offer better prices for the steel 
scrap than their European or North American counterparts. That is one 
of the reasons why scrap metal is exported to Asia in the first place.
    The export of contaminated scrap and hazardous wastes to 
industrializing countries fits a long-standing pattern of environmental 
discrimination by the United States. An infamous example is the 
shipload of toxic incinerator ash from Philadelphia that traveled the 
oceans for 2 years before ending up on a beach in Haiti in 1988.
    In a February 4 letter to the U.S. Embassy in New Delhi, three 
major Indian trade unions, Greenpeace and People's Union for Civil 
Liberties blasted the U.S. Government for its ``continued inaction'' in 
stemming the export of wastes and scrap to industrializing countries. 
They called it ``a consistent pattern in keeping with USA's tacit, if 
not active, support for toxic trade.''
    ``We're totally opposed to the United States and other rich 
countries using India as a dumping ground for all kinds of wastes and 
rejects. Such dumping of steel scrap is adversely affecting the major 
steel plants in our country, apart from causing environment and health 
problems,'' says P.K. Ganguly, the New Delhi-based Secretary of Centre 
of Indian Trade Unions.
    The way out of the current bind over the World Trade Center scrap 
is simple, say environmentalists. United States authorities should 
provide evidence that the scrap lying in India is free of poisonous 
contaminants. If the it is found to be contaminated, then immediate 
steps should be taken to return the consignment to the United States.
    If, on the other hand, the shipment is found clean, there may be no 
immediate threat of exposure to toxic chemicals. Even if the scrap 
turns out not to be dangerous, the question remains: who profits--and 
who suffers--from shipping valuable steel scrap to be recycled half-way 
across the globe in India before it returns to the United States in its 
new incarnation as soup cans or luxury cars?
    Nityanand Jayaraman is an independent, investigative reporter based 
in India.
    Kenny Bruno coordinates CorpWatch's Corporate-Free UN Campaign.
                               __________
              Statement of David J. Miller, Burlington, VT
 Military Jet Fuel (JP-4) and Its Possible Implication on Public Health
    At this time I know of no other paper that has drawn a broad review 
regarding benzene, toluene, xylene, hexane and their metabolites with 
regard to petroleum products like (military) JP-4 jet fuel and the 
implication to public health now and in the future.
    If one reviews the literature on benzene it goes back to the 
beginning of the 20th century and continues today, however for those 
parties benzene affected the most, they have little or no idea of its 
danger or its causation. Their life and quality of health being 
affected the most.
    Some may view this presentation with a meta analysis argument, 
however my fundamental motive is edification, bringing about dialogue 
even debate, illuminating issues, establishing proper measures 
appropriate for a remedy.
                              introduction
    Physicians acknowledge benzene's effect on bone marrow immune 
system and the CNS, however by taking an analytical approach one could 
ignore the synergism of the exposure due to a lack of proficiency in 
occupational and environmental medicine.
    To assist in achieving that goal I choose military (JP-4) jet fuel 
due to its composition and wide use during the 1950's, 1960's, 1970's 
and part of the 1980's.
                               background
    ``During the distillation of crude oil to make JP-3 and JP-4 a wide 
cut is take of the distillate so as to include both the naptha 
(gasoline) and kerosene fraction, JP-4 is typically composed of about 
50-60 percent gasoline and the remainder is kerosene<SUP>1</SUP>. Now 
with almost 50 years since JP-4 being standardized under MIL-F-
5624A<SUP>1</SUP>.'' It's clear (with the body of information presented 
in (ATSDR) Agency for Toxic Substances and Disease Registry Publication 
Toxicological Profile for JP-4 and JP-7 June 1995, henceforth to be 
referred to as the profile) a serious balance review must be initiated 
due to JP-4's composition of hydro-carbons to include (additives) 
itemized with generic identification, Page 70. Note aromatic hydro-
carbons are concentrations in weight percent, Pages 72, 73, 74.
                  concerns: (the profile)<SUP>2</SUP>
    Page 3 1.3 (How might one be exposed to jet fuel JP-4 and JP-7?) 
``Workers involved in making or transporting or in refueling military 
aircraft that use JP-4 might breath air containing it.''
    Page 38 2.4 Relevance to public health ``thus apart from those 
individuals involved in the manufacturing process, persons living or 
working near or on a military base would constitute the greatest 
population at risk for JP-4 and JP-7 exposure.''
    To digress, if those concerns apply to JP-4 and JP-7 then similar 
situations would warrant the same attention due to possible evaporation 
from petroleum storage tank farms and emissions due to transfer of 
product JP-4 etc. from point of transport truck, rail or barge without 
vapor recovery systems.
    Although vapor recovery systems are being installed, the question 
of (past exposure) and those most likely at risk identified in the 
profile need to be addressed more fully to expand those factors for 
occupational and residential exposure. Example Machle<SUP>3</SUP> 
writes in (Chronic Intoxication), ``This term is applied to poisoning 
which results from exposure to low concentrations of gasoline vapor for 
long periods of time; severe acute symptoms do not appear, but minor 
symptoms of a general nature are manifested a few weeks or months after 
the exposure has started and become progressively worse, the patient 
may become disabled in a month or in several years.'' The implications 
are profound if the exposure is compounded, Goldstein<SUP>4</SUP>. As 
Toranosuke Ishimaru<SUP>5</SUP> articulates here, ``the six occupations 
noted at a higher frequency among the index cases than in the controls 
in Table 4 were selected for an examination in more detail of the 
relation of occupational exposure and A-BOMB exposure (Table 7) note 
relationship between occupational exposure to benzene or medical x-ray 
occupations and atomic bomb exposure status; frequency of history of 6 
selected occupations. Continuing--in general, the risk was 
approximately 5 times higher among those with a history of any of these 
six occupations in comparison with those without. The relative risks in 
the proximal group and in the distal and non-exposed group were 6.0 and 
4.5, respectively.''
    Continuing with the profiles concern of risk to handlers we then 
can review Lindquist, R.<SUP>6</SUP> ``Our results indicate a three-
fold increase risk of developing leukemia for professional drivers who 
are exposed to petroleum products, i.e., gasoline or diesel and their 
motor exhausts, our findings support previous work suggesting an 
increased risk of acute non-lymphocytic leukemia after occupational 
exposure to petroleum products (3)''. From a public health perspective 
we can no longer ignore past exposure only because of present and 
future implication and that impact on society.
    To reinforce those concerns of previous risk, Pier Alberto 
Bertazzi<SUP>7</SUP> reports, ``the most distinctive pattern of 
increased cancer mortality seemed to be the one observed in association 
with moving operations. Significant excess mortality from all cancers, 
lung cancer and brain tumors was noted.'' (Continuing further) ``The 
greatest opportunity for exposure to volatile hydrocarbons occurred 
during the loading operation, which required the manual connection of 
all filler pipes to the trucks and train tanks and manual measurements 
of product levels in tanks.''
    ``In addition, workers were exposed while staying at the filling 
platform especially during the hot season, to volatiles coming from 
open tanks of standing trucks, and trains.''
    Now there's an obligation to ask at what levels do these 
hydrocarbons have a genotoxic effect on those exposed? Ralph I. 
Nilsson<SUP>8</SUP> established these thoughts. ``The results at 
different exposure levels indicate that even a low level exposure to 
benzene possibly in combination with other compounds in gasoline, may 
cause a genotoxic effect (Table 111, V.) as both tests measure damage 
to DNA. Our findings indicate a genotoxic effect at benzene exposure 
levels of around 0.1 ppm.''
    The before mentioned citations demonstrate the danger to individual 
workers; however we must readdress (the profile's) community concerns 
with more clarity. This can be accomplished by reviewing E.G. 
Knox<SUP>9</SUP>. ``The apparent hazards included oil refineries oil 
storage and distribution depots, railway lines, and other industrial 
sites. Effective ranges extended as far as 5km from the sources. This 
suggested a hazard related to large scale uses of fossil fuels, 
especially petroleum, operating through leakage or evaporation or 
combustion, perhaps all three.''
    Benzene, toluene, hexane, xylene and lead have been identified in 
(the Profile)<SUP>2</SUP> on Page 3, Paragraph 2. ``When they enter the 
environment as part of jet fuel they may behave the same way as when 
they are released alone.'' That being the case, one is compelled to at 
least review some of those complications associated with those 
chemicals and their metabolites.
                                 review
    In the formulation of this review, I've adhered to scientific 
discipline, balanced with objectivity. That mosaic, if you will, began 
to focus on a perspective that was more widespread than I had 
anticipated regarding occupation, exposure and illness. This all 
crescendoed while doing a literature search that directed this author 
to a paper which Lesley Rushton<SUP>11</SUP> had written and made 
reference to ``a proportional mortality study of all deaths over a 10-
year period in New Hampshire found high proportional mortality ratios 
(PMR's) for service station workers for leukemia, suicide, emphysema 
and mental conditions.''
    Once again this odyssey has been punctuated with an intriguing 
citation. This was of great interest only because I had to travel to 
Britain by paper to learn what had transpired in my own back yard. The 
excitement was soon tempered by the sheer dynamics of the report! 
Eugene Schwartz<SUP>10</SUP>, M.D. MPH states in the report, ``Further 
the finding of an excess proportion of deaths from suicide in both 
groups is consistent with the known neurotoxic potential of solvent 
exposure. Acute exposure to solvents may produce transient and 
reversible central nervous system symptoms including headache, 
dizziness, and incoordination. At higher concentrations convulsions, 
loss of consciousness, and death may result. Long-term exposure to 
solvents can result in memory impairment and behavioral changes, 
including irritability, depressive symptoms, and emotional stability. 
Gasoline is a complex mixture of hydrocarbons blended with a 
combination of additives including antiknock agents, inhibitors, and 
dyes, of the more than 40 components, most are paraffins, naphthenes, 
aromatics, and olefins. The benzene content of gasoline is between 1 
percent and 3 percent by volume and is higher in unleaded than in 
leaded fuels (McDermott and Voss, 1979)''. Further on, ``recent data 
indicate that gasoline vapor may be carcinogenic apart from its benzene 
component.'' (Note: JP-4 is 50 to 60 percent gasoline).
    Individuals subjected to benzene and other compounds should be 
instructed of the quantitative risk associated with the nature of their 
exposure in order that appropriate medical protocol may be established 
for present and future assessment and care. Once those parties are 
instructed of the dangers of exposure, they can immediately take steps 
needed to lessen the burden on the already stressed (MFO) mixed 
functioned oxidases process.
    ``Benzene is converted to toxic metabolites mostly mixed function 
oxidases MFO in the liver and bone marrow. MFO-inducing drugs (e.g., 
phenobarbital, alcohol) and certain chemicals (e.g., chlordane, 
parathion) may increase the rate at which toxic metabolites of benzene 
are formed. Theoretically persons with rapid synthesizing marrows, the 
fetus, infants and children, persons with hemolytic anemia or with 
agranulocytosis are at increased risk<SUP>12</SUP>. The Environmental 
Protection Agency (EPA) classifies benzene as a Group A carcinogen and 
has estimated that a lifetime exposure to 0.004 PPM benzene in air will 
result in, at most, 1 additional case of leukemia in 10,000 people 
exposed. (EPA risk estimates assume there is no threshold for benzene's 
carcinogenic effects.)''
    An interesting characteristic of petroleum hydrocarbons, (in 
relationship to the MFO process) is a seemingly kindling effect to 
addiction. Yasuhiro Takeuchi<SUP>13</SUP> writes, ``Lasarew (1929) 
reported that the narcotic effect of petroleum hydrocarbons became 
stronger as the number of carbon atoms became larger, and that aromatic 
hydrocarbons had stronger narcotic effects than paraffins.''
    Harrington<SUP>14</SUP> says, ``The well-recognized acute narcotic 
effect of organic solvents has recently led various researchers to 
suggest that a chronic neuroasthenic syndrome can follow repeated low 
doses. Some workers, mainly in Scandinavia, postulated that organic 
psychoses can ensue from such exposure.'' (Axelson et al, 1980).
    To expand on these two points of view, its clear a demonstration 
would be needed to indicate tissue reaction. That evidence was 
articulated by J.M. de Gandarias.<SUP>15</SUP> ``A dense accumulation 
of enkephalin immunoreactive fibers was seen in the basal portion of 
the lateral septal nucleus and the densest accumulation of enkephalin-
containing processes was observed in the globus pallidus, ansa 
lenticularis and amygdaloid complex, forming a continuous field 
extending over these areas. This enkephalinergic distribution is 
coincident with previous reports (Akil et al, 1984; Zamir et al, 1985). 
(Continuing further) ``The limbic systems is usually affected by 
organic solvents exposure and it has been demonstrated that aromatic 
hydrocarbons can cause behavioral changes in mood and even (addiction). 
This is the case for the largely studied ``glue sniffers'' (Schikler et 
al, 1982; Lazar et al, 1983).
    The hypothesis I bring forth now is, could benzene be the 
underlying catalyst that stimulates addiction on most levels, drug and 
alcohol, and if so an uncorrected condition would create a cycle 
difficult to break. Could elevated ambient air levels of benzene be a 
new facet of concern, ever stressing the MFO process in relationship to 
addiction?
          reference: benzene, toluene, hexane, xylene and lead
    I have (emphasis, real concern) with past exposure to JP-4 and 
those particular chemicals incorporated into the formula only because 
of existing documentation and possible public health consequences.
Example: Benzene: and Breast Tumor Tissue
    Gregory G. Oakley<SUP>16</SUP> writes , ``In addition, studies have 
demonstrated the copper-dependent oxidation of chemically similar 
structures, e.g., hydroquinone and 3-hydroxyestradiol, metabolites of 
benzene and 17B-Estradiol, respectively, to reactive intermediates that 
induce oxidative DNA damage (19, 20). This pattern of genotoxicity is 
similar to that reported in the DNA of human breast tumor tissue 21).''
    It would seem the point of concern here could be either primary 
(occupational) or secondary exposure expressed as ambient air 
concentrations from automobiles, trucks, buses, trains, and domestic 
exposure, for example, gasoline powered lawn or recreational equipment, 
combined with alcohol or another substance that would place extra 
burden on the MFO process.
N-Hexane, Xylene and Toluene and Occupational Exposure
    Katsuyuki Murata1<SUP>17</SUP> examines workers exposed to n-
hexane, xylene and toluene and writes, ``The C-CV rsa reflects the 
activity in the parasympathetic nervous system (Pagani et al, 1986, 
Hayano et al, 1990a, 1991, Ewing, 1992). Organic solvents, therefore, 
may affect the CV rr through depression of parasympathetic activity.''
                        olfactory and causation
    At this juncture it would be appropriate to explore a (reactive 
route) of toxic exposure, the olfactory pathway and its implication on 
health. Robert Ader<SUP>18</SUP> states, ``Even before sympathetic 
innervation of lymphoid tissues was recognized, it was known that 
lesions of the brain, especially the hypothalamus and limbic systems, 
had immunological consequences''<SUP>18</SUP>, (further on), ``Medical 
or posterior hypothalamic lesions are associated with reduced numbers T 
and B cells and enhanced allograft rejection.''
    Claudia Miller<SUP>19</SUP>, M.D., M.S. has presented these 
thoughts, ``The olfactory nerves provide the most direct link between 
the outside chemical environment and the brain. There is no blood-brain 
barrier where these nerves enter the brain as there is for other 
portions of the brain. The olfactory nerves communicate directly with 
the limbic portion of the brain, the so-called ``primitive smell 
brain.'' This brain area is essential for laying down new memories 
(hippocampus) and regulates mood (amygdala). In addition, it supplies 
much of the input to the hypothalamus, which in turn regulates 
autonomic nervous system and endocrine function. Temperature 
regulation, smooth muscle tone and appetitive behaviors are influenced 
by hypothalamic output. For many chemically sensitive patients and Gulf 
Veterans, mood and memory difficulties are their most disabling 
symptoms. The possibility exists that such symptoms could be triggered 
by extraordinarily low level chemical exposures and that sensitivity 
could spread to chemically unrelated substances as a consequence of 
limbic sensitization or partial kindling.''
                 examples of associated toxic exposure
    As the profile<SUP>2</SUP> previously indicated, handlers and 
persons living in proximity of operational activity are of concern; 
page 3 addresses those chemical elements and their behavior. ``We have 
some information on several chemicals found in jet fuel (for example, 
benzene, toluene, hexane, xylene and lead). We know more about what 
happens to them when they enter the environment as individual 
chemicals. When they enter the environment as part of jet fuel, they 
may behave the same way as when they are released alone.''
    These chemicals, being heavier than air, are capable of having an 
intrusive effect on workers or populations via ambient inhalation. 
Remembering Knox<SUP>9</SUP>, ``Effective ranges are extended as far as 
5KM from the sources. This suggested a hazard related to large scale 
uses of fossil fuels, especially petroleum, operating through leakage 
or evaporation or combustion, perhaps all three.'' James W. Tetrud, 
M.D.<SUP>20</SUP> narrates a case study of an individual and petroleum 
ingestion. He states, ``There is little doubt that the relatively small 
quantity of ingested petroleum waste caused this individual's 
Parkinsonism. The temporal relationship between ingestion of the 
substance and subsequent emergence of parkinsonism is clear-cut.'' 
(Further on), ``In another report, Pezzoli et all described a case of 
Parkinsonism in a leather worker chronically exposed to n-hexane.'' 
Pezzoli's<SUP>21</SUP> report states, ``Since n-hexane is the substance 
to which the patient had been mostly exposed, a possible toxic action 
of this volatile hydrocarbon, alone or associated with the other glue 
compounds and capable of inducing signs of Parkinsonism has to be 
considered.''
                               conclusion
    There seems to be sufficient documentation that suggest petroleum 
produces causation, however that's little solace to anyone at risk and 
develops symptoms.
    Without doubt the many sequels following petroleum exposure can 
have an exhausting effect on both patient, (family), and physician, due 
to the many symptoms and changing protocols. A team strategy with 
expanded expertise would benefit not only the patient directly, but 
also reassure family members that appropriate clinical direction had 
been taken.
                               references
    1. History of aviation fuel development in the United States--AFRL/
PRSF.
    2. Toxicological profile for jet fuels (JP-4 and JP-7), Agency for 
Toxic Substances and Disease Registry.
    3. Gasoline Intoxication, Willard Machle, M.D. Cincinnati, Volume 
117, Number 23, Jour A.M.A., Dec. 6, 1941.
    4. Goldstein, M.D. 11 Benzene Toxicity-Occupational Medicine, State 
of the Art Review, Vol. 3, No. 3, July-September 1988.
    5. Occupational factors in the epidemiology of leukemia in 
Hiroshima and Nagasaki; Toranosuke Ishimaru, American Journal of 
Epidemiology (Received for publication July 20, 1970) Copyright by 
Johns Hopkins University, 1971, Vol. 93, 157-165.
    6. Acute leukemia in professional drivers exposed to gasoline and 
diesel. Lindquist R. EUR J. Haemtol 1991: 98-103.
    7. Mortality study of cancer risk among oil refinery workers, Pier 
Alberto Bertazzi. Int Arch Occup Environ Health (1989), Int Arch Occup 
Environ Health, 1989, 61:261-270.
    8. Genotoxic effects in workers exposed to low levels of benzene 
from gasoline. Ralph I Nilsson. American Journal of Industrial Medicine 
30:317-324 (1996).
    9. Hazard proximities of childhood cancer in Great Britain from 
1953-80. EG Knox. Journal of Epidemiology and Community Health 1997; 
51;151-159.
    10. Proportionate mortality ratio analysis of automobile mechanics 
and gasoline service station workers in New Hampshire, Eugene Schwartz, 
M.D. MPH: American Journal of Industrial Medicine 12:91-99 (1987).
    11. A 39-year follow-up of the U.K. oil refinery and distribution 
center studies: results for kidney cancer and leukemia. Lesley Rushton. 
Environmental Health Perspectives Supplements 101 (Suppl. 6):77-84 
(1993).
    12. ATSDR Agency for Toxic Substance and Disease Registry #11 Case 
Studies in Environmental Medicine Benzene Toxicity, October 1992.
    13. Polyneuropathy Caused by Petroleum Benzene, Vasuhiro Takeuchi 
Int. Arch. Arbeitsmed.34, 185-197 (1975).
    14. Health experience of workers in petroleum manufacturing and 
distribution industry: A review of the literature J. Malcolm 
Harrington, American Journal of Industrial Medicine 12:475-497 (1987).
    15. Brain met-enkephalin immunostaining after subacute and 
subchronic exposure to benzene, J.M. de Gandarias Bull. Environ. 
Contam. Toxicol. (1994) 52:163-170.
    16. Oxidative DNA damage induced by activation of polychlorinated 
biphenyls (PCBs): Implications for PCB-induced oxidative stress in 
breast cancer, Gregory G. Oakley--Chem. Res. Toxicol., 1996, 9, 1285-
1292.
    17. Changes in autonomic function as determined by ECG R-R interval 
variability in Sandal, shoe and leather workers exposed to n-hexane, 
xylene and toluene, Katsuyuki Murata, Neuro Toxicology 15 (4):867-876, 
1994.
    18. Psychoneuroimmunology: Interactions between the nervous system 
and the immune system: Robert Ader Review Article, The Lancet vol. 345, 
January 14, 1995.
    19. Invited presentation NIH workshop on the Persian Gulf 
experience and health, April 27-29, 1994, National Institutes of 
Health--Claudia S. Miller, M.D., MS UTHSC-San Antonio-Multiple chemical 
sensitivity and the Gulf War veterans.
    20. Parkinsonism caused by petroleum waste ingestion, James W. 
Tetrud, M.D.-Neurology 1994; 44:1051-1054.
    21. Parkinsonism due to n-hexane exposure, G. Pezzoli The Lancet, 
October 7, 1989.
   Statement of Maureen Silverman, Tenant of Independence Plaza, Co-
Founder of The WTC Environmental Coalition, Member of WTC Spot Light on 
 The Poor, and Co-Chair of the Outreach and Education Committee of New 
               York City Coalition to End Lead Poisoning
    My name is Maureen Silverman and I am a tenant of Independence 
Plaza and Co-Founder of The WTC Environmental Coalition and Co-Chair of 
the Outreach and Education Committee of New York City Coalition to End 
Lead Poisoning. I will first begin by conveying the environmental 
problems at Independence Plaza. Independence Plaza is a Mitchell Lama 
development located five blocks from the WTC which has over 1,300 
apartments with approximately 4,000-5,000 tenants. We are one of the 
few racially and economically diverse complexes in Lower Manhattan. 
During the week of September 11th, one of the three buildings in our 
complex was evacuated for two weeks. Many tenants in the other 
buildings voluntarily evacuated because of the danger we were faced 
with. I live on Harrison Street, which is down the street from the 
barge WTC clean-up operation at Pier 25. Since September 11th, my 
neighbors in all three of our buildings have been kept up all night by 
the thunderous noise of the barge and have been subjected to the 
environmental contaminants released from it. From our windows we can 
view the dust and debris released from the site and still witness 
inconsistent watering down and covering of the debris. Numerous tenants 
have developed chronic respiratory problems, nose bleeds, sore throats 
and skin rashes. The recurring noise from the barge has exacerbated the 
trauma many tenants experienced from the WTC attack. Although the 
Commissioner of DEP claimed at the Clinton hearing on February 11th 
that DEP ensured that all indoor buildings were tested and thoroughly 
cleaned before people moved back, my landlord did not test and clean 
310 Greenwich Street before the evacuated tenants returned. Our 
landlord only did random testing for asbestos in our complex over 2 
months after September 11th. They used a non-aggressive testing method, 
which industrial hygienists informed us is not effective. There has not 
been testing for any contaminants other than asbestos, in our entire 3 
building complex, despite the host of toxins released from the WTC and 
our close proximity to the barge. The ducts in our complex have also 
not been tested. Although many of our terraces have been permeated with 
dust from the WTC, the landlord claims he has is not responsible to 
clean or test these areas. The roof tops are still covered with debris 
and have not been cleaned.
    Many tenants report that outside dust continuously enters and 
covers their apartments and they are afraid of the contaminants they 
are being exposed to. Maintenance staff are not consistently vacuuming 
with HEPA vacuum cleaners and have not been trained in safe cleaning 
methods in the aftermath of September 11th. Our landlord informed us 
that they applied to FEMA for assistance with further testing and 
cleaning, but were denied because the EPA told them the air is safe.
    I was appalled by DEP Commissioner Miele's contention at the 
Clinton hearing about the great job DEP has done in ensuring that all 
indoor spaces were tested and cleaned to the utmost safety in the 
aftermath of September 11th. A few days after The Clinton hearing I 
took him up on his recommendation to call the DEP Help line if testing 
and cleaning has not been done. When I called the help line I was told 
that they only address water and sewer problems. I subsequently 
reported this to the Commissioner's office and was referred to the 
Bureau of Environmental Compliance. After being referred to several 
different people at this office, I was told someone would call back and 
take the complaint. All of these people said they were not sure what 
DEP would inspect for or test for etc. After I asked for and reached a 
supervisor and told him I was in touch with the Commissioner's Office 
and attended the Clinton hearing, he told me DEP would send an 
inspector to my apartment the next day. He said they generally only 
inspect and test for asbestos. However, he said in light of the 
circumstances, they would start by inspecting and testing for asbestos 
and may be able to test for other contaminants later on. He also said 
they would inspect and test the inside of my apartment, my terrace and 
the roof. When the inspector came to my apartment, he said he knew I 
was the one who called the Commissioner's Office and was at the Clinton 
hearing. He quickly looked around the apartment and terrace and told me 
DEP is not responsible for anything inside of apartments and the only 
thing he would do is tell the landlord to clean the terrace. He also 
said they did not address roof tops. Since last Saturday, my terrace 
has not been cleaned and no one from DEP called about the situation. I 
subsequently called a supervisor at the DEP Bureau of Compliance to 
report the inept response from the inspector and was told someone would 
get back to me. As of today, no one from DEP has called back. It was 
obvious that DEP quickly sent someone to my apartment to appease me 
because of the political circumstances, and did nothing to protect my 
home. Unfortunately, many tenants of Independence Plaza have moved out 
in the last 5 months because of the environmental hazards we are facing 
and the total neglect of government agencies to hear our concerns or 
protect us. IPN Tenants Association and individual tenants have written 
numerous letters and have called government agencies about the unsafe 
and noisy barge operation to no avail.
    The tenants association invited FEMA, DOH, DEP, DEC, the CDC to our 
complex to hear tenants concerns and answer questions. These agencies 
promised to address our concerns several months ago and have yet to do 
so. We were told several months ago that the city would start using low 
sulfur fuels and truck retrofits to trap diesel emissions by February 1 
and this has not happened. We have been promised that the city would 
ensure that the barge is operated safety and noise would be reduced. 
This has yet to transpire.
    At the end of September, I co-founded the WTC Emergency 
Environmental Group (now the WTC Environmental Coalition) with a couple 
of neighbors from Independence Plaza and another neighbor from Warren 
Street. We were very concerned, confused and frightened. The EPA was 
telling us the air was safe, although we were feeling sick and articles 
by independent scientists reported that there were dangerously elevated 
levels of a variety of toxins in the air which the EPA was not 
divulging to the public. No one was taking responsibility for indoor 
testing and clean up and we heard many reports of the unsafe conditions 
for workers. Unfortunately these circumstances have changed little 
since the end of September when we first started to meet.
    To my knowledge, we were the first group of activists who began to 
organize to address the WTC environmental concerns down town. Our 
coalition now consists of residents, workers and school parents. We 
organized the first public forum regarding WTC environmental concerns 
and held a rally and press conference at City Hall in December. We have 
written letters to government officials and testified at public 
hearings and press conferences regarding the lack of community 
participation and communication regarding environmental safety issues 
facing residents, workers and school parents. We have complained about 
the fragmented, uncoordinated and neglectful manner in which government 
agencies have dealt with the catastrophic and unprecedented 
environmental dangers we are facing. However, we have been ignored at 
all levels of government and by all governmental agencies. We defined 
11 immediate needs in after math of September 11th and also developed a 
longer list of demands.
    The 11 immediate needs are:
    (1) Implement a centralized coordination of the cleanup effort that 
is responsive to community needs and includes public participation. The 
cleanup must address all affected communities, including the immediate 
surrounding areas and those in contiguous areas. Affected communities 
must include Tribeca, South Street Sea Port, Battery Park City, The 
Financial District, China Town, The Lower East Side, Hudson Square, 
Soho, Greenwich Village, and the East Village. The Federal definition 
of the disaster must be expanded to include these areas.
    (2) Move the barge on Pier 25 away from schools and residences. All 
other barge and truck clean-up operations must be located away from 
schools and residences.
    (3) Establish strict guidelines and protocol for the entire testing 
and clean-up operation including affected areas beyond Ground Zero. 
Protocol should include proper measures to be taken by schools and 
other institutions in the area with regard to air filtration and 
operations of HVAC systems.
    (4) Control and contain debris to prevent dispersal in trucking and 
barge operations and minimize diesel emissions and noise.
    (5) HEPA vacuum and wet clean streets, side walks, roof tops and 
parks to continuously assure dust suppression.
    (6) Provide safe working conditions and enforcement of safety and 
environmental laws for Ground Zero workers and other area workers.
    (7) Assess and test for environmental contaminants in indoor and 
outdoor spaces.
    (8) Share public and private sampling data, including health data, 
in a timely and complete manner.
    (9) Notify workers, residents and schools prior to potentially 
hazardous work operations such as removal of the freon tanks and major 
demolitions.
    (10) Engage in public health educational outreach to all area 
workers, residents and students.
    (11) Create a health registry of individuals whose health has been 
impacted by WTC exposures, including medical surveillance of high risk 
populations.
  despite our vigorous organizing efforts, these needs have still not 
                                been met
    Most recently, our group wrote letters in January asking for 
meetings with Mayor Bloomberg and Governor Pataki. The Mayor's Office 
never called us about our request for a meeting and has ignored our 
phone calls to his office asking for a meeting. Governor Pataki's 
Office called a couple of weeks ago telling me they would like to 
arrange a meeting with our coalition and the Commissioner of State DEC 
and the Director, State of DOH in March in Albany.
    When I told the Governor's Office that we could not go to Albany 
since we are working people and we think the nature and magnitude of 
this catastrophe warrants a meeting in New York City by the State, 
their office told me, the next time they could arrange a meeting in New 
York City would be in April. After calling back several times and 
asking for a meeting at an earlier date, the Governor's Office arranged 
the meeting for March 22 in New York City. However, the Governor 
himself does not feel he needs to be at the meeting since the State DEC 
and DOH are in charge of addressing these issues for his office. 
Considering the urgent and unprecedented environmental health problems 
we are experiencing down town, I find the late date for the meeting and 
the disinterest on the part of the Governor reprehensible.
    As a long-term activist with New York City Coalition to End Lead 
Poisoning, I have been concerned about lead hazards in the aftermath of 
September 11th. Unfortunately, Dr. Evelyn Mauss, a leading expert on 
lead poisoning who I have worked with for the past 10 years could not 
be here since she is out of the country. I asked Dr. Mauss, an expert 
on lead poisoning and Senior Research Consultant to the Natural 
Resource Defense Council, to analyze the lead hazards, testing and 
provide some recommendations. Since the October, Dr. Mauss has reported 
that she was concerned with some very high lead spikes in the air and 
in the schools that exceeded the lead safety levels. Moreover, she 
repeatedly reported at public hearings, press conferences and meetings 
that EPA testing for lead has been grossly inadequate. She has 
recommend that the EPA conduct more comprehensive and adequate testing 
and clean up in air dust and soil and in all post-1970 buildings to 
reflect the impact of the WTC attack. She also recommended that lead 
testing and clean up be done in all parks in areas immediately near 
Ground Zero and in peripheral area in Lower East Side, China Town 
Greenwich Village Etc. Another recommendation she made was for The 
Department of Health to test and screen children for lead in down town. 
The WTC Environmental Coalition has supported these recommendations. 
Governmental agencies have refused to implement these recommendations.
    Dr. Mauss has testified about the potential lead hazards from 
numerous sources after September 11th. The World Trade Center was built 
before lead paint was banned for commercial purposes in 1978 and a 
decade and a half before lead paint was banned in plumbing. Computers 
contain four pounds of lead and the steel beams of the World Trade 
Center also contained lead. Many of the surrounding buildings that were 
damaged by the WTC attack were also constructed after lead paint was 
banned. The recent findings of lead paint in the elementary schools and 
Stuyvesant High School which are all near the barge at Pier 25, create 
serious concerns for parents, students as well as residents living near 
the barge. If lead hazards have been found in the schools a couple of 
blocks from Independence Plaza and near several other apartment 
complexes, including River Terrace, there is a significant risk that 
our apartments contain lead hazards. However, no Government Agency has 
provided indoor testing of our apartments for lead or a host of other 
contaminants. I am appalled at this indifference on the part of our 
government considering lead causes irreversible brain damage, kidney 
problems, speech and hearing impairments, and a many other 
developmental delays and health problems in children. In adults, lead 
causes osteoporosis and mental confusion. Children are most at risk for 
lead poisoning. However, adult workers, residents and others are also 
at risk of lead poisoning and the consequential health affects.
    We urge the Senate to mandate thorough and safe testing and clean 
up of all of Lower Manhattan expeditiously. We ask him to help us meet 
all of our 11 immediate needs, including moving of the barge 
immediately. We have waited long enough and can no longer compromise 
the health and safety of the residents, workers, and school children in 
Lower Manhattan.
                                 ______
                                 
        Environmental Demands of The WTC Environmental Coalition
    The WTC Environmental Coalition is comprised of downtown residents, 
workers, school parents and and supporting activist organizations who 
are concerned about the environmental impact of the World Trade Center 
disaster. We demand the following from government agencies:
                  immediate site safety at ground zero
    <bullet> Public input on site management and with the help of that 
input, require improvements in site management at Ground Zero to reduce 
pollution associated with the site and recovery and removal efforts. 
These improvements should include safe clean-up methods for debris 
removal from the WTC site. A primary concern is clean up at Pier 25. We 
demand that the barge and truck clean up operation be moved to an area 
that is less populated by residents and where there are not schools. We 
also demand safe, adequate and consistent covering and watering down of 
the debris. Diesel trucks and equipment must be replaced with cleaner 
fuels such as oxi, bio or low sulfur diesel. The City Anti-Idling Law 
must be enforced. Truck retrofits such as catalytic converters must be 
used to trap diesel emissions. Noise must be reduced to avoid 
disturbances to residents from the clean-up operation.
    <bullet> Implementation of OSHA work safety standards.
    <bullet> An on site industrial hygienist for all workers in WTC 
clean up with authority to implement precautionary health measures.
                  public health and safety outdoor air
    <bullet> Ongoing disclosure of updated and accurate test results of 
all contaminants to residents, workers, Parent Teacher Associations and 
other public members. EPA, DEC, DEP and DOH must ensure that the public 
has access to all outdoor test results, methods of testing and safety 
standards for each contaminant.
    <bullet> Massive, consistent and ongoing clean up of streets, roof 
tops, awnings and other outdoor areas with Hepa vacuums and subsequent 
watering down of these areas.
    <bullet> Government agencies should invite public comment on the 
air monitoring program. They should then develop a revised air testing 
program based on public comment.
    <bullet> Government agencies should regularly report outdoor test 
results to the public through TV and radio announcements, literature 
distributions, facts sheets etc. in various languages, especially 
Spanish and Chinese.
    <bullet> Risk Communications to the public should be done by an 
Environmental Health Advisory Committee comprised of environmental 
health doctors, environmental advocacy groups, community members and 
representatives of the Department of Health.
    <bullet> Preventive and Precautionary Health Measures Must be 
Implemented--Government agencies must make specific recommendations to 
the public regularly regarding ways to reduce their exposure to outdoor 
air emissions thorough public service announcements, facts sheets in 
multiple languages and ongoing community meetings. Specific education 
geared to vulnerable groups such as children the elderly, those with 
pre-existing respiratory, heart problems, compromised, immune systems, 
etc.
    <bullet> Consistent and ongoing testing and professional cleaning 
of all parks, playgrounds and community gardens in core and periphery 
areas for lead, asbestos and all other contaminants. These include 
outdoor areas in Tribeca, The Financial District, The Sea Port, South 
Bridge, China Town, The Lower East Side, Greenwich Village and parts of 
Brooklyn effected by the disaster.
    <bullet> Since lead levels have exceeded safety standards for 
ambient air, there must be massive and ongoing testing for lead in air, 
dust and soil. Independent scientists have reported that tests have 
shown lead to be in the highest concentration of all heavy metals in 
air dust samples surrounding the WTC site.
                  public health and safety indoor air
    <bullet> Implementation of a well coordinated and comprehensive 
hazard assessment for a variety of contaminants of all downtown 
buildings, including residential buildings, offices and schools by a 
team of industrial hygienists (i.e. Asbestos, lead, silica, fiberglass, 
PCB's, Dioxin, etc.). Government must ensure professional clean up and 
abatement by certified and trained workers when tests show levels of 
toxins above safety standards.
    <bullet> Indoor testing of lead should be done in buildings 
constructed after 1970, when the prohibition of indoor lead paint was 
enforced in order to reflect the impact of the WTC disaster.
    <bullet> Clean up must include thorough and professional clean up 
of all ventilation systems, air ducts, air conditioning systems and 
heating systems, along with clean up of general areas.
    <bullet> Post clearance testing by independent parties must be 
implemented.
    <bullet> All indoor test results and post clearances must be 
provided to the public.
    <bullet> Preventive Public Health Advice must be provided to all 
residents, workers and school parents regarding indoor hazards. 
(Through public service announcements, fact sheets, community meetings, 
etc. in multiple languages).
                immediate assistance to affected groups
    <bullet> Public education regarding health symptoms requiring 
medical intervention and referrals to appropriate health professionals 
for early detection and treatment.
    <bullet> Better coordination and consistency of information to the 
public about assistance available from the Red Cross, FEMA and other 
agencies for air purifiers, HEPA vacuums, relocation money, 
professional clean up etc. To assist in these efforts, funding and 
support for creation of community based advocacy groups to help people 
apply for funds and services and navigate the bureaucracies. These 
services must be provided in multiple languages.
    <bullet> Up-front funding for home interventions such as air 
purifiers, HEPA vacuums, etc.
                  environmental oversight and planning
    <bullet> Environmental concerns must be treated as part of the WTC 
disaster, instead of an extraneous aspect of it.
    <bullet> Community participation in environmental decisions must 
take place. We recommend regular bi-monthly meetings between government 
agencies and the public where public input is part of plans taking 
place.
    <bullet> A Dedicated disaster fund specifically earmarked to 
address WTC environmental concerns.
    <bullet> Implementation of new testing and safety standards for 
indoor and outdoor air that accurately reflect The WTC situation. This 
should include development of methods to test the synergistic effect of 
all the contaminants.
    <bullet> An Independent Scientific Advisory Board to represent the 
public in review and approval of all research on environmental issues. 
Communities should be collaborators in the research and the public 
should get results promptly along with recommendations to improve 
hazardous conditions etc.
    <bullet> An independent Ombudsmen representative of the public must 
be established with assistance of the Scientific Advisory Board to 
oversee research and clean-up efforts.
    <bullet> Establishment of a central registry to monitor health 
problems related the WTC.
    <bullet> Vigilant and ongoing testing and monitoring of children's 
lead levels in areas near the WTC. This should include reporting of 
children's lead levels to the Department of Health and to parents.
    <bullet> Implementation of environmental justice principles, 
including funding and support for low-income communities of color 
affected by the WTC disaster, including China Town, The Lower East Side 
and parts of Brooklyn.
    <bullet> Funding for a Grass Roots Community Group to address 
environmental concerns from a bottom up community-based planning 
perspective.
                               __________
                 Statement of Jenna Orkin, Brooklyn, NY
    Senators Clinton and Lieberman, I am a co-founder of the World 
Trade Center Coalition for Clean Air, an organization of parents and 
residents of Lower Manhattan. I am also a parent at Stuyvesant High 
School. Stuyvesant High School is in a unique position. Not only do we 
have the World Trade Center site to the south. We also have the World 
Trade Center site to the north. All the debris is brought to 
Stuyvesant's north doorstep where it is dumped onto the barge before 
making its way to its final resting place in Staten Island. The barge 
operation blocks our most important exit for evacuation. In the event 
of another disaster downtown our school will not be able to go north, 
away from the disaster but will have to go south, toward it. However, 
this is the least of our problems. The barge operation also involves 
diesel cranes and trucks going full throttle day and night. Diesel 
contains forty toxic air contaminants (American Lung Association of 
Pennsylvania) from acetaldehyde to xylene isomers. These include lead, 
cadmium, mercury, benzene and dioxins. It also contains sixteen 
carcinogens. The EPA says diesel is ``highly likely'' to be 
carcinogenic. (Http://www.epa.gov/ncea/diesel.htm). Because of the 
diesel and the debris, Stuyvesant has had readings of PM<INF>2.5</INF> 
that have been many times higher than the readings at Ground Zero. 
PM<INF>2.5</INF> is particulate matter that is small enough to 
penetrate deep into the lungs and alveoli. Unlike PM<INF>10</INF>, it 
doesn't come out again. Being so small, it also has a relatively large 
surface area to volume ratio so that other noxious chemicals attach to 
it. Lead levels have been 15 times higher than regulation limits in the 
cafeteria, where the lead could be eaten. Asbestos has also been high. 
A recent article by Andrew Schneider in the St. Louis Post Disptach 
says that asbestos may, in fact, be nine times higher than current 
instruments would indicate. Cancer rates from the asbestos alone may be 
1 person in 10. Other chemicals such as isocyanate, are not routinely 
tested for. But on the few occasions they were tested for, they were 
found to be high.
    The synergistic effect of all these chemicals, as you will read in 
Marjorie Clarke's testimony, is explosive. For instance, if you're an 
asbestos worker and a smoker, it's not 2 or 3 times as bad as being one 
or the other; it's 80 or 90 times as bad.
    How is Stuyvesant protected against this onslaught of toxins? To 
date, hepa filters have not been installed and the ducts have not been 
cleaned according to protocol. The mouths of the ducts were cleaned, 
air was blown through forcefully, then tested and found to be 
satisfactory. But the company that did the testing, ATC, is the company 
that told us asbestos levels were satisfactory on a day when the EPA or 
the Parent Association's company, Howard Bader, (accounts differ) made 
a special call to the Parents' Association to say asbestos was well 
above regulation limits. The air at Stuyvesant is so bad that recently 
the Principal decided to let students go out for lunch on the theory it 
didn't make that much difference where they went.
    Students, like the residents in the neighboring buildings, have 
contracted chemical bronchitis and new-onset asthma, conditions which 
could last their entire lives. When we have complained to the 
Chancellor's office, their response has usually been some version of, 
``So take your child to the doctor,'' and, ``You're welcome to transfer 
him to his zoned school.''
    In the immediate aftermath of September 11th the city's attitude 
was, ``This is an emergency; everyone has to roll up his/her sleeves.'' 
But after the abandonment of any hope of rescue, what kind of emergency 
is this, exactly? A real estate emergency? An economic emergency? 
Whatever it is, it is creating far more emergencies down the line with 
the reckless manner in which it's being conducted. The burden of this 
clean up is falling largely on the shoulders of the young. When 
Giuliani and other officials spoke of making sacrifices, what this has 
come down to in the case of our children is decades off their lives. 
Under the guise of heroics, the city has been engaged in chemical 
warfare against its own children. This is murder. The fact that we 
don't know who will die, precisely, or when, makes it no less criminal. 
Many will die. As always, the excuse will be the times we were living 
in. Morals are mores, goes the argument, ethics are in the ether. In 
fact, morals and ethics have standards that stand outside what everyone 
else is doing. This ``emergency'' clean up is not an emergency. It is 
immoral, unethical and a crime against humanity.
    We urgently request the immediate installation of hepa filters. We 
also request that drastic action be taken with respect to the barge. If 
there is any space anywhere else, for instance at Pier A, move the 
barge away from Stuyvesant. If not, contain the debris so dust clouds 
don't fly when it's dumped onto the barge. Retrofit the trucks to catch 
particulates. Please take care of our children.





[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                     Community Board No. 1,
                                    New York, NY, February 1, 2002.
Mr. Tom Ridge, Director,
Office of Homeland Security,
The White House,
Washington, DC.
    Dear Mr. Ridge: At our January 15 monthly meeting Community Board 
No. 1 adopted the attached resolution offering our recommendations for 
improving homeland security here in Lower Manhattan. Our Community 
Board is empowered by the city of NY to represent the interests of the 
residents and workers of this area which includes the site of the 
former World Trade Center. Regrettably, our districts has twice been 
targeted by terrorists (1993, 2001) and with such landmarks as the NY 
Stock Exchange and the Statue of Liberty here, we will continue to be a 
potential target. We urge you to consider these four recommendations as 
you put together our Nation's homeland security plan:
    (1) A No Fly Zone for any aviation be established in and around 
Lower Manhattan
    (2) Sophisticated, state-of-the-art monitoring devices be installed 
in the district which would indicate the presence of biological, 
chemical and nuclear agents.
    (3) Any trials of suspected terrorists should not be conducted in 
our highly populated district nor should suspected terrorists be 
imprisoned in Lower Manhattan.
    (4) The Office of Homeland Security should appoint a liaison to 
interact between their office, Community Board No. 1, and other local 
government offices.
                                 ______
                                 
                    Community Board No. 1 Manhattan 
                               Resolution
                           February 19, 2002
                     Committee of Origin: Executive

Committee Vote: 12 IN FAVOR, 0 OPPOSED, 0 ABSTAINED, 0 RECUSED
Board Vote: IN FAVOR, OPPOSED, ABSTAINED, RECUSED

Re: Senate WTC Air Quality Oversight Hearing Requests

    WHEREAS, Senator Hillary Rodham Clinton (NY) is conducting 
oversight hearings concerning the air quality and health effects at 
Ground Zero and Lower Manhattan due to the WTC attacks, and
    WHEREAS, Since the September 11th attacks on WTC and the subsequent 
collapse of the towers and surrounding buildings, the quality of the 
air has been of great concern and confusion to lower Manhattan 
residents and workers due to conflicting reports. Independent and other 
government agencies test results seem to contradict the Environmental 
Protection Agency and other official government bodies despite official 
assurances that the air is ``safe'', and
    WHEREAS, With the fires burning different types of materials inside 
the WTC, there was significant exposures from both airborne outdoor and 
indoor dust, smoke, particulate matter, gases, individual toxins and 
combination of toxins interacting with each other (aka: synergistic 
effect). As a result residents and workers downtown have been 
experiencing varied health problems, and
    WHEREAS, Some of these symptoms include skin rash, eye, nose, and 
throat irritation, nausea, headaches, asthma, chronic bronchitis, 
severe coughing (aka WTC cough), and upper respiratory reactive airway 
disease, and
    WHEREAS, All of the above exposures have short-term and long-term 
health risks depending on what was inhaled, how much of it, in what 
combination, and for how long, and
    WHEREAS, The EPA test results showed the levels for individual 
contaminate without taking into account how they interact like a toxic 
soup in an increasingly exponential way, and
    WHEREAS, There was also significant distributions of dust on top of 
roofs, water towers, and sucked into air conditioning units and 
building ventilation systems: Now therefore, be it
    resolved that:
    CB No. 1 strongly urges that the following recommendations be 
implemented immediately:
    (1) Designate a lead agency to handle environmental issues affected 
by the WTC disaster.
    (2) Enforce existing laws, especially environmental regulations and 
public health standards and policies.
    (3) Create a central medical data base registry to keep track of 
all exposed people who are having health problems, for tracking of 
short- and long-term health risks, and to inform people of the medical 
treatments that are available.
    (4) Improve and continue indoor and outdoor air testing, and 
surface testing using state-of-the-art equipment and up to date 
methods.
    (5) Conduct research to assess the short- and long-term health 
impact of combinations of dust and gases, the synergistic effects and 
combinations of toxins, and provide funding for the research.
    (6) Establish new air quality standards for individual and 
synergistic combinations of pollutants.
    (7) Develop clean-up and post-clean-up protocols for indoor and 
outdoor spaces.
    (8) Containerize the debris removal operation.
    (9) Require stringent mitigation of diesel exhaust pollutants from 
vehicles, cranes and generators through the use of low-sulfur fuel, 
particulate traps and other technologies.
    (10) Establish an air quality hotline with an appropriate 
Government Agency or qualified group or organization.
    (11) Establish standard operating procedures for future emergency 
responses.
                                 ______
                                 
               Community Board No. 1 Manhattan Resolution
                            January 15, 2002
                     Committee of Origin: Executive

Committee Vote: 7 IN FAVOR, 1 OPPOSED, 0 ABSTAINED, 0 RECUSED
Board Vote: 34 IN FAVOR, 5 OPPOSED, 2 ABSTAINED, 0 RECUSED

Re: Home Land Security

    WHEREAS, The Federal Government is requesting recommendations to 
improve homeland security, and
    WHEREAS, Lower Manhattan has twice (1993, 2001) been the target of 
terrorist attacks upon the World Trade Center, and
    WHEREAS, Lower Manhattan, as the financial capital of the world and 
the home to many internationally known or otherwise sensitive buildings 
and residences and structures, continues to be a potential target for 
terrorists, now therefore, be it
    resolved that:
    CB No. 1 recommends that the Federal Office of Home Land Security 
provide adequate funding to implement the following recommendations to 
improve security in Lower Manhattan:
    (1) A No Fly Zone for any aviation be established in and around 
Lower Manhattan.
    (2) Sophisticated, state-of-the-art monitoring devices be installed 
in the district which would indicate the presence of biological, 
chemical and nuclear agents.
    (3) Any trials of suspected terrorists should not be conducted in 
our highly populated district nor should suspected terrorists be 
imprisoned in Lower Manhattan.
    (4) The Office of Home Land Security should appoint a liaison to 
interact between their office, Community Board No. 1, and other local 
government offices.
                                 ______
                                 
   Statement of Marc J. Ameruso, New York City Council Environmental 
                               Committee
    My name is Marc Ameruso, I have been a resident of Tribeca for 10 
years. A member of Community Board No. 1 for 4 years, and very much 
involved with community activism in the neighborhood.
    Since September 11th I have like many others, have been very 
concerned with air quality caused by the collapse of the World Trade 
Center (WTC). Also, since the first week I have been learning as much 
as possible to educate myself on the subject of air quality.
    Four weeks ago, I never heard of furans or chrysotiles, or how 
harmful they can be to humans. Today I speak to you as an American, a 
New Yorker, and a Tribeca resident. Not to diminish what people are 
feeling around the world, the country, or even in the rest of New York.
    This area where the WTC stood is my neighborhood, and my HOME.
    Please let's not forget that, because even after the attacks, I 
still find myself having to convince the some powers that be and the 
people who will be charged with the rebuilding the WTC site, that this 
is area is a neighborhood with many long time residents who want to 
stay and continue to raise their children in this wonderful community, 
that myself and many others have been working so hard to make a better 
place. We will rebuild and come out of this better than before.
    One day the fires will go out, the smoke will clear and that smell 
will disappear. But right now, the air quality can throw a monkey 
wrench into all our efforts.
    People just want to know what, how to protect themselves and safely 
clean up. I am not an alarmist, I just want the truth and so do they.
    With the resulting distribution of dust and particulate matter 
blowing around the city, including into Brooklyn, Queen's, Staten 
Island, and New Jersey as well as, the fires continue to burn who knows 
what. Under the rubble, spouting out a laundry list of harmful toxins 
into the air are making residents and rescue workers sick. They visit 
their doctors, only to be told that their symptoms are psychosomatic.
    Please allow me to briefly relay part of my experience to the 
committee which will bring the air quality issue into perspective.
    On September 11th, I was home just waking up, preparing for primary 
day. Of course, that did not happen. When the towers collapsed I went 
to the trunk of my car and retrieved my construction gear that I kept 
there from my old construction job many years ago, then proceeded 
downtown to see what I could do to help.
    By the way, my equipment did not include a respirator.
    I stayed at the site for the next 3\1/2\ days helping in anyway I 
could, from search and rescue to off loading ships to bringing supplies 
and equipment to various locations.
    I slept in Stuyvesant High School for two nights. Everybody down 
there helped in the same way with no real direction from a supervisor.
                              pictures\1\
---------------------------------------------------------------------------
    \1\ Retained in the committee's file.
---------------------------------------------------------------------------
    I have a few photos that I would like to share with the committee. 
(September 11, surgical mask); (September 12, smiling, just got 
respirator); (September 13, just evacuated from Ground Zero, 1 Liberty 
imitate collapse).
    By the way, there were many other people down there like me, who 
were for lack of a better term were ``Ground Zero civilian rescue 
volunteers'' working side by side on top and around the rubble pile 
with the incredible firefighters, police, and other rescue workers.
     So please remember not leave this courageous group of people out 
of in any future citations or accolades.
    I knew there were all types dangers but help was needed and I had 
not a second thought about it. The 3\1/2\ days I spent at the site I 
observed very few rescue workers wearing respirator masks, and I did 
not hear anyone giving instructions to do so.
    Although I did see handwritten signs posted around saying, 
``Asbestos levels are high, wear your masks.''
    Interestingly, members of the military and rescue workers from out 
of town who had their own respirators almost always keep there mask on 
while working. The treatment I had at the triage center set up inside 
Stuyvesant High School included oxygen respiratory treatment twice, eye 
washes at least nine times, and antibiotic eye drops for a scratched 
cornea.
    I still have a nagging cough as do many other people. I have 
resigned myself to the fact that I may get sick in 10 or 20 years 
because of this. But I accept it because helping was the right thing to 
do.
    I relay this part of my experience to you not brag, that is not way 
I am. I told you my story because going down to help was my choice. The 
main problem here is that the EPA is not giving the residents of New 
York and the rescue workers a choice by telling them the air quality is 
OK. This is where your committee can help. The correct specific 
questions need to be asked to the EPA under oath.
    The City Council has the power with these oversight hearings, to 
subpoena the EPA to testify as to the truth. Just don't subpoena the 
bosses, the administrators, the talking heads. Subpoena the 
toxicologists and epidemiologist, some of whom I have spoken to one on 
one. They can't even look me in the eye when they say the air quality 
is OK. I can see the torment in their faces, they know the truth with 
air and I feel they wish they could tell us. Get them down here to 
testify.
    Your committee must ask very specific questions or they will double 
talk and bog you down with scientific and technical banter and all the 
while never answering the question.
    There are people here that can show the committee exactly how to 
frame these questions today and for the followup hearing next week. The 
EPA has been very selective with the information they have been 
releasing to public and on there website.
    Picking and choosing what you want someone to see is the same thing 
as lying in my book. There is proof of this in the EPA's own air 
quality test results and reports and confirmed by other independent 
testing. One independent test that I obtained at a location on Rector 
Place had a test result of 4.3 percent for Asbestos on an area 
described in the report as, ``Roof/Play area''. We now know that OSHA 
uses a 1 percent level for Asbestos as a safe standard.
    Let's now talk about the EPA test results. It is my understanding 
that the EPA air quality reports were only able to be obtained through 
a freedom of information request by the New York Environmental Law & 
Justice Project.
    That first week or so after the attacks, I thought I was the only 
person who believed that we were not getting the whole truth from that 
EPA. I felt like I was in a bad ``B'' movie claiming that a meteor is 
going to hit the earth and I was the only one hit.
    Also as of today a Freedom of information request sent to NYC 
Department of Health for their test results and air quality reports as 
not been honored. Please ask them why there are holding back? So the 
questions remains. What is in the air that is making people sick? Each 
time some rubble is removed, oxygen gets down under there and fuels the 
fires burning the countless type of materials that were in the WTC. Is 
the EPA using adequate equipment?
    At a recent air quality forum, a scientist said that there are 
chemicals known as super tiny particles. The current EPA equipment can 
not detect these tiny particles. So how do they know it is safe?
    Furthermore, the broad spectrum testing the EPA is conducting does 
not take one important factor into account. Just because a particular 
test result does not reach or go over some threshold set by the EPA or 
OSAH, does not mean these particles can't make people sick. In other 
words, just because some reading does not make it up to some number 
that they have in a book doesn't mean people can't still can get sick. 
These ``low levels'' are making people sick and that is exactly what is 
happening.
    I am going to briefly read to you some of the EPA's own test 
results and air quality reports that was obtained through the Freedom 
of Information Request I told you about earlier. There will be more 
specific and detailed information from other people who have testified 
or who will be testify.
    September 20, 97 samples taken, 26 could not be analyzed because 
the filters became clogged.
    October 14, Dioxin, 10 samples were collected on October 2 and 
analyzed for dioxin/furans. Four of the samples showed results above 
the guideline level at which EPA would take some type of action to 
reduce people's exposure.
    September 22, Internal Use, 13 new asbestos samples analyzed from 
the 13 (two new) fixed air monitors in Lower Manhattan. Five of the 
thirteen had levels above the EPA school standard.
    October 13 and October 14, Ambiet Air Sampling.--VOCs-Sampling for 
volatile organic compounds (VOCs) was conducted on October 13 and 
October 14 in the smoke plume within the debris pile at Ground Zero. 
Benzene exceeded the OSHA time-weight average permissible level at two 
locations, on both days.
    This is just a small sample of what I read in the EPA's own 
reports. There is enough in there to question what is really going on 
with the air. We should be jumping up and down for the truth! I do not 
buy the EPA party line that breathing the bad air is OK short term. It 
has been 6 weeks with no end in site. It was smelling on the way to 
City Hall. If it makes you sick something is wrong. Lets be honest; is 
the real estate values of downtown and the stock exchanges worth people 
lives. Downtown Manhattan is not going anywhere.
    Thank you. I will happy to take any questions.
                                 ______
                                 
  Statement of Marc J. Ameruso, New York State Assembly Committee on 
             Environmental Conservation, Health, and Labor
    My name is Marc Ameruso, I have been a resident of Tribeca for 10 
years. A member of Community Board No. 1 for 4 years, and very much 
involved with community activism in my neighborhood.
    Today I speak to you as an American, a New Yorker, and a Tribeca 
resident. Since September 11th, I have like many others, have been very 
concerned with air quality caused by the collapse of the World Trade 
Center (WTC) because of the continuing cloud of gases and dust that 
spew from under the rubble for the last 2\1/2\ months. Also, since the 
first week I have been learning as much as possible to educate myself 
on the subject of air quality. I have lost count on how many forums and 
town hall meetings I have attended, including two City Council 
Environmental Oversight hearings. I would like to commend Stanley 
Michaels for having those hearings and also thank Speaker Silver and 
the rest of the committee for having these oversight hearings today.
    I would like to submit part of the transcript from the City Council 
November 8 hearing for your records. I have highlighted much of the 
relevant testimony. Six weeks ago, I never heard of furans, 
chrysotiles, or the term synergistic effects also know as ``toxic 
soup'' and how harmful they can be to humans.
    I always hear the same party line statement from the EPA and others 
at these hearings and forums. The air is ``safe'' and there are ``no 
long-term health effects'', which is always qualified with [according 
to current studies or to best of our knowledge]. This is a cover-your-
ass statement for 10, 15, 20 years down the road. The statement also 
gives the impression that the air is safe and is misleading to the 
public at large. There are too many unknowns on the effects of this 
amount of combination of gases. In the limited amount of research, it 
has been shown that combinations just doesn't double your health risk 
but can increase it exponentially. They should just say definitely that 
they do not know what the long-term and short-term risks are and then 
we can take it from there.
    I want to say the following because I think it is important not to 
diminish what people are feeling around the world, the country, or even 
in the rest of New York. This area where the WTC stood is my 
neighborhood, and my HOME. Please let's not forget that, because even 
after the attacks, I still find myself having to convince the some of 
the air quality powers that be and the people who will be charged with 
the rebuilding the WTC site, that this area is a neighborhood with many 
long-time residents who want to stay and continue to raise their 
children in this wonderful community, that myself and many others have 
been working so hard to make a better place. We will rebuild and come 
out of this better than before.
    One day the fires will go out, the smoke will clear and that smell 
will disappear. But right now, the air quality can throw a monkey 
wrench into all our efforts. People just want to know what, how to 
protect themselves, what type of treatment they can receive if they are 
sick, and how to safely clean up their buildings and apartments? Not to 
be told when they visit their doctors, that their symptoms are 
psychosomatic. Please, enough of that already. I am not an alarmist, I 
just want the truth and so do they.
    With the resulting distribution of dust and particulate matter 
blowing around the city including into Brooklyn, Queen's, Staten 
Island, and New Jersey, as well as the fires that continue to burn, the 
numerous amount of materials under the rubble spouting out a laundry 
list of harmful toxins into the air that are making rescue workers sick 
as well as residents and office workers outside of Ground Zero. 
Children, pregnant women, and the elderly are at the most risk. Mount 
Sini has been seeing some of these people at there clinic, so something 
is wrong.
    Please allow me to briefly relay part of my experience and 
observations to the committee which will bring the air quality issue 
into perspective. On September 11th, I was home just waking up, 
preparing for primary day. Of course, that did not happen. When the 
towers collapsed, I went to the trunk of my car and retrieved my 
construction gear that I kept there from my old construction job of 
many years ago, then proceeded downtown to see what I could do to help. 
By the way, my equipment did not include a respirator.
    I stayed at the site for the next 3\1/2\ days helping in anyway I 
could, from search and rescue to off loading ships to bringing supplies 
and equipment to various locations. I slept in Stuyvesant High School 
for two nights. Everybody down there helped in the same way with no 
real direction from a supervisor.
                              pictures\2\
---------------------------------------------------------------------------
    \2\ Retained in the committee's file.
---------------------------------------------------------------------------
    I have a few photos that I would like to share with the committee. 
(September 11th, (surgical mask); September 9-12, (smiling, just got 
respirator); September 9-13, (just evacuated from Ground Zero, 1 
Liberty, imitate collapse).
    If you look closely at the picture you can see in the background 
that the other rescue workers around me do not have the proper 
protective equipment. By the way there were many other people down 
there like me, who were for lack of a better term were ``Ground Zero 
civilian rescue volunteers'' working side by side on top and around the 
rubble pile with the incredible firefighters, police, and other rescue 
workers.
    So please remember not leave this courageous group of people out of 
any future citations or accolades and they may also have health 
problems. How do we track them or everybody else for that matter. I 
knew there were all types dangers but help was needed and I had not a 
second thought about it. The 3\1/2\ days I spent at the site, I 
observed very few rescue workers wearing respirator masks, and I did 
not hear anyone giving instructions to do so. I did see some 
handwritten signs posted around saying, ``Asbestos levels are high, 
wear your masks.''
    Interestingly members of the military and rescue workers from out 
of town who had their own respirators and almost always keep there mask 
on while working. The treatment I had at the triage center set up 
inside Stuyvesant High School included oxygen respiratory treatment 
twice, eye washes at least 9 times, and antibiotic eye drops for a 
scratched cornea.
    I still have a nagging deep chest cough as do many other people I 
have spoken with who were not rescue workers. I have resigned myself to 
the fact that I may get sick in 10 or 20 years because of this. But I 
accept it because helping was the right thing to do. I relay this part 
of my experience to you not brag, that is not the way I am. I told you 
my story because going down to help was my choice.
    The main problem here is that the EPA is not giving the residents 
of New York and the rescue workers a choice by telling them the air 
quality is OK and there will be no long-term health effects. This is 
where your committee can help. The correct specific questions need to 
be asked to the EPA under oath. If the Assembly has the power with 
these oversight hearings, to subpoena the EPA to testify as to the 
truth. Just don't subpoena the bosses, the administrators, the talking 
heads. Subpoena the toxicologists and epidemiologist, some of whom I 
have spoken to one on one off the record. They can't even look me in 
the eye when they say the air quality is OK. I can see the torment in 
their faces, they know the truth with air and I feel they wish they 
could tell us.
    Get them down here to testify. Your committee must ask very 
specific questions or they will double talk and bog you down with 
scientific and technical banter and all the while never answering the 
question. There are people here that can show the committee exactly how 
to frame these questions today and hopefully there will be a followup 
hearing on this subject. The EPA has been very selective with the 
information they have been releasing to public and on there website.
    Picking and choosing what you want someone to see is the same thing 
as lying in my book. There is proof of this in the EPA's own air 
quality test results and reports and confirmed by other independent 
testing which I am sure you will hear about. One independent test that 
I obtained at a location on Rector Place had a test result of 4.3 
percent for Asbestos on an area described in the report as, ``Roof/Play 
area''. We now know that OSHA uses a 1-percent level for Asbestos as a 
safe standard. But I think we need to be very careful about being happy 
that a certain toxin is below a particular level. What has happened 
here is unprecedented. Some of the standards that exist today were set 
many years ago and were not set for the type of exposure that we are 
experiencing.
    They also may have set at a certain level in a negotiation between 
a chemical company and the Government. Many of the toxicologists and 
epidemiologist I have spoken with tell me that these standards change 
often, most of the time to lower threshold. The standards are also 
subject to debate in the scientific community.
    Let's now talk about the EPA test results. It is my understanding 
that the EPA air quality reports were only able to be obtained through 
a freedom of information requests.
    Also as of today, a Freedom of Information Request sent to NYC 
Department of Health for their test results and air quality reports as 
not been honored. Please ask them why they are holding back? So the 
questions remains, what is in the air that is making people sick? Each 
time some rubble is removed, oxygen gets down under there and fuels the 
fires burning the countless type of materials that were in the WTC. Is 
the EPA using adequate equipment? At a recent air quality forum, a 
scientist said that there are chemicals known as super tiny particles. 
Can the current EPA equipment detect these tiny particles? So how do 
they know it is safe?
    Furthermore, the broad spectrum testing the EPA is conducting does 
not take one important factor into account. Just because a particular 
test result does not reach or go over some threshold set by the EPA or 
OSAH, does not mean it is safe. Also, what about the background levels? 
It does not mean these particles can't make people sick. Just because 
some reading does not make it up to some number that the EPA has in a 
book doesn't mean people can't still can get sick. It is irreverent 
that individual toxins are at ``low levels'' most of the time when they 
are making people sick, and that is exactly what is happening.
     I am going to briefly read to you some of the EPA's own test 
results and air quality reports that was obtained through the Freedom 
of Information Request I told you about earlier. There will be more 
specific and detailed information from other people who have testified 
or who will be testifying.
    September 20, ``97 samples taken, 26 could not be analyzed because 
the filters became clogged.''
    October 14, ``Dioxin.--10 samples were collected on October 2 and 
analyzed for dioxin/furans. Four of the samples showed results above 
the guideline level at which EPA would take some type of action to 
reduce people's exposure.''
    Setpember 22, ``Internal Use''.--13 new asbestos samples analyzed 
from the 13 (two new) fixed air monitors in Lower Manhattan. Five of 
the thirteen had levels above the EPA school standard.
    October 13 and October 14, ``Ambient Air Sampling.--VOCs--Sampling 
for volatile organic compounds (VOCs) was conducted on October 13 and 
October 14 in the smoke plume within the debris pile at Ground Zero. 
Benzene exceeded the OSHA time-weight average permissible level at two 
locations, on both days.''
    This is just a small sample of what I read in the EPA's own 
reports. There is enough in there to question what is really going on 
with the air. We should be jumping up and down for the truth! I do not 
buy the EPA party line that breathing the bad air is OK short term.
    It has been 6 weeks with no end in site. When does short term end. 
What is the short term for Dixon or the short term for PCB's? I was 
smelling it on the way to this hearing. If it makes you sick something 
is wrong. To sum up, I think four things need to be done; (1) The City 
needs funding to coordinate and organize the cleanup, with a Ground 
Zero air quality czar for lack of a better term. (2) Begin research and 
study the what happens when so many contaminants and toxins interact 
with each other in various combination, the synergistic effects. (3) 
Track people's long- and short-term health effects from the ``toxic 
soup'' that we have been breathing in since September 11th and have all 
these people in one data base. I guess we have now become lab rats. (4) 
Have better protocols for debris removal, at the November 1st City 
Council hearing, the EPA said there were using some Super Fund Site 
protocols but were unwilling to declare the WTC site an overall Super 
Fund Site.
    Why? Like anything else, always consider the source of the 
information. Who has an agenda? Lets be honest; is the real estate 
values of downtown and the stock exchanges being open worth people 
lives. Downtown Manhattan is not going anywhere. Thank you. I will 
happy to take any questions.
                                 ______
                                 

                                Niche Analysis, Inc.--Bulk Sample Analysis Report
----------------------------------------------------------------------------------------------------------------
                                   Type of Material
           Sample No.                 Condition/        Sample Location    Asbestos Content     Non-ACM Content
                                      Appearance                              and Percent         and Percent
----------------------------------------------------------------------------------------------------------------
1...............................  Dust/Gray.........  Apt 2J/Living room/ 2.3 Chrysotile....  25 FB, 2 CL
                                                       Window wash.
2...............................  Dust/Gray.........  Apt 2J/Living room/ ND................  95 FB, 2 CL
                                                       Trapped on AC
                                                       filter.
3...............................  Dust/Gray.........  Apt 2J/Bedroom/     ND................  90 FB, 5 CL,
                                                       Trapped on AC
                                                       filter.
4...............................  Dust/Gray.........  Apt 2J/Living room/ 1.8 Chrysotile....  30 FB, 30 CL
                                                       Window sills.
5...............................  Dust/Gray.........  Apt 2J/Debris from  ND................  6 FB,< 1 CL
                                                       exterior window
                                                       frame.
6...............................  Dust/Gray.........  Apt 2J/Living room/ 2.1 Chrysotile....  45 FB, 10 CL
                                                       Dirt sample from
                                                       floor.
7...............................  Debris/Gray.......  Roof/North edge of  Trace Chrysotile..  45 FB, 10 CL
                                                       room.
8...............................  Debris/Gray.......  Roof/Play area (on  4.3 Chrysotile....  40 FB, 30 CL
                                                       end of rubber
                                                       squares).
9...............................  Dust-Debris/Gray..  Roof/South side of  3.2 Chrysotile....  40 FB, 15 CL
                                                       roof.
10..............................  Debris/Gray.......  Roof/Perimeter      0.6 Chrysotile....  50 FB, 10 CL
                                                       north side.
11..............................  Debris/Gray.......  Roof/Middle         2.2 Chrysotile....  40 FB, 15 CL
                                                       section.
----------------------------------------------------------------------------------------------------------------
Note: The balance of each sample is non-fibrous particulates. Please contact us promptly if you have any
  questions about the results. Analysis was performed by using ``Point Count Technique'' as required and
  recommended by the New York State Department of Health and USEPA Interim Method for ``Identification of
  Asbestos in Bulk Samples''. This report must not be used by the client to claim product endorsement by NVLAP
  or any of the U.S. Government. This report relates only to the items listed. Detection limit is 1 percent for
  asbestos. NICHE's liability not to exceed the invoice amount. Sample location was provided by the client.
  Polarized light microscopy is not consistently reliability in detecting asbestos in floor coverings and
  similar non-friable organically bound materials. Quantitative transmission electron microscopy is currently
  the only method that can be used to determine if the material can be considered or treated as non-asbestos-
  containing. ND=None Detected CL=Cellulose FB=Fiberglass

     Statement of Marcy Benstock, Executive Director of Clean Air 
                             Campaign Inc.
    Clean Air Campaign Inc. is grateful to Subcommittee Chairman Joseph 
I. Lieberman and Senator Hillary Rodham Clinton for holding a February 
11, 2002 hearing on the impacts of the September 11th attack on the 
World Trade Center on air quality in the area of the WTC, and how to 
address them. We appreciate the opportunity to submit these comments 
for the hearing record.
    Clean Air Campaign (CAC) worked closely with City and Federal 
agencies, and organized citizen watchdogs to go door-to-door, to get 
soot from every polluting building in a 200-block area of Manhattan 
cleaned up at the source in the 1970's. This effort succeeded in 
reducing particulate pollution by one third in the target area, CAC 
also has an office in a commercial office building near the WTC, which 
was downwind when the towers collapsed. We have been trying for more 
than 5 months to get the information necessary to get our office and 
its contents decontaminated the right way.
                            recommendations
    1. Cleanup first.--The Lower Manhattan, Development Corporation, 
(LMDC) placed a fullpage ad in today's New York Times (February 25, 
2002, p. B5) proposing to use a U.S. Department of Housing and Urban 
Development (HUD) Community Development Block Grant to provide 
financial assistance and/or incentives to eligible individuals to 
remain in homes or apartments in Lower Manhattan, or to move into the 
area. This is premature.
    Asbestos and other dangerous contaminants which do not go away on 
their own should be removed from the air and dust inside all the 
offices, apartments, schools, stores and buildings in Lower Manhattan 
which have not yet been effectively decontaminated. This should happen 
before residents and workers in the Lower Manhattan are given 
incentives to go back to their homes and offices, or to relocate to an 
area--Lower Manhattan--which may endanger their health.
    2. More than a ``professional'' cleaning should be performed.--Many 
``professional'' cleaning companies working in Lower Manhattan are not 
performing asbestos remediations, and may not have skilled and trained 
staff qualified and licensed to do the work, or the required 
certifications. Even certified firms may have outstanding violations. 
Even top companies known to do good asbestos remediation work have not 
been informing potential commercial tenants that there is a difference 
between an asbestos remediation and other kinds of cleaning, or what 
specific tasks should be included in a cleaning contract for a given 
office.
    A widespread cleaning/decontamination should be performed in as 
many buildings and offices and apartments in Lower Manhattan as 
necessary by the U.S. Environmental Protection Agency (EPA), the Agency 
that cleaned the Senate Hart Office Building. At minimum, the 
appropriate EPA office should issue the contracts for this widespread 
clearing and decontamination, in an open, public contracting process 
which fully complies with all appropriate Federal mandates, Qualified 
asbestos remediation firms from across the country should be encouraged 
to submit their qualifications and bids.
    3. Truly independent and credible testing of air and dust samples 
should be performed at appropriate locations throughout Lower 
Manhattan, under protocols developed and reviewed by the best Certified 
Industrial Hygienists (CIHs) in the country, the best qualified U.S. 
Environmental Protection Agency (EPA) staff in Washington, DC and 
Research Triangle Park, and other qualified professionals.
    It is essential that this effort begin again without built-in 
conflicts of interest. The testing must be performed in the absence of 
political or financial incentives to do the testing the wrong way, to 
void certain data, and/or to prevent the data from being reviewed by 
competent professionals across the country--quickly.
    The NY Daily News reported February 22, 2002, that the Lower 
Manhattan Development Corporation (LMDC) was considering the funding of 
air quality ``testing and remediation,'' and was considering ``hiring a 
consultant to `harmonize' standards for indoor air quality.'' LMDC 
should not be involved in either air testing or remediation in any way.
    4. In considering any appropriate role for LMDC, U.S. EPA and 
Members of the Senate Environment and Public Works Committee and its 
staff should review the documents through which the LMDC was created, 
and the New York State laws which govern the powers and mandate of 
LMDC.
    The Lower Manhattan Development Corporation (LMDC, formerly called 
the Lower Manhattan Redevelopment Corporation) is a wholly-owned 
subsidiary of the New York State Urban Development Corporation (UDC), 
doing business as the Empire State Development Corporation (``ESD''). 
LMDC has no office of its own; the address in its Certificate of 
Incorporation is ``c/o NYS Urban Development Corp.'' at UDC/ESD's 633 
Third Avenue address.
    Pursuant to a 2-page November 5, 2001 memorandum, to the UDC/ESDC 
Directors from Charles Gargano, ``Subject: Lower Manhattan 
Redevelopment,'' a 1-page ``Authorization to Create the Lower Manhattan 
Redevelopment Corporation . . .'' authorized UDC/ESD's president and 
chief executive officer to establish a Lower Manhattan Redevelopment 
Corporation (sic) as a subsidiary of UDC/ESD. The New York State 
Department of State Division of Corporations and State Records issued a 
``filing receipt'' for the Lower Manhattan Development Corporation 
(LMDC) on December 17, 2001. LMDC is to have ``perpetual'' duration.
    According to this Certificate of Incorporation (5 pages) and LMDC's 
initial By-Laws (Exhibit, A, 11 pages), LMDC was to be incorporated 
under Section 402 of the State's Business Corporation Law, as 
authorized by Section 12 of New York's Urban Development Corporation 
Act (``the UDC Act''). Its purposes are to exercise the ``all purposes, 
powers and functions'' of UDC, ``in furtherance of the implementation 
and management of the redevelopment of the area of Manhattan south of 
Houston Street [with no southern, eastern or western boundary] in the 
city and State of New York (said area referred to as `Lower 
Manhattan').''
    These vast, unaccountable powers include condemnation, the power to 
spend unlimited Federal, State and local funds, the power to issue tax 
exemptions and create still more subsidiaries, and broad powers to 
tissue contracts, deeds and other instruments. In certain respects UDC/
ESD is very much like Enron--except that its powers are broader than 
Enron's, since, as Robert Caro explained in The Power Broker, such 
quasi-public authorities partake of both all the powers of government 
and all the powers of a private corporation.
    At least six of LMDC's directors were appointed by UDC/ESD on the 
advice of Governor Pataki, and at least three by UDC/ESD on the advice 
of Mayor Giuliani. They all serve at the pleasure of UDC/ESD, a state 
authority controlled by the Governor of New York State, unless they 
hold an official position in New York City or State. In that case 
alone, the Governor or Mayor can remove an LMDC board member by 
removing him or her from his/her official State or city position. This 
arrangement shields the Governor and Mayor of New York from 
accountability.
    An organization called ``Reconstruction Watch'' lists the following 
11 people as members of the LMDC board (in alphabetical order): Roland 
Betts (by Gov.), Paul Crotty (by Mayor), Lewis Eisenberg (by Gov.), 
Charles Gargano (the head of UDC/ESD), Richard Grasso (by Mayor), 
Robert Harding (by Mayor), Ed Malloy (president of the Building and 
Construction Trades Council of Greater New York and the New York State 
Building and Construction Trades Council) (by Gov.), John C. Whitehead 
(LMDC'a Chair) (by Gov.), Madelyn Wils (by Gov.), Howard Wilson (by 
Mayor), Deborah Wright (by Gov.), and Frank Zarb (by Gov.). Louis 
Tomson (LMDC's executive director) was appointed by the board. Ira M. 
Millstein is counsel to the board. None of the LMDC board members has a 
record of public service employment in environmental protection or 
public health agencies.
    LMDC has at least five Advisory Councils, but the power resides 
with the Governor of New York, the man the Governor appoints to head 
UDC/ESD (currently Charles Gargano), and the campaign contributors, 
political fundraisers, and other powerful and or wealthy but unelected 
``players'' who are appointed to the LMDC board.
    Meetings of the LMDC board may be held without notice even to the 
Board, ``at any place.'' ``No such notice of any meeting need be given 
to any director who attends the meeting without protesting, prior 
thereto or at its commencement, the lack of notice to him or her. . . 
.'' The meeting may occur by conference call ``or similar 
communications equipment. . . .''
    This development authority has $2 billion from the Federal 
Government already, according to the Daily News. It was created without 
any environmental review under the State Environmental Quality Review 
Act (the state equivalent of the National Environmental Policy Act, 
NEPA).
    At least five pages of LMDC's Certificate of Incorporation and 
initial By-Laws shield the directors of this UDC/ESD subsidiary from 
various kinds of liability.
    5. The Federal Government (including a bi-partisan Special 
Committee of the U.S. Senate) should play an important implementation 
and oversight role over disaster recovery efforts for Lower Manhattan.
    This country's greatest environmental and public health protection 
laws were written in, Washington in the 1970's and 1980's. They were 
written in Washington because State and local governments have shown 
over and over that they cannot withstand pressure from major campaign 
contributors to avoid the enforcement of State and local laws when 
wealthy and/or powerful campaign contributors want those laws ignored.
    The disaster that resulted from a terrorist attack on the World 
Trade Center, may be worse than any other that has ever occurred in 
this country. The toxic pollutants released when the towers were 
pulverized--and as fires continue to burn--present wholly new air 
quality monitoring and remediation problems, and the pollutants in the 
area now (both regulated and unregulated) are likely to have 
synergistic affects. The health of a great number of the citizens of at 
least three states (New York, Connecticut and New Jersey) is at risk.
    The exposures of people who work in Lower Manhattan to these 
pollutants is generally more than 8 hours a day, In addition, many 
people who live in Lower Manhattan also work or go to school in Lower 
Manhattan, so they may be exposed to this whole new order of pollutants 
24 hours a day. Children are already suffering from increased asthma 
attacks; adults are getting adult-onset asthma, which they will have 
for the rest of their lives; and people can die from asthma attacks. 
This increased incidence of asthma problems may not be as bad as the 
lung cancers likely to show up 10, 20 or 30 years down the road--but it 
ought to serve as the canary in the coal mine, and prompt effective 
preventive actions.
    Neither the State of New York, nor the City, nor, their agencies or 
authorities is up to the job of protecting the health of the hundreds 
of thousands of U.S. citizens who live, work, or go to school in Lower 
Manhattan. The U.S. Senate and EPA will just have to take a leading 
role.
    6. Commercial tenants as well as resident of Lower Manhattan must 
be given far better information on cleanup options and techniques.--
Commercial tenants are not being told that there is a difference 
between asbestos remediation (i.e., a gold standard office cleanup) and 
some other kind of cleanup. Vague ``bid proposals'' are being offered 
which do not list the cleanup tasks which will be performed. No 
Government Agency that CAC is aware of has mentioned that office 
carpeting should be removed if possible, and should only be replaced 
after post-cleaning clearance and/or re-entry testing shows that the 
air and any dust in the office is safe to breathe.
     Decontamination chambers are generally used in asbestos-
remediation-style cleanups, to keep toxic contaminants from being 
resuspended, Cleaned desks, file cabinets, and papers should be moved 
out of the office if possible, and not put back until the office tests 
clean.
    Clean Air Campaign still has not been able to find out how many 
decontamination chambers one needs if the office contents cannot be 
moved out, and how big they need to be--i.e., whether or not two would 
fit into a small office.
    Both the Internal Revenue Service and the State Tax Department have 
sent mailings to employers with payrolls in the WTC area, informing us 
of extended tax filing deadlines. Information on truly effective 
cleanups could be included in future mailings.
    7. Better information on the internet.-- Any citizen anywhere in 
this country who wants to help devise better testing or cleanup 
protocols, or who wants to see what real experts (with names and 
affiliations) have to say, should be able to get the information--and 
provide it--using the internet. The Senate Environment and Public Works 
Committee should sponsor appropriate websites until other agencies show 
they are willing and able to do the job.
                               conclusion
    It is in everyone's interest to restore air quality to safe levels 
in Lower Manhattan by cleaning up all possible contaminants at the 
source, and removing them from Manhattan. The alternative approaches 
aren't working (providing misleading reassurances, misspending the 
public funds available to solve the real problems in Lower Manhattan, 
and seeking to shift the costs and liability for a public health 
disaster, onto other parties, especially the individuals who live, 
work, or go to school in Lower Manhattan). Parents of schoolchildren, 
residents and workers who want to return (or send their children back) 
to Lower Manhattan have been getting sick and facing agonizing choices 
over the last 5 months. Before we all go to stress counselors (which we 
haven't had time to do), we need to have the sources of the stress 
removed. Those include the unprecedented burden of contaminants in 
Lower Manhattan.
    Clean Air Campaign would be happy to provide additional information 
on request. We also hope there will be more U.S. Senate, House of 
Representatives, and EPA hearings. Finally, we would appreciate 
receiving a copy of the written record of this hearing, unless all the 
statements which have been submitted for the record are put on EPW's 
website.
 Statement of David Koon, Chair, New York State Legislative Commission 
                on Hazardous Wastes and Toxic Substances
    Thank you for inviting my testimony as chair of the Legislative 
Commission on Hazardous Wastes and Toxic Substances to be entered into 
the record of today's proceedings.
    The devastating attacks at the World Trade Center on September 11th 
have left emotional scars on the victims, their families, and the 
country. Just as important, these events have left the potential for 
serious long-term health impacts on the thousands of individuals who 
risked their lives to save others, have responded to assist with 
cleanup efforts, and who live and work in Lower Manhattan. I would like 
to commend your efforts here today to further bring to light many of 
the environmental health issues resulting from the events of September 
11th.
    As the chair of the Assembly's Hazardous Waste and Toxic Substances 
Commission, my office has been closely monitoring the developments of 
reported health effects of contaminate exposure to workers and 
residents of Lower Manhattan.
    As the rescue, recovery and cleanup efforts have progressed, issues 
regarding worker safety as well as residential exposure have come to 
the forefront. Environmental monitoring data has not been consistently 
provided to the public, and government agencies have been criticized 
for not releasing environmental data sooner. After the initial delay in 
posting environmental data, a clear picture of the extent of the 
contamination and its implications for public health and the 
environment remains elusive.
    There are a number of factors that have contributed to the general 
unease and anxiety over environmental monitoring information. The delay 
in making test results publicly available and the failure to reveal all 
information that EPA used to make public health determinations, further 
exacerbated the situation. In addition, the test results of independent 
consultants, some whom had been previously hired to perform 
environmental monitoring analysis after the 1993 World Trade Center 
bombings, were dismissed, citing that their ``testing methods weren't 
recognized.''
    The confusion and skepticism expressed by many people regarding 
environmental monitoring and testing at the World Trade Center site has 
resulted, in part, because there is no clear legal or regulatory 
framework in place to deal with the type and magnitude of the 
disastrous building collapse. The environmental and public health 
impacts caused by the sudden, complete and unplanned destruction of the 
office buildings in Lower Manhattan are not directly addressed at 
either the Federal or State legal levels. In attempting to determine 
what levels of environmental exposure to chemicals are ``permissible'' 
or ``acceptable'' has left government officials looking to statutes and 
regulations that would have applied in a normal building construction 
and demolition scenario, and the amounts of chemicals that could be 
legally permitted to enter the air under those statutes. The laws and 
regulations that are being referenced address many substances including 
asbestos exposure to workers, asbestos clean-up requirements, hazardous 
waste content of debris, and fine particulates in the air.
    More than 20 thousand people live within \1/2\ mile of Ground Zero, 
close to three thousand of them are children. As I am sure you will 
repeatedly hear during today's proceedings, many workers and residents 
within the Lower Manhattan area are reporting similar health symptoms: 
nosebleeds, sore throats, bronchial infections and an ``endless racking 
cough'' more commonly referred to as the ``WTC Cough.'' Several 
students who attend nearby Stuyvesant High School have reported cases 
of skin rashes, nosebleeds, headaches, respiratory infections, and eye 
infections. Three Stuyvesant High School teachers have left due to 
respiratory illnesses. Approximately one-fourth of the city's 
firefighters involved in rescue and cleanup activities complain of 
severe coughing. FDNY has reported that approximately 750 firefighters, 
8 percent of its work force, are on medical leave. Several hundred of 
these individuals may be forced to retire from the Department. More 
than one thousand have filed claims against the City. In early January, 
four Port Authority officers were reassigned after blood monitoring 
tests revealed high mercury levels.
    While government test analysis show asbestos and other contaminate 
levels generally fall below the standards set for safe human exposure, 
health officials remain concerned about long- and short-term health 
impacts of these exposures. Officials have publicly stated that their 
knowledge on related-health impacts is based on long-term exposure. 
There is no precedent for a disaster of this magnitude and many health 
implications remain unknown.
    Acting on public concern, the Assembly Speaker, whose District 
encompasses the World Trade Center site, convened a public hearing in 
November to examine the public health and environmental impacts of the 
terrorist attacks. Witnesses included panels of elected officials, 
community groups, government agencies and representatives from 
environmental, health and labor organizations. The recurring themes of 
the hearing were the same: inadequate testing methods, particularly 
outside the perimeter of Ground Zero; better coordination of 
communication between the agencies conducting the testing and releasing 
information; extensive health concerns for workers onsite at Ground 
Zero; and inadequate action taken to protect the public from the 
hazards of pollutants released by the 11-week-long fire.
    The Assembly hearing testimony confirmed that despite the well-
intentioned efforts, communication between the various governmental 
agencies and the public was inadequate. While the enormity of the 
incident was unprecedented and the need to initially concentrate all 
resources on emergency and recovery efforts is certainly 
understandable, subsequent governmental actions failed to reassure the 
public about their health and safety. The discrepancy in testing 
methods and results has created much anxiety for the residents and 
workers in Lower Manhattan. The failure of government to conduct 
residential indoor air testing and subsequently allow residents to 
reoccupy their homes may result in real long-term health concerns, 
particularly in children and the elderly.
    Further, very little information has been provided regarding water 
quality in the World Trade Center area. Upon a recent visit to EPA 
headquarters, Assembly staff witnessed cleanup workers spray washing 
the dust and debris from the sides of the buildings. While the workers 
wore protective face gear, the runoff simply emptied into the street, 
dropping on scaffolds on the sidewalks as pedestrians walked underneath 
and around them, simply changing the pathway of exposure.
    It serves no public interest to point fingers and blame as we move 
forward from this great national tragedy. Moreover, as the City moves 
ahead with cleanup and redevelopment efforts, let us work together to 
regain the public's trust by establishing better communication between 
governmental entities regarding who is testing what area and for which 
contaminants. Develop consistent reporting methods to inform the public 
of all potential health impacts that exist. Testing methods themselves 
need to be the most stringent and protective of the public health and 
environment available. Improvements in all these areas will help to 
allay fears of the public, thereby allowing them to make informed 
decisions.
    Thank you very much. We would be happy to provide you with 
information collected by the Commission staff as well as a copy of the 
Assembly's hearing transcript and testimony given at those proceedings.
                               __________
             Statement of Patricia R. Dillon, New York, NY
    My sincere thanks to the committee, and to Senators Clinton and 
Lieberman, for today's hearings regarding health and environmental 
problems in Lower Manhattan related to the September 11th World Trade 
Center disaster.
    I am a resident of the Tribeca neighborhood and I also work in 
Lower Manhattan--at 80 Centre Street. My mild respiratory 
difficulties--seasonal sneezing and itchy eyes, and an occasional cough 
caused by New York City's normal poor air quality--have been greatly 
exacerbated by the current, ongoing problems with recovery and 
``cleanup'' (I hesitate to use that word, since what precious little 
cleanup is occurring is being done in the most sloppy and dangerous 
manner).
    When I leave the city for a few days, my coughing stops and my 
breathing eases, so I know that these difficulties are due to my 
virtually constant exposure to the air near Ground Zero. I am assured 
by the Department of Health and other public agencies that I will 
certainly suffer no long-term ill effects. But, how can I trust any of 
these Government agencies when it is clear that they have obfuscated, 
covered up and outright lied about what they do know, and given us the 
worst possible advice about how to deal with the situation. Wet-mop 
indeed! What about the air-intake vents on the roofs of apartment 
buildings, which are sucking in toxins from the never-been-cleaned 
roofs and distributing them throughout all the air ducts in the 
buildings?
    Why is New York City not mandating building owners to do 
environmentally safe cleaning of their buildings, and why is the 
Federal Government not reimbursing the owners for doing it? FEMA, as 
well as NY State agencies and the Red Cross, is throwing money at 
individual victims for rent, mortgage payments, food, etc., but we are 
told there is no money available for environmental cleanup. That is 
insane!
    There are hardly any protocols being followed for the environmental 
cleaning of building interiors or exteriors, or for roads and streets. 
Washing of the roadways around Ground Zero and along the routes to the 
barges is happening much less frequently in the past month, even though 
there is just as much airborne toxic dust and debris in our 
neighborhood as ever. Recycled water could be used if drought is the 
excuse; salt/sea water could be used if freezing temperatures are the 
problem.
    Some of the trucks carrying the debris to the barges at Pier 25 are 
still operating uncovered and minimally wetted down; the barges, once 
loaded, have never been covered. Why on earth not?
    The initial sitting of the barges next to a high school, across the 
street from a college, and four blocks from three other schools, speaks 
volumes about the lack of concern for the health of our children. 
They--and the thousands of residents nearby--are clearly in danger! I 
understand that it is probably too late in the process of debris 
removal to move the barges to a less dangerous location, but I do not 
see why the cleanup contractors cannot be obligated to follow the 
strictest environmental safety procedures.
    Can the committee take action to ensure that the barge operation at 
Pier 25 will be dismantled when the cleanup is completed, and that any 
new barge operation in the post-cleanup/construction phase will be 
located in a less heavily residential area, such as Canal Street or 
Pier A near Battery Park?
    Who is responsible for the cleaning of the sidewalks--especially 
those around our schools--which are always dusty and littered with 
debris?
    Can the committee help residents with testing of apartments and 
building interiors and, if contaminants are found, enforce 
environmentally safe cleaning?
    Can you find a way to enforce the cleanup of roofs and building 
exteriors, to prevent constant re-contamination of the downtown area? 
Or get it done by a Federal Agency?
    Will you initiate and fund studies on the effects of multiple 
contaminants, and on the best cleanup methods, and then enforce the 
best possible guidelines?
    Will the committee press for a health study immediately, to look at 
immediate effects, and for followup studies on a regular schedule 
(every 6 months or yearly)?
    Will the committee introduce legislation providing for free medical 
care for WTC disaster-related illnesses, now and in the future, for 
those being exposed to poisons in our environment that are being swept 
under the rug by our Government?
    Will you investigate and report on:
    <bullet> EPA's double standards in re the thorough cleanup of their 
own Lower Manhattan offices vs. the complete disregard of all other 
office space?
    <bullet> The decision to reopen downtown residences?
    <bullet> Air quality data gathered during the first 2 weeks after 
the disaster that seems to have been withheld from the public?
    Finally, what is the plan for decontaminating the Fresh Kills 
landfill after current activity ends?
    Thank you for any help you can give us.
                               __________
     Statement of Sondra Levin, Former Chairman, NYC Group of the 
                              Sierra Club
    The New York City Sierra Club is dismayed that misinformation and 
lack of enough information has been provided by the city Health 
Department and the Federal Environmental Protection Agency about the 
significant amount of air pollutants from the World Trade Center 
disaster.
    The city health department under the Giuliani administration also 
gave misinformation about massive pesticide spraying over the city 
during the past 3 years. Former Mayor Giuliani falsely claimed the 
spraying was safe when pesticides used and the way they were used were 
unsafe. As a result of the spraying, many people became sick and the 
city's environment was contaminated. The exact extent of the damage is 
still unknown, but it was significant.
    The city Sierra Club is dismayed that heroic rescuers of the World 
Trade Center disaster including firefighters and police were exposed to 
air pollution without proper protection.
    The city Sierra Club advocates that the World Trade Center site and 
surrounding buildings affected by air pollutants be cleaned up at 
public expense according to the highest safety standards.
    We highly commend Senator Hillary Clinton for spearheading an 
investigation to find out how much of a problem exists, since that is 
still unclear. Complete information and action is needed to avoid 
compounding the tragedy of the World Trade Center disaster.
                 Letter from Edward Fluss, New York, NY
Hon. James M. Jeffords, Chairman,
Committee on Environment and Public Works,
Washington, DC.
    Senator:
    I want to be clear and I want this message for the record to be 
simply understood.
    Have any of you any clue what is going on in downtown Manhattan? I 
say you do not have a clue. Perhaps you have not visited, perhaps you 
don't look up at the buildings still standing. Perhaps you are afraid 
like I am that you will get sick.
    Have any of you visited any building in downtown Manhattan? I 
repeat any building?
    Look out ANY window and look to any building and you will see dust 
still on the window sills and glass of all buildings downtown! This 
dust is contaminated with all sorts of toxins--yes asbestos included! 
Need proof? Call me-212-231-5139 and I will show you pictures and 
provide you with samples.
    More insane, yes I use the word insane is the fact that the 
buildings surrounding Ground Zero such as the Deutche Bank building to 
the south of Ground Zero stands open with broken windows filled with 
dust and debris from September 11th! That dust is still, yes still 
today, February 19, 2002, blowing out of the building onto men, women 
and children living, working and attending school in the area!
    I'll repeat: Yes, the dust packed office space is open and dust is 
blowing out of the building onto citizens such as myself, into 
apartments such as my apartment in 600 Gateway and polluting the 
downtown area each day, every day 24 hours a day!
    How can this contaminated building be standing and absolutely open 
to the environment and to people living and working in its vicinity! I 
ask again how can this be? This is a private building but why isn't it 
wrapped in a plastic bubble or something?
    There must be action taken by someone or some institution. The EPA 
is failing, The NYC DOH is failing. Government is failing us all here!
                               __________
                                            Kathleen Ewald,
                                  Brooklyn, NY., February 22, 2002.
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    Senators: I live in a part of northwest Brooklyn called Carroll 
Gardens, which is right on the East River, approximately 2 miles 
southeast of WTC. The wind on September 11th blew the dust and debris 
straight over this part of Brooklyn.
    That morning, I had accidentally left my air conditioner turned on. 
In my panic over finding family and friends (phones were barely 
working)--let alone my fear that the entire city was being destroyed--I 
failed to realize that the air conditioner was running. It wasn't until 
that night, that I realized I was smelling the dust and debris that was 
falling on my neighborhood in my house, that I turned off the air 
conditioner. I coughed through the night and into the next morning. 
Then I watched Christie Whitman at the site on TV saying the dust/air 
was only dangerous if you were at the site. I had fine brown dust 
around my bedroom, not the inches of dust they were showing in 
apartments near the site. I followed the advice to clean up dust with 
wet rags. At the same time, I was incredulous that people were supposed 
to clean up their own apartments.
    Outside, in my neighborhood, there was an inch of brown soot on 
everything. Homeowners brushed it off their stoops and into the 
streets.
    Then I went on with my life. I followed instructions: ``Don't 
panic. Be strong. We can't let the terrorists win.'' I spent my Fridays 
volunteering at a Brooklyn charity that gave financial aid to September 
11th victims.
    In returning to work in NoHo on September 13, I was hit by air that 
smelled like pure chemicals. I felt like my lungs were closing up.
    Still, officials continued to say the air was safe. I particularly 
remember newspaper articles quoting officials who said that any 
respiratory irritation was temporary and would pass. Around this time 
Whitman also announced that our air ``is safe to breathe.''
    I ignored my symptoms for weeks, then realized that they were not 
going away. In an ER in late October, I was diagnosed with reactive 
airways disease. A pulmonologist did pulmonary function tests and 
confirmed it further, calling it asthma.
    I don't smoke, and I never had asthma before September 11th.
    My symptoms don't end there. I have frequent headaches and stomach 
burning, a symptom of GERD, which MSNBC recently reported is a common 
symptom of WTC Syndrome sufferers.
    Late last year, I started reading the articles on Joel Kupferman's 
website. Andrew Schneider's recent articles on (a) how the EPA used 20-
year-old methods to measure asbestos and (b) the withholding of 
information as to the causticity of the dust finally scared me into the 
realization: This stuff is still in my house and I've been sleeping in 
it and breathing it in since September! This is why I'm still sick!
    I hired an environmental testing company. They did not find 
asbestos in the samples they took, but they did find pulverized 
fiberglass--and lots of brown dust. Attempting to clean it up myself 
was apparently NOT the thing to do. I am currently having it re-tested 
for other chemicals.
    I had the apartment HEPA vacuumed. I suppose my apartment is clean 
now. But it's 5 months later, and I don't know what toxins are coursing 
through my veins or turning into cancer in my lungs. I was a completely 
healthy young woman a year ago. Now I don't know what's going to happen 
to me, and I'm terrified.
    Had we been told: The dust is caustic! Fiberglass is a carcinogen! 
The dust isn't just dangerous at WTC, it's dangerous in every 
neighborhood where the wind took it on September 11th! If you have a 
bit of dust in your house, leave immediately, don't clean it yourself 
with wet rags! . . . Had we been told that, I'm sure I would have 
responded differently. But I believed what we were told, and now I'm 
paying the price.
            Sincerely yours,
                                            Kathleen Ewald.
                               __________
        State University of New York, University at Albany,
                                  Rensselaer, NY, February 8, 2002.

    To the Parents of Children in PS 89: It was my pleasure to address 
the parents and teachers at PS 89 last Tuesday night where I could 
explain why, in my opinion, it is not safe to re-occupy the building at 
this time. This letter is to put in writing these reasons, and also to 
tell you more about who I am.
    In 1980 I came to Albany as the Director of the Wadsworth 
Laboratories of the New York State Department of Health. The major 
event which brought me to Albany was related to Love Canal, which was 
the first time in our history when people became aware of the hazards 
of chemical wastes in our communities, and event with many 
commonalities to the WTC attack. I became the Dean of the School of 
Public Health at the University at Albany in 1985. When I resigned as 
Dean in 1998, I became the Director of the Institute for Health and the 
Environment, a research and teaching Institute directed at protecting 
health. I have considerable expertise on issues related to children's 
environmental health, as evidenced by the fact that I have been the 
organizer of two meetings on this subject in Asia, sponsored by the 
U.S. National Institutes of Health and the World Health Organization.
    Children are much more vulnerable than adults to the effects of 
environmental contaminants, but most of the standards that have been 
set by EPA and other Federal and State agencies are based on effects 
(often occupational) on adult white males. Therefore, in order to 
protect children it is essential that one add safety factors over what 
is proposed for adults. Furthermore, it is not appropriate to be 
concerned only with immediate, acute health effects, but also to 
protect children from cancer and other chronic diseases which may 
appear many years after the exposure to toxins. In my judgment no one 
has demonstrated that PS 89 is safe for reoccupancy at present, and 
indeed the evidence presented is clear that it is not safe. The reasons 
for this conclusion are as follows:
    Air-borne particulates are dangerous to everyone. They can triggers 
asthma attacks in vulnerable individuals, and may even cause asthma and 
other respiratory diseases. While the EPA standard of an 8-hour work 
day for adults is 65 ng/m3, EPA has set a level of particulates in air 
of 40 ng/m3 for adults with respiratory or cardiac disease. This value 
is also applied to children. The level of particulates measured in PS 
89 was greater than 40 ng/m3 on 5 of 11 days tested, and on 3 days even 
the average sample was greater than this value, while on a fourth ,day 
the average was 39.9 ng/m3. On days when the outsider particulate 
levels were high, the insider levels were high. Therefore, the present 
filtering system is not preventing particulates from getting into the 
building. There is, at present, no convincing evidence that the 
technique used for these measurements is invalid. On the basis of these 
readings, alone, the school should not be re-opened. There is certainly 
adequate evidence for asthma, coughs and other kinds of breathing 
disorders in persons exposed at other sites near the WTC, and children 
should not be in the school building until the particulate levels are 
definitively documented to be below 40 ng/m3 at all times.
    Most usual particulates are simple products of combustion, and 
contain only small quantities of toxic chemicals. This may not be true 
near to the WTC, since there is clear evidence that dioxins, furans, 
PCBs, asbestos and several metals were released during the collapse and 
fires. Thus, even if the particulate levels are below the magic number 
of 40 ng/m3, it is essential to demonstrate that the particulates do 
not contain toxic substances at high concentration. This is done by 
collecting either the particulates from an air filter or the dust from 
surfaces, weighting the sample, and then determining the relative 
percentage of the weight that is toxic. This has not be done. There 
have been some measurements of toxins in air and on surfaces, but not 
on the basis of weight. Furthermore, some of the measurements done have 
been totally flawed. For example, the sensitivity of the measurement of 
PCBs in air was so low that the smallest value that could be detected 
was 4.2 times greater than the occupational standard for adult white 
males, and even that value would not be protective of children.
    Other health experts recommend no outdoor play at times when the 
particulate levels are high. This is a wise recommendation, but the 
same recommendation applies to the inside environment.
    In my judgment parents have the right, and indeed the 
responsibility, to demand that the indoor environment of PS 89 be 
proven to be safe from both acute and long-term health hazards before 
the building is reoccupied. There is presently no such evidence, and 
too much doubt to justify re-occupancy at the present time. We must not 
repeat a Love Canal by making decisions in haste that may adversely 
affect the health of our children.
            Sincerely,
                                  David O. Carpenter, M.D.,
                                                         Professor.
                               __________
Response by Antonia Godsey to Comments from Walter E. Mugdan, Regional 
                           Counsel, U.S. EPA
    NYSBA Environmental Law Section Annual Meeting, January 25, 2002
Re: Response to Remarks

    Thank you for your presentation at the New York State Bar 
Association Environmental Law Section Meeting on January 25, 2002 
addressing the air quality in downtown Manhattan. My response to your 
comments will address the concerns I have about the health risks 
associated with exposures to contaminated dust found near the WTC site 
and the extreme need for EPA to take a more active role in monitoring 
and conducting a responsive clean up of the interior of apartment 
buildings and office spaces in downtown Manhattan as well as the 
interior of homes where rescue workers and construction workers live 
and may have tracked contaminated dust into homes.\1\
---------------------------------------------------------------------------
    \1\ It was mentioned at the NYSBA in comments made by EPA 
representative, Ms. Callahan, that ``EPA conducted a professional 
abatement of its office building; by professional contractors and under 
strict asbestos guidelines, because FBI personnel who were entering the 
building had come directly from the site and thus may have tracked 
contaminated materials into the building''. (My notes taken at meeting 
January 25, 2002).
---------------------------------------------------------------------------
stringent control measures should be enforced to address toxins in the 
                         air near the wtc site
    The Mugdan comments note the importance of emphasizing the NESHAPS 
regulations along with the significance of the Clean Air Act, yet, in 
the same breath the comments go on to state that, ``the regulations do 
not apply to the cleaning of WTC dust from apartments or offices:'' \2\ 
In particular you state that ``the Clean Air Act (CAA) authorizes EPA 
to regulate the protection of outside air and not indoor air.'' \3\ The 
neighboring vicinity of the WTC site has become a great concern among a 
number of people who live and work within the community. Just this past 
week, FOX News and USA Today reported that EPA continues to downplay 
the potential air quality problems at the WTC site. There are a number 
of professionals who have commented on the potential for dangers 
associated with the known and hazardous pollutants identified in 
downtown Manhattan,\4\ yet EPA continues to assert interpretations of 
the law that skirt the issue.
---------------------------------------------------------------------------
    \2\ Mugdan comments NYSBA meeting, January 25, 2002 ELS at page 11, 
para 5 at FN 12.
    \3\ Mugdan comments NYSBA meeting, January 25, 2002 ELS at page 10, 
para 2.
    \4\ See Statement of Marjorie Clarke, Ph.D., State Assembly 
Committee on Environmental Conservation public hearing on health 
matters resulting form the September 11th WTC attacks submitted 
November 27, 2001 and statement of Cate Jenkins, Ph.D., USEPA 
Preliminary Assessment Hazardous Waste Identification Division January 
11, 2002 and UC Davis News and Information, Trade Center Air Held 
Unprecedented amounts of Fine Particles . . . Metals Say Scientists, UC 
Davis Delta Group, February 11, 2002. www.news.ucdavis.edu
---------------------------------------------------------------------------
    The Mugdan comments cite the Clean air Act (CAA), the National 
Emission Standards for Hazardous Air Pollutants (NESHAPS), the Toxics 
Substance Control Act (TSCA) and Asbestos Hazardous Emergency Response 
Act (AHERA)\5\ as authority for the EPA reasoning to refuse to enforce 
regulations for the quality of indoor air. In the interpretation of 
these regulations, the Mugdan comments provide the definition of the 
words ``renovation'' and ``demolition'' and their meaning under 
NESHAPS. These comments go on to state that: the definition for 
``renovation'' cannot plausibly be stretched to include the cleaning of 
WTC dust that reached apartments and offices'' \6\ (in downtown 
Manhattan). When considering the meaning of a statutory phrase, one 
must consider not only the ordinary meaning of the words but also the 
meaning of the words in light of the purpose, context and structure of 
the entire statute of which the phrase is apart.\7\
---------------------------------------------------------------------------
    \5\ Section 112 CAA 42 USC Sec 7412 and NESHAP codified at 40 CFR 
Part 61, subpart M; AHERA amendment to TSCA 15 USC Sec 2641 and 40 CFR 
Part 763, subpart E. Sec 7630.80 et seq.
    \6\ Mugdan comments NYSBA meeting, January 25, 2002 ELS at page 12, 
para 4.
    \7\ American Mining Congress vs. USEPA; 263 US APP. D.C. 197, 824 F 
2d 1177, 1184-85 (D.C. Cir: 1987).
---------------------------------------------------------------------------
 sampling results are finding levels above the maximum threshold that 
                    can be dangerous to human health
    Hazardous substances are presently documented near the neighboring 
vicinity of the site and in some cases were found to be above the 
maximum standards allowable for the protection of human health. A 
sample of 2.2 percent chrysotile\8\ (asbestos, ACM) was found inside of 
an apartment building on Pine Street in downtown New York, a few blocks 
away from the site.\9\ In light of this information there is a strong 
presumption that ACM is present in other apartments and office 
buildings in the same vicinity. This creates a serious concern and has 
caused a number of people to give attention to the issue of whether the 
WTC site and vicinity should be classified under. CERCLA as an 
emergency measure to respond to the threat of further hazardous 
substance releases. Under CERCLA it is noted that,
---------------------------------------------------------------------------
    \8\ Chrysotile currently accounts for more than 99 percent of world 
asbestos consumption; e.g. asbestos cement construction products, 
asbestos cement pipe, roofing tiles, sheeting and fibers combined with 
resin to produce temperature resistant linings. Researchers now believe 
that the carcinogenicity of the fibrous substance is related to several 
physical and chemical characteristics. www.asbestos-institute.ca/crg/
crgcontent.html Article entitled, Chrysotile Reference Guide, Asbestos 
Family of Fibers, Asbestos Related Disease, data from world consumption 
production 1984-1994.
    \9\ Test results from ATC Assoc. Inc. NY Bulk Asbestos Analysis 
Sheet PLM results Field No 315, 2.2 percent chrysotile October 10, 
2001, Batch No. 3068, published at nyenvirolaw.org.

          Upon receipt of information that there is a hazardous waste 
        at any site which may present an imminent and substantial 
        endangerment to human health, the administrator shall provide 
        an immediate notice to the appropriate local government 
        agencies. In addition, the administrator shall require notice 
        of such endangerment to be promptly posted at the site where 
        the waste is located.\10\
---------------------------------------------------------------------------
    \10\ Title 42 Chp 82 Subchapter VII Sec 6973 (c) Immediate Notice.

    Consider the relationship between CERCLA and TSCA: e.g. the Toxic 
Substance Control Act (TSCA) authorizes the EPA to control existing 
chemical substances determined to cause an unreasonable risk of injury 
to public health or the environment and to take action with respect to 
chemical substances which are imminent hazards.\11\ Under TSCA, Title I 
and Title II, (AHERA amended in 1990 ASHARA) EPA should be obliged to 
monitor and sample the air inside of buildings in downtown Manhattan 
where a serious threat to human health potentially exists.\12\ 
Likewise, under CERCLA an action may be brought, consistent with the 
National Contingency Plan, if necessary to respond to the release of a 
hazardous substance imminently dangerous to public health.\13\ CERCLA 
provides several complimentary mechanisms to effectuate hazardous 
substance removal. It was designed by Congress to protect and preserve 
public health and the environment. Under the statute, the Federal 
Government may conduct its own removal of hazardous substances which 
includes such action as may be necessary to monitor, access and 
evaluate the further release of a hazardous substance; the disposal of 
removed materials and the taking of any such other action as may be 
necessary to prevent, minimize or mitigate damage to the public health 
or welfare.\14\
---------------------------------------------------------------------------
    \11\ TSCA Title I--Control of Toxic Substances--includes provisions 
for regulating hazardous chemicals substances and mixtures with 
provisions for managing imminent hazards Title II--Asbestos Hazard 
Emergency Response Act (AHERA, Pub. L. 99-519), which was amended in 
1990 by the Asbestos School Hazard Abatement Reauthorization Act 
(ASHARA, Pub. L.101-637) to require the accreditation of persons who 
inspect for asbestos containing material in schools and public and 
commercial buildings. It also authorizes requirements for the 
accreditation of persons who design or conduct response actions with 
respect to friable asbestos containing material (ACM) in such 
buildings. See infra.
    \12\ Guidance for Controlling Asbestos Containing Materials In 
Buildings [EPA 560/5/85-024]: Introduction to the problem of asbestos 
in buildings and guidance for coping with the problem, 6/85; USEPA 
Office of Pollution and Prevention of Toxics.
    \13\ 42 USC Sec 9605 CERCLA/SARA Sec 105 (4)(d) National 
Contingency Plan--Any person who may be affected by a release or a 
threatened release of a hazardous substance or pollutant or 
contaminant, may petition the President to conduct a preliminary 
assessment of the hazards to public health and the environment which 
arc associated with such release.
    \14\ Id The term ``removal'' means the cleanup of a hazardous 
substance in the environment and any such other actions that may 
necessary in the event there is a threat of release of a hazardous 
substance; CERCLA 42 USC Sec 9601 (23) removal defined at (Sec 101) and 
(106)(a).
---------------------------------------------------------------------------
 epa has not rebut the presumption that acm is present in dust samples 
                    above the threshold requirements
    In an OSHA Administrative decision that came before the DC Circuit 
last year in December 2001, petitioners sought review of a decision and 
Court Order imposed by the OSHA Review Commission.\15\ There, the court 
found that a company performing abatement activities committed 10 
violations of the Asbestos Construction Standards promulgated at 29 
CFR. Sec 1926.1101. It was noted that the company failed to use the 
required sampling methodology for asbestos abatement. Under the 
regulations, a building owner must identify all installed-thermal: 
system insulation and surfacing materials found in any building built 
before 1980; as it is presumed that ACM material is present.\16\ The 
regulation provides a means to rebut the presumption by following 
specified testing requirements. The OSHA Commission ruled that ``an 
owner who fails to use specified testing methods to identify the 
presence of ACM fails to rebut the presumption that ACM is present in a 
building.'' \17\ The U.S. Court of Appeal for D.C. agreed that ``when 
specified methodology does not follow regulatory requirements a company 
will be found to have not exercised reasonable diligence in its 
asbestos abatement analysis.'' \18\ Similarly, EPA Government officials 
have failed to come forward with adequate notice to the public and has 
failed to use due diligence in investigating this matter. In New York 
City, at and near the WTC site there is a strong presumption that ACM, 
along with other potentially innocuous dust, is present inside of 
buildings.\19\ EPA has not necessarily provided any proof to rebut the 
presumption that ACM and a dangerous mix of other potential toxins may 
be present in dusts found in occupied buildings and office spaces 
downtown.
---------------------------------------------------------------------------
    \15\ Odessey Capital Group III. L.P. d/b/a Cascade Apartments v. 
OSHA Review Commission and Secretary of Labor No. 01-1030, 2001 U.S. 
App., Lexis 27797.
    \16\ Id see Odyssey Capital Group, III, L.P.
    \17\ Id see Odyssey Capital Group III, L.P.
    \18\ Id see Odyssey Capital Group III. L.P.
    \19\ There may be certain synergistic interactions between some of 
the compounds that may be present in the dust that is unknown since 
ambient air standards are for individual pollutants. See Statement of 
Marjorie Clarke, Ph.D. State Assembly Committee on Environmental 
Conservation Public Health Matters November 26, 2001; Also see UC Davis 
News & Information article entitled Trade Center Air Held Unprecedented 
Amount of Very Fine Particles . . . February 11, 2002. 
www.news.ucdavis.edu and www.nyenvirolaw.org
---------------------------------------------------------------------------
 piecemeal control of the risks associated with acm is not satisfactory
    Comments and proposals published in the Federal Register January 
29, 1986 relating to 40 CFR Part 763 (the proposal of a rule under 
Section 6 of TSCA)\20\ provides supplementary information that takes 
into consideration EPA's former objective, back in 1986, with regards 
to consumer products containing asbestos material. Under the proposed 
rule it is noted that:
---------------------------------------------------------------------------
    \20\ In 1986, EPA proposed a rule under Section 6 of Toxic 
Substance Control Act (TSCA) to prohibit the manufacture, import and 
processing of asbestos in certain products and to phaseout the use of 
asbestos in all other products.

          Asbestos, since the advent of it's widespread use, has 
        resulted in thousands of painful premature deaths from lung 
        cancer and other diseases.\21\ Because of the widespread use of 
        asbestos and its particular nature, piecemeal control of the 
        risks it presents is not satisfactory; only elimination of 
        asbestos to the extent feasible will produce acceptable 
        reduction of risks.\22\
---------------------------------------------------------------------------
    \21\ Mesothelioma occurs in the pluera (the membrane that surrounds 
the lung cavity) and the peritoneum (which surrounds the abdominal 
organs); Asbestosis involves fibrosis of the lungs and plural tissues; 
USEPA FR. Vol 51 No. 19 p. 3741.
    \22\ Asbestos Proposed Mining and Import Restrictions and Proposed 
Manufacturing, Importation and Processing Prohibitions: USEPA; Federal 
Register Vol 51, No. 19; Wednesday, January 29, 1986; Proposed. Rules; 
(comments made by EPA Administrator William Rielly).

    This discussion presented by EPA in 1986, goes on to address the 
serious and well-documented studies linked to asbestos as a carcinogen, 
a cause of lung disease and an alarming threat to human health. In 
particular, the threat is insidious due to the unique quality of its 
fiber which has aerodynamic features that allow the fibers to become 
easily suspended and re-suspended in the air, transported on clothes, 
and able to travel long distances.\23\ Once released asbestos fibers 
are difficult to detect and contain and they continue to readily enter 
the ambient air. Persons may be exposed not only at the time and place 
of release but long after the release has occurred. There is a constant 
renewal of risks as asbestos fibers re-enter the atmosphere repeatedly 
over time.\24\ According to sampling results taken by EPA the 
suspension of numerous toxins including asbestos has been identified in 
exceeding limits in various sampling results that have been published 
on the New York Law and Justice Project NYLJP) website and EPA 
website.\25\ With this in mind, it may be appropriate to take 
exceedingly stringent precautions when sampling and monitoring for 
contaminant dust in downtown Manhattan, including the bulk sampling of 
interior of buildings.
---------------------------------------------------------------------------
    \23\ Id FR Vol 51, no 19 p. 3738.
    \24\ Id FR Vol 51, no 19 pp. 3738-39.
    \25\ www.nyenvirolaw.org Laboratory Analysis Report, conducted by 
ATC Associates, accredited by NVLAP (Lab code 1187-00 and NY State DOH 
ELAP (Lab ID 10879), states that samples that are layered and analyzed 
by the gravimetric method as composite (NESHAPS, AHERA) should be 
considered positive if results are between trace and 1 percent, unless 
every layer is analyzed separately.
---------------------------------------------------------------------------
 the dangers associated with the release and re-release of toxic dust 
                        may be harmful to health
    The National Research Council Committee on Non-Occupational Health 
Risks of Asbestiform Fibers has adopted a linear no threshold model to 
estimate the risks to non-occupational populations from exposures to 
asbestos in the environment.\26\ Despite the known risks of asbestos, 
continuous release of asbestos fibers will occur if downtown Manhattan 
buildings with occupied apartments and office spaces are not cleaned 
properly.\27\ Leaving the abatement process up to resident owners is 
not in compliance with The Asbestos Hazard Emergency Response Act 
(AHERA, Pub. L. 99-519), which was amended in 1990 by the Asbestos 
School Hazard Abatement Reauthorization Act (ASHARA, Pub. L. 101-637) 
to require the accreditation of persons who inspect for asbestos 
containing material in schools and public and commercial buildings. It 
also authorizes requirements for the accreditation of persons who 
design or conduct response actions with respect to friable asbestos-
containing material in such buildings.\28\ At a minimum, EPA should be 
overseeing the cleanup of downtown buildings to assure that adequate 
abatement is being carried out by accredited persons, not only in 
schools but also in public and commercial buildings. Under the 
regulations, public and commercial building is defined as:
---------------------------------------------------------------------------
    \26\ Id at 3742-43 The derivation and validation of the models is 
discussed in detail in ``EPA's Regulatory Impact Analysis of Controls 
on Asbestos Products''.
    \27\ Id at 3742-43 and also see UC Davis News and Information 
article entitled: Trade Center Air.
    \28\ AHERA 40 CFR 763, Appendix C to subpart E--Asbestos Model 
Accreditation Plan.

          the interior space of any building which is not a school 
        building. . . . The term includes, but is not limited to: 
        industrial and office buildings, residential apartment 
        buildings and condominiums of 10 or more dwelling units, 
        government-owned buildings, colleges, museums, airports, 
        hospitals, churches, preschools, stores, warehouses and 
        factories. Interior space includes exterior hallways connecting 
        buildings, porticos and mechanical systems used to condition 
        interior space.\29\
---------------------------------------------------------------------------
    \29\ Id at Appendix C to subpart E--I. Asbestos Model Accreditation 
Plan (A)(6).

    Furthermore, under the Federal regulations, EPA is supposed to 
provide extensive technical assistance programs which provide guidance 
to public and private building owners for the safe removal of asbestos 
dust during abatement projects.\30\ Substantial health risks are 
potentially present among building occupants, office workers and the 
general population where asbestos contaminated dusts still lie 
dangerously embedded within carpets, around window sills in ventilation 
systems and in corners of dwelling spaces inside of buildings where 
dust has settled both near and several blocks away from the WTC 
site.\31\
---------------------------------------------------------------------------
    \30\ Id.
    \31\ An apartment building located on Pine Street levels of 
asbestos which are above threshold safety standards. See FN 8.
---------------------------------------------------------------------------
    As you know, the health effects of exposure to asbestos dust can be 
devastating. Repeated reports that attempt to downplay the danger 
suggest that short-term exposures may not be serious. This may not 
necessarily be true. Many years of studies have been undertaken to 
identify the potential risks associated with occupational exposures and 
studies have been conducted on populations exposed to airborne 
concentrations of asbestos for relatively long periods of time.\32\ 
However, please note, that there is direct evidence of adverse health 
effects from non-occupational asbestos exposures among persons living 
in households of asbestos workers who have developed mesothelioma and 
asbestos related radiographic changes in a persons lungs.\33\ A number 
of mesotheliomas have also been documented among populations whose only 
identified exposure was from living near asbestos mining areas, 
asbestos product factories and shipyards where asbestos use has been 
very heavy.\34\ People may encounter higher than average environmental 
asbestos concentrations in air if they live near an asbestos containing 
waste site or asbestos related industry of if they live or work in a 
building that has undergone a poorly performed asbestos removal 
operation.\35\
---------------------------------------------------------------------------
    \32\ See Federal Register Environmental Protection Agency Asbestos 
Proposed Mining and Import Restrictions . . . Vol 51 No 19 January 29, 
1986 Proposed Rules pgs. 3742-3743.
    \33\ Consumer Product Safety Commission Report; A study based on 
findings of the National Institute of Environmental Health, 8th Report 
on Carcinogens: Asbestos; As a result of these and other findings, EPA 
amended the Asbestos Worker Protection Rule (40 CFR 763). Under the 
Supplementary information Sec II (A)(5) The economic consequence of 
this rule states: ``EPA has found that this rule is likely to result in 
other benefits such as asbestosis cases being avoided among workers, 
with reduced exposures to worker families from asbestos fibers being 
brought home on clothing. . . .
    \34\ Id; and the International Agency for Research on Cancer (IARC) 
Vol 14, Sec 7, 1986 and FR Vol 51, No 19 p 3741; January 29, 1986.
    \35\ Id.
---------------------------------------------------------------------------
    Inclusive in the sampling and abatement of the interior of 
buildings in downtown Manhattan should be an accounting, sampling and 
abatement of the homes-of rescue workers and contractors who worked at 
the site prior to the use of proper protocol during the emergency. Many 
workers were working under conditions that were not adequately 
monitored under adequate quality-control methods. In the early days 
during the aftermath of the tragedy, workers did not have quality 
controlled change rooms for decontamination after human exposure at the 
site; nor did workers utilize proper worker techniques for minimizing 
risks of exposures.\36\
---------------------------------------------------------------------------
    \36\ See Testimony Before the Environment Committee of the New York 
City Council on the Public Health Concerns Resulting from Exposures in 
the Wake of the Collapse for the WTC Towers Submitted by Barbara J. 
Olshansky and Nicole Pollier (3rd Year CUNY Law Legal Intern) Center 
for Constitutional Rights New York, NY p. 6 of 10 
(www.nyenvirolaw.org). ``Preventive measures must be taken to achieve 
compliance,'' dated November 1, 2001.
---------------------------------------------------------------------------
 overview of abatement for construction projects and worker protection
    The need for proper working techniques for minimizing fiber release 
and future potential contamination episodes was acknowledged early on 
when the National Institute of Environmental Health Sciences issued a 
report in October 2001 stating that ``there was no evidence or even 
suggestion that any safety health program was operative at the WTC site 
and workers continued to work for days lacking in any compliance with 
worker protection regulations.''\37\
---------------------------------------------------------------------------
    \37\ Id at p4 of 10; This report is cited in the testimony before 
the Environmental Committee of the New York City Council; by the Center 
for Constitutional Rights; November 1, 2001.
---------------------------------------------------------------------------
    Training of workers at the site is incorporated in the following 
overview, of regulations: NESHAPS 40 CFR Part 61 subpart A&M; EPA 
Worker Protection Rule, (40 CFR Part 763 subpart G); OSHA Asbestos 
Construction Standard (29 CFR 1926.58); OSHA Respirator Requirements 
(29 CFR 1910.134); Asbestos; Model Accreditation Plan for States (40 
CFR 763 Subpart E Appendix C (1) and any other applicable Stateand 
local or Federal regulations that may apply. Under the OSHA Asbestos 
Construction Standard (2 CFR 1926.58) there are requirements for 
notification of other contractors on a multi-employer site with the 
need for proper training and safe working conditions for a number of 
potential hazards including the minimization of the potential for 
contaminated major or minor fiber release episodes.\38\ EPA must 
seriously consider classifying the WTC under Superfund.\39\ Design and 
construction techniques have been flawed and innocent workers have been 
needlessly exposed to exceeding levels of contaminant dust at the 
site.\40\ The use of non-air supply respirators and the lack of 
protective suits may have also placed workers at a high risk. The 
presence of asbestos and other known chemicals found at this site are 
highly regulated under industry standards and cutting corners in lieu 
of a fast demolition project displays a serious weakness on the part of 
EPA along with Stateand local authorities. Proper working techniques 
for minimizing risks to workers include adequate sampling and design 
stages, proper maintenance of containment barriers, decontamination 
enclosure systems, electrical ventilation systems, entry and exit 
procedures, positioning of warning signs; use of negative pressure 
exhaust systems, ventilation equipment, proper clean up and disposal 
methods, work practices that may apply to encapsulation; proper 
selection, inspection, donning use, maintenance and storage procedures 
for respirators.\41\
---------------------------------------------------------------------------
    \38\ Major fiber release episode means any uncontrolled or 
unintentional disturbance of ACBM, resulting in a visible emission 
which involves the falling or dislodging of more than 3 square or 
linear feet of friable ACBM.
    Minor fiber release episode means any uncontrolled or unintentional 
disturbance of ACBM, resulting in a visible emission which involves the 
falling or dislodging of 3 square or linear feet or less of friable 
ACBM.
    \39\ Comprehensive Environmental Response Compensation and 
Liability Act (CERCLA).
    \40\ See Center for Constitutional Rights Report Testimony before 
NYC Environment Committee, November 1, 2001 at page 4-5 of 10.
    \41\ OSHA Requirements for Abatement Construction Projects 29 CFR 
1926.58; also see NESHAPS, TSCA, AHERA and CERCLA, supra.

    Once it is concluded that a proper remedial action will take place 
in the WTC downtown area, (including the proper clean up of inside of 
buildings) defensive actions should begin as soon as possible to 
prevent and mitigate any future damage to human health or the 
environment. Section--300.65 (b) of the National Contingency Plan 
expressly provides that an agency be given wide latitude in selecting 
the appropriate response to a perceived threat to human health.
                               __________
       Queller, Fisher Dienst, Serrins, Washor & Kool, LLP,
                                                  February 4, 2002.
Leecia Eve, Esq.
Senator Hillary Rodham Clinton,
Washington, DC.
    Dear Ms. Eve: Further to our conversation of yesterday morning, 
enclosed is a letter which was sent to the Captains, Lieutenants and 
Detectives of the New York City Police Department regarding exposure to 
toxic substances as a result of their work either at Ground Zero or the 
Staten Island Landfill.
    For your information, thousands of police officers including 
Captains, Lieutenants and Detectives have been assigned to Ground Zero 
and the Staten Island landfill on a round-the-clock basis since 
September 11, 2001.
    The landfill received the wreckage from the World Trade Center. 
Detectives were specifically assigned to the landfill and tasked to 
pick through the debris in the hopes of locating evidence which could 
prove helpful to the overall investigation. Unfortunately, many 
officers were not provided with the necessary protective equipment on a 
consistent basis.
    We do not know the long-term health effects which may result due to 
their exposure to the various toxic substances both at Ground Zero and 
the landfill. We would like to appear at the hearing scheduled for 
February 11, 2002 and propose that a legislative mechanism be 
implemented to preserve the rights of New York City police officers who 
may become ill many years hence with an illness-related to their work 
at the sites.
    The letter I have enclosed is self-explanatory on this issue, 
specifically beginning on the last paragraph of page 2.
    I do not anticipate that our presentation would last more than 10 
minutes.
    Thank you in advance for your consideration.
                                            By: Phillip E. Karasyk.
                                 ______
                                 
      Queller, Fisher, Dienst, Serrins, Washor & Kool, LLP,
                                                   January 4, 2002.
    As part of legislation intended to ``bail out'' the airline 
industry after the September 11, 2001 tragedy, Congress passed a 
statute known as the ``September 11th Victim Compensation Fund of 2001. 
While it is difficult to summarize the new law in any brief fashion, it 
essentially provides that those injured, or the families of those 
killed, can avoid bringing lawsuits to obtain traditional jury-awarded 
damages for their losses.
    It provides that the Attorney General shall appoint a Special 
Master to administer a compensation program. Special forms have been 
drafted to allow claimants to set forth the nature of their injuries or 
that their loved one was killed and to further provide detailed 
information regarding economic and non-economic losses. Non-economic 
losses mean such things as physical and emotional pain, loss of 
enjoyment of life, mental anguish and other types of loss.
    The statute provides that once a claim is submitted, the Special 
Master will have 120 days to render a decision on the amount of damage, 
if any, to be awarded. Within 20 days thereafter, he will authorize 
payment of the claim. The decision of the Special Master is final and 
cannot be appealed.
    The main benefits of this Special Master system include the fact 
that there is no need to bring a lawsuit. The system provides for a 
prompt resolution of the claims; whereas lawsuits take many years. The 
Association of Trial Lawyers of America has pledged to represent any 
claimant without charge. There will be no legal fees. Our firm will 
certainly be available to any member or their family on a pro bono 
basis to assist in the claim process should you choose to participate.
    The system, however, is not without problems.
    The main concern is the language in the statute that provides that 
all ``collateral sources'' received by the claimant shall reduce the 
amount of any award from the Special Master. Collateral sources include 
life insurance, pension funds, death benefit programs and all payments 
by Federal, State or local governments. It is not clear whether this 
reduction will apply to the claim in its entirety or to specific 
portions of the claim. It is not clear whether collateral sources would 
include any moneys received from charity. It is also unclear in the 
case of a death of a police officer who leaves children, whether their 
potential awards for loss of parental care and guidance would be 
reduced by the collateral source.
    If one participates in the claim process, a lawsuit cannot be 
brought against anyone.
    I strongly suggest that members and their families hold off making 
a final decision on whether to bring a lawsuit or file a claim under 
the Government's system until certain issues, particularly those 
concerning collateral sources, are resolved by regulation or by 
decision of the Special Master. Additionally, you should consult with 
an attorney from our firm before making any decisions.
    The statute provides that claimants have two (2) years from the 
date that the Special Master promulgates regulations regarding the 
details of the procedures to bring a claim. Thus, the statutory time 
period has just begun.
    Lawsuits for wrongful death against the airlines are governed by a 
two (2) year statute of limitations from the date of the death. If any 
claim is to be brought against the Port Authority, the time limit is 
one (1) year with a requirement that a Notice of Claim be filed at 
least 60 days before the institution of a lawsuit.
    With regard to those members exposed to toxins at the World Trade 
Center site or the Fresh Kills Land Fill site or any other exposure 
related to the attack, many of you have heard via the rumor mill that 
Notices of Claim with the city of New York must be filed by January 7, 
2002 to protect their right to sue New York City for injuries received 
while working at the site.
    The Civil Procedure Law and Rules which govern the timeframe in 
which Notices of Claim against the City must be filed makes a 
significant exception to the 90-day filing requirement for a Notice of 
Claim against New York City for:

          personal injury or injury to property caused by the latent 
        effects of exposure to any substance or combination of 
        substances, in any form, upon or in the body or upon property 
        shall be deemed to have accrued on the date of discovery of the 
        injury by the plaintiff or on the date when through the 
        exercise of reasonable diligence the injury should have been 
        discovered, whichever is earlier. CPLR Sec. 214(c)(3).

    This exception recognizes the fact that illnesses of the type which 
may be caused by exposure to harmful substances may not become apparent 
for many months or years after the exposure.
    Thus, the 90-day claim period begins from the time the member is 
aware of any potential injury sustained as a result of exposure to 
toxins. It is believed that many law enforcement officers were exposed 
to elevated levels of asbestos, dioxins, dangerous metals, polynuclear 
aromatic hydrocarbons, respirable silica and many other types of 
hazardous materials. If you believe that you were exposed to any such 
toxin, or if in fact you were at the site following the September 11th 
attack, we believe the best cause of action to follow in order to 
protect your right to sue New York City is to report a Line of Duty 
illness and document your condition by visiting your doctor. Once your 
medical doctor has made a diagnosis, contact us immediately. We will 
evaluate your particular situation and advise you regarding the 
procedure to follow in filing a Notice of Claim.
    Please bear in mind that in our opinion only medical conditions 
capable of causing significant impairment of your health and/or ability 
to function in your daily life will stand any chance for significant 
recovery in a cause of action against New York City. You should also be 
aware that although you are obligated to file a Notice of Claim within 
90 days of learning or discovering an injury, should that be done and 
should your case be resolved prior to manifestation of any serious 
illness, a settlement with the City based upon a filed lawsuit may have 
the effect of precluding you from recovering damages commensurate with 
the illness discovered after the settlement of your lawsuit. Therefore, 
it is essential that you discuss these issues with our attorneys.
    To those members who have already been diagnosed with any exposure-
related illness such as asthma, bronchitis, reduced lung capacity, 
etc., the time in which to file is 90 days from the date of discovery 
of the injury including a statutory toll for the 30 days following 
September 11th. Therefore, time remains to file your claim and our law 
firm will be happy to prepare these claims on your behalf. When you 
contact us please be able to provide the date of exposure, the date 
first seen by a medical provider and the diagnosis of that condition.
    Please be aware that actions filed as outlined in this letter will 
not preclude you from filing for an accidental disability pension.
    I realize that this memorandum may raise numerous questions in your 
mind, therefore, feel free to contact me at my office and we can go 
over these issues in greater detail.
            Very truly yours,
                                         Philip B. Karasyk,
              Queller, Fisher, Dienst, Serrins, Washor & Kool, LLP.
                               __________
           Statement of Susan S. Abbot, M.P.H., New York, NY
    Dear committee members: I was unable to attend the committee 
meeting at the U.S. Customs House in Lower Manhattan and am now 
submitting my testimony for your review.
    My husband and I are long-term residents of Battery Park City (10 
years). Since September 11, 2001, we have waited patiently for a 
Federal, State, or NYC government authority to issue standards for 
abatement and clean up of residential buildings in Battery Park City, 
to no avail. Since the EPA deferred its responsibility for assuring the 
safety of residential buildings (i.e. free from contaminants and 
carcinogens, not structural) to the NYC Department of Health (NYCDOH), 
and since the NYCDOH has done nothing to this end, we are hopeful this 
committee will be able to quickly remedy this problem, and within a 
short timeframe reassure residents of Lower Manhattan that it is truly 
safe to live there.
    We were shocked shortly after September 11, 2001, that Christine 
Whitman issued a statement indicating that the air quality in Lower 
Manhattan was safe and presented no danger to long-term health and that 
it was safe for residents to return to their homes after clean up of 
the dust. There are two important issues here (1) the outdoor air 
quality is not the issue and (2) at least in my building, clean up of 
the dust (contaminated with at least asbestos) was not done using 
proper asbestos abatement procedures.
    My family (husband and two small children) and I live in Gateway 
Plaza: a complex of six buildings on the corner of South End Avenue and 
Liberty streets (the closest complex in Battery Park City to the WTC 
site). Before deciding whether or not to renew our lease we decided to 
have the apartment and the building tested by a certified environmental 
company. Although, as you know, there are a variety of contaminants we 
could have tested for, we limited our testing to asbestos.
    Briefly, I would like to give you the data I, and a neighbor of 
mine (Sharon McGarvey 365 South End Ave., Apt. 2F) have gathered 
documenting the contamination of our particular buildings. The testing 
was done by an accredited firm, Donohoe Environmental, and the samples 
were analyzed by the TEM method for asbestos by EMSL Labs (also 
accredited). I have enclosed the results of the tests I had done on my 
apartment, the buildings ventilation system (ducts in the hallways and 
in the apartments), the exterior of the building, and the building 
hallway carpeting. These wipe samples were all taken after the building 
was supposedly cleaned. Most samples, particularly in the ventilation 
system, the hallway carpets, and on the exterior of the building were 
positive for moderate to high levels of asbestos. Even though the air 
levels of asbestos were low, asbestos is easily disturbed and becomes 
airborne, having it in the vents and the carpet, and on the exterior of 
the building means it will eventually end up in the air or on your feet 
and therefore in your apartment.
    In Summary: As defined by EMSL lab:

    <bullet> 1,000 structures/cubic centimeter = low level of asbestos
    <bullet> 10,000 structures/cubic centimeter = moderate level of 
asbestos
    <bullet> 100,000 structures/cubic centimeter = high level of 
asbestos

    Result summary:

    <bullet> Hallway vent (385 South End, 7th floor): 51.114 
structures/cubic centimeter.
    <bullet> New air conditioner/heating unit--4,259 str/cc.
    <bullet> Child's bedroom window (outside)--30,666 str/cc.
    <bullet> Hallway vent--32,031 str/cc.
    <bullet> Hallway carpet--1,635. str/cc.
    <bullet> Other hallway carpet 6,815 str/cc.

Results from other neighbors had even higher levels on their apartment 
vents and the hallway carpets.

    The only solution we can see is for one agency (be it Federal, 
State, or local) to define contaminant and abatement standards for 
residential buildings is Lower Manhattan and mandate repeated on-going 
clean up of the ventilation systems of residential buildings, repeated 
washing of the exterior and roofs of the buildings, and removal of the 
common area carpets until a sufficient time after the demolition of the 
WTC site is complete that we can be assured no recontamination will 
occur. This mandatory cleaning should be monitored with repeated wipe 
testing for asbestos and other contaminants done by one agency and made 
readily available to all residents.
    While doing my research into what methods were appropriate for 
testing for contaminants, I consulted a number of publications by Cate 
Jenkins, Ph.D. (from the EPA) (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cf6f9f2f7f5f2efb2fffde8f9dcf9ecfdb2fbf3ea">[email&#160;protected]</a>). She recommended 
wipe or microvacuum samples as the only practical way to see if a 
building is contaminated in this situation (not air samples). Also, a 
number of sources stated that even if air level are less than 1 percent 
asbestos could pose a risk because asbestos fibers can become airborne. 
There is no threshold safe level for exposure to asbestos particularly 
for children.
    We look forward to your timely response and action in this matter.
                               __________
     [New York Environmental Law & Justice Project, February 2002]
                         Downwind From Disaster
    The dust from the WTC is unlike any other. It is a powder created 
by the implosion and burning of over 200 floors of a skyscraper and 
everything and everyone in them. There are thousands of chemicals 
present in that dust, not just asbestos, lead, dioxin, and the pitiful 
handful of chemicals being tested. Yet based on this paltry data, the 
New York City Department of Health declares ``the general public's risk 
for any short- or long-term adverse health [effects] is extremely 
low.''
    Short Term Effects.--We already know that short-term health effects 
are seen among the heavily exposed firefighters. Twenty-five percent of 
them have been diagnosed with occupational asthma and related diseases.
    But people exposed only for a few hours also are sick. A Guide to 
Clinicians from the Department of Community Medicine of Mt. Sinai 
School of Medicine states that ``Conditions that have been seen in 
adults who have been at or near the site for as little as 24 to 36 
hours, include reactive airways disease, new onset or exacerbation of 
preexisting asthma, RADS [reactive airway disease], sinusitis, irritant 
rhinitis, persistent cough, and diffuse irritation of nasal mucosal 
surfaces.''
    The Mt. Sinai Clinician's Guide also includes ``Residents of the 
surrounding communities'' as an exposed population. Mt. Sinai doctors 
such as Stephen Levin, have treated residents living 6 and 7 blocks 
from the site.
    The WTC mobile medical unit has screened hundreds of day laborers 
for respiratory ailments with between \1/4\ and \1/3\ exhibiting 
``Significant respiratory affect'' such as cough, shortness of breath, 
sore throat, dizziness and headaches after weeks of cleaning 
contaminated twin towers dust from Lower Manhattan home and office 
buildings, and has hundreds on waiting lists.
    Long-Term Effects.--Some effect which occur in the short-term also 
become long-term effects. For example, people who have developed asthma 
from the dust are likely to find this become a life time problem. Some 
of the components of the dust can cause the ultimate long-term effect: 
cancer.
    Cancer.--The dust contains many carcinogens: asbestos, the many 
dioxins and PCB compounds, and some of the metals such as chrome and 
nickel. The fiberglass commonly found in the dust is also listed by the 
National Toxicology Program as ``reasonably anticipated to be a human 
carcinogen.''
    Asbestos.--On carcinogen, asbestos, has especially worried 
scientist Cate Jenkins, a 22-year employee of EPA. She has written 
several memorandums about errors that have lead the NYC DOH to 
underestimate the risk to workers and residence for asbestos related 
cancers. In the latest release, Cate Jenkins uses the word ``coverup'' 
in describing the behavior of the health department.
    Other Data.--Andrew Schneider at the St. Louis Post Dispatch has 
reported that the U.S. Geological Survey tested the dust immediately 
after the disaster and e-mailed data all government contacts by 
September 27. But New Yorkers were never told that the USGS found some 
of the dust was as caustic as liquid drain cleaner. The USGS also found 
that the dust contained heavy metals, especially chromium and aluminum. 
These data were ignored as well.
    Toxic Smoke.--For months, smoke billowed from the 16-acre caldron 
that was the Trade Center complex. Deep in the earth, a month after the 
fires were declared out, there are still materials burning according to 
the EPA. (Callahan, January 25, 2002).
    No one knows the effects of the components of this smoke. No one 
knows the combined effect of all the chemicals and particulates in the 
dust. The EPA admitted that it did not account for synergy. We are 
promised further studies. Unfortunately, it is the firefighters, 
police, construction workers, and downtown residents that are the lab 
rats.
    The Federal Government has cleaned up many of its own buildings 
with full abatement while failing to protect the safety and well being 
of people who work and live in downtown New York.
    The New York Environmental Law & Justice Project calls upon the EPA 
to take over the clean up under the National Contingency Plan, and 
calls upon all agencies to be forthcoming with data and information. 
See our website for further information www.nyenvirolaw.org.
      nyeljf concurs with nycosh's statement in response to heath 
                          department findings
    Statement by Joel Shufro, executive director of the New York 
Committee for Occupational Safety and Health in response to ``NYC 
Department of Health Presents Findings from indoor Air Sampling in 
Lower Manhattan,'' released at 4 p.m. on Friday, February 8. [The 
Department of Health document is at http//www.ci.nyc.ny.us/html/doh/
html/public/press02/pr08-208.html]
    We find it extremely disturbing that the Department of Health has 
published such an uninformative and confusing report that raises more 
questions than it answers. The people of New York City have an urgent 
need for useful and accurate information, not obfuscating and baseless 
reassurances.
    The report literally raises more questions than it answers:
    <bullet> Were the indoor air and dust samples taken in areas that 
had already been cleaned up?
    <bullet> Were the indoor air samples taken under aggressive 
sampling conditions?
    <bullet> What method was used to obtain the samples?
    <bullet> What method was used to analyze the samples?
    <bullet> What, specifically, were the results of the tests?
    <bullet> What is an ``elevated level of asbestos''?
    <bullet> Were samples taken in any heavily contaminated buildings?
    <bullet> Why, more than a month after the last samples were taken, 
are the results of the air samples for fiberglass not available?
    <bullet> How many dust samples were taken, and how many contained 
asbestos, and how much asbestos did each of them contain?
    <bullet> What does ``low levels of asbestos in some samples'' mean, 
specifically? What levels, in how many samples?
    <bullet> Is the Department of Health aware of any safe level of 
exposure to asbestos? If so, what is it?
    <bullet> Why are residents being advised to clean up dust when 
``some'' of the dust contains low levels of asbestos?
    <bullet> Why does the report contain no information about or advice 
concerning respiratory protection?
    In fact, the Department of Health release makes it clear that some 
of the tested dust contains asbestos, which confirms the EPA 
recommendation that workers and residents in Lower Manhattan should 
assume that untested dust contains asbestos.
    According to the EPA tests, more than three-quarters of the dust 
samples contain some asbestos. Thirty-four percent of the EPA samples 
contain between 1.1 and 4.49 percent asbestos.
    Under city law and State law, it is illegal for anyone who does not 
have an asbestos handler's license to clean up any significant quantity 
of dust that is more than 1 percent asbestos. The Department of Health 
is inviting New Yorkers to put themselves at potentially grave risk, 
when it advises workers and residents how to clean up untested dust 
themselves.
    No one who is not properly trained, equipped and licensed should 
clean up untested dust that could be contaminated with asbestos. But if 
an untrained, unlicensed person does clean up untested dust that could 
contain asbestos, they should wear appropriate (HEPA) respiratory 
protection to minimize their exposure.
    The Department of Health report states that ``the likelihood of 
developing disease from limited, short-term, low-level exposure [to 
asbestos] is low.'' It is true that the likelihood of developing 
disease is lower from low-level exposure than it is from high-level 
exposure, but without any accurate data about exposure levels, it is 
impossible to characterize the level of risk.
    More than 25 years ago the U.S. Congress wrote this finding of fact 
into the Asbestos School Hazard Detection and Control Act, and nothing 
has been learned since to contradict it ``Medical science has not 
established any minimum level of exposure to asbestos fibers which is 
considered to be safe to individuals exposed to the fibers.''
    We urge anyone who is considering cleaning up a residence or a 
workplace, and anyone who is in a residence or a workplace that has not 
been cleaned up by a licensed asbestos abatement contractor, to follow 
the instructions and advice in our factsheet, ``Cleaning Up Indoor Dust 
and Debris In the World Trade Center Area,'' posted on the NYCOSH 
website at http//www.nycosh.org/wtc-dust-factsheet.html.
    For more information, contact NYCOSH at 212-627-3900. Fax 212-627-
9812. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="13563e7e727a7f646770537d6a707c607b3d7c6174">[email&#160;protected]</a>
                                 ______
                                 
        Memorandum from Cate Jenkins, Ph.D., U.S. Environmental 
                           Protection Agency
Date: February 10, 2002

Subject: LNYC Department of Health Misrepresentations, February 8, 2002 
Press Release: ``NYC Department of Health Presents Findings from Indoor 
Air Sampling in Lower Manhattan''

From: Cate Jenkins, Ph.D.\1\
---------------------------------------------------------------------------
    \1\ The conclusions and opinions in this memorandum are those of 
the author and do not necessarily reflect those of the U.S. 
Environmental Protection Agency.

---------------------------------------------------------------------------
To: Affected Parties and Responsible Officials

    A February 8, 2002 press release from the New York City Department 
of Health (NYC DOH) (attached) contains an interpretation of 
preliminary data from a study not yet released by the Agency for Toxic 
Substances and Disease Registry (ATSDR) of the Centers for Disease 
Control (CDC). This study conducted tests in apartments and buildings 
in Lower Manhattan which were impacted by fallout from the collapse of 
the World Trade Center (WTC).
    The ATSDR does not plan releasing the study or preliminary results 
to the public until spring, so it is difficult to determine whether or 
not the NYC DOH correctly represented the data. However, there is at 
least one major clear misrepresentation of the data by the NYC. There 
is evidence of other misrepresentations as well.
                           airborne asbestos
    The NYC DOH made the following claim in its press release:
    The air samples from inside the buildings showed no elevated levels 
of asbestos. (NYC DOH)
    The DOH does not mention in its press release exactly what the 
level of asbestos would be considered ``elevated.'' However, the press 
release refers readers to the NYC Department of Environmental 
Protection (NYC DEP) for more information. The cited NYC DEP web page 
(attached) states that the ``safe'' level, or standard, is 0.01 fibers 
per cubic centimeter (f/cc) (which is the same as fibers/milliliter):

          The U.S. and NYC standard for asbestos in community and 
        residential buildings is 0.01 fibers/cubic centimeter (f/cc) 
        [same as f/mL] in Indoor air. . . . As testing continues, there 
        may be the possibility of occasional short-term increases in 
        levels of asbestos in the air above the residential standard of 
        0.01 f/cc of air. [NYC DEP]

    This is a misrepresentation. Due to the many public discussions 
over the safe level of asbestos in air, there can be no 
misunderstanding on the part of either the NYC DOH or DEP that the 
residential or ambient air standard of the U.S. Environmental 
Protection Agency (EPA) is 0.01 f/mL. By law, any State or city 
standards for asbestos must be at least as stringent as the Federal EPA 
standard.\2\
---------------------------------------------------------------------------
    \2\ The EPA itself has erroneously referred to the AHERA TEM test 
level of 70 structures per square millimeter a ``standard'' on its 
website at http://www.epa.gov/epahome/wtc/activities.htm.
---------------------------------------------------------------------------
EPA standard for asbestos
    The EPA standard for asbestos in indoor and outdoor air is found in 
its Integrated Risk Management Information System (IRIS), attached, and 
other public documents. It is the policy and goal of EPA to protect at 
the 1 in a million cancer risk level (10<SUP>-6</SUP> risk level), the 
point of departure. In all cases, action by EPA is triggered by any 
risk greater than 1 in 10,000. The EPA air standards for asbestos in 
inside and outside air at the different risk levels are given in the 
table below:

 
------------------------------------------------------------------------
                  Cancer Risk Level                    Air Concentration
----------------------------------------------------- of Asbestos fibers
                                                      per milliliter (f/
                                                         mL), ``PLM''
        number of cancers             risk level      fraction of fibers
                                                      over 5 micrometers
                                                             long
------------------------------------------------------------------------
1 in 1,000,000..................  10<SUP>-6</SUP> (=E-6).......  0.000004 f/mL (=4E-
                                                       6 f/mL)
1 in 100,000....................  10<SUP>-5</SUP> (=E-5).......  0.00004 f/mL (=4E-
                                                       5 f/mL)
1 in 10,000.....................  10<SUP>-4</SUP> (=E-4).......  0.0004 f/mL (=4E-4
                                                       f/mL)
------------------------------------------------------------------------

    The safe level and goal of EPA, the actual air standard, is 
0.000004 f/mL, and the action level for EPA to trigger a cleanup is 
0.0004 f/mL. The EPA standard is thus 2500 times lower than the 0.01 f/
mL level claimed to be the standard by the NYC DOH and DEP.
    It is particularly important to test asbestos at the 
10<SUP>-6</SUP> risk level, because other carcinogens and possible 
carcinogens are potentially present in WTC fallout, including 
fiberglass, dioxins, PCB's, and heavy metals. If several are present, 
the carcinogenic risk could be additive and result in a higher 
aggregate cancer risk.
Origin of NYC claim that their standard and the U.S. standard is 0.01 
        f/mL
    The NYC DOH and DEP are apparently basing their claim that the 
standard is 0.01 f/mL on a particular test that must be conducted while 
using a one-horsepower leaf blower to stir up all the asbestos in a 
room after certified professional abatement. This is the AHERA TEM 
clearance test (Asbestos Hazard Emergency Response Act transmission 
electron microscopy).
    The EPA regulations for conducting the AHERA TEM clearance test are 
contained in Title 40 of the Code of Federal Regulations, Part 763, 
Appendix A. Regulations are implementations of statutes, and thus are 
the law and legally binding. States and cities must adopt these 
regulations or have more stringent regulation. The AHERA TEM clearance 
test is a TEST, not an air STANDARD. Nowhere in any of the EPA 
regulations is the 0.01 f/mL level called a ``standard'' for air. The 
procedures for this test are given in part below:

          40 CFR-Chapter I-Part 763
          Appendix A to Subpart E--Interim Transmission Electron 
        Microscopy Analytical Methods--Mandatory and Nonmandatory--and 
        Mandatory Section to Determine Completion of Response Actions . 
        . .
          II. Mandatory Transmission Electron Microscopy Method
          A. Definitions of Terms
                1. Analytical sensitivity--Airborne asbestos 
                concentration represented by each fiber counted under 
                the electron microscope. It is determined by the air 
                volume collected and the proportion of the filter 
                examined. This method requires that the analytical 
                sensitivity be no greater than 0.005 structures/cm 3 . 
                . .
                14. The final plastic barrier around the abatement area 
                remains h place for the sampling period.
                15. After the area has passed a thorough visual 
                inspection, use aggressive sampling conditions to 
                dislodge any remaining dust. (See suggested protocol in 
                Unit III.B.7.d.) . . .
                17. A minimum of 13 samples are to be collected for 
                each testing site consisting of the following:

                        a. LA minimum of five samples per abatement 
                        area.
                        b. LA minimum of five samples per ambient area 
                        positioned at locations representative of the 
                        air entering the abatement site. . . .

          [Unit III.B.] 7. Abatement area sampling.

                a. LConduct final clearance sampling only after the 
                primary containment barriers have been removed; the 
                abatement area has been thoroughly dried; and, it has 
                passed visual inspection tests by qualified personnel. 
                (See Reference 1 of Unit III.L.)
                b. LContainment barriers over windows, doors, and air 
                passageways must remain in place until the TEM 
                clearance sampling and analysis is completed and 
                results meet clearance test criteria. The final plastic 
                barrier remains in place for the sampling period.
                c. LSelect sampling sites in the abatement area on a 
                random basis to provide unbiased and representative 
                samples.
                d. LAfter the area has passed a thorough visual 
                inspection, use aggressive sampling conditions to 
                dislodge any remaining dust.

                        I.   LEquipment used in aggressive sampling 
                        such as a leaf blower and/or fan should be 
                        properly cleaned and decontaminated before use.
                        II. LAir filtration unit shall remain on during 
                        the air monitoring period.
                        III. LPrior to air monitoring, floors, ceiling 
                        and walls shall be swept with the exhaust of a 
                        minimum one (1) horsepower leaf blower.
                        IV. LStationary fans are placed in locations 
                        which will not interfere with air monitoring 
                        equipment. Fan air is directed toward the 
                        ceiling. One fan shall be used for each 10,000 
                        ft 3 of worksite.

                                [40 CFR 763, App. A]

    The reason that the EPA designed the AHERA TEM clearance test, 
requiring first certified asbestos abatement procedures followed by a 
leaf blower, and then a fan, followed by air testing to the 0.01 f/mL 
(PCM) level (equivalent to 0.02 s/mL or 70 structures per square 
millimeter) was to save costs and time. EPA found that using a leaf 
blower increased asbestos concentrations in air by thousands of times. 
One study showed that using a leaf blower increased airborne asbestos 
concentrations over 100 times that caused by even vigorous broom 
cleaning.\3\ Vigorous broom cleaning has been demonstrated to increase 
asbestos levels hundreds or thousands of times over that of passive 
conditions which do not disturb dusts. Testing at the low levels that 
are actually those of health concern, 0.000004 f/mL, can often take 24 
or more hours, which was found to be impractical for asbestos abatement 
contractors.
---------------------------------------------------------------------------
    \3\ Millette, J., et. al. Applications of the ASTM Asbestos in Dust 
Method D5755. In: Advances in Environmental Measurement Methods for 
Asbestos, ASTM Special Technical Publication 1342.
---------------------------------------------------------------------------
    Even if testing is done at the low levels associated with asbestos 
health effects (0.000004 f/mL), there must be human activities or 
simulated human activities in the same room at the same time of the 
testing. When testing airborne asbestos levels inside homes in Libby, 
Montana, the Superfund site, EPA had both stationary air monitors and 
monitors worn by residents going about their normal daily activities. 
See the attached risk assessment for the Libby site for a description. 
Another study showed that asbestos concentrations in air can be 
undetectable or below 0.005 f/mL when there are no activities in the 
room to stir up dusts, but as high as 0.09 to 54 f/mL when activities 
such as vacuuming, broom sweeping, gym activities, etc. are going on in 
the room to disturb the dusts.\4\
---------------------------------------------------------------------------
    \4\ Millette, J.R., and Hays, S.M. (1994), Chapter 8, Resuspension 
of Settled Dust, in: Settled Dust Sampling and Analysis, page 63, Table 
2, Lewis Publishers, ISBN 0-87371-948-4.
---------------------------------------------------------------------------
    The following table gives the legal/legitimate and illegal/
illegitimate ways to determine whether asbestos levels in air in homes, 
offices, or schools meets EPA standards:

 
----------------------------------------------------------------------------------------------------------------
      Legal/Legitimate Airborne Asbestos Testing Methods         Illegal/Illegitimate Airborne Asbestos Testing
---------------------------------------------------------------                      Methods
                                                               -------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
0.000004 f/mL (PCM) laboratory         0.01 f/m (PCM) = 0.02 s/ 0.000004 f/mL (PCM)      0.01 f/m (PCM) = 0.02 s/
 sensitivity (detection limit), the     mL (all fibers) = 70     laboratory sensitivity   mL (all fibers) = 70
 EPA safe level.                        structures per square    (detection limit), the   structures per square
                                        millimeter.              EPA safe level.          millimeter
Conditions of actual or simulated      Testing for this level   Passive conditions,      This level under either
 human activities, such as a child      ONLY AFTER the           i.e., no activities to   passive testing
 jumping on a contaminated couch or     following conditions,    disturb dusts to cause   conditions (no human
 rolling around on contaminated         as required by law in    them to be airborne..    activity) or even
 carpet.                                40 CFR 763: (1)                                   normal human
                                        Completion of                                     activities
                                        professional certified
                                        asbestos abatement;
                                        (2) Suspension of
                                        dusts by using one-
                                        horsepower leaf blower
                                        followed by fans
                                        during actual testing.
----------------------------------------------------------------------------------------------------------------

Probable testing methods of the CDC's ATSDR
    Although we do not know what methods the ATSDR used to test air 
inside buildings, it is doubtful that they utilized techniques that can 
detect asbestos at the 0.000004 f/mL level. If the ATSDR did test at 
this low level, it is unknown whether there were simulated or actual 
human activities taking place at the same time to disturb the dusts.
    It is also doubtful that if they tested the air using less 
sensitive methods, that they used the aggressive leaf-blower condition 
required for tie AHERA TEM test. It would be impossible to use the 
aggressive leaf-blower test conditions in currently occupied spaces, as 
it could contaminate surfaces that had previously been cleaned. 
However, this is no excuse, since there are plenty of unoccupied 
apartments and business spaces which could be sealed off and tested, 
and contaminated carpeting and upholstered furniture from the same 
building could be placed in the space to be tested. (It would be a 
minor cost to purchase the carpeting or furniture from other tenants in 
the building.)
                          indoor dust testing
    The NYC DOH described the results of the indoor dust testing as 
follows:

          Testing was also conducted in four buildings above 59th 
        Street to provide information on the background level of 
        various substances present indoors in New York City.
          The analysis of 98 dust samples for asbestos taken from the 
        inside and outside of residential buildings in Lower Manhattan 
        indicated that while a 20 percent were above background levels, 
        only two samples which were taken from outdoors required 
        abatement. Professional abatement work was completed in this 
        area.
          Samples taken from inside and outside of residential 
        buildings in Lower Manhattan were analyzed for fibrous glass. 
        Fibrous glass was detected in 43 of the 98 samples taken. The 
        results of air sampling for fibrous glass, and for air and 
        surface testing of other materials, are not yet available.

    It is alarming that 20 percent of samples from indoors (or this 
could be both indoors and outdoors) were over background levels. 
Although it was not stated, there could also be more than 20 percent of 
the indoor dusts that had detectable levels of asbestos, but which were 
not over background. At the Libby, Montana Superfund site (see 
attachment), only 11 to 23 percent of the indoor dust samples had 
detectable asbestos from the random homes selected in Phase 1 of the 
Libby investigation.
    It is also inappropriate for the NYC DOH to establish background by 
going to other areas of Manhattan. The buildings above 59th Street 
could have been contaminated with WTC fallout, or could be contaminated 
from other sources of asbestos These ``background'' buildings might 
also have unsafe levels of asbestos and require professional abatement. 
It is an unfair comparison to imply that only 20 percent of the inside 
building dusts in Lower Manhattan had elevated levels that required 
abatement, based on a comparison to levels in buildings above 59th 
Street, which might themselves be unsafe.
    The finding of fibrous glass (fiberglass) in 44 percent of the 
samples is also alarming. It is also unfortunate that the ATSDR did not 
test for other hazardous substances, such as dioxins, PCB's, and heavy 
metals such as mercury.
                          outdoor dust testing
    The NYC DOH made the following statement regarding outdoor dusts:

          The analysis of 98 dust samples for asbestos taken from the 
        inside and outside of residential buildings in Lower Manhattan 
        indicated that while 20 percent were above background levels, 
        only two samples which were taken from outdoors required 
        abatement. Professional abatement work was completed in this 
        area.

    Although the NYC DOH does not state what level they consider to be 
a ``safe'' level in the outdoor dusts that triggered professional 
abatement, it can be deduced. The NYC DEP issued a letter on October 25 
to residents of Lower Manhattan, stating that professional abatement 
was only necessary if indoor dusts contained 1 percent asbestos or 
higher. See attached.
    The 1 percent asbestos level is not considered to be a ``safe'' 
level by the EPA. It is not a risk-based number. It was developed to 
apply to the asbestos products themselves that were used in homes and 
other buildings, because it was found that these products always 
contained 1 percent or more asbestos. The dusts in a building that used 
these asbestos materials would always have lower levels of asbestos 
than the asbestos materials themselves. The EPA regulations require the 
removal or management in-place of the asbestos materials (at 1 percent 
asbestos or higher) and then the thorough abatement of all contaminated 
surfaces, whether containing 1 percent asbestos or not.
    EPA has determined that levels of asbestos lower than 1 percent 
could present hazards.\5\
---------------------------------------------------------------------------
    \5\ www.epa.gov/region8/superfund/libby/qsafe.html

          Levels of 1 percent or less could present a risk where there 
        is enough activity to stir up soil and cause asbestos fibers to 
---------------------------------------------------------------------------
        become airborne.

    In one independent study, it was found that soils containing only 
0.001 percent asbestos were still capable of producing measurable 
airborne asbestos concentrations greater than 0.01 fibers per 
milliliter (equivalent to structures per milliliter), which is an air 
concentration thousands of times higher than the EPA safe level of 
0.000004 f/mL.\6\
---------------------------------------------------------------------------
    \6\ Addison, J. (1995) Vermiculite: a review of the mineralogy and 
health effects of vermiculite exploitation. Reg. Tox. Pharm. 21: 397-
405.
---------------------------------------------------------------------------
                              conclusions
    The CDC's ATSDR should immediately provide the public with all the 
information and data that it has supplied to the NYC DOH, so that an 
honest evaluation can be made. Through its misrepresentations, NYC DOH 
is giving the public a false sense of security and the erroneous belief 
that exposures to asbestos and fiberglass are not hazardous, and also 
that there are no other hazardous substances present because the ATSDR 
did not test for them. Since the full study will not be released until 
spring, there are many months that may go by with additional needless 
exposures, particular during unsafe cleanups by citizens themselves.
    It is a violation of the Administrative Procedures Act and the 
Sunshine Act for a Federal entity such as the ATSDR to provide 
preferential treatment to the NYC DOH by the early release of 
preliminary data without simultaneously releasing the same data to the 
public. The fact that the NYC DOH requested the study does not entitle 
it to receive any results prior to the public.
    Oftentimes industry, public interest groups, or even individual 
citizens request studies by Federal agencies. When any data resulting 
from these studies is released, it is released to all parties 
simultaneously. The NYC DOH has no special standing in this regard.
                          list of attachments
    This version of the memorandum does not contain the attachments, 
because it has been difficult for some to open the file with the 
attachments. However, you can access the same documents from the 
websites listed with the attachments.
    You can also access this memo with all of the attachments at 
either: www.NYenviroLAW.org or http://cbns.qc.edu/
asbestos<SUP>5</SUP><INF>--</INF>references.pdf
    You can download Adobe Acrobat Reader Version 4.0 for free from a 
very dependable, easy, safe website at: http://www.adobe.com/products/
acrobat/readstep.html
    NYC Department of Health (February 8, 2002) NYC Department of 
Health presents findings from indoor air sampling in Lower Manhattan. 
Posted at:
http://www.nyc.gov/html/doh/html/public/press02/pr08-208.html or 
www.NYenviroLAW.org
    NYC Department of Environmental Protection. (Undated) Air, noise 
and hazardous materials. Web page posted at http://www.nyc.gov/html/
dep/html/airnonit.html
    U.S. EPA (August 2001) Integrated Risk Management Information 
System (IRIS) Summary for Asbestos, posted at httn://www.epa.gov/iris/
subst/0371.htm
    USEPA (2001) Appendix A to Subpart E--Interim Transmission Electron 
Microscopy Analytical Methods--Mandatory and Nonmandatory--and 
Mandatory Section to Determine Completion of Response Actions, 40 CFR--
CHAPTER I--PART 763. Posted at: www.epa.gov/epahome/cfr40.htm
    Miele, J.A., Commissioner, NYC Department of Environmental 
Protection (October 25, 2001) Letter to Residents of Lower Manhattan. 
Posted at www.NYenviroLAW.org
    Weis, C.P., Senior Toxicologist/Science Support Coordinator, U.S. 
EPA (December 20, 2001) Excerpts from: Amphibole mineral fibers in 
source materials in residential and commercial areas of Libby pose an 
imminent and substantial endangerment to public health. Posted at: 
http://www.epa.gov/region8/superfund/libby/riskassess.html
                               __________
    Statement of Jane Kenny, Regional Administrator, Environmental 
                           Protection Agency
    Good morning Mr. Chairman and members of the subcommittee. I am 
Jane M. Kenny, Region 2 Administrator with the U.S. Environmental 
Protection Agency (EPA). I welcome this opportunity to join my Federal, 
State and city colleagues to discuss the ongoing response to the tragic 
events of September 11th by EPA.
    Today is February 11, 2002. It has been 5 months since that 
terrible day. After months of incredibly intense work, we can now 
reflect on the impacts of the attacks and the extraordinary efforts 
made by so many individuals and government at all levels. EPA and our 
Federal, State and city partners have all played important roles in the 
protection of public health and the cleanup efforts. Today, we look 
toward the future and the ultimate recovery of Lower Manhattan.
    On the morning of September 11th, EPA responded immediately as 
events unfolded. Our emergency response teams were on the scene that 
day in Lower Manhattan, in Brooklyn, where the smoke plume was moving, 
and in New Jersey--assessing the possible public health and 
environmental impacts of the attacks. Let me assure you that EPA's 
highest priority then and throughout this response has been protecting 
the health of everyone in the New York metropolitan area.
    Since September 11th, EPA and other Federal, State and city 
agencies have taken over 10,000 samples of dust, air, drinking water, 
and storm water runoff at and around the World Trade Center site. We 
have also sampled in Brooklyn, Queens, the Bronx and Staten Island, at 
the Fresh Kills landfill and in New Jersey.
    In addition to the monitoring conducted by our Federal, State and 
city partners, we have tested for the presence of pollutants such as 
asbestos, fine particulate matter, lead and other metals, volatile 
organic compounds, dioxin, PCBs and other substances that could pose a 
threat to the public and workers at the site. These samples are taken 
from more than 20 fixed monitoring stations at and around Ground Zero 
and an existing New York State air quality-monitoring network that was 
augmented for the World Trade Center response. The agency also uses 
portable sampling equipment to collect data from a range of locations 
in Lower Manhattan. Fortunately, the vast majority of our tests 
continue to find levels of these contaminants below standards or 
guidelines set to protect public health. We have also found that 
environmental conditions on and off the site have improved considerably 
over time.
    While this news may be reassuring to the general public, it is 
important to emphasize--as we have from day one--that the risks are 
different for response workers at the World Trade Center site; they 
have been working long hours in dusty and what were very smoky 
conditions. That is why we have repeatedly said that response workers 
should wear respirators and other protective gear.
    We have found asbestos fibers in some of the outdoor air and dust 
samples taken at Ground Zero and in the surrounding area. To date, out 
of more than 5,500 outdoor air samples taken at and around the site, 
only 15 have had levels of asbestos that exceed the Asbestos Hazard 
Emergency Response Act or AHERA standard, we use to determine if 
children can re-enter a school building after asbestos has been removed 
or abated. Of the15 exceedances, all but four were recorded before 
September 30.
    Where we found elevated levels of asbestos in the dust or where 
dusty conditions were observed, EPA used large HEPA vacuum trucks to 
pick it up. We've cleaned sidewalks, the promenade at Battery Park 
City, local playgrounds and parks and even children's sand boxes. EPA 
has led the effort to monitor the outdoor environment with support from 
the New York State Department of Environmental Conservation (DEC), 
while the city of New York has taken the lead for the reoccupancy of 
buildings.
    We do know that some people returning to area homes and businesses 
have found dusty environments. EPA recommends that interiors be cleaned 
with the assumption that any dust may contain asbestos. The New York 
City Department of Environmental Protection (DEP) has issued 
instructions to building owners and managers directing them to use 
professional asbestos inspectors to assess the presence of asbestos-
containing materials and to use licensed abatement contractors to 
conduct any necessary cleanup work. EPA, the Department of Health and 
Human Services through the Agency for Toxic Substances and Disease 
Registry (ATSDR) and the New York City Department of Health (DOH) has 
recommended ongoing and frequent cleaning to minimize future risks from 
any dust that might remain. All cleanups should be done using wet wipe 
methods on surfaces and vacuums with HEPA--high efficiency particulate 
air-filters.
    Regarding some Federal buildings, EPA took a small number of indoor 
air samples in several buildings. The General Services Administration 
changed the filters on the air conditioning systems and, after noting 
significant amounts of dust tracked into Federal building lobbies by 
workers responding at the World Trade Center, asked EPA to have them 
cleaned. The lobby cleanup, announced in a September 18 press release, 
was done by EPA contractors using HEPA vacuum trucks already operating 
in the area. No other specialized cleanup was conducted on the upper 
floors at 290 Broadway or 26 Federal Plaza.
    Now I would like to detail some of our other findings and response 
efforts. EPA has been testing for numerous volatile organic compounds 
or VOCs such as benzene--at several sites within and near the perimeter 
of the World Trade Center site. To protect workers, EPA takes what are 
called ``grab'' samples of VOCs where smoke plumes have been sighted. 
These samples--taken at ground level on the pile--provide a snapshot at 
a moment in time of worst-case exposure. The samples--taken daily--are 
immediately analyzed at EPA's highly sophisticated mobile laboratory 
set up at the perimeter of the site. The proximity allows us to relay 
the results directly to the New York City Fire Department.
    EPA standards and guidelines are set with an ample margin of safety 
to protect public health. In some samples taken since September 11th, 
EPA testing at Ground Zero has found the presence of benzene at levels 
that have exceeded Federal guidelines. Taking the more protective 
approach, we continue to urge workers to wear their respirators.
    However, EPA air samples of pollutants such as benzene taken at the 
perimeter of the work site find levels that are very low or non-
detectable. Dioxin levels were generally below health-based guidelines. 
Once the fires were diminished, concentrations of several chemicals, 
declined in most cases to non-detectable levels, even at the work site.
    DEC routinely monitors for fine particulates--those smaller than 
2.5 microns--at their existing network of monitoring stations. DEC and 
EPA have added four additional monitoring stations in Lower Manhattan. 
With a few exceptions early on, fine particulates have been below the 
level of concern for the general public, as well as groups more 
sensitive to air pollutants.
    We know that materials in construction dust and smoke can be 
irritating to the eyes, nose, throat and respiratory tract. They can 
cause more serious reactions in sensitive populations, such as people 
with respiratory problems or asthma. Again, this is one of the reasons 
we have recommended that workers wear respirators and impacted homes 
and businesses be properly cleaned. Sensitive groups have been advised 
by New York City DOH and the Centers for Disease Control and Prevention 
(CDC) to take special precautions and consult their physicians if they 
are experiencing symptoms.
    In addition, we also tested drinking water in cooperation with New 
York City DEP and water quality in the Hudson and East Rivers. All 
samples of drinking water, which were analyzed for a wide range of 
contaminants, met Federal standards. Analysis of runoff following heavy 
rain on September 14 did show some elevated levels of dioxins, asbestos 
and other pollutants. Follow-up sampling found levels back to those 
normally found in area waters.
    Almost immediately after the attacks, Governor Pataki asked 
President Bush to declare a Federal disaster, activating the Federal 
Response Plan. The plan becomes effective when destruction from a 
disaster goes beyond local and State capabilities. Twenty-seven Federal 
agencies and the American Red Cross are activated to supplement State 
and city resources, with the Federal Emergency Management Agency (FEMA) 
in the lead. In the World Trade Center response, Federal agencies have 
provided funding, personnel, technical expertise, equipment and other 
resources at New York City's request. Acting on mission assignments 
generated by FEMA, EPA is the lead agency for hazardous waste disposal 
and has also taken primary responsibility for monitoring the ambient 
air, water and drinking water and coordinating the sampling data for 
all the response agencies. In addition, EPA was asked to manage worker 
and vehicle wash down operations at the site and the Fresh Kills 
landfill, which has been receiving debris from the disaster site.
    In support of the agencies directly responsible for worker safety, 
EPA initially supplied the New York City Office of Emergency Management 
(OEM) 12,432 respirators, 37,600 dust cartridges, 13,000 pairs of 
safety glasses and 1000 hard hats. In addition, 1465 respirators, 2608 
cartridges plus Tyvek suits, booties and hard hats were provided to the 
New York State Departments of Environmental Conservation and Health. 
The U.S. Coast Guard, at the request of FEMA, worked with EPA to assist 
with the response, and the New York State National Guard conveyed the 
equipment to the city for distribution to response workers.
    On September 11th, EPA provided a flyer to FEMA for distribution at 
Ground Zero that emphasized the potential danger from asbestos and 
urged workers to wear protective gear. By September 20, EPA had set up 
worker wash down operations at the site, at which flyers were 
distributed and signs posted recommending the use of respirators and 
other protective gear. During daily interagency site operations 
meetings, EPA repeatedly emphasized the need for response workers to 
wear their respirators. This message was continuously reiterated at 
community meetings and with the press.
    EPA has set up a full service, winterized wash station at which 
workers can vacuum off their work clothes, shower and change before 
going home. Signs directing workers to wear protective gear are posted. 
Several thousand workers pass through the wash station every day.
    EPA recognizes that the collapse of towers was a cataclysmic event 
unlike any we have experienced. The monitoring data collected in 
response to this event, warrants further study. With this in mind, in 
October, EPA began a health risk evaluation and a comparative 
toxicological study. These are in addition to studies being conducted 
by other agencies and academic institutions.
    Through our health risk evaluation, we hope to better understand 
the possible health risks to people who may have been exposed to 
various pollutants during several periods following the disaster. EPA 
is reviewing ambient air monitoring data gathered by EPA, OSHA, the New 
York State Department of Environmental Conservation and various 
academic and commercial entities.
    The Agency is assessing possible exposures during the first days 
after the attack, the following several weeks and the subsequent months 
through early January. This evaluation focuses on the different 
population groups of concern--response workers and volunteers at Ground 
Zero, residents and workers in the immediate surrounding areas.
    We expect to have a preliminary report completed this month, which 
we will share with your Subcommittee and the public. A more detailed 
evaluation, building on our initial findings, should be complete by 
early May, with the final report due in April 2003.
    Our second investigation is a comparative toxicity analysis. The 
objective is to compare the toxicity of the particles released from the 
World Trade Center collapse to other particulate samples of high and 
low toxicity that have been tested on animals. In this effort, we are 
comparing particles collected from Ground Zero to fly ash from oil-
fired power plants, dust recovered from the volcanic eruption of Mount 
St. Helens and urban ambient air particles.
    EPA is also collaborating with New York City and State officials, 
with two components of the Department of Health and Human Services 
through the National Institute of Environmental Health Sciences and the 
Centers for Disease Control and Prevention, and various academic 
institutions on research in progress and the identification of future 
research needs. These efforts will help us better understand the 
magnitude of any effects from the World Trade Center disaster.
    In addition, EPA has supported the Federal Agency for Toxic 
Substances and Disease Registry (ATSDR) and the New York City 
Department of Health in their study of residences impacted by the World 
Trade Center collapse. We are committed to helping residents and 
business employees in Lower Manhattan address their concerns about the 
indoor air. We will continue to work with the city agencies until 
people are assured that their health is protected.
    Before concluding, I would like to touch on one additional topic. 
From the start, EPA has been committed to sharing the results of our 
data with the public and to helping people understand what they mean. 
Under incredible circumstances --having witnessed the attacks and been 
evacuated from our Lower Manhattan offices--EPA staff began the process 
of sampling, analyzing, interpreting and conveying environmental data 
to the first-line response agencies, the press and the public. All of 
the agencies use our data to assess the risks to workers and the 
public, and to develop approaches to address any concerns.
    EPA has taken the lead in making the data available to the public 
through our website. Sampling results for the major pollutants of 
concern and daily summaries of our monitoring results are available at 
www.epa.gov. A complete set of laboratory results--updated daily--is 
available to the public at our offices at 290 Broadway in Lower 
Manhattan.
    Response workers and the people of New York have been through much 
trauma and uncertainty. We hope that our findings, comprising thousands 
of pages of text, will help them address concerns about their health 
and their environment. Be assured that we will be vigilant in our 
ongoing efforts.
    As we look to the future, we will work with our Federal, State and 
city partners and Congress, on science-based approaches that ensure 
that public health is protected.
    In closing, Mr. Chairman, I would like to thank you for giving us 
this opportunity to share the work of the many dedicated and 
professional EPA employees who have worked tirelessly to protect the 
health of all New Yorkers in the wake of this unprecedented event.
                                 ______
                                 
 Responses by Jane M. Kenny to Additional Questions from Senator Smith
    Question 1. Please provide the Committee with all available 
information regarding the location and use of monitors employed to 
analyze air quality in the wake of September 11, 2001 attack on New 
York City. Please identify monitors that were in operation prior to 
September 11, 2001, as well as any monitors put in place after that 
date. At a minimum your response should address:
    (a) the precise locations and type of each of those monitors;
    (b) when data samples were collected from each monitor;
    (c) whether any of those monitors have been removed, and if so 
when;
    (d) a description of the use of any non-stationary air monitors.
    (e) In addition, please supply the Committee with the data taken 
from each monitor for, at a minimum, the period from September 11th to 
November 11, 2001.
    Any additional information that may be useful or helpful in 
understanding the information requested above would be welcome.
    Response. Since September 11th, EPA has taken over 15,000 samples 
of dust, air, drinking water, and stormwater runoff at and around the 
World Trade Center site. We have also sampled in Brooklyn, Queens, the 
Bronx and Staten Island, at the Fresh Kills Landfill and in New Jersey. 
The following is a description of EPA's monitoring activities:
      fixed location routine air sampling and monitoring stations
    EPA has collected time-weighted air samples at fixed locations in 
Lower Manhattan and analyzed these samples for asbestos, metals, 
dioxin, polychlorinated biphenyls (PCBs), polyaromatic hydrocarbons 
(PAHs), silica, particulates (PM<INF>2.5</INF>, PM<INF>10</INF>) and 
aldehydes. EPA also collected and analyzed air quality samples for 
asbestos, metals and particulates from fixed locations on and at the 
perimeter of the Fresh Kills Landfill in Staten Island.
    In addition, EPA collected and analyzed air samples for asbestos, 
dioxin, volatile organic compounds (VOCs), aldehydes and particulates 
from monitoring locations that are part of the New York State 
Department of Environmental Conservation (NYSDEC) air sampling network, 
including permanent sites and locations added after September 11th.
    Air samples of asbestos were also collected and analyzed from 
monitoring locations in New Jersey that augmented the New Jersey 
Department of Environmental Protection's permanent air monitoring 
network.
    Attachment 1 (WTC--EPA Time-Weighted Air Quality Sampling at Fixed 
Stations) provides sample locations, parameters, sampling frequency, 
sampling start date, sampling end date and the reason why the sampling 
location was moved or eliminated, if applicable. Attachment 2 shows 
exact sampling locations.
    fixed location non-routine/episodic air sampling and monitoring 
                                stations
    EPA conducted non-routine/episodic monitoring for isocyanates, 
phosgene (a possible product of Freon combustion), other gases and VOCs 
at fixed locations. A summary of this monitoring follows:
    Isocyanates.--Isocyanate samples were collected on December 11 and 
19 at locations (See Attachment 2) R, A, 3B (Church and Vesey Streets), 
B, C, D, P, S, E, North Tower and Vista Hotel (World Trade Center 
Building 3), and on February 8 and 12 at locations R, E, P, S, D, C, B, 
3A (at the SW corner of Building 5, near Church and Dey Streets), A, 
Vista Hotel and North Tower. Isocyanate samples were analyzed by EPA 
contract laboratories, which provided a lower level of detection than 
that provided by the tape meter screening devices used for additional 
real-time monitoring. Real-time monitoring for isocyanates using the 
tape meters was performed on December 4, 6, 11 and 19 at locations R, 
A, 3B, B, C, D, P, S, E, North Tower, South Tower, Austin Tobin Plaza, 
Vista Hotel (West and Liberty Streets.) and World Trade Center Building 
4.
    Phosgene and other gases.--From September 19 to January 20, EPA 
monitored twice daily for phosgene, chlorine, sulfur dioxide, hydrogen 
cyanide, hydrofluoric acid, hydrochloric acid, ammonia, explosive 
gases, oxygen and total VOCs at all fixed monitoring locations in Lower 
Manhattan to determine the presence of gross amounts of airborne 
contaminants. The monitoring was discontinued based on consistently 
negligible or non-detectable readings throughout the affected area. 
This monitoring was performed using hand-held, non-stationary 
monitoring instruments and provided real-time snapshot results.
              data collection for risk evaluation studies
    EPA's Office of Research and Development (ORD) has done time-
weighted sample collection (24-hour samples each day) and analysis for 
particulates, metals and elemental and organic carbon, as well as 
continuous monitoring of PM concentrations at locations A and C 
(including alternate site C1) and K. ORD has also been collecting VOC 
grab samples at worker breathing levels at sites A, C and K and from 
outside the 16th floor at 290 Broadway (site 16). Typically, samples 
were collected each day at sites A, C and K and periodically at 290 
Broadway (See Attachments 1 and 2).
             non-fixed location air sampling and monitoring
    In addition to fixed location monitoring, EPA continues to sample 
and monitor air quality at non-fixed locations. VOC grab samples are 
taken daily at various locations at Ground Zero, generally in the 
vicinity of the North Tower, South Tower and Austin Tobin Plaza. EPA 
originally analyzed these samples using the national Emergency Response 
Team Trace Atmospheric Gas Analyzer (TAGA) and now analyzes the samples 
at our Mobile Laboratory, stationed at the perimeter of the site. This 
allows us to provide results within four hours of sampling. The data is 
used to alert the Fire Department of New York (FDNY) and Ground Zero 
workers about conditions that pose immediate health concerns. A total 
of four VOC grab samples are collected daily at ground level or 
breathing level.
    Air monitoring is also performed during activities conducted by EPA 
to remove hazardous materials and to recover oil from storage tanks 
throughout the Ground Zero excavation, particularly when those events 
take place within confined spaces. This monitoring is performed to 
ensure that air quality in the vicinity of the response workers is 
within permissible levels, and to determine the proper level of 
personal protective equipment that must be worn during these 
operations. Oxygen, hydrogen sulfide, carbon monoxide, explosive gases 
and total VOCs have been routinely measured.
    EPA has also conducted air monitoring at the special request of the 
FDNY. On several occasions air monitoring was performed during below-
grade entries in or near the main and auxiliary World Trade Center 
chiller plants. The standard five-gas monitor, mentioned above, was 
used along with a halocarbon monitor purchased specifically to detect 
Freon R-22 (chlordifluoromethane). This monitoring was performed as 
needed and three times daily during the excavation of the main chiller 
plant. The daily R-22 monitoring using the halocarbon meter was 
discontinued when a permanent R-22 monitoring system was installed by 
the New York City Department of Design and Construction. Freon R-22 
monitoring was discontinued after the recent removal of the chiller 
plant.
    We have provided a record of our sampling results to date (See 
Attachment 3).

    Question 2. Please provide a precise description of the type of 
safety equipment that was distributed to personnel in the Ground Zero 
area and the date that equipment was made available, including, but not 
limited to:
    <bullet> respiration masks made available to the workers;
    <bullet> when decontamination showers and procedures were 
implemented; and
    <bullet> what contractors were employed to distribute masks and 
operate and oversee the decontamination showers and procedures.
    Response. On September 11th and in the immediate aftermath of the 
attacks, EPA relied on the stock of personal protective gear 
(respirators, cartridges, tyvek suits and other equipment) that the EPA 
national Environmental Response Team had on-hand in our Edison, New 
Jersey offices. The equipment was used by EPA response personnel, the 
Agency's Criminal Investigations Division and local New Jersey county 
responders. By September 14, EPA had placed an emergency order for 
additional protective gear for distribution to response workers. By 
September 22, EPA had distributed thousands of respirators, cartridges 
and other gear to New York City. EPA supplied the following personal 
protective equipment to the city: 22,100 air purifying respirators, 
30,500 sets of P100 particulate cartridges, 14,000 pairs of safety 
glasses and 1,000 hard hats. In addition, 600 respirators, 2,000 
cartridges plus tyvek suits, booties and hard hats were supplied to the 
New York State Departments of Environmental Conservation and Health. 
Mine Safety Appliances Company (MSA) and 3M brand respirators with GME-
P100 OSHA-approved cartridges were supplied.
    Initially, respirators and other protective gear purchased by EPA 
were delivered to the New York City Office of Emergency Management by 
the U.S. Coast Guard, which had been activated by EPA for the response. 
Some equipment was delivered directly to the city by the manufacturers. 
The bulk of the EPA-purchased personal protective equipment was 
transported from the EPA Edison facility and delivered to the Office of 
Emergency Management by the New York State National Guard for 
distribution to response workers.
    On September 20, EPA began operating the first personal wash 
station for workers at Ground Zero at the southeast corner of the 
marina. Shortly thereafter, EPA posted signs at the wash station and 
provided flyers (Attachment 4) that instructed response workers about 
personal safety and health protection. On September 22, EPA began 
operating the first vehicle wash station on West Street near Murray 
Street. Over the past seven months, as many as 18 wash stations have 
been operating at the site. These wash stations have been operated by 
Clean Harbors Inc. and Miller Environmental Inc. under contract to the 
U.S. Coast Guard. The Coast Guard continues to provide valuable 
assistance to EPA and the workers at Ground Zero through contractor 
procurement and oversight services.
    On November 24, EPA opened the central wash station at West Street 
near Vesey Street. It was constructed, is operating, and will 
eventually be dismantled under EPA's contract with Earth Tech Inc. The 
wash tent has provided a place at which workers can decontaminate and 
change their work clothes, shower, store their belongings, wash up and 
eat. The showers have received minimal use and are being partially 
dismantled.

    Question 3. Please provide copies of all pamphlets, flyers or other 
handouts explaining air quality risks provided to the workers and the 
dates each item became available.
    Response. On September 11th, EPA developed a flyer (Attachment 5) 
entitled Asbestos Hazards and Precautions, which was provided to the 
Federal Emergency Management Agency (FEMA) for distribution at Ground 
Zero. The flyer stated that ``Cleanup workers should be protected with 
appropriate eye protection, air purifying respirators and personal 
protective clothing.'' As stated above, just after September 20, EPA 
also distributed information about the need to wear respirators and 
other protective gear at our worker wash at the site. In addition, 
during daily interagency meetings at the city's Emergency Operations 
Center, EPA repeatedly emphasized the hazardous conditions at the site 
and the need for response workers to wear their respirators.
    EPA used every opportunity during communications with the public 
and the press to urge response workers at Ground Zero to wear 
respirators. On September 13, Administrator Whitman appeared before the 
media at Ground Zero to emphasize the need for workers to wear their 
respirators. EPA's role in providing respirators was covered in our 
press releases (Attachments 6, 7, 8, 9 and 10) of September 13, 14, 18, 
21 and 30. On numerous occasions EPA response staff discussed with FDNY 
personnel the need for proper respiratory protection when working at 
Ground Zero. On October 5, EPA sent a letter to the New York City 
Department of Health (NYCDOH) highlighting our concerns about workers 
not wearing respirators (Attachment 11). In addition to our press 
releases, numerous news accounts included comments by EPA officials on 
the importance of respiratory protection at Ground Zero.
                                 ______
                                 
Responses by Jane M. Kenny to Additional Questions from Senator Clinton
    Question 1. You stated in your testimony that EPA is responsible 
for ``coordinating the sampling data for all the response agencies.'' 
Can you please tell us more about this? Is this coordinated data 
available to the public?
    Response. In the aftermath of the World Trade Center disaster, many 
organizations and agencies involved in the response conducted sampling 
and monitoring activities to assess environmental impacts. NYCDOH 
initially requested that the data be forwarded to them so that it could 
be aggregated and made available to Federal, State and local decision-
makers. Initial sampling results were discussed among the agencies 
during daily telephone conference calls and were shared in hard copy 
and electronically when possible.
    On September 25, 2001, the city asked EPA to develop a database to 
collect and track the results of the multi-agency ambient air 
monitoring. On September 28, EPA finalized the World Trade Center 
Multi-Agency Database that houses data from thirteen Federal, State and 
private organizations that conducted environmental monitoring after the 
September 11th event. The participating organizations send their data 
to EPA in many formats from electronic spreadsheets to hard copy to be 
manually entered into the database. Some of the organizations conducted 
limited testing and stopped submitting results after the first week. 
EPA, NYSDEC and New York City Department of Environmental Protection 
(NYCDEP) continue to monitor and submit results daily to the database. 
EPA and NYSDEC have provided roughly 95 percent of the data in the 
database.
    The World Trade Center Multi-Agency Database has been used 
primarily as a tool for the response agencies. Data from some of the 
organizations was not quality assured for accuracy in the early months 
and could not be publicly released. EPA began to make our monitoring 
results and data from NYSDEC available to the public on EPA's website 
in late September. All of EPA's monitoring data, with the exception of 
the complex analytical data ORD has collected for research, was made 
available in our Lower Manhattan offices at 290 Broadway (See 
attachment 12). Other government organizations including the 
Occupational Safety and Health Administration (OSHA), NYSDEC and NYCDEP 
have posted their monitoring results on their respective websites.
    EPA has been assured by participating government agencies that data 
contained in the World Trade Center Multi-Agency database has now been 
quality assured and will continue to be as additional data is 
submitted. The database, which will include data provided by government 
agencies, will be made available to the public on EPA's website this 
spring.
    Question 2. How exactly does EPA relay its information to the 
firefighters, to the schools?
    Response. Within hours of the attacks, EPA began to coordinate its 
response activities through FEMA. Initially, information was shared 
with the FDNY and other responding agencies at the city's Emergency 
Operations Center and the response center at P.S. 89. Currently, EPA 
hand-delivers our VOC data to the FDNY on a daily basis and discusses 
the results with the Deputy Chief in charge of health and safety. We 
also meet regularly with FDNY representatives to discuss sampling 
results and future needs. In addition, the VOC data is also delivered 
daily to New York City health and safety contractors at the AMEC 
trailer at Ground Zero. AMEC has been assigned responsibility for 
overall site health and safety at Ground Zero. As explained earlier, 
the proximity of our Mobile Laboratory to the World Trade Center site 
makes it possible for us to quickly relay information to the response 
agencies.
    EPA participates in general contractor meetings twice each week and 
attends weekly health and safety meetings with representatives of all 
the on-site contractors. EPA also attends a weekly health and safety 
meeting that addresses site safety issues related to governmental 
personnel working at Ground Zero World Trade Center.
    EPA has had regular communications with the New York City Board of 
Education (NYCBOE) regarding environmental conditions in Lower 
Manhattan. The NYCBOE uses our maps and data summaries at meetings with 
parent organizations, school representatives and local groups. Printed 
copies of EPA data summaries have been important communications tools 
for local residents who do not have access to the Internet. EPA has 
reported any results that exceeded Federal standards or benchmarks 
which have been few to the NYCBOE. We have also informed the Chair of 
the local community board and the president of the Stuyvesant High 
School Parents Association about several results that exceeded 
standards or benchmarks near the barge operation adjacent to the 
school. In addition, we have provided information to the environmental 
consultant for Stuyvesant High School, appeared at a Stuyvesant Parents 
Association meeting on air quality and fielded numerous calls from 
concerned parents seeking information.

    Question 3. You indicated in your testimony that EPA did conduct 
some indoor sampling in some of the Federal buildings in Lower 
Manhattan. Please provide the results of that sampling.
    Response. EPA took a small number of indoor air samples (Attachment 
13) at 290 Broadway and 26 Federal Plaza on September 13 and at 100 
Church Street on October 23. At 290 Broadway and 26 Federal Plaza, low 
levels of asbestos were detected in several of the samples. At 100 
Church Street no samples were found to be above the minimum detection 
limit. The General Services Administration (GSA), our Federal landlord, 
also took dust and air samples in our building and at the Federal Court 
House at 500 Pearl Street. Asbestos was found in some of the dust 
samples and low levels of asbestos were detected in some of the air 
samples. EPA vacuumed up the visible dust that had been tracked into 
Federal building lobbies by response workers before we received the 
monitoring results from GSA.
    As detailed above, EPA's Office of Research and Development sampled 
periodically outside at 290 Broadway to gather data for a health risk 
evaluation. (See Attachment 1.)

    Question 4. In your testimony, you indicated that only 15 asbestos 
samples exceeded the AHERA standard. Yet your website says that there 
were 31 exceedances, as does Carl Johnson in his testimony. Can you 
explain?
    Response. EPA used our agency website to get information to the 
public as quickly as possible. By late September, we were posting 
asbestos results to the website almost as soon as the data was received 
from the lab and reviewed. Later, after consulting with experts in 
asbestos analysis techniques, we found we had been making an 
additional, unnecessary technical adjustment for the volume of air 
sampled, which affected the results. We ultimately stopped making this 
adjustment. For consistency of scientific comparisons, we then 
reevaluated the data we had previously posted on the EPA website and 
corrected the asbestos values where necessary.
    This lowered the number of asbestos exceedances. Given the 
extremely low percentage of asbestos exceedances now 21 out of almost 
8,000 in Lower Manhattan the significance of the adjustments is minor.

    Question 5. Please provide information on the rate of sampling and 
reporting of data since September 11th. The frequency of sampling 
varies between sampling parameters and locations.
    Response. As described in our response to Question 1 from Senator 
Smith above, we conducted a wide range of sampling at a variety of 
rates ranging from continuous daily sampling to less frequent episodic 
sampling. (See Attachment 1.)
    In the aftermath of the disaster, information about our monitoring 
results and response activities was shared daily with the other 
Federal, State and local response agencies, summarized for the press 
and reported to thousands of local residents at public meetings and 
through our telephone hot-line. As soon as we were assured that the 
data was accurate, all daily summaries and laboratory reports, with the 
exception of the complex ORD data collected for research, were made 
available in our Lower Manhattan offices. Data related to the major 
pollutants of concern was posted on our website beginning in late 
September.

    Question 6. As you know, EPA has been widely criticized for the 
statements that it made in the first few days following the attack. 
Please respond to this criticism, and explain what the Agency intends 
to do to improve its communications efforts in the future.
    Response. At each stage of our response to the events of September 
11th, we have based our findings on the scientific data before us. The 
statements made by EPA about the results of air quality monitoring in 
Lower Manhattan have been based on sound science. To date, the results 
of our comprehensive tests of the outdoor air consistently indicate 
that air quality in Lower Manhattan did not and does not pose an 
increase to significant long-term health risk to those who live, work 
or visit here.
    Of course, as we emphasized from the start, this does not apply to 
workers at Ground Zero who must wear respirators and other appropriate 
protective equipment, even now that the fires are out. We were aware 
that the dusty and smoky conditions during the months following the 
disaster could and did cause a range of respiratory problems, 
especially among sensitive groups such as people with asthma. Our 
advice to anyone experiencing symptoms was that they should consult a 
physician as soon as possible. We also emphasized that people returning 
to dusty homes and workplaces should have their interior spaces 
professionally cleaned.
    We note that Dr. George Thurston of the New York University School 
of Medicine testified at the February 11 Senate Committee hearing that 
``While our analyses are consistent with the Government's conclusion 
that the WTC dust is not likely to have short- or long-term serious 
health impacts on otherwise healthy local residents, we found that it 
is very irritating and capable of causing the symptoms reported by many 
residents.''
    EPA is collaborating with our Federal, State and city partners to 
address ongoing concerns about indoor air quality through a multi-
agency task force. The group has already made considerable progress. 
With EPA's guidance, NYCDEP will soon begin to remove residual debris 
from roofs and building facades, EPA will conduct a pilot study of 
indoor cleaning techniques, and all of the agencies will continue to 
assess the cleaning that has been conducted and develop testing 
criteria.
    In the event of a future disaster, EPA will be better prepared to 
quickly communicate monitoring results to the public. We have developed 
a database for collecting and tracking environmental monitoring results 
and have identified standards and benchmarks to help us evaluate our 
findings. We have revised agency operations at a national level to 
identify opportunities for improving responses especially under 
terrorist attacks. Additionally we will complete a regional after-
action review to identify opportunities for improvement.

    Question 7. Eric Goldstein of Natural Resources Defense Council 
recommended that it should be examined whether there should be shorter 
term standards for exposure to high intensity bursts of particulate 
matter (i.e. shorter than a 24-hour measuring standard), and whether 
standards should be established for exposure to fiberglass, dioxin and 
other pollutants that are not currently part of the formal standard 
setting process. Please comment.
    Response. As part of its responsibilities under the Clean Air Act, 
EPA periodically (every five years) conducts a review of scientific 
advances for criteria pollutants. EPA is currently in the middle of a 
comprehensive, periodic review of the most recent scientific 
information on health effects associated with exposure to ambient 
particles. This review includes a full evaluation of available 
information on health effects associated with exposures over a wide 
range of averaging times, including annual, 24-hour periods and shorter 
periods such as hourly. When completed, this scientific review will 
form the basis for EPA's decision on whether revisions to the PM 
standards, such as the agency's actions in establishing a new standard 
for PM<INF>2.5</INF>. EPA will take advice from the Agency's scientific 
advisory committee and public comments into account in making any 
decisions.
    With respect to other pollutants such as dioxin and fiberglass, EPA 
currently has a formal, two-stage standard-setting process that 
addresses such pollutants. Under Section 112 of the Clean Air Act, EPA 
establishes technology-based emissions standards for specific sources 
of the 188 listed hazardous air pollutants (including dioxin and 
fiberglass, as a fine mineral fiber).
    Ultimately, EPA will evaluate the residual risks that would remain 
after such emission standards are met and sets risk-based standards, as 
appropriate, to protect public health.
    In addition, EPA has been developing Acute Exposure Guidelines for 
dozens of chemicals that will establish three levels of concern from 
reversible to irreversible anticipated effects for exposure durations 
of 30 minutes, 60 minutes, 4 hours and 8 hours. The guidelines will be 
published following peer review by the National Academy of Sciences. 
These guidelines are being established on a ``worst first'' basis, 
addressing the chemicals widely understood to be most toxic in short, 
intense exposures. Dioxin and fiberglass have less acute toxicity than 
the chemicals for which guidelines are now being established.

    Question 8. There have been reports that some trucks transporting 
debris from the site are uncovered and not fully wetted down. Who is 
responsible for monitoring this operation? What further actions can be 
taken to ensure that this operation is conducted in a manner that is as 
clean as possible?
    Response. All trucks leaving the World Trade Center site are 
required by the city to be covered. Typically, the trucks go through a 
cutting station, where any overhanging metal is burned off. The drivers 
then either apply their own covers or the trucks are covered with 
rolled material, which is applied on the cutting stands. In the fall, 
the trucks were routinely wet down. Wetting operations were curtailed 
during short periods during the winter, when sub-freezing temperatures 
made the procedure too hazardous; wetting is not done when the debris 
is already sufficiently wet because of site conditions.
    Various agencies have responsibility for vehicles leaving the site, 
including:
    <bullet> EPA, which operates vehicle wash down stations at World 
Trade Center exit points to prevent vehicles from tracking contaminants 
off the site;
    <bullet> the New York City Department of Design and Construction, 
which is responsible for overall site operations, including traffic 
routing;
    <bullet> NYCDOH, which also monitors trucks to ensure that they 
have been washed down as required under an order from the NYCDOH 
commissioner. It is our understanding that NYCDOH issued violations and 
fines for trucks that they determined were not adequately washed down 
or covered.
    <bullet> NYSDEC, which enforced traffic control at Ground Zero last 
fall and monitored trucks to ensure that loaded vehicles were covered. 
NYSDEC informed EPA that the agency issued citations for trucks that 
were not properly covered, in violation of State regulations.

    Question 9. Why are the debris barges not being required to be 
covered in some fashion?
    Response. It is our understanding that the city has not covered the 
barges because the sharp-edged exposed metal in the World Trade Center 
debris would destroy any covering material. Instead, the debris-laden 
barges are wet down to suppress the dust. EPA raised this issue with 
New York City officials and was informed that the mesh-like material 
used to cover the barges when they carted municipal waste to the Fresh 
Kills Landfill would not be practical under these conditions.

    Question 10. What actions will be taken during the rebuilding 
process to reduce as much as possible the noise, dust, diesel exhaust 
and other forms of pollution at the site?
    Response.
    New York State and New York City have primary responsibility for 
the redevelopment of Lower Manhattan. EPA is working with the city, 
State and other Federal agencies on ways to mitigate emissions from 
diesel engines associated with the recovery and rebuilding of the World 
Trade Center area. The Agency is encouraging the State and city to 
promote and require the use of ultra low sulfur diesel fuel (ULSD) and 
retrofit devices for diesel powered equipment and vehicles. The use of 
diesel particulate filters has the potential to reduce emissions of 
particulates up to 95 percent and the use of ULSD can lower sulfur 
oxides up to 99 percent. On March 22, EPA Regional Administrator Jane 
Kenny recommended to FEMA that increased costs associated with using 
ULSD and installing retrofit devices be reimbursable.
    In addition, EPA is serving on the Federal Task Force to Rebuild 
New York City. We have and will continue to encourage our Federal 
partners to apply ``green'' standards in Federal contracts and grants 
for World Trade Center redevelopment, to fund clean ferries, and to 
advocate the use of lower polluting construction equipment, cleaner 
burning alternative fuels and green construction practices.
    An Environmental Review and Planning Subcommittee of the Federal 
Task Force has been established. FEMA has prepared a preliminary draft 
programmatic environmental assessment addressing, in a generic way, 
potential impacts associated with future projects. As specific projects 
are proposed, more detailed environmental documents will be developed 
to address the potential impacts and any necessary mitigation.

    Question 11. There are reportedly many building roofs and terraces 
in and around Ground Zero that have not been cleaned since September 
11th. Will EPA be providing assistance in this regard?
    Response. Many building exteriors were cleaned by building owners 
as instructed by NYCDEP. In January and February, EPA, NYCDEP, NYSDEC 
and the New York State Department of Labor performed site visits at 
more than 400 buildings to assess exterior building cleanups conducted 
by building owners in the vicinity of the World Trade Center. Residual 
debris was observed in isolated areas at the perimeter of roofs, at the 
base of parapet walls and in gutters of 211 of these buildings. Debris 
was also visible on horizontal surfaces of building facades.
    As announced in a March 25 press release (Attachment 14), NYCDEP 
will remove residual debris from rooftops and facades with EPA's 
support. OSHA will work in a coordinated effort with the city and EPA 
to ensure the safety and health of the workers performing this 
cleaning. The work is expected to begin as soon as the city completes 
its contracting process. This action is the result of collaboration 
between New York City and the Federal Government through EPA's Task 
Force on Indoor Air in Lower Manhattan.

    Question 12. Are some of the air quality data gathered in the first 
two weeks after September 11th still being withheld, and if so why?
    Response. EPA has made every effort to provide data to elected 
officials, the media or the public as soon as possible. Under 
circumstances of extreme difficulty, having been evacuated from our 
Manhattan offices, EPA staff developed a system for sampling, 
analyzing, interpreting and conveying environmental monitoring results 
to the first-line responders, the press and the public. A website was 
developed to present the complex scientific data to the public in a 
format that was easy to navigate and understand. Copies of laboratory 
reports and data summaries were provided to requesting members of the 
public as soon as the information was validated through an expedited 
quality assurance process. As stated above, the Agency began to post 
data on our website in late September. By October 16, EPA's data, with 
the exception of research data collected by ORD, was made available for 
review in our Lower Manhattan offices. The data repository is kept up-
to-date and new data is regularly posted on our website.

    Question 13. Do you have adequate resources to meet response needs? 
Has access to resources been an obstacle to fulfilling your 
responsibilities in this regard?
    Response. Acting on mission assignments from FEMA under the Federal 
Response Plan, EPA is the lead agency for hazardous substances. EPA has 
been given primary responsibility for monitoring the ambient air, water 
and drinking water and coordinating the sampling data for all of the 
response agencies. In addition, EPA was asked to manage worker and 
vehicle wash down operations at the site and at the Fresh Kills 
Landfill, which has been receiving debris from the disaster site. A 
mission assignment from FEMA confirms that FEMA will provide funding 
for the performance of the assigned activities.
    The $94 million committed to EPA by FEMA has been sufficient to 
provide for the activities described above. New mission assignments, 
including those to address the assessment and remediation of indoor 
spaces, will also require FEMA funding.

    Question 14. Please provide information on activities planned for 
protecting public health and the environment at and around Fresh Kills 
after current disaster-related activity ends.
    Response. In September, EPA established a network of fixed air 
monitors at the Fresh Kills Landfill and on the perimeter of the site 
to protect workers who handle World Trade Center debris at the landfill 
and people living in nearby neighborhoods. EPA monitors for asbestos, 
particulate matter/dust and metals at these fixed monitoring stations. 
(See Attachment 1.)
    New York State operates a federally approved air monitoring network 
that includes ambient monitoring stations on Staten Island. These 
monitors, which are adjacent to the Fresh Kills Landfill and in the 
surrounding neighborhood, measure particulate matter and hazardous air 
pollutants. Monitoring results are available to the public, in some 
cases in real-time, on the state's Web page. EPA and the State will 
continue to review this data to ensure that citizens are not exposed to 
unhealthful levels of pollutants related to disaster response 
activities or normal operations at the landfill. In addition, EPA will 
continue to provide the State with fiscal support under Section 105 of 
the Clean Air Act and technical support for future monitoring.
    New York State is authorized to manage the Fresh Kills Landfill and 
we expect that the State will address post-disaster operations at the 
landfill.




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
